<html>
<title> - DISASTER PREPAREDNESS: DRRA IMPLEMENTATION AND FEMA READINESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
     DISASTER PREPAREDNESS: DRRA IMPLEMENTATION AND FEMA READINESS

=======================================================================

                                (116-18)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
             
             
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-590 PDF            WASHINGTON : 2020           
 
                             
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair
ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland             Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
    Georgia                          JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
    Chair                            BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                       DINA TITUS, Nevada, Chair
DEBBIE MUCARSEL-POWELL, Florida      MARK MEADOWS, North Carolina
SHARICE DAVIDS, Kansas               GARY J. PALMER, Alabama
ELEANOR HOLMES NORTON,               JENNIFFER GONZALEZ-COLON,
  District of Columbia                 Puerto Rico
HENRY C. ``HANK'' JOHNSON, Jr.,      CAROL D. MILLER, West Virginia
    Georgia                          GREG PENCE, Indiana
JOHN GARAMENDI, California           SAM GRAVES, Missouri (Ex Officio)
ANTHONY G. BROWN, Maryland
LIZZIE FLETCHER, Texas, Vice Chair
PETER A. DeFAZIO, Oregon (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Dina Titus, a Representative in Congress from the State of 
  Nevada, and Chairwoman, Subcommittee on Economic Development, 
  Public Buildings, and Emergency Management:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Mark Meadows, a Representative in Congress from the State of 
  North Carolina, and Ranking Member, Subcommittee on Economic 
  Development, Public Buildings, and Emergency Management:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     6
    Prepared statement...........................................     7
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     8
    Prepared statement...........................................     9

                               WITNESSES
                                Panel 1

Hon. Daniel Kaniewski, Ph.D., Deputy Administrator for 
  Resilience, Federal Emergency Management Agency:

    Oral statement...............................................    10
    Prepared statement...........................................    12

                                Panel 2

Sima Merick, Executive Director, Ohio Emergency Management 
  Agency, on behalf of the National Emergency Management 
  Association:

    Oral statement...............................................    39
    Prepared statement...........................................    41
Nick Crossley, C.E.M., C.P.M., Director, Emergency Management and 
  Homeland Security Agency, Hamilton County, Ohio, on behalf of 
  the U.S. Council of the International Association of Emergency 
  Managers:

    Oral statement...............................................    45
    Prepared statement...........................................    47
Hon. James Gore, Supervisor, Sonoma County, California, on behalf 
  of the National Association of Counties:

    Oral statement...............................................    49
    Prepared statement...........................................    50
Alphonse Davis, Deputy Director, Texas A&M Engineering Extension 
  Service, on behalf of the National Domestic Preparedness 
  Consortium:

    Oral statement...............................................    55
    Prepared statement...........................................    56
Pamela S. Williams, Executive Director, BuildStrong Coalition:

    Oral statement...............................................    59
    Prepared statement...........................................    60
Randy Noel, M.I.R.M., C.G.B., C.M.P., President, Reve Inc., on 
  behalf of the National Association of Home Builders:

    Oral statement...............................................    64
    Prepared statement...........................................    65

                       SUBMISSIONS FOR THE RECORD

Op-ed, ``Natural Disasters Could Be Far Less Damaging With Better 
  Building Codes,'' by William Bryant, R. David Paulison, and 
  James Lee Witt, The Hill, May 2, 2019, Submitted for the Record 
  by Hon. Titus..................................................    85

                                APPENDIX

Questions from Hon. Dina Titus to Hon. Daniel Kaniewski, Ph.D., 
  Deputy Administrator for Resilience, Federal Emergency 
  Management Agency..............................................    87
Questions from Hon. Mark Meadows to Hon. Daniel Kaniewski, Ph.D., 
  Deputy Administrator for Resilience, Federal Emergency 
  Management Agency..............................................   105
Questions from Hon. Stacey E. Plaskett to Hon. Daniel Kaniewski, 
  Ph.D., Deputy Administrator for Resilience, Federal Emergency 
  Management Agency..............................................   106
Questions from Hon. Jenniffer Gonzalez-Colon to Hon. Daniel 
  Kaniewski, Ph.D., Deputy Administrator for Resilience, Federal 
  Emergency Management Agency....................................   108
Questions from Hon. Garret Graves of Louisiana to Hon. Daniel 
  Kaniewski, Ph.D., Deputy Administrator for Resilience, Federal 
  Emergency Management Agency....................................   112
Questions from Hon. Dina Titus to Sima Merick, Executive 
  Director, Ohio Emergency Management Agency, on behalf of the 
  National Emergency Management Association......................   114
Questions from Hon. Dina Titus to Nick Crossley, C.E.M., C.P.M., 
  Director, Emergency Management and Homeland Security Agency, 
  Hamilton County, Ohio, on behalf of the U.S. Council of the 
  International Association of Emergency Managers................   118
Questions from Hon. Dina Titus to Hon. James Gore, Supervisor, 
  Sonoma County, California, on behalf of the National 
  Association of Counties........................................   123
Questions from Hon. Dina Titus to Alphonse Davis, Deputy 
  Director, Texas A&M Engineering Extension Service, on behalf of 
  the National Domestic Preparedness Consortium..................   127
Questions from Hon. Dina Titus to Pamela S. Williams, Executive 
  Director, BuildStrong Coalition................................   129
Questions from Hon. Dina Titus to Randy Noel, M.I.R.M., C.G.B., 
  C.M.P., President, Reve Inc., on behalf of the National 
  Association of Home Builders...................................   130
Questions from Hon. Mark Meadows to Randy Noel, M.I.R.M., C.G.B., 
  C.M.P., President, Reve Inc., on behalf of the National 
  Association of Home Builders...................................   131
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              May 17, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Economic Development, 
Public Buildings, and Emergency Management
    FROM:   Staff, Subcommittee on Economic Development, Public 
Buildings, and Emergency Management
    RE:       Subcommittee Hearing on ``Disaster Preparedness: 
DRRA Implementation and FEMA Readiness''

                                PURPOSE

    The Subcommittee on Economic Development, Public Buildings, 
and Emergency Management will meet on Wednesday, May 22, 2019, 
at 2:00 p.m. in 2167 Rayburn House Office Building, to receive 
testimony on ``Disaster Preparedness: DRRA Implementation and 
FEMA Readiness.'' At the hearing, Members will receive 
testimony about the Federal Emergency Management Agency's 
ongoing implementation of the Disaster Recovery Reform Act 
(DRRA, P.L. 115-254) and emergency management workforce 
readiness ahead of the 2019 hurricane and wildfire seasons. The 
Subcommittee will hear from the Federal Emergency Management 
Agency (FEMA) and representatives of many organizations with 
equities in the crafting and implementation of DRRA as well as 
emergency management workforce readiness: the National 
Emergency Management Association (NEMA), the International 
Association of Emergency Managers (IAEM), the National Domestic 
Preparedness Consortium (NDPC), the National Association of 
Counties (NACo), the Build Strong Coalition (BSC), and the 
National Association of Home Builders (NAHB).

                               BACKGROUND

THE DISASTER RECOVERY REFORM ACT (DRRA, DIVISION D OF P.L. 115-254)

    The Disaster Recovery Reform Act of 2018 (DRRA, Division D 
of P.L. 115-254), which became law on October 5, 2018, is the 
most comprehensive legislation on the Federal Emergency 
Management Agency's (FEMA's) disaster assistance programs since 
the passage of the Sandy Recovery Improvement Act of 2013 
(SRIA, Division B of P.L. 113-2) and, previous to that, the 
Post-Katrina Emergency Management Reform Act of 2006 (PKEMRA, 
P.L. 109-295).\1\ This Subcommittee has conducted significant 
oversight of FEMA for several years, following an increase in 
the volume of Presidentially-declared disasters and 
emergencies, the severity of losses from disasters, and 
increasing federal spending to recover from costly events.
---------------------------------------------------------------------------
    \1\ Congressional Research Service ``The Disaster Recovery Reform 
Act: Homeland Security Issues in the 116th Congress (IN11055).'' 
Available at https://www.crs.gov/reports/IN11055.
---------------------------------------------------------------------------
    DRRA focuses on improving predisaster planning and 
mitigation, response, and recovery, and increasing FEMA 
accountability. It amends several sections of the Robert T. 
Stafford Disaster Relief and Emergency Assistance Act (Stafford 
Act, 42 U.S.C. Sec. Sec. 5121 et seq.). Generally, DRRA's 
amendments to the Stafford Act apply to major disasters and 
emergencies declared on or after August 1, 2017. Other new 
authorities apply to major disasters and emergencies declared 
on or after January 1, 2016.\2\
---------------------------------------------------------------------------
    \2\ Id.
---------------------------------------------------------------------------
    Following significant disaster events, Congress has 
routinely addressed the challenges of federal disaster response 
and recovery with supplemental appropriations but also 
authorization packages crafted to address challenges during 
federal response and recovery operations encountered by 
disaster survivors, impacted communities, and emergency 
management professionals. The events of the 2017-2018 hurricane 
and wildfire seasons served as the impetus for enactment of 
DRRA.
    DRRA was initially crafted to address the rising costs of 
disasters in the United States and was intended to reform 
federal disaster programs to ensure communities are better 
prepared for future hurricanes, flooding, earthquakes, 
wildfires, and other disasters. It incentivizes states to 
invest in stronger mitigation measures and resilient 
rebuilding--which will reduce the future loss of life and the 
rising costs of disasters--to ensure that communities are well-
equipped to better prepare for and withstand disasters of all 
kinds.
    The National Institute for Building Sciences (NIBS) has 
found significant cost savings in mitigation projects and the 
adoption of consensus-based building codes and standards. In 
examining code aspects related to riverine flood, wind, and 
earthquake, the NIBS concluded:

    <bullet>  There is a national benefit of $11 for every $1 
spent by designing buildings to meet the 2018 International 
Residential Code (IRC) and 2018 International Building Code 
(IBC)--the model building codes developed by the International 
Code Council (ICC)--versus the prior generation of codes 
represented by 1990-era design and National Flood Insurance 
Program (NFIP) requirements.\3\
---------------------------------------------------------------------------
    \3\ National Institute of Building Sciences ``Natural Hazard 
Mitigation Saves Study.'' Available at https://www.nibs.org/page/
mitigationsaves.
---------------------------------------------------------------------------
    <bullet>  Hazard mitigation projects funded with federal 
grants provided by FEMA, U.S. Economic Development 
Administration (EDA), and U.S. Department of Housing and Urban 
Development (HUD) can save the country $6 in future disaster 
response and recovery costs for every $1 spent, according to 
more than two decades worth of data on these grants.\4\
---------------------------------------------------------------------------
    \4\ Id.
---------------------------------------------------------------------------
    <bullet>  Investing in certain hazard mitigation measures 
above and beyond select requirements of the 2015 International 
Codes (I-Codes)--the model building codes developed by the 
International Code Council (ICC)--can save the nation $4 for 
every $1 spent.\5\
---------------------------------------------------------------------------
    \5\ Id.

    The changes under DRRA should be viewed as complimentary to 
FEMA's existing efforts both in the resilience-building space 
as well as streamlining recovery programs. DRRA was intended to 
streamline FEMA's programs, provide additional federal 
resources for resilience-building, and provide improved 
transparency and accountability to the Agency.

KEY PROVISIONS IN DRRA

    DRRA includes more than 50 provisions requiring FEMA to 
make policy or regulatory changes. Some of the more significant 
sections are highlighted below.

MITIGATION:  

Sec. 1204--Wildfire Prevention--States granted Fire Management 
Assistance Grants will now be able to receive Hazard Mitigation 
Grant Program (HMGP) grants. Prior to DRRA, HMGP grants were 
only available for states, tribes, and territories that 
received Major Disaster declarations.

  Sec. 1205--Additional Activities--Expands the allowable uses 
of all FEMA Hazard Mitigation Assistance programs to fund a 
comprehensive set of additional activities to mitigate future 
risk in any area affected by wildfire or windstorm.

  Sec. 1206--Eligibility for Code Implementation and 
Enforcement--Efforts of state and local governments to enforce 
consensus-based building code and floodplain management 
ordinances are now eligible for Hazard Mitigation Assistance. 
Additionally, building code implementation and adopted code 
enforcement activities for the first 180 days following a 
Presidentially-declared major disaster are eligible for 
reimbursement under the Public Assistance Program.

  Sec. 1233--Additional Hazard Mitigation Activities--
Authorizes FEMA to provide assistance for activities to 
mitigate damage in earthquake-prone areas, including for 
earthquake early warning systems. Eligible assistance will be 
coordinated with the U.S. Geological Service.

  Sec. 1234--National Public Infrastructure Predisaster Hazard 
Mitigation--Creates a permanent pre-disaster mitigation 
program. Rather than relying on annual appropriations, the new 
program is funded as a 6 percent calculation of response and 
recovery efforts under Individual and Public Assistance 
Programs tied to major disaster declarations. Also authorizes 
redistribution of unobligated amounts that remain unobligated 
seven years post-disaster declaration.

  Sec. 1235--Additional Mitigation Activities--Authorizes FEMA 
to provide Public Assistance funds to replace and restore 
disaster-damaged infrastructure and facilities to the latest 
published editions of relevant, consensus-based codes and 
standards. Such repair and reconstruction will ensure enhanced 
resilience in communities recovering from disaster.

INFRASTRUCTURE AND PUBLIC ASSISTANCE:  

Sec. 1207--Program Improvements--Modifications to Stafford Act 
sections 406 and 428 to enhance recoveries from major disaster 
declarations.

  Sec. 1209--Guidance on Evacuation Routes--FEMA and the 
Federal Highway Administration shall identify and better 
coordinate on identification of evacuation routes, in the 
interest of eventually issuing guidance to state, local, 
tribal, and territorial governments on design, construction, 
maintenance, and repair of such vital routes.

  Sec. 1210--Duplication of Benefits--Grants governors the 
ability to request a waiver from the President on prohibitions 
in the Stafford Act regarding duplication of federal benefits 
if in the public interest and will not result in waste, fraud, 
and abuse; and clarifies that a loan cannot be determined to be 
a duplication of benefits. This section applies to declarations 
between 2016 and 2021, with the U.S. Dept. of Housing and Urban 
Development (HUD)--not FEMA--as the primary executive branch 
entity responsible for implementation. Additionally, states may 
receive HMGP grants from FEMA for water resource development 
projects also under the authority of the U.S. Army Corps of 
Engineers if such projects meet the requirements of FEMA's HMGP 
grants.

  Sec. 1215--Management Costs--Provides additional assistance 
to state and local governments working through recovery by 
expanding the definition of management costs and mandating 
reimbursement of actual costs for up to 12 percent for Public 
Assistance (7 percent for recipient and 5 percent for 
subrecipient) and 15 percent for HMGP (10 percent for recipient 
and 5 percent for subrecipient).

  Sec. 1220--Unified Federal Environmental and Historic 
Preservation Review--Mandates that the FEMA Administrator 
assess the current state of the Unified Federal Review under 
Stafford Act section 429 and within two years work to issue 
regulations to further streamline the review process, taking 
into consideration categorical exclusions utilized by other 
federal entities.

HOUSING AND INDIVIDUAL ASSISTANCE:  

Sec. 1211--State Administration of Assistance for Direct 
Temporary Housing and Permanent Housing Construction--Grants 
states and federally-recognized Indian tribes additional 
authorities and flexibilities in addressing housing needs for 
survivors of disasters and provides for reimbursement if 
housing solutions will result in at least a 50 percent cost 
savings over comparable FEMA-administered options.

  Sec. 1212--Assistance to Individuals and Households--
Increases authorized amounts of financial assistance for 
disaster survivors for rental and other needs assistance to 
address accessibility-related repairs for individuals with 
disabilities.

  Sec. 1213--Multifamily Lease and Repair Assistance--Provides 
additional authorities to FEMA to allow repairs to eligible 
properties above the value of lease agreements and expands 
eligibility to areas impacted by a disaster to maximize cost 
effective housing solutions.

  Sec. 1223--Study to Streamline and Consolidate Information 
Collection--Mandates a FEMA-led study and subsequent 
interagency plan--to include the Small Business Administration 
and HUD--to enhance and improve data collection from disaster 
survivors.

OTHER KEY PROVISIONS:  

Sec. 1222--Performance of Services--Authorizes the FEMA 
Administrator to appoint temporary personnel--after serving for 
three continuous years--to positions in the Agency in the same 
manner as competitive service employees. This is a significant 
enhancement that will help the Agency retain skilled incident 
workforce employees who are often recruited away from the 
Agency after it spends a significant amount on training, 
education, and benefits.

  Secs. 1224-1226--Mandate enhancements to public and regular 
Agency reporting to Congress; prohibits contracting with 
entities that do not allow for full Agency, Comptroller 
General, or Inspector General auditing or reviewing of 
contract; and mandates IG audit of FEMA contracts for tarps and 
plastic sheeting.

  Also included in the original version of DRRA--but enacted in 
the Bipartisan Budget Act of 2018 (P.L. 115-123)--was a 
provision specifically crafted to incentivize state, local, 
tribal, and territorial governments to undertake resilience-
building efforts to unlock increased federal cost-share for 
future response and recovery efforts.

READINESS OF EMERGENCY MANAGEMENT AND FEMA INCIDENT WORKFORCE

    Assessing the readiness of the emergency management 
community begins at the local level. In 2018, 23,331 events 
were managed by local, tribal, and state governments without 
federal assistance.
    Following the active pace of federal disaster declarations 
in 2017, FEMA updated its Strategic Plan for 2018-2022, to 
emphasize more focus on Presidentially-declared disasters being 
``Federally Supported, State Managed, and Locally Executed.''
    In the years following the attacks of September 11, 2001, 
there has been a sustained and significant effort to provide 
training for state, local, tribal, and territorial emergency 
managers, whether at FEMA's Center for Domestic Preparedness in 
Anniston, Alabama; the Emergency Management Institute in 
Emmitsburg, MD; or at facilities that are part of the National 
Domestic Preparedness Consortium.
    Absent lapses of federal appropriations--which fund a 
significant portion of these trainings--non-federal emergency 
management capacity-building has been effective and delivered 
significant returns on investment. More professional and 
capable non-federal emergency managers ensure that local and 
regional events do not warrant a Presidential declaration under 
the Stafford Act.
    Specific to FEMA and the federal incident management 
workforce, there are multiple limiting factors to readiness 
heading into the most active time of year for disasters:

    <bullet>  Vacancies in key senior leadership roles across 
FEMA and the Department of Homeland Security;
    <bullet>  Quantity of qualified Federal Coordinating 
Officers and Federal Disaster Recovery Coordinators currently 
available for deployment;
    <bullet>  High percentage of deployed force strength and 
limited availability of remaining force strength;
    <bullet>  Current volume of open and active disasters and 
Joint Field Offices across the United States and its 
territories;
    <bullet>  Challenges for existing workforce with the FEMA 
Qualification System and associated Position Task Books;
    <bullet>  Fatigue across workforce as a result of volume 
and intensity of disaster deployments during last several 
years.

    Nearly two years after the 2017 hurricane and wildfire 
seasons, which strained FEMA's workforce more so than other 
recent years, FEMA has taken steps to address several of the 
challenges noted above. However, it is still under-resourced 
when it comes to the volume of Incident Workforce employees 
available to respond to multiple simultaneous responses to 
catastrophic disasters.
    FEMA's Field Operations Directorate (FOD)--responsible for 
the Incident Workforce--is in the process of finalizing the 
Coordinated Workforce Review (CWR). The CWR is utilizing 
lessons learned from recent active disaster seasons to formally 
define workforce needs based on risk.
    FOD is working to enhance the corps of Federal Coordinating 
Officers and increase Incident Workforce trainings and 
qualification across the other cadres of disaster specialists. 
However, since the start of 2019, FEMA has consistently 
reported significant readiness shortfalls for Federal 
Coordinating Officers (FCOs), as well as deficiencies in 
capacity for multiple response and recovery cadres in its daily 
operations briefings.
    Workforce improvements have been made since the height of 
the 2017 disaster season--including the expansion of the Surge 
Capacity Force to include other federal agency employees in 
addition to DHS employees--but the Agency may still find it 
lacks adequate personnel should the 2019 disaster season 
approach the severity of 2017 and 2018 seasons.

                              WITNESS LIST

PANEL I

    <bullet>  Dr. Daniel Kaniewski, Deputy Administrator for 
Resilience, Federal Emergency Management Agency (FEMA)

PANEL II

    <bullet>  Sima Merick, Executive Director, Ohio Emergency 
Management Agency, on behalf of the National Emergency 
Management Association
    <bullet>  Nick Crossley, CEM, CPM, Director, Emergency 
Management and Homeland Security Agency, Hamilton County, Ohio, 
on behalf of the International Association of Emergency 
Managers
    <bullet>  James Gore, Supervisor, 4th District, County of 
Sonoma, California, on behalf of the National Association of 
Counties
    <bullet>  Al Davis, Deputy Director, Texas A&M Engineering 
Extension Service, on behalf of the National Domestic 
Preparedness Consortium
    <bullet>  Pamela Williams, Executive Director, Build Strong 
Coalition
    <bullet>  Randy Noel, MIRM, CGB, CMP, President, Reve, 
Inc., on behalf of the National Association of Home Builders
                              ----------                              


                       SUPPLEMENTARY INFORMATION

FEMA RESPONSE AND RECOVERY AUTHORITIES

    FEMA is the federal government's lead agency in preparing 
for, mitigating against, responding to, and recovering from 
disasters and emergencies related to all hazards--whether 
natural or man-made. FEMA's primary authority in carrying out 
these functions stems from the Robert T. Stafford Disaster 
Relief and Emergency Assistance Act (Stafford Act, P.L. 100-
707).
    When state and local resources are overwhelmed, the 
Governor of the affected state may request that the President 
issue a declaration. The Stafford Act authorizes three types of 
declarations: (1) major disaster declarations; (2) emergency 
declarations; and (3) fire management grant (FMAG) 
declarations.
    If the President issues a declaration, federal resources 
are deployed in support of state and local response efforts. By 
law, the President--acting through FEMA--appoints a Federal 
Coordinating Officer (FCO) to lead the federal response to 
major disasters and emergencies. FEMA is responsible for 
coordinating federal agency response and ensuring the necessary 
federal capabilities are deployed at the appropriate place and 
time. In addition, FEMA provides direct support and financial 
assistance to states, tribes, and local governments and 
individuals as authorized under the Stafford Act. This 
includes, directing any federal agency, with or without 
reimbursement, to assist state, tribal, and local governments 
and protect life and property.

FEMA DISASTER ASSISTANCE PROGRAMS

PRESIDENTIALLY DECLARED MAJOR DISASTER

    When state and local resources are overwhelmed and the 
``disaster is of such severity and magnitude that effective 
response is beyond the capabilities of the state and the 
affected local governments,'' \6\ the Governor of the affected 
state may request the President to declare a major disaster. 
FEMA's primary Stafford Act programs for disaster response and 
recovery in the aftermath of a major disaster are the Public 
Assistance Program and the Individual Assistance Program. As 
part of each major disaster, FEMA also provides Hazard 
Mitigation Grant Program (HMGP) funds.
---------------------------------------------------------------------------
    \6\ Quoting (in part) 42 U.S.C. Sec. 5170(a).
---------------------------------------------------------------------------
    The Public Assistance Program, authorized primarily by 
Sections 403, 406, and 407 of the Stafford Act, reimburses 
state, tribal, and local emergency response costs and provides 
grants to state and local governments, as well as certain 
private non-profits to rebuild facilities. The Public 
Assistance Program generally does not typically provide direct 
services to survivors.
    The Individual Assistance Program, authorized primarily by 
Section 408 of the Stafford Act and also known as the 
Individuals and Households Program, provides assistance to 
families and individuals impacted by disasters, including 
housing assistance. Housing assistance includes money for 
repair, rental assistance, or ``direct assistance,'' such as 
the provision of temporary housing.
    Section 404 of the Stafford Act authorizes the HMGP, which 
provides grants to state and local governments to rebuild after 
a disaster in ways that: (1) are cost effective; and (2) reduce 
the risk of future damage, hardship, and loss from natural 
hazards. HMGP grants are calculated based on a percentage of 
funds spent on Public and Individual Assistance for each 
Presidentially-declared disaster.
    The central purpose of HMGP is to enact practical 
mitigation measures that effectively reduce the risk of loss of 
life and property from future disasters. FEMA provides grants 
to states under HMGP so that they may also assist families in 
reducing the risk to their homes from natural disasters.
    In the case of wildfires, mitigation measures covered by 
HMGP include, but are not limited to: establishing defensible 
space measures around buildings; using fire-resistant building 
materials; and regularly clearing combustibles that could serve 
as fuel for a wildfire. FEMA provides up to 75 percent of the 
funds for mitigation projects under HMGP and the remaining 25 
percent can come from a variety of sources (i.e., a cash 
payment from the state or local government).\7\
---------------------------------------------------------------------------
    \7\ ``Hazard Mitigation Grant Program,'' Federal Emergency 
Management Agency, Fema.gov. (Accessed March 14, 2018).
---------------------------------------------------------------------------

FIRE MANAGEMENT ASSISTANCE GRANT

    Section 420 of the Stafford Act authorizes FEMA to provide 
fire management assistance to state, local, and tribal 
governments for the mitigation, management, and control of any 
fires burning on publicly or privately-owned forests or 
grasslands that threatens such destruction as would constitute 
a major disaster. FMAG funding may be used for equipment and 
supplies, labor costs, emergency work, pre-positioning of 
resources, and temporary repair of damage caused by work 
directly related to firefighting activities associated with the 
declared fire.\8\
---------------------------------------------------------------------------
    \8\ ``Fire Management Assistance Grant Program,'' Federal Emergency 
Management Agency Fema.gov. (Accessed March 14, 2018).
---------------------------------------------------------------------------

T&I COMMITTEE'S LEADERSHIP ON DISASTER POLICY REFORM

    In the 114th and 115th Congress, the Committee led the 
policy discussion on how to lower the devastating losses from 
disasters in terms of lives, property, and costs, how to 
increase disaster resilience, and how to withstand the next 
disaster and recover more quickly from disaster impacts, which 
ultimately resulted in DRRA. As noted above, Congress has 
passed significant packages of disaster-related policy reforms 
during the previous two decades, with the Transportation and 
Infrastructure Committee playing a vital role:

    <bullet>  The Disaster Mitigation and Cost Reduction Act 
(DMA2K, P.L. 106-390) is perhaps the first major update to the 
Robert T. Stafford Disaster Relief and Emergency Assistance Act 
of 1988. Congress recognized the benefits of pre-disaster 
mitigation and made reforms and enhancements to Stafford and 
FEMA's response, recovery, and mitigation programs to lessen 
future exposure to risk of the Federal government. DMA2K also 
led to the development of hazard mitigation plans in 
communities across the country.
    <bullet>  The Post-Katrina Emergency Management Reform Act 
(PKEMRA, P.L. 109-295) followed in the wake of the 2005 
hurricanes Katrina, Rita, and Wilma. It was also informed by 
the 2004 hurricane season, during which Hurricanes Charley, 
Frances, Ivan, and Jeanne criss-crossed Florida in less than 
two months. PKEMRA addressed some of the potential gaps related 
to catastrophic disasters and most of the provisions are 
related to planning and response. PKEMRA provided for 
additional authority for response activities including: 
``accelerated federal assistance'' which can be provided in the 
absence of a state request in certain situations during the 
response to a major disaster or an emergency; expedited 
payments for debris removal; use of local contractors for 
federal disaster response contracts; and the rescue, care, and 
shelter for pets and individuals and households with pets.
    <bullet>  The Sandy Recovery Improvement Act (SRIA, P.L. 
113-2) was enacted to speed up and streamline Hurricane Sandy 
recovery efforts; reduce costs; and improve the effectiveness 
of several disaster assistance programs authorized by the 
Stafford Act, namely the Public Assistance Program, the 
Individual Assistance Program, and the HMGP. Key provisions of 
SRIA include:

        <bullet>  Expedited debris removal and public 
assistance alternative procedures: allows the use of cost 
estimates and consolidated projects;
        <bullet>  Federal assistance to individuals and 
households: allows FEMA to make limited repairs, instead of 
lease payments, for the purpose of providing housing when less 
expensive;
        <bullet>  Hazard mitigation: expedites hazard 
mitigation projects by streamlining the environmental review, 
provides states with advanced hazard mitigation assistance, and 
provides for state administration of hazard mitigation grants;
        <bullet>  Dispute Resolution Pilot Program: establishes 
a limited dispute resolution pilot program to resolve disputes 
over assistance and drive projects to closure and avoid cost 
overruns;
        <bullet>  Unified federal environmental review: 
requires the President to establish an expedited review for 
environmental and historic requirements for rebuilding damaged 
infrastructure;
        <bullet>  Individual assistance factors: requires FEMA 
to review and update factors for individual assistance disaster 
declarations to make them less subjective; and
        <bullet>  Tribal requests for major disaster 
declarations: provides for disaster declarations for tribal 
governments.

DISASTER LOSSES AND FEDERAL DISASTER SPENDING HAVE INCREASED 
                    SIGNIFICANTLY

    According to numerous studies, disaster losses and federal 
disaster spending have increased significantly over the last 50 
years. In 2012, Munich Re, the world's largest reinsurance 
company, reported that between 1980 and 2011, North America 
suffered $1.06 trillion in total losses, including $510 billion 
in insured losses, and an increase in weather-related events 
five-fold over the previous three decades.\9\ In 2005, it was 
reported that since 1952, the cost of natural disasters to the 
federal government more than tripled, as a function of gross 
domestic product.\10\
---------------------------------------------------------------------------
    \9\ Munich Re (2012). Severe weather in North America--Perils Risk 
Insurance. Munich, Germany: Muchener Ruckversicherungs-Gesellschaft.
    \10\ The Princeton University Geoscience 499 Class, The Increasing 
Costs of U.S. Natural Disasters. Geotimes, November 2005.
---------------------------------------------------------------------------
    There are numerous causes that may be driving these costs 
including population growth and increased density in disaster-
prone areas, changes in weather and fire events, and changes in 
disaster relief programs. In a 2013 report, FEMA acknowledged 
the increase in the number of extreme disaster events and 
increased vulnerabilities throughout the United States due to 
shifting demographics, aging infrastructure, land use, and 
construction practices.\11\
---------------------------------------------------------------------------
    \11\ Federal Emergency Management Agency, National Strategy 
Recommendations: Future Disaster Preparedness. September 6, 2013. 
Available at http://www.fema.gov/media-library-data/
bd125e67fb2bd37f8d609cbd71b835ae/
FEMA+National+Strategy+Recommendations+(V4).pdf.
---------------------------------------------------------------------------

A FEW DISASTERS ACCOUNT FOR MOST COSTS

    The Congressional Research Service (CRS) analyzed data from 
over 1,300 major disasters since 1989, and adjusting for 
inflation, found that FEMA obligated more than $178 billion for 
these disasters.\12\ However, CRS also found that 25 percent of 
all disasters account for over 92 percent of disaster 
costs.\13\ Therefore, the remaining 75 percent of smaller 
disasters constitute less than eight percent of FEMA disaster 
spending.
---------------------------------------------------------------------------
    \12\ CRS Memo Data Analysis for House Transportation and 
Infrastructure Committee, January 14, 2015.
    \13\ Id.
---------------------------------------------------------------------------

HURRICANE SEASON BASICS

    The National Weather Service defines a hurricane as ``an 
intense tropical weather system with well-defined circulation 
and sustained winds of 74 mph (64 knots) or higher.'' \14\ The 
Atlantic hurricane season runs from June 1 to November 30. The 
areas covered include the North Atlantic Ocean, Gulf of Mexico, 
and the Caribbean Sea. The Saffir-Simpson Hurricane Wind Scale 
rates hurricanes according to intensity. This scale estimates 
potential property damage based on wind speed and other factors 
and rates them in Categories 1 through 5, with Category 5 being 
the most intense. Hurricanes reaching Category 3 and higher are 
considered major hurricanes because of their potential for 
significant loss of life and damage.
---------------------------------------------------------------------------
    \14\ See National Hurricane Center, National Oceanic and 
Atmospheric Administration, Tropical Cyclone Climatology.
---------------------------------------------------------------------------

2017-2018 HURRICANE AND WILDFIRE SEASONS AND OTHER DISASTER ACTIVITY

    Recent years have been marked by a significant level of 
disaster response and recovery activity, most notably from very 
active and impactful hurricane seasons, record-setting 
wildfires, powerful storms, and frequent flooding events.
    The 2017 and 2018 hurricane seasons produced several 
devastating storms and hurricanes. Eighteen hurricanes were 
recorded in the Atlantic, including eight major hurricanes 
(Category 3, 4 or 5), which devastated parts of Florida, North 
Carolina, Puerto Rico, South Carolina, Texas, and the U.S. 
Virgin Islands.\15\ The 2017 season alone brought over $368.66 
billion in damages, due mostly to the season's three most 
destructive hurricanes.\16\
---------------------------------------------------------------------------
    \15\ National Oceanic and Atmospheric Administration, ``Extremely 
active 2017 Atlantic hurricane season finally ends.'' November 30, 
2017. Available at: https://www.noaa.gov/media-release/extremely-
active-2017-atlantic-hurricane-season-finally-ends; see also National 
Oceanic and Atmospheric Administration, ``Destructive 2018 Atlantic 
hurricane season draws to an end.'' November 28, 2018. Available at: 
https://www.noaa.gov/media-release/destructive-2018-atlantic-hurricane-
season-draws-to-end.
    \16\ National Oceanic and Atmospheric Administration ``Hurricane 
Season--2017.'' Available at: https://sos.noaa.gov/datasets/hurricane-
season-2017/.
---------------------------------------------------------------------------
    In the Texas area, Hurricane Harvey dropped a record-
setting 51.88 inches of rain, resulting in at least 83 deaths, 
displacement of over 30,000 people and over 17,000 rescues.\17\ 
Hurricane Harvey was one of the most costly hurricanes in U.S. 
history, with damage estimates reaching $200 billion.\18\
---------------------------------------------------------------------------
    \17\ National Oceanic and Atmospheric Administration ``Hurricane 
Season--2017.'' Available at: https://sos.noaa.gov/datasets/hurricane-
season-2017/; see also National Oceanic and Atmospheric Administration, 
``Hurricane Harvey: Clouds with Precipitation--2017.'' Available at: 
https://sos.noaa.gov/datasets/hurricane-harvey-clouds-with-
precipitation-2017/.
    \18\ Id.
---------------------------------------------------------------------------
    Following Hurricane Harvey in Texas, Hurricane Irma hit 
Florida and parts of the Caribbean, causing 47 total direct 
deaths.\19\ In addition to the loss of these lives, about $50 
billion in damages were recorded in the United States.\20\ 
Hurricane Maria, another major hurricane, hit Puerto Rico and 
other parts of the Caribbean shortly after Hurricane Irma. 
Hurricane Maria caused numerous deaths with the actual death 
toll in Puerto Rico highly uncertain,\21\ and roughly $90 
billion in damages in Puerto Rico and the U.S. Virgin 
Islands.\22\
---------------------------------------------------------------------------
    \19\ Statistics provided by NHC, available at https://
www.nhc.noaa.gov/data/tcr/AL112017_Irma.pdf
    \20\ Id.
    \21\ Statistics provided by NHC, available at https://
www.nhc.noaa.gov/data/tcr/AL152017_Maria.pdf. Stating `` . . . that 
hundreds of additional indirect deaths in Puerto Rico may eventually be 
attributed to Maria's aftermath pending the results of an official 
government review.''
    \22\ Id.
---------------------------------------------------------------------------
    Hurricane Maria also broke a record by becoming the most 
intense cyclone to strike U.S. territories.\23\ Hurricane Irma 
was able to sustain 185 mph winds for 37 hours, which is 
another record for the highest speed winds for the longest 
period of time.\24\ All the damages from these hurricanes and 
other smaller ones made the 2017 hurricane season the costliest 
season ever recorded and one of the most active.
---------------------------------------------------------------------------
    \23\ National Oceanic and Atmospheric Administration ``Hurricane 
Season--2017.'' Available at: https://sos.noaa.gov/datasets/hurricane-
season-2017/.
    \24\ Id.
---------------------------------------------------------------------------
    In 2018, Hurricane Michael leveled areas of Florida when it 
made landfall as a Category 5 hurricane, bringing devastating 
winds as well as storm surge to coastal areas and significant 
rain and winds inland. Sixteen deaths and $25 billion in 
damages are directly attributable to Michael.\25\
---------------------------------------------------------------------------
    \25\ National Oceanic and Atmospheric Administration, National 
Hurricane Center ``Tropical Cyclone Report--Hurricane Michael 
(AL142018).'' Available at: https://www.nhc.noaa.gov/data/tcr/
AL142018_Michael.pdf
---------------------------------------------------------------------------
    In addition to having one of the most destructive and 
active hurricane seasons ever recorded, 2017-2018 also were two 
terrible wildfire seasons. Nationwide, over 122,000 wildfires 
burned over 18.3 million acres of land.\26\ Strong Santa Ana 
winds, dry brush and dead trees, fueled the start of most of 
the fires. The 2017 wildfires set ablaze a significant portion 
of the state of California--spreading as far north as the 
Oregon border and as far south as San Diego, California. The 
wildfires spread across the Western United States, hitting 10 
states in total including parts of Arizona, Oregon, Montana, 
Nevada, and Washington.\27\
---------------------------------------------------------------------------
    \26\ https://www.ncdc.noaa.gov/sotc/fire/201713; see also https://
www.ncdc.noaa.gov/sotc/fire/201813.
    \27\ ``Statistics'' from the National Interagency Fire Center. 
Available at https://www.nifc.gov/fireInfo/fireInfo_statistics.html.
---------------------------------------------------------------------------
    Combined, these events have presented challenges for 
countless communities across the nation as they grapple with 
recovering from locally catastrophic events and navigating 
complex federal programs. From an emergency management 
workforce perspective, the recent pace of response and recovery 
operations is spreading the federal workforce thin and placing 
additional responsibilities on officials at the state, local, 
tribal, and territorial levels.


     DISASTER PREPAREDNESS: DRRA IMPLEMENTATION AND FEMA READINESS

                              ----------                              


                        WEDNESDAY, MAY 22, 2019

                  House of Representatives,
       Subcommittee on Economic Development, Public
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
room 2167, Rayburn House Office Building, Hon. Dina Titus 
(Chairwoman of the subcommittee) presiding.
    Ms. Titus. The subcommittee will come to order.
    I ask unanimous consent that Members not on the 
subcommittee be permitted to sit on the subcommittee at today's 
hearing and ask questions.
    Without objection, so ordered.
    Glad to have you here with us today.
    Before we get started on the purpose for today's 
subcommittee hearing about Federal buildings and how to make 
them more resilient and energy efficient, I want to take a 
minute just to make a statement to address the comments that 
were made by the President this morning that directly impact 
and threaten this subcommittee's work.
    I want to start by saying, as you all in this room know and 
we on the committee know, the Nation's infrastructure is 
crumbling. As a senior member of the Transportation and 
Infrastructure Committee, I am committed to working with anyone 
who is serious about making the sound, long-term investments 
that will boost our economy.
    But today the President showed that apparently he is not 
very serious. In fact, he said he won't work with Congress on 
any legislation, much less infrastructure, even if it benefits 
this country unless Congress ignores its constitutional 
responsibility to carry out oversight of the administration. If 
the President wants to hold good-paying jobs hostage, that is 
his choice, but it certainly isn't mine and I don't believe it 
is of this committee.
    This subcommittee has jurisdiction for overseeing the 
General Services Administration, the Government agency that the 
Office of Inspector General has said improperly ignored the 
Emoluments Clause when it let Trump keep his DC hotel and 
openly profit from the Presidency. We also have serious 
questions about that and the administration's decision to stop 
the FBI from relocating its headquarters, thereby preventing a 
potential hotel competitor from moving in.
    The President wants to present us with a false choice 
between legislating and investigating. Well, we are not going 
to accept that deal. It is beneath the dignity of the Office 
for the President to suggest he will allow bridges to collapse, 
airports to overcrowd, and ports to deteriorate unless we end 
our investigations. It is the intent of this committee, so that 
we all know, to move forward on both of those fronts because 
that is our charge.
    Now I would like to thank our witnesses for coming today as 
we examine how FEMA is implementing the Disaster Recovery 
Reform Act, DRRA, as well as take a look at the readiness of 
the emergency management workforce on the eve of the wildfire 
and hurricane seasons.
    Over many years and through several catastrophic disasters, 
this subcommittee has worked well with FEMA and the broader 
emergency management stakeholder community to examine the 
challenges that our Nation faces as natural disasters continue 
to strike with more frequency and greater intensity.
    The result, as you all know, of DRRA is a transformative 
update of the Stafford Act. Regardless of one's position on 
climate change, it is impossible to ignore the data and dispute 
the rising costs of natural disasters and the fact that 
investments can be made to create greater resiliency in our 
buildings across the country.
    The impacts of these disasters, whether it is more rain 
storms, devastating tornadoes, longer flood seasons, stronger 
hurricanes that barrel further inland, extremely large and 
intense wildfire complexes, all need to be addressed because 
they threaten the health and safety of tens of millions of 
Americans and the economic welfare of our communities.
    With DRRA, Congress has signaled the importance of building 
resiliency so that Americans in communities impacted by 
disasters are able to get back up on their feet again with a 
minimal loss to lives and property.
    We all learned in kindergarten that an ounce of prevention 
is worth a pound of cure, and DRRA is the statutory embodiment 
of that embroidered pillow on your grandmother's sofa. We know 
based on the analysis of the National Institute for Building 
Sciences that significant changes can be found in mitigation 
projects and the adoption of consensus-based building codes and 
standards.
    For example, $11 in savings come from every $1 spent 
building to the 2018 International Residential Code and 
International Building Code. Six dollars are in savings from 
future disaster response and recovery spending for every $1 
spent on FEMA, EDA, and the HUD mitigation grants.
    And there are $4 in savings for every $1 spent building 
above and beyond hazard mitigation measures in the 2015 
International Building Code. That is a lot of money. It adds 
up. Pretty soon you are talking real money we could be saving.
    DRRA provides stable funding for a new national Pre-
disaster Mitigation Program and makes changes to Stafford that 
are targeted specifically at addressing wildfires in the West. 
It also encourages communities to build back to the most 
recent, strongest consensus-based standards.
    Since the Federal Government is paying at least 75 percent 
of these recovery costs, it is necessary for us to protect our 
investment, be smart about it, and require stronger, smarter, 
and more resilient rebuilding.
    So here we are at the busiest time of the year in terms of 
emergency managers. We are approaching 2 years from dealing 
with the devastating impacts of Harvey, Irma, Maria, and the 
wildfires of the West. But unfortunately, progress on DRRA 
implementation has been fairly slow, and we know that FEMA's 
workforce is stretched thin.
    So my colleagues and I on the committee are eager to hear 
about your progress, and we also want you to understand how 
important it is that the agency take this opportunity to be 
bold in implementing the changes that are in the law because 
the scale of disasters impacting this country isn't going to 
let up. In fact, it is likely to get even worse.
    So having said all that, I would now call on our ranking 
member, Mr. Meadows, for his opening statement.
    [Ms. Titus' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Dina Titus, a Representative in Congress 
  from the State of Nevada, and Chairwoman, Subcommittee on Economic 
        Development, Public Buildings, and Emergency Management
    I want to take a minute to make a statement to address the comments 
that were made by the President this morning that directly impacts and 
threatens this subcommittee's work.
    As you all in this room know, and we on the committee know, this 
nation's infrastructure is crumbling. As a senior member of the 
Transportation and Infrastructure Committee, I'm committed to working 
with anyone who is serious about making the sound, long-term 
investments that will boost our economy. But today the President showed 
that apparently he's not very serious.
    In fact, he said that he won't work with Congress on any 
legislation--even if it benefits this country--unless Congress ignores 
its Constitutional responsibility to carry out oversight of the 
Administration. If the President wants to hold good-paying jobs 
hostage, that's his choice, but it certainly isn't mine. And I don't 
believe it is of this committee.
    This subcommittee has jurisdiction for overseeing the General 
Services Administration--the government agency that the Office of 
Inspector General said ``improperly ignored the Emoluments Clauses'' 
when it let Trump keep his D.C. hotel and openly profit from the 
presidency. We have serious questions about that and this 
Administration's decision to stop the FBI from relocating its 
headquarters, thereby preventing a potential hotel competitor from 
moving in.
    The President wants to present us with a false choice between 
legislating and investigating. Well we're not going to accept that 
deal. It is beneath the dignity of the office for the President to 
suggest that he'll allow bridges to collapse, airports to overcrowd, 
and ports to deteriorate unless we end our investigations. It's the 
intent of this committee to move forward on both of those fronts 
because that's our charge.
    I want to thank our witnesses for joining us today as we examine 
how the Federal Emergency Management Agency is implementing the 
Disaster Recovery Reform Act--or DRRA--as well as take a look at the 
readiness of the emergency management workforce on the eve of wildfire 
and hurricane seasons. Over many years and through several catastrophic 
disasters, this Subcommittee has worked with FEMA and the broader 
emergency management stakeholder community to examine the challenges 
our nation faces as natural disasters continue to strike with more 
frequency and greater intensity. The result is DRRA, which is a 
transformative update to the Stafford Act.
    There are some who believe that climate change is a hoax and others 
who believe that any threat is limited only to coastal residents, but 
it's impossible to dispute the rising costs of natural disasters and 
the fact that there are investments that can be made to build greater 
resilience across the country. The impacts of these more regular one-
percent-chance rain storms, longer flood seasons, stronger hurricanes 
that barrel further inland, and extremely large and intense wildfire 
complexes must be lessened--they're a threat to the health and safety 
of tens of millions of Americans.
    With DRRA, Congress has signaled the importance of building 
resilience so that Americans and communities impacted by disaster are 
able to get up on their feet again, with minimal losses of life or 
property. I'm assuming the President agrees, otherwise he could have 
vetoed it. Each of us up here at some point in our lives has noted that 
an ounce of prevention is worth a pound of cure. DRRA is the statutory 
embodiment of that.
    We know--based upon the analysis of the National Institute for 
Building Sciences--that significant cost savings can be found in 
mitigation projects and the adoption of consensus-based building codes 
and standards:

    <bullet>  There's $11 in savings for every $1 spent building to the 
2018 International Residential Code and International Building Code;
    <bullet>  There's $6 in savings from future disaster response and 
recovery spending for every $1 in FEMA, EDA, and HUD mitigation grants; 
and
    <bullet>  There's $4 in savings for every $1 spent building above 
and beyond certain hazard mitigation measures in the 2015 International 
Building Code.

    That's a lot of money we could save from future disaster 
supplementals.
    DRRA provides stable funding for a new national Pre-Disaster 
Mitigation Program, and also makes changes to Stafford targeted 
specifically at addressing the staggering wildfire challenge facing the 
West. It also encourages communities to build back to the most recent, 
strongest consensus-based codes and standards. Since the Federal 
Government is paying for at least 75 percent of major disaster recovery 
costs, it's necessary for us to protect our investment by requiring 
stronger, smarter, and more resilient rebuilding. But here we are--on 
the verge of the busiest time of year for emergency managers, and 
approaching two years after the devastating impacts of Harvey, Irma, 
Maria, and countless catastrophic wildfires in the West--and progress 
on DRRA implementation has been slow, and FEMA's workforce is stretched 
thin.
    My colleagues and I are eager to hear about your progress, but we 
also want you to understand how important it is that the Agency seize 
this opportunity to be bold in implementing these changes, because the 
scale of the disasters impacting this country isn't letting up.

    Mr. Meadows. Thank you, Chairwoman Titus.
    As she has mentioned, we are fast approaching the hurricane 
season, and yet we are still recovering from a number of 
disasters across the Nation, whether it be hurricanes, 
tornadoes, floods, or wildfires.
    Last year, as you know, my home State of North Carolina was 
hit by Hurricane Florence, Tropical Storm Michael, and other 
severe storms and tornadoes. And so I see that it is not only 
critical that we look at how we prepare for the next disaster 
but ensure that the reforms get implemented, and specifically, 
as she was mentioning, the reforms that were part of the 
Disaster Recovery Reform Act, they must be implemented quickly.
    And so I am looking forward to testimony from you today as 
to why we haven't gotten there, and I can tell you that we will 
be unified in our willingness to work with you but also in 
holding you accountable for why we haven't made much progress, 
in my opinion.
    In the second panel we have a number of State emergency 
management leaders. I can tell you, in my home State of North 
Carolina, Mr. Sprayberry is someone who I trust implicitly. And 
I want to give him the tools to make sure that he can do the 
job within the State, because I know if we get out of the way 
that he will do it right.
    And yet, I can tell you that some of these critical reforms 
for communities, not just in North Carolina, but in California, 
in Missouri, in Louisiana, in Texas, in Florida, and Georgia, 
they are just not being addressed. And yet we appropriate 
billions of dollars.
    And I guess the frustrating thing is is we go in and we 
talk about disaster relief, and we appropriate billions of 
dollars. And that is the good news, because all of a sudden 
everybody says, well, money is on the way. But, yet, deploying 
that money--I found that when I came in under the last storm in 
North Carolina, which, by the way, was over 7 hours from where 
I live, as I went in to look at that, we were still waiting on 
money from the previous hurricane to be deployed.
    And so I have got a real problem with that, and so to the 
extent that you are here, I understand that you are an acting 
director. I understand that we are getting quarterly updates. 
It is just not good enough. We have got 55 action items that 
are related in terms of what we need in terms of implementing a 
law that we passed last October.
    And out of those 55 there has really been only 2 of the 
action items that have gotten accomplished. And so what I would 
say is your implementation plan at this point is an unmitigated 
disaster. So let's use this as an opportunity to figure out how 
we can get back on the right message and honestly get our 
staffs, both the majority and minority, an action item to make 
sure that we get that done.
    And I say that because I believe that you are here with a 
good purpose, trying to make sure that the American taxpayer 
and those that are suffering from disaster actually get relief. 
And yet what I will not stand for today is the promise of help 
tomorrow without a real action item and how we measure success. 
And that hopefully outlines for what I am looking for. We look 
forward to hearing your testimony, and I would yield back to 
the chairman.
    [Mr. Meadows' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Mark Meadows, a Representative in Congress 
 from the State of North Carolina, and Ranking Member, Subcommittee on 
    Economic Development, Public Buildings, and Emergency Management
    We are fast approaching hurricane season, and we are still 
recovering from a number of recent disasters across the Nation, 
including hurricanes, tornadoes, floods, and wildfires. Last year, my 
home state of North Carolina was hit by Hurricane Florence, Tropical 
Storm Michael, and other severe storms and tornadoes.
    It is critical that we not only look at our preparedness for the 
next disaster but ensure reforms we enacted last year in the Disaster 
Recovery Reform Act are implemented, and implemented quickly. These 
reforms are critical to ensuring all communities recover and rebuild 
faster, smarter and better. In essence, we have to be able to walk and 
chew gum at the same time.
    As communities recover from past disasters and prepare for future 
disasters, we cannot afford to do things the old way. We know, for 
example, for every $1 invested in mitigation, $4 to $11 are saved. 
Ensuring the mitigation reforms are fully implemented as communities 
rebuild is crucial to making communities safer and reducing overall 
costs of future disasters.
    And on the recovery front, we must continue to work to streamline 
and eliminate the red tape. We appropriate billions in emergency 
spending when disasters strike, and our communities see the dollars are 
there, but the funds are too slow to get to where they are needed.
    We also know the longer it takes to recover, the more dollars are 
spent as the costs to rebuild go up. Additionally, it doesn't help that 
disaster funding is scattered across government, with uneven results 
creating inconsistencies, confusion, and waste.
    That is why I co-sponsored H.R. 1984, the DISASTER Act, with Rep. 
Peters of California, and I am glad to note it was passed out of 
Committee earlier this month. I hope this legislation gets passed 
quickly as it will give us vital data to understand how we use our 
disaster funds.
    We must ensure our federal programs are streamlined, efficient, and 
coordinated. This is critical not only to reduce costs but to help 
communities recover faster and smarter. That's why implementation of 
the Disaster Recovery Reform Act is so important.
    FEMA has been providing us with quarterly updates on DRRA 
implementation, but this is not enough. We need to ensure as many of 
these reforms as possible are implemented now and how Congress can help 
speed up implementation. And if we need to look at additional reforms 
and ways to streamline the process, we need to know.
    Through the Disaster Recovery Reform Act and the 2013 Sandy 
Recovery Improvement Act, we have provided authorities to FEMA that 
will speed up the recovery process, support common sense rebuilding, 
and cut red tape. These reforms are designed to help communities better 
prepare for, respond to and recover from disasters. We must begin 
applying them today.

    Ms. Titus. Thank you very much. As you can see, the ranking 
member and I are in agreement on what we want to hear from you 
and where we want to go from today.
    I would now like to recognize Mr. DeFazio, who is chairman 
of the Transportation and Infrastructure Committee.
    Mr. DeFazio. Thank you, Madam Chair. And I am really 
pleased that we are holding this hearing today on FEMA's 
implementation of the Disaster Recovery Reform Act and the 
readiness of the emergency management workforce as we head into 
yet another hurricane and wildfire season.
    The Disaster Recovery Reform Act--I have to start saying 
DRRA or it is going to take too long--enjoyed significant 
bipartisan, bicameral support, something that this committee 
strives toward as much as possible.
    Disasters certainly don't care about your political 
perspective, whether you live on a coast, on the plains, or 
whether you believe in climate change or not. They happen 
regardless of our differences, and the Federal Government has 
an obligation to effectively both deal with post-disaster 
relief and pre-disaster mitigation.
    The DRRA is intended to give us more resilient communities 
and help mitigate future disasters. For every dollar invested 
in mitigation we know that we will save $4 in future costs 
post-disaster. We had several bipartisan conversations with 
FEMA confirming the Agency understands that the intent of this 
new stream of pre-disaster funding is mandatory, and it will 
provide consistency to a program with a proven record of saving 
taxpayers money.
    As I have noted many times before, it is nonsensical that 
the Federal Government pays to rebuild communities after 
disaster back to inadequate standards only to have those 
facilities destroyed in another disaster with the Federal 
Government once again coming in and building back to the 
original standard as opposed to a more resilient and more 
robust standard. It is time to get smarter about how we respond 
and how we rebuild after disasters.
    And the other part is, FEMA has something called the Hazard 
Mitigation Grant Program, and States get that money when a 
disaster is declared. But prior to passage of DRRA they were 
not provided when a State received a Fire Management Assistance 
Grant, FMAG, to respond to wildfires on non-Federal lands. And 
coming from a part of the country that has wildfires, that was 
absolutely nonsensical.
    After the wildfires there is a lot of recovery that must 
take place. There is potential for mudslides. We need to get in 
and mitigate and replant and do other things. By fixing that 
problem, States will now be able to restore landscapes' 
vegetation destroyed by wildfires, make the land less 
susceptible to future mudslides and floods, and also clarifies 
that wildfire-related mitigation activities are eligible under 
both PDM, yet another acronym, and HMGP programs.
    Together these provisions will help prevent wildfire-
related disasters and also clarify that earthquake-related 
activities are eligible for mitigation assistance. We have two 
major faults on the west coast, one down in California in the 
Cascadia Subduction Zone in northern California, up across 
Oregon and Washington. We just have the bare beginnings of an 
early warning system, which, again, could save lives and 
mitigate concerns.
    In Japan when there is a disaster everything shuts down, so 
the trains don't derail, elevators stop on floors, the doors 
open so people aren't trapped. You know, they have done a lot. 
Chairman Denham and I visited after their last major tsunami 
and earthquake, and I brought back manuals that they provided 
to their people and things that they had done, and it is very 
instructive of the things we haven't done and we need to do to 
prepare for this coming disaster.
    So with that, Madam Chair, I yield back the balance of my 
time.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    I'm glad that we're holding this important hearing today regarding 
FEMA's implementation of the Disaster Recovery Reform Act, or DRRA, and 
the readiness of the emergency management workforce as we head into 
hurricane and wildfire seasons.
    I was proud to help draft DRRA and was pleased to see it enacted as 
Division B of last year's FAA reauthorization.
    In an era of historic disagreement over so many issues in Congress, 
DRRA enjoyed significant bipartisan and bicameral support. Disasters 
don't care if you're a liberal or conservative; whether you live on a 
coast or on the plains; or whether you believe in climate change or 
not. Disasters happen regardless of our differences, and each one is a 
catastrophe for survivors.
    DRRA is intended to build more resilient communities and encourage 
better behavior before and after disaster strikes. As we'll likely hear 
many times today, we know--for a fact--that for every dollar invested 
in mitigation to make our communities stronger before disaster strikes, 
the taxpayer saves $4 in future disaster response and recovery costs.
    As the Chairwoman noted, DRRA furthers the goal of investing in 
mitigation before disaster strikes by establishing a steady funding 
stream for FEMA's Predisaster Mitigation program. This new stream of 
pre-disaster mitigation spending complements the existing stream of 
post-disaster hazard mitigation assistance provided for each major 
disaster.
    In the run-up to DRRA's enactment, we had several bipartisan 
conversations with FEMA confirming that the Agency understands the 
intent of this new stream of pre-disaster funding as mandatory, which 
will provide consistency to a program with a proven record of saving 
taxpayers money. I'm eager to learn more about the status of this new 
program and when states can expect guidance.
    Another section that I am looking for an update on deals with 
building codes.
    I've noted many times how nonsensical it is that the federal 
government pays to rebuild communities after a disaster back to 
inadequate standards only to have those facilities destroyed again by a 
later disaster--with the federal government once again on the hook for 
the cost of rebuilding.
    Under DRRA, this nonsense will finally stop. DRRA requires 
communities to rebuild to the latest consensus-based, design standards 
and in a more resilient manner, thereby ensuring stronger, smarter 
facilities going forward. The cycle of repeatedly rebuilding and 
repairing disaster-damaged public infrastructure should finally end.
    Although FEMA must define ``resilient'' and ``resiliency'' pursuant 
to regulations within two years of the date of enactment of this Act, 
FEMA is required to adopt guidance to immediately implement the 
``resiliency'' requirements of this legislation. The need for resilient 
construction has become even more apparent after the 2017 and 2018 
hurricane and wildfire seasons.
    FEMA must use this opportunity to invest taxpayer funds wisely 
while saving lives and reducing injuries. FEMA has the ability to 
ensure that the United States leads the way in disaster recovery, and I 
urge FEMA to seize this moment.
    I am also looking forward to an update on changes to FEMA's Hazard 
Mitigation Grant Program. A state receives HMGP funds when a disaster 
is declared. However, prior to passage of DRRA, HMGP funds were not 
provided when a State received a Fire Management Assistance Grant to 
respond to wildfires on non-Federal lands.
    This made little sense because wildfires destroy the landscape, 
often causing mudslides and flooding that then result in a disaster 
declaration. I am pleased that DRRA included language to ensure that 
States will receive HMGP funds if they have received an FMAG to respond 
to wildfires.
    With HMGP funds, States will be able to restore landscapes and 
vegetation destroyed by wildfires and make the land less susceptible to 
future mudslides and floods. This legislation also clarifies that 
wildfire-related mitigation activities are eligible under both the PDM 
and HMGP programs. Together, these provisions will help prevent 
wildfires and related disasters.
    Finally, DRRA also clarified that earthquake-related activities are 
eligible for mitigation assistance.
    I pushed for this provision because the West Coast faces the most 
risk from multiple and extreme earthquakes, and Oregon is long overdue 
for an earthquake and tsunami resulting from the Cascadia Subduction 
Zone. Unfortunately, the United States' earthquake early warning system 
lags far behind those of some other nations.
    Clarifying for grantees that mitigation funds are available for 
earthquake-related activities will save lives and reduce injuries in a 
future disaster.
    In closing, I look forward to the update from FEMA on all of these 
issues as well as the testimony from all of our witnesses. We are fast 
approaching the two-year anniversaries of Harvey, Irma, and Maria, and 
still debating a disaster supplemental to address not only lingering 
issues from those events, but other devastating floods, hurricanes, and 
wildfires that ravaged communities across the nation during the last 
two years.
    It's vitally important that FEMA--and the emergency management 
community at all levels of government--have the capacity they need to 
help impacted survivors and communities recover with as little red tape 
as possible. Thank you again for your efforts.

    Ms. Titus. Thank you, Mr. Chairman.
    I now recognize Mr. Graves, the ranking member of the 
standing committee.
    Mr. Graves of Missouri. Thank you, Chairwoman Titus. I 
appreciate it.
    As you know, our committee has a critical role in emergency 
management, and that includes ensuring that FEMA and the 
Federal emergency management programs are working as 
efficiently as possible to help communities that get hit by 
these disasters. And in recent years and even in recent days, 
we have seen some significant storms, floods, and wildfires all 
across the country.
    And in the Midwest we obviously had above average snow in 
parts in the northern plains, and you combine that with the 
heavy rainfalls, it resulted in some severe flooding along the 
Missouri and Mississippi Rivers included in my district. The 
flooding impacted tens of thousands of acres of farmland and 
caused significant damage to homes and to communities and in 
infrastructure.
    And I am glad that Missouri received a Federal disaster 
declaration this week for Public Assistance, but more is 
needed. My constituents have experienced millions of dollars' 
worth of damages to farms and personal property, and I hope 
this is given full consideration as FEMA moves forward with the 
recovery efforts.
    Like all other regions of the country hit by disasters, our 
State and local communities, our first responders, our faith-
based organizations and other organizations, they all 
responded. But Federal aid is still sitting idle. The Federal 
resources are critical to helping our communities recover, and 
it can't get there fast enough.
    Even as we work to recover from an April flooding, as we 
speak we are experiencing more flooding across the State of 
Missouri right now. And it makes little sense for us to simply 
rebuild the same way over and over and over again, and that is 
why it is important for the reforms that we pass and the 
Disaster Recovery Reform Act to be implemented quickly. Helping 
communities build in mitigation upfront and streamlining the 
recovery process and reducing the bureaucracy is going to save 
lives and it is going to reduce costs.
    And with that, I look forward to hearing from our 
witnesses, and I would yield back. Thank you.
    [Mr. Graves of Missouri's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Our Committee has a critical role in emergency management, and that 
includes ensuring FEMA and federal emergency management programs are 
working as efficiently as possible to help communities hit by disaster. 
In recent years--and even days--we have seen significant storms, 
floods, and wildfires across the Nation.
    In the Midwest, we had above average snow in parts of the northern 
plains. That, combined with severe storms and heavy rainfalls, resulted 
in severe flooding along the Missouri and Mississippi River systems, 
including in my district. The flooding impacted tens of thousands of 
acres of farm land and caused significant damage to homes, communities, 
and infrastructure.
    I'm glad that Missouri received a federal disaster declaration this 
week for Public Assistance, but more is needed. My constituents have 
experienced millions of dollars' worth of damages to farms and personal 
property. I hope this is given full consideration as FEMA moves forward 
with recovery efforts.
    Like other regions of the country hit by disasters, our state and 
local communities, first responders, faith-based and other 
organizations responded, but federal aid is sitting idle. Federal 
resources will be critical to helping our communities recover, and it 
can't get there fast enough. Even as we work to recover from April 
flooding, as we speak we are experiencing more flooding across the 
state of Missouri.
    It makes little sense for us to simply rebuild the same way over 
and over again. That is why it is important for the reforms we passed 
in the Disaster Recovery Reform Act to be implemented quickly. Helping 
communities build in mitigation upfront, streamlining the recovery 
process, and reducing the bureaucracy will save lives and reduce costs.

    Ms. Titus. Thank you, Mr. Graves.
    I would now like to welcome our first witness on panel one. 
This is Dr. Daniel Kaniewski, who is the Acting Administrator 
of FEMA. We would like to welcome you here. Thank you for being 
with us, and we look forward to your testimony.
    Without objection, our witness' full statement will be 
included in record.
    Since your written testimony has been made part of the 
record, Doctor, we would request that you limit your oral 
comments to 5 minutes.
    You may proceed.

TESTIMONY OF HON. DANIEL KANIEWSKI, PH.D., DEPUTY ADMINISTRATOR 
      FOR RESILIENCE, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Kaniewski. Thank you, Chairwoman Titus, Ranking Member 
Meadows, Ranking Member Graves, members of the subcommittee. My 
name is Dan Kaniewski, and I am the Deputy Administrator for 
Resilience at FEMA, and I am currently the Agency's second 
ranking official.
    On behalf of FEMA Acting Administrator Pete Gaynor, I 
appreciate the opportunity to speak with you today about our 
Agency's implementation of the Disaster Recovery Reform Act, or 
DRRA, and the state of FEMA's readiness heading into the 2019 
hurricane season.
    On October 5 of last year, President Trump signed DRRA into 
law. Thanks to the bipartisan efforts of Congress, the reforms 
included in this legislation helped to increase FEMA's and the 
Nation's readiness for future disasters, acknowledge the shared 
responsibility of disaster response and recovery, and aimed to 
reduce the complexity of FEMA.
    Several key provisions in DRRA help to directly support our 
strategic plan. The first goal in our strategic plan is to 
build a culture of preparedness. A crucial provision in DRRA 
section 1234 allows for the establishment of a National Public 
Infrastructure Pre-disaster Hazard Mitigation Program.
    This program, which FEMA is calling Building Resilient 
Infrastructure and Communities, or BRIC, will be funded as a 6-
percent set aside from disaster grants under the Stafford Act 
to allow for greater Federal investment in mitigation before a 
disaster.
    This second goal in FEMA's strategic plan is readying the 
Nation for catastrophic disasters. DRRA included several 
provisions that aimed to develop this capability for FEMA's 
State, local, Tribal, and Territorial partners. For example, 
section 1211 allows FEMA to provide grants to State and local 
governments that administer or implement certain housing 
programs.
    Section 1215 also supports FEMA's efforts to develop the 
capability of State and local governments to manage grant 
programs by increasing the percentage of management costs that 
FEMA provides to manage Public Assistance and Hazard Mitigation 
Grant Programs.
    DRRA also allows FEMA to consider temporary personnel for 
permanent full-time appointments after they have served at the 
Agency continuously for 3 years, in the same manner that 
employees with competitive status are considered. This allows 
FEMA to retain staff that have proven expertise in emergency 
management and will strengthen our national incident workforce 
and overall readiness.
    The third goal in FEMA's strategic plan is reducing the 
complexity of FEMA. DRRA section 1223 directs an interagency 
study to streamline information collection from disaster 
assistance applicants and grantees. We look forward to 
continuing the work with our partners on implementation of this 
section to explore how best to improve the customer service 
experience.
    Other sections also direct FEMA to issue guidance on 
processes or clarify information to our stakeholders to 
continue to support our goal of reducing the complexity of 
FEMA. FEMA is committed to full and timely implementation of 
DRRA. Immediately following its enactment FEMA established a 
Policy Coordination Group comprised of accountable executives 
and other senior leaders from headquarters and the regions to 
ensure a deliberate and coordinated approach to implementation 
of each provision.
    FEMA also established a DRRA project management office to 
manage and track DRRA implementation across the Agency. FEMA 
has engaged and continues to engage its partners throughout the 
process of DRRA implementation. This includes updating our 
intergovernmental partners, many of whom are here today, 
regularly through calls and conferences with the National 
Emergency Managers Association and the International 
Association of Emergency Managers.
    FEMA also maintains a DRRA-specific web page with an 
overview of each provision along with the status on 
implementation. In the 7 months since DRRA enactment, FEMA has 
made significant progress in implementing these DRRA 
provisions. FEMA has issued interim policies for increased 
management costs under section 1215 for both Public Assistance 
and the Hazard Mitigation Grant Program in November 2018.
    FEMA has provided updated direction to the regions and 
revised templates for declaration request materials in order to 
give greater consideration to severe local impact and recent 
multiple disasters under section 1232.
    In March 2019, FEMA began retroactive payments in 
accordance with section 1212 which expands available grant 
funding through the Individual Assistance Programs. Since 
retroactive payments began, FEMA has provided an additional $54 
million to 10,000 applicants.
    FEMA has also issued a hazard mitigation post-fire policy 
to provide guidance on implementing section 1204, which allows 
hazard mitigation assistance following a Fire Management 
Assistance Grant, without the need for a major disaster 
declaration.
    The program will help provide funding to substantially 
reduce the future of damage following catastrophic wildfires. 
And FEMA has focused heavily on stakeholder engagement to 
inform the development of program guidance for the new BRIC 
program. For example, FEMA recently held a 2019 hazard 
mitigation stakeholders workshop with more than 300 State and 
local participants.
    On Monday we launched a solicitation for public comment 
through a crowdsourcing website called IdeaScale and announced 
four webinar listening sessions scheduled for June on the topic 
of BRIC.
    Thank you to Congress, and specifically this committee, for 
your efforts to reform emergency management to meaningfully 
assist communities in reducing their risks. We look forward to 
continued collaboration with you throughout the DRRA 
implementation process, and I am happy to answer any questions 
you may have. Thank you.
    [The prepared statement of Mr. Kaniewski follows:]

                                 <F-dash>
      Prepared Statement of Hon. Daniel Kaniewski, Ph.D., Deputy 
   Administrator for Resilience, Federal Emergency Management Agency
                              Introduction
    Good afternoon, Chairwoman Titus, Ranking Member Meadows, and 
Members of the subcommittee. My name is Dan Kaniewski, and I am the 
Deputy Administrator for Resilience at the Federal Emergency Management 
Agency (FEMA). On behalf of FEMA Acting Administrator Peter Gaynor, I 
appreciate the opportunity to speak with you today about the agency's 
implementation of the Disaster Recovery Reform Act.
                    The Disaster Recovery Reform Act
    On October 5, 2018, President Trump signed the Disaster Recovery 
Reform Act (DRRA) into law as part of the Federal Aviation 
Administration Reauthorization Act of 2018. Thanks to bipartisan 
efforts in Congress, the reforms included in this legislation help to 
build the nation's capacity for the next catastrophic event, 
acknowledge the shared responsibility of disaster response and 
recovery, and aim to reduce the complexity of FEMA.
    Several key provisions in DRRA help directly support FEMA's goals 
in our 2018-2022 Strategic Plan. The first goal in FEMA's Strategic 
Plan is Building a Culture of Preparedness. A crucial provision in 
DRRA, Section 1234, allows for the establishment of a National Public 
Infrastructure Pre-disaster Hazard Mitigation Program. This program, 
which FEMA is calling Building Resilient Infrastructure & Communities, 
or BRIC, will be funded as a six percent set aside from disaster grants 
under the Stafford Act to allow for a greater federal investment in 
mitigation before a disaster. Previously FEMA could provide pre-
disaster mitigation grants only by annual Congressional appropriations. 
By funding this program through the Disaster Relief Fund instead of 
separate annual appropriations, it allows for a more reliable funding 
stream to enable more robust project development.
    Building to stringent codes and standards is one of the most 
effective ways to reduce risk across the nation. To help emphasize its 
importance, DRRA includes provisions to expand eligible funding to 
restore disaster damaged facilities to the latest relevant consensus-
based codes and standards, and expands eligible funding to state and 
local partners for building code enforcement.
    DRRA also has multiple provisions expanding the scope of eligible 
activities under the Hazard Mitigation Grant Program (HMGP) to cover 
additional activities that reduce risk for wildfires, windstorms, and 
earthquakes.
    The second goal in FEMA's Strategic Plan is Readying the Nation for 
Catastrophic Disasters.
    DRRA includes several provisions that aim to develop the capability 
of FEMA's state, local, tribal, and territorial (SLTT) partners, which 
is a key component in improving the nation's ability to respond to 
catastrophic disasters. For example, section 1211 allows FEMA to 
provide grants to state and local governments who administer or 
implement certain housing programs. Section 1215 also supports FEMA's 
efforts to develop the capability of SLTT governments to manage grant 
programs by increasing the percentage of management costs that FEMA 
provides to manage Public Assistance (PA) and HMGP.
    As the number of annual federal disaster declarations continue to 
increase, FEMA is exploring the best role for federal government in 
disaster response to ensure that we are ready for the next catastrophic 
disaster, while also supporting our SLTT partners when they do not have 
the capacity to respond. In line with these efforts, Section 1239 
directs FEMA to review its declaration factors, particularly the 
estimated cost of assistance factor which includes a per capita 
indicator.
    DRRA also allows FEMA to consider temporary personnel for permanent 
full time appointments, after they have served the agency continuously 
for three years, in the same manner that competitive service employees 
with competitive status are considered. This allows FEMA to retain 
staff that have proven expertise in emergency management and will 
strengthen our overall national incident workforce.
    The final goal in FEMA's Strategic Plan is Reducing the Complexity 
of FEMA. FEMA stakeholders, including our SLTT partners and disaster 
survivors, provided feedback that multiple federal agencies request the 
same information, which can create confusion about roles and 
responsibilities. DRRA Section 1223 directs an interagency study to 
streamline information collection from disaster assistance applicants 
and grantees. We look forward to continuing to work with our partners 
on the implementation of that section to explore how to best improve 
customer service to our partners.
    Other sections also direct FEMA to issue guidance on processes, or 
clarify information to stakeholders, to continue to support our goal of 
reducing the complexity of FEMA. For example, FEMA is in the process of 
issuing guidance on inundated and submerged roads, hazard mitigation 
acquisition, and evacuation routes, in accordance with various 
provisions in the law.
                     FEMA's Implementation Approach
Policy Coordination Group
    FEMA is committed to a full and timely implementation of DRRA. 
Immediately following its enactment, FEMA established a Policy 
Coordination Group (PCG) comprised of accountable executives and other 
agency senior leaders from Headquarters and the Regions to ensure a 
deliberate and coordinated approach to implementation of each 
provision.
    The PCG meets on a regular basis to provide oversight and direction 
related to decision points on the way forward for various provisions. 
There are also staff-level working groups dedicated to each provision.
    FEMA also established a DRRA project management office to manage 
and track DRRA implementation across the agency. This team resides 
within FEMA's Office of Policy & Program Analysis.
Stakeholder Engagement
    FEMA continues to engage its Federal, state, local, tribal, and 
territorial partners throughout the process of DRRA implementation. 
This includes updating our intergovernmental partners regularly through 
National Emergency Managers Association (NEMA) and International 
Association of Emergency Managers (IAEM) calls and conferences. FEMA is 
also conducting targeted outreach and soliciting feedback from relevant 
stakeholders for provisions as appropriate. For instance, in accordance 
with the Agency's Tribal Consultation Policy, FEMA is in the planning 
stages of tribal consultation for DRRA provisions that have tribal 
implications.
    FEMA also maintains a DRRA-specific webpage \1\ with an overview of 
each provision along with a status on implementation. The webpage is 
continually updated with various fact sheets, guidance documents, and 
policies as we move forward with implementation of each provision. This 
is a one-stop-shop for the public to transparently track our progress.
---------------------------------------------------------------------------
    \1\ https://www.fema.gov/disaster-recovery-reform-act-2018
---------------------------------------------------------------------------
    FEMA also holds quarterly update meetings with related 
appropriations and authorizing committee staff to maintain open lines 
of communication between drafters of the legislation and those 
implementing it.
                   Seven Months Post-Enactment Update
    In the seven months since DRRA enactment, FEMA has made significant 
progress in implementing DRRA provisions.
2019 Annual Planning Guidance
    In particular, FEMA's 2019 Annual Planning Guidance prioritized 
five DRRA provisions for specific focus this year:

    1.  One of FEMA's top implementation priorities is to build the 
BRIC program. Currently, FEMA is focused heavily on stakeholder 
engagement to inform the development of program guidance for the new 
BRIC program under section 1234. For example, FEMA recently held the 
2019 Hazard Mitigation Stakeholders Workshop with more than 300 SLTT 
participants. The workshop included several presentations and four 
stakeholder ``listening sessions'' on BRIC, along with additional 
sessions on several other DRRA provisions.
    2.  FEMA issued interim policies for increased management costs 
under section 1215 both PA and HMGP in November 2018. We are now 
working on full implementation, including technical changes to grants 
systems and associated training and job aids.
    3.  FEMA is finalizing an interim directive to implement its new 
hiring authority for temporary employees under section 1222. We are 
targeting summer 2019 for its release.
    4.  FEMA provided updated direction to the Regions and revised 
templates for declaration request materials in order to give greater 
consideration to severe local impact and recent multiple disasters 
under section 1232.
    5.  FEMA is conducting a review of PA declaration factors pursuant 
to section 1239.

    FEMA has also made good progress on other provisions across the 
DRRA:
    In March 2019, FEMA began making retroactive payments in accordance 
with Section 1212, which expands grant funding through the Individual 
Assistance programs by providing for separate maximum grant amounts for 
Housing Assistance and Other Needs Assistance. The provision also 
excludes expenses for accessibility-related repairs and personal 
property from the maximum grant amounts for survivors with 
disabilities. Since retroactive payments began, FEMA has provided an 
additional $54 million to more than 10,000 applicants. FEMA has also 
implemented the new caps in accordance with Section 1212 for current 
and future disasters.
    FEMA successfully funded and issued a contract to the National 
Academy of Medicine for a study and report concerning best practices 
regarding mortality following major disasters in accordance with 
Section 1244 in DRRA.
    FEMA has also put out guidance and policies related to several 
other provisions, including: the final policy on HMGP following Fire 
Management Assistance Grants; a fact sheet on Duplication of Benefits; 
interim policies on management costs for PA and HMGP, a fact sheet on 
Right of Arbitration, and an extension of the Jeopardy Biological 
Opinion in Oregon.
Next Steps
    FEMA, through our DRRA project management office, will continue to 
strive toward implementing provisions in a timely manner. One of the 
key areas of focus will continue to be the development, implementation, 
and roll out of the BRIC program. BRIC will focus on building resilient 
infrastructure, with an emphasis on protecting critical lifelines (for 
example, transportation, safety and security, health and medical, 
energy, and communications). FEMA anticipates issuing the first Notice 
of Funding Opportunity for this new program before the end of CY2020. 
FEMA is continuing stakeholder engagement in designing BRIC, including 
numerous presentations at various stakeholder conferences, establishing 
an email inbox to solicit ideas, and actively working on identifying 
additional mechanisms for gathering further stakeholder input on the 
development of this program.
                               Conclusion
    Every day I am grateful for the opportunity to work for an 
organization dedicated to helping people before, during, and after 
disasters. Thank you to Congress, and specifically this Committee, for 
your efforts to reform emergency management to meaningfully assist 
communities in reducing their risks. We look forward to continued 
collaboration with you throughout the DRRA implementation process. I am 
happy to answer any questions you may have at this time.

    Ms. Titus. Thank you very much.
    I will now recognize each Member for 5 minutes of questions 
each, and I will start by recognizing myself first for some 
questions. Thank you.
    Doctor, in your testimony you mention that the Agency is 
committed to full and timely implementation of the DRRA 
statute, and I certainly recognize and appreciate what you have 
done. You laid out some of the accomplishments, most 
importantly, I think, the retroactive additional payments of 
assistance to the disaster survivors. But there are other 
provisions, I think as the ranking member pointed out, that 
have just fallen by the wayside.
    I would point out a couple specifically that seem to me to 
be low-hanging fruit and ask you why you haven't addressed 
these. Is it lack of personnel, resources not prioritized? What 
are the reasons? A couple that are specifically noticed, 
section 1245, this provides potential assistance for damaged 
underground water infrastructure, and section 1230(b), which 
has to do with co-ops and condos. Would you explain that to the 
committee?
    Mr. Kaniewski. Of course. And first let me say in general, 
we were delighted to have DRRA pass. Nobody was happier to see 
DRRA than FEMA. These are reforms that we have been asking for 
and hoping for for many years, long before this administration, 
frankly since the beginning of FEMA.
    I heard comments from members of the committee saying 
exactly right, it is crazy that we only do mitigation post-
disaster. Of course we should do more disaster mitigation 
before that disaster strikes. So I just want to say that in 
general that we are excited about this, and I look forward to 
overseeing many of these provisions for implementation.
    With respect to 1245, that is underground water damage, so 
we are implementing this through an assessment and we will 
deliver a congressional briefing as required in the provision. 
So the congressional brief is in final FEMA review. It is going 
to the interagency, I believe, this week, which means we should 
be able to brief you very soon, I would hope within a week or 
so.
    And the target date for completion of the congressional 
report is October 2019, and we appreciate, again, your interest 
in that, and we will be providing you an update very soon. I 
commit to you to that.
    And 1230(b), you said, was----
    Ms. Titus. Co-ops and condos.
    Mr. Kaniewski. Condos? Yeah, condos, OK. So we will 
implement that through a report to Congress, including a 
legislative proposal. The report is currently in final FEMA 
review, and target date for interagency review is also by the 
end of the month with the interagency. Our legislative proposal 
is due to you on January 3, 2019. It was extended. Thank you 
for extending it, and we owe it to you imminently.
    Ms. Titus. We will look forward to getting that sooner 
rather than later.
    Mr. Kaniewski. Yes, ma'am.
    Ms. Titus. Another question I am curious about is that 
recently FEMA was responsible for a data leak that exposed 
financial and other personal information for up to 2.5 million 
survivors. We have been frustrated by lack of information from 
FEMA about how you are addressing this, what you have done to 
be sure that a similar leak doesn't occur in the future, and 
any kind of services like credit monitoring or identity 
protection that you have offered to these people who have 
already been victimized and now this adds insult to injury.
    Could you address that for us?
    Mr. Kaniewski. Sure. Well, first, it was an over share of 
information with one of our contractors. In other words, FEMA 
provided more information than we needed to provide to that 
contractor for them to execute on that contract. Since then we 
have pulled back information that wasn't directly applicable to 
that contract.
    And more importantly, we determined that there is no 
evidence that any of the information that that contractor was 
provided somehow leaked to a broader audience. In other words, 
to the best of our knowledge, it was not provided publicly. So 
that protected information did go to the contractor. The 
contractor since expunged that information from their systems, 
and there is no evidence that it was provided more broadly.
    Now, what are we doing going forward? We want to make sure 
we harden our systems to make sure this doesn't happen again. 
We put better protocols in place to ensure our cybersecurity 
standards are up to snuff. And we are working very closely with 
our parent organization, the Department of Homeland Security, 
to make sure we can implement those practices in a timely and 
effective manner. And we will have more information to share 
with you very soon on that path going forward.
    Ms. Titus. Seems like all my questions are going to get 
more information in the near future as opposed to today, but 
all right.
    And the people who were affected by this have been notified 
and reassured that their information hasn't been shared--over 
shared?
    Mr. Kaniewski. Like I said, we will be able to be better 
prepared to speak to that with the U.S. Department of Homeland 
Security in the coming days.
    Ms. Titus. OK. Well, we look forward to it because it has 
been frustrating not being able to find that information out.
    All right. Thank you. I will yield to the ranking member.
    Mr. Meadows. Thank you, Madam Chair.
    First off, let me give an unbelievably sincere compliment 
to the men and women of FEMA who leave their homes many times 
to come. I was amazed when I see just the conditions that they 
have to live in to serve constituents in North Carolina, many 
of them were from Massachusetts, New Hampshire, all over the 
country literally coming, and it is not just in North Carolina 
but it is across the board.
    And so I want in my opening remarks that the rank-and-file 
FEMA disaster responders do not take that as any kind of a 
negative impression on their effort, in fact, just the 
opposite. I have been at command stations where they have been 
in a little teeny trailer in the middle of nowhere under--you 
know, eating fast food that honestly they would not survive on 
a long time if they had to do it more than a few weeks. And so 
I want to say that going forward.
    I am curious by your optimism on what you have implemented 
versus what your own website says you have done, because the--
my opening remarks were based off of your website and your 
information in terms of what you have accomplished and what you 
haven't accomplished.
    And so let's take 1234, because you just mentioned that in 
your opening remarks. How much of the 6-percent set aside has 
actually been deployed to individuals for preparation? How many 
dollars?
    Mr. Kaniewski. So if I had to say which provision I 
personally am most excited about, and I would say many of us in 
FEMA are most excited about, it is that provision. It is the 
building resilient infrastructure and communities provision 
because it is a game changer. It changes our profession being 
able to invest that kind of money before a disaster.
    Now, this is a new program, a large program, a complex 
program, and one despite any of our best efforts we can't just 
wave a magic wand and say that program has been implemented.
    Mr. Meadows. You have given a great answer to a question I 
didn't ask. How many dollars of what you have retained has 
actually been deployed?
    Mr. Kaniewski. So in conversations with Congress leading up 
to this provision Congress has taken the action to provide a 
historic amount of pre-disaster mitigation money under existing 
programs.
    Mr. Meadows. I am talking about 1234. You just had your 
testimony----
    Mr. Kaniewski. Yes.
    Mr. Meadows [continuing]. Where it is a 6-percent set 
aside. How much have you gotten to those individuals that would 
ultimately be receiving it? How much of the money have you 
gotten to them?
    Mr. Kaniewski. So, again, let me just state, we have an 
existing PDM program, and through that existing program, 
Congress has authorized us with $250 million last year and this 
year, which is more mitigation money that Congress has made 
available to your communities than in the last 10 years 
combined.
    Mr. Meadows. That is great. And I appreciate it. And I know 
because we have been voting on that. How much of the money--so 
let me just--perhaps I am not being clear. How much of the 
money has actually gotten to the people in North Carolina under 
your section 1234? How much money? Is it zero?
    Mr. Kaniewski. That program has not been implemented----
    Mr. Meadows. Exactly. I mean, it is a softball question, 
and, I mean, I don't know why we have to go around this so 
long. So here is--here is my concern in why you are feeling a 
little bit of passion, because what happens is in a bipartisan 
way we support these disasters, and what happens is on the 
ground they don't get the money.
    And I guess my question for you is at what point will the 
guidance be done for a bill that we passed in October of 2018, 
when can you quit telling the chairman that it is coming and 
you can say it is done? So what is the date?
    Mr. Kaniewski. Sure. So we expect to provide formal notice 
of the draft--of the program at the end of 2020. Now, until 
then we have our existing----
    Mr. Meadows. Oh, gosh.
    Mr. Kaniewski [continuing]. Pre-disaster--sir, can I--with 
all due respect----
    Mr. Meadows. Well, with all due respect, 2020 on a bill 
that we passed in 2018?
    Mr. Kaniewski. But----
    Mr. Meadows. Is that the fastest that you can do it?
    Mr. Kaniewski. It--listen, we have, as you can fully 
appreciate, a new--an opportunity here that we don't take 
lightly. And that in conversations with this committee leading 
up to the passage of this bill there was a great understanding 
on both sides that we wanted to do this right. And to do it 
right we felt that we needed time to engage our community, 
which frankly many of them are seated behind us, to engage them 
and to see what they want to see out of this program.
    Sir, if we just wanted to turn on this program tomorrow, 
maybe we could under the existing PDM program, but it wouldn't 
be the kind of game-changer investments that you are looking 
for. It would be a lot of the same kind of PDM programs.
    Mr. Meadows. All right. So let me--and I am sorry to 
interrupt. So let me get to the crux of the matter. Enough of 
the quarterly updates, enough of pretending like everything is 
done, because we went to your website, and so if your website 
is not up to date, get it up to date. Because we went up to 
your website, 55 different actions by section, 1234--I was just 
following during your opening testimony, and out of the 55 
sections you have 2 that are done, 2 that are partially done, 
and 1 of the ones that actually you have completed can't be 
implemented unless a different section is actually done.
    And so what I am saying is, out of 55 action items, you may 
be paddling like a duck under--you know, with his little feet 
underwater. But here is what I am saying is, until the money 
gets deployed to the people that need it, it is worthless. It 
is just action items.
    And so here is what I would ask: Are you willing to commit 
to give this committee staff weekly updates on the progress on 
each of these items? Will you commit your staff to do that?
    Mr. Kaniewski. We have provided updates, and we will commit 
to your----
    Mr. Meadows. Quarterly updates, I get it. This is not my 
first rodeo. Are you willing to commit to weekly updates to 
this staff?
    Mr. Kaniewski. If that is what your staff would like, we 
are happy to do them more frequently, yes, sir.
    Mr. Meadows. So weekly updates?
    Mr. Kaniewski. If that is what you would like, yes, sir.
    Mr. Meadows. All right. Thank you. I yield back.
    Ms. Titus. Thank you.
    I now recognize Ms. Mucarsel-Powell for 5 minutes.
    Ms. Mucarsel-Powell. Thank you.
    Thank you, Madam Chairman.
    Dr. Kaniewski, thank you for being here this morning. I 
represent Florida's 26th District. It is the southern-most 
district in the United States. It includes Miami-Dade County 
and all of the Florida Keys. And as you know, parts of my 
district got destroyed after Hurricane Irma. It is going to be 
almost 2 years. But our community is strong, resilient. We 
helped each other out, and we got back up and running very 
quickly. But we are not fully recovered, and it has been almost 
2 years, and it is in large part due to the lack of FEMA 
funding.
    Let me share with you one example. Keys Energy is the 
public power utility for the lower Florida Keys. After the 
storm, Keys Energy was supposed to receive $42 million from 
FEMA. As of today, FEMA has only provided $15.5 million to the 
Florida Department of Emergency Management. Of that, only $2.2 
million has been paid out to Keys Energy, $2.2 million from the 
$42 million that was approved.
    As a result of this low payout, Keys Energy had to take out 
a line of credit of $50 million to pay for the recovery cost. 
You can imagine people need to recover from this storm. Keys 
Energy has already paid over $1 million in interest for this 
loan, $1 million in interest, and is now turning to bonds to 
lower the interest that they have to pay.
    Not only is this timeline incredibly frustrating and 
unnecessarily expensive but it is also very dangerous. We are 
approaching hurricane season very rapidly in south Florida. 
They don't have any liquidity, and if they get hit by another 
storm in the coming months, they will have great difficulty 
paying for any recovery. This is just completely unacceptable.
    Another example, the Florida Keys Electric Cooperative, a 
small utility at the top of the Keys, also suffered significant 
damage to their community by Irma, and their total FEMA bill is 
$19 million. To date not one single dollar has been released 
from FEMA and reached the utility, not one. This is 
unacceptable.
    I also represent, as I mentioned, the large Port of Miami-
Dade County. The county as a whole has submitted reimbursement 
requests to FEMA to the tune of $299 million. However, to date, 
FEMA has only provided $1.5 million out of the $299 million, 
and only $782,000 has actually reached Miami-Dade County, which 
means that FEMA is sitting on roughly $297 million of the $299 
million that the county needs.
    So I would like to ask, can you please explain to us what 
is taking so long for FEMA to release the funds? And it has 
been almost 2 years.
    Mr. Kaniewski. Thank you, Congresswoman.
    Well, let me say, first of all, I can't speak to those two 
particular cases, but I will get you an answer on those two 
cases. I would like to provide a little broader perspective 
specifically for Florida just to make sure that you know that 
we are committed to supporting the full and complete recovery 
from Hurricane Irma.
    Take a step back. FEMA is responsible for providing 
immediate assistance to individuals. We want to make sure those 
disaster survivors are cared for immediately after a disaster, 
and in Florida I believe we did that. We provided $290 million 
immediately to those disaster survivors impacted by Hurricane 
Irma. We also provided $370 million in National Flood Insurance 
Program claims to claim holders in Florida.
    As far as Public Assistance, which is what you are 
referencing, our primary focus following a disaster is on 
emergency work. It is to take those actions that will save 
lives and protect property in the immediate aftermath of a 
hurricane, for example.
    Over the long term is when we focus on investing in 
infrastructure, making sure that that infrastructure, such as 
some of the infrastructure you mentioned, can be built back, 
repaired, or replaced, if necessary. Already FEMA has provided 
$71.5 million in Public Assistance for projects such as the 
ones you mentioned. And, again, I will have to follow up to 
find out.
    Ms. Mucarsel-Powell. And I am sorry, Mr. Kaniewski, thank 
you, but you are saying that you have given $200 million. In 
our area we have only received about $15 million, so those 
numbers don't add up at all. And I can tell you that people 
haven't received that relief funding. We have actually lost 
thousands of families in Monroe County that have had to leave 
the area because they didn't get the reimbursements that they 
had requested.
    So I implore you to please go back to your Agency and see 
what you can do to speed things along. And I would love for you 
to make a commitment today that you will get back in touch with 
my office within a week with the information that I need, 
specifically as it relates to Irma recovery funds.
    Mr. Kaniewski. Of course. We will be back in touch with you 
certainly within 1 week.
    Ms. Mucarsel-Powell. And, you know, it seems like there are 
a lot of inefficiencies. And I happen to agree with my 
colleague, Mr. Meadows, in sharing that frustration. What can 
Congress do to make sure that we speed up this process, that 
when we pass disaster relief funds here in Congress that those 
funds get allocated specifically to those areas that have been 
affected by natural disasters?
    Mr. Kaniewski. Again, we do get individual assistance out 
the door quickly. That is the money to help the individuals, 
disaster survivors. For Public Assistance, for any of these 
large infrastructure projects, we have two sometimes competing 
goals: One is to make sure that we can rebuild and recover that 
community as fast as possible. But the other goal that FEMA has 
is to make sure we safeguard the American taxpayers' dollars. 
We have to provide, consistent with the law, appropriate 
oversight and make sure that these dollars are being spent in 
the way they should be consistent with appropriate law and 
regulations.
    Ms. Mucarsel-Powell. Mr. Kaniewski, it has been 2 years. 
Maybe we need to add to the FEMA payroll, more people to 
provide oversight, but we need to speed things up. Thank you 
very much.
    Ms. Titus. Thank you. We will now recognize Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Madam Chair and fellow committee 
members, for allowing me to sit in on today's committee and ask 
these questions. Appreciate it.
    I represent northern California, which includes the town of 
Paradise that you have heard so much about, and FEMA has been 
extremely helpful in that timeline since last November, 18,000 
buildings destroyed, 150,000 acres burned, over $16 billion in 
damages, one of the worst disasters in 2018, and 85 lost lives.
    Me and my staff, I think largely complimentary of FEMA's 
work there. And, you know, FEMA has listened when there have 
been issues, such as disposal of the demolition and finding 
local solutions instead of more truck traffic and other things. 
So, you know, we give kudos for that.
    And the dollars that have flowed have been pretty 
effective, good interaction with local governments, State 
governments. So, you know, by and large, for as bad as this has 
been, things are making good progress. But we do, you know, 
here comes the ``but,'' right, you have got not an easy 
situation to deal with, but FEMA has been--expertise has been a 
lot more on flood and hurricane and like that, and wildfire 
probably hasn't been as much of an issue, especially one of 
this magnitude as Paradise.
    So just a couple questions I would have in that area. One 
of them, after a wildfire we have a lot of dead trees in the 
area around Paradise, and the car fire around Redding, 
California, and wherever there is one. Does FEMA really 
consider these dead trees to be part of the debris process?
    Again, you have been hauling away a lot of ash, hazardous 
ash to proper disposal areas and concrete debris and others. 
But dead trees, they are as big of a hazard still standing, and 
then we have a lot of these log piles that have accumulated in 
the process of cleaning up these lands as well. What is FEMA--
what should your approach be on these debris trees?
    Mr. Kaniewski. It would depend, I think, on the particular 
location of those trees. So if it was impeding a roadway or 
somehow impeding a recovery effort, FEMA dollars are available 
for debris removal as well as direct assistance to provide to 
support that.
    Mr. LaMalfa. So if they haven't fallen in a roadway or in a 
cleanup area, if they are still standing, they might not be 
deemed as--is there a Stafford Act issue there?
    Mr. Kaniewski. I think how you characterized it would 
probably be correct. They wouldn't be debris if they were 
perhaps still standing. It also depends whether they are on 
private land or public land. And I don't want to, you know, go 
into detail too much other than to say that FEMA money can be 
used, as you correctly stated, for debris removal. Generally 
that is focused on public space, but in the case of Paradise, 
given the huge impact there, especially including on private 
lands, we have taken some extraordinary steps to make sure----
    Mr. LaMalfa. You have, and it is greatly appreciated. Due 
to the magnitude, we don't want all that material flowing into 
all the watersheds. So I would ask you to take a closer look at 
even the standing trees and others being part of a debris 
problem we have because of the magnitude, OK, as we move along 
on this.
    And then the water issue up there as well. The water 
system, you know, a lot of plastic pipes, PVC pipes, so with 
the heat involved with the fire, much of that has been damaged 
or may be damaged, we don't know the full extent, so it has to 
be tested as to--benzine and other chemicals could be in that 
waterway.
    So we can't turn the water system back on that exists that 
hasn't been damaged because we don't have, I think, strong 
enough protocols on quickly testing, efficiently testing the 
zones of the system. Do we have a good area here, do we have a 
broken or, you know, need to be replaced area there.
    What can you see we could do to help that develop a better 
protocol for testing that will help speed this process? Because 
we are 6 months in, and it would be really good to turn the 
water on to the buildings that are--have existed or the units 
that have been brought in.
    Mr. Kaniewski. So FEMA isn't the arbiter on whether the 
water is safe to drink or not. We have Federal partners that, 
of course, are technical experts and that have the lead on 
issues like that. That would be the EPA.
    Mr. LaMalfa. And can EPA help in expediting this process?
    Mr. Kaniewski. Yes. So EPA is our key Federal partner on 
that and, of course, your State and local water officials. I 
know we work very closely with the Paradise Irrigation 
District, and what you really need to make sure is we are all 
synced up. We will double down on that, and I will speak to our 
region about that to make sure we are doubled down, making sure 
EPA and FEMA and the State and local officials are all focused 
on that priority.
    Mr. LaMalfa. OK. Thank you for that. And everybody is 
looking for safety but also expeditious.
    Lastly, on the mobile housing units, again, it has been 6 
months and it seems that the process has been impeded to get 
these housing units in place. I know you have had some 
challenges with getting proper land for that, but maybe we need 
to have another look at what would be considered a fire safe 
one in an area that has already burned.
    I think these housing units could come into place back in 
Paradise in cleared areas because the fire has struck. It is 
not going to be a hazard at this point. We need to have more 
flexibility on FEMA being able to put these MHUs back into the 
area and--because, you know, we have folks that have given up 
on that, that the housing numbers actually seem to be going 
down as to the perceived need. We need to look into that as 
well because I think the need is still out there.
    Mr. Kaniewski. Yeah. And I think fire safety is definitely 
important. But we also have to make sure that there is access 
to water, to sewer, to electricity, and as, you know, much of 
that infrastructure was badly damaged or destroyed. So it is--
it is a very--I don't want to understate the challenge here. 
Ninety percent of your housing stock has been destroyed.
    Mr. LaMalfa. Yes, sir.
    Mr. Kaniewski. So this is a huge challenge. Housing is 
always a challenge. It is a particular challenge when there is 
not adequate housing available.
    Mr. LaMalfa. We are already housing impacted in California 
in the north, yes. So that is why we need--maybe we can find a 
little more flexibility still within a safe atmosphere there 
that works. I think folks would be--they would be OK going 
along with that----
    Mr. Kaniewski. I think you----
    Mr. LaMalfa [continuing]. And the portable water, things 
like that.
    Mr. Kaniewski. I think you characterize it correctly which 
is we want to do it quickly but we have to also do it safely. 
And so what you are saying is we need to push a little bit 
faster, and I commit to you we will do that.
    Mr. LaMalfa. A little more flexibility----
    Mr. Kaniewski. And just a little more ability to bend what 
had been the traditional rule, especially when we are talking a 
wildfire situation not a flood. So anyway, I appreciate that, 
and if you could follow back up with us on what you might be 
able to do in that area. So----
    Mr. Kaniewski. I will be back in touch.
    Mr. LaMalfa. Thank you. Thank you for your indulgence, 
Madam Chair.
    Ms. Titus. Thank you.
    I now recognize Ms. Norton.
    Ms. Norton. Thank you very much, Madam Chair. This is a 
very important hearing, and I appreciate your testimony, Mr. 
Kaniewski.
    I am very concerned in this period of climate change 
wherein real time we are being hammered in many jurisdictions 
in our country by climate change. There is no way to avoid what 
we can see and, yes, in many States, feel. Therefore, I am 
concerned about evacuation routes. We have always had 
evacuation routes and FEMA has, of course, regarded this as a 
priority.
    In our last bill we asked for improvements in coordination 
of these routes and even for guidance on meeting design and 
maintenance and repair of vital routes. I mean, signaling that 
Congress knows we may need to change the routes not only in 
light of climate change but in light of the time that has 
passed since people have looked at their routes in light of 
evacuation needs.
    I would like to know what progress we are making on this 
change that was required by the Disaster Recovery Reform Act 
recently passed by the Congress.
    Mr. Kaniewski. Yes. And so traditionally evacuations are 
handled at the State and local level. State and local 
governments know best not only the routes but the dangers posed 
to those individuals, and, in fact, it is the reason that----
    Ms. Norton. Regulations, of course, are not----
    Mr. Kaniewski. I am sorry?
    Ms. Norton. I am talking about regulations. Are you saying 
those regulations--we asked FEMA and the Federal Highway----
    Mr. Kaniewski. Right.
    Ms. Norton [continuing]. Administration to identify and 
improve the coordination.
    Mr. Kaniewski. Yes. And I am sorry, I was just giving you 
background that the State and local officials generally handle 
evacuation. But you are absolutely right that DRRA requires us 
to work with the Federal Highway Administration to better 
understand how we can support our State and local partners, 
specifically on evacuation. And so, yes, we are working with 
FHWA, and, yes, we will get you a report and it will be 
provided to you consistent with DRRA.
    Ms. Norton. What is your timing on that, Mr. Kaniewski?
    Mr. Kaniewski. Could you give me the--does anybody know the 
section number off the top of your head?
    Ms. Norton. Yeah. I did have a section number here.
    Mr. Kaniewski. 1209 I was just told.
    Ms. Norton. 1209? All right.
    Mr. Kaniewski. Yes. So let's see here. So it doesn't look 
like--there was not a deadline established in DRRA, but target 
date for release on guidance is July.
    Ms. Norton. Ah, that is very, very good to hear. Are you--
--
    Mr. Meadows. July of this year?
    Mr. Kaniewski. July of this year.
    Ms. Norton. Of course, that--how does that coordinate with 
the hurricane season, by the way?
    Mr. Kaniewski. So hurricane season is June 1.
    Ms. Norton. Yeah, just in time, I might say.
    Mr. Kaniewski. Yes, ma'am.
    Ms. Norton. Are there factors that complicate the 
identification of evacuation routes? I mean, you already have 
some evacuation routes----
    Mr. Kaniewski. Absolutely.
    Ms. Norton [continuing]. But we were concerned that there 
needs to be improved coordination. So I would like to know what 
are the complications that you think may be involved?
    Mr. Kaniewski. And so what we hope to offer is additional 
guidance to our State and local partners on best practices for 
evacuation. We have learned a lot of lessons from 2017 and 2018 
on evacuation. We want to make sure that we provide those to 
our State and local partners. So we are directly aligned with 
you. We want to make sure that whatever we at FEMA and the 
Federal Highway Administration can do to provide those best 
practices we will do so.
    Ms. Norton. Thank you, Mr. Kaniewski.
    I yield back.
    Ms. Titus. Thank you.
    Before we go to Mr. Palmer, I would like to recognize the 
ranking member for a question.
    Mr. Meadows. So it appears that you are referring to a 
document that actually has dates on it that we are unaware of. 
So here is--I guess the chairman and I would agree, I think it 
would be very beneficial to this committee if you could supply 
that document to us so that we actually know the timeframes 
that are not codified in statute. Are you willing to do that?
    Mr. Kaniewski. Yes, Ranking Member. In fact, I think that 
these are often discussed at our briefings. I believe the last 
one was in March, so what you are hearing is new information 
because it is probably from March until now. I know we also 
have a briefing already scheduled with your staff for June. But 
to answer your question, yes, we will provide you a document 
with dates.
    Mr. Meadows. I thank the chair.
    Ms. Titus. Thank you. We appreciate that, because I 
understand after the last briefing you wouldn't share it with 
us, so that is a new approach and it is an improvement.
    All right. We will now go to Mr. Palmer.
    Mr. Palmer. I thank the chairman.
    Dr. Kaniewski, I want to take this in a little bit 
different direction. You made three different statements that I 
really appreciate, and one is you want to exercise greater 
oversight. That is always good. You say you want to make game-
changing investments. I think the committee supports that. You 
said you want to do it right.
    And I think in the broader perspective of helping people 
recover from disasters, one of the things that I have been 
concerned about is the inability to track money once it has 
been appropriated for disaster recovery, now, particularly in 
the longer term. Obviously we don't have a lot of choice. We 
have to appropriate money upfront for search and rescue, 
medical aid, that sort of thing, getting food to people in 
particular areas.
    But in the longer term perspective, we have touched on a 
little bit of this, and that is building in resiliency for 
future disasters, which we are never going to have particularly 
weather related, which will, I think, require that we repeal or 
reform the Stafford Act. Is it my understanding that that is a 
position of FEMA, or you just want to play around with the 
edges of it?
    Mr. Kaniewski. So we are certainly not advocating repeal of 
the Stafford Act, if that is what you are asking.
    Mr. Palmer. What I am specifically referring to is we have 
had disasters, particularly like in Puerto Rico and places like 
that. We have had a bridge washed out and the bridge is 
replaced and it is basically the same structure in the same 
location where--and we have talked. I think the Madam Chairman 
brought this up. I believe it was her that brought it up about 
paying for the same house multiple times when, if we were smart 
about replacing structures, whether it is a bridge or a 
building, or utility lines that we put them in places where 
they wouldn't be destroyed a second time or a third time or a 
fourth time. That is where I am getting at. That would require 
some reform to the Stafford Act.
    Mr. Kaniewski. So let me point out that we have several 
programs that are authorized actually in the Stafford Act that 
can help with situations like that. Now, we are talking about 
mitigation. There are multiple mitigation programs. Of course, 
the one we are all most excited about is BRIC, but we have 
existing programs.
    I mentioned PDM, the preexisting Pre-disaster Mitigation 
Program. I won't delve anymore on that, but our existing Post-
disaster Mitigation Programs that includes dollars, mitigation 
dollars that can be used for strengthening infrastructure, for 
doing things like you are talking about, for taking away risk 
from those vulnerable areas.
    In addition, we have mitigation programs that can 
strengthen on a project-by-project basis following a disaster. 
In other words, to the saying don't just build back, build back 
better.
    Mr. Palmer. Right. Engineer better, and build back better.
    Mr. Kaniewski. Yeah.
    Mr. Palmer. Now, on that line, that is the longer term 
issue here, is once you provide the immediate aid and you 
stabilize the situation then you start the longer term 
rebuilding process.
    I ran a think tank for 25 years, but prior to that I worked 
for two international engineering companies, and one of my 
concerns is how we handle contracts.
    I know Congress has been big on the community block grants, 
but there is an inability to track where the money actually 
goes. And I just wonder if there would be some consideration 
given that after the initial funding for the recovery that--for 
the rebuilding process that we do and build the invoice, that 
if you let a contract--and, again, this is what we would have 
done in the engineering world.
    We would have a contract and we would pay the contractor as 
they completed certain percentages of the project. That way you 
have actually got more oversight and it allows you to do it 
right, the two things you have said you would like to see FEMA 
do.
    Mr. Kaniewski. Yeah. So one of the really great provisions 
that is in DRRA that we implemented almost immediately was 
increased management costs. That means----
    Mr. Palmer. Yes, but I asked specifically are you willing 
to do it on a pay-to-invoice basis so you have got excellent 
oversight over the contractor?
    Mr. Kaniewski. Yeah. I would have to get back to you on 
that specific aspect, but several of the provisions in DRRA 
both enhance transparency and enable State and local 
governments, our partners who may not have that oversight 
ability that the Federal Government does, to provide them 
additional tools and additional funding to do exactly that 
oversight you are talking about.
    Mr. Palmer. Well, I am pretty sure that you and a number of 
us in this room would not write a blank check for someone to 
build a house or do much of anything that required substantial 
cost to us and just hand somebody a blank check and tell them 
to build it. But that is what we do with the Federal 
Government.
    Mr. Kaniewski. Well, we reimburse----
    Mr. Palmer. And I am really thinking, well, we are not 
trying to pick on FEMA. What we are trying to do is improve 
performance----
    Mr. Kaniewski. Agree.
    Mr. Palmer [continuing]. And meet needs and do it in a way 
that gives us the opportunity to mitigate against future damage 
in disasters and provide the best use of the taxpayer's money.
    Madam Chairman, I yield back.
    Mr. Kaniewski. Can I just clarify one----
    Ms. Titus. Thank you. We have got--they are going to call 
votes----
    Mr. Kaniewski. One sentence.
    Ms. Titus [continuing]. And then we are going to have to 
move--OK.
    Mr. Kaniewski. We don't issue block grants. We provide cost 
reimbursable grants. So we reimburse only after the work is 
performed, unlike a block grant that you mentioned.
    Ms. Titus. Thank you.
    Mr. Garamendi. 
    Mr. Garamendi. Thank you, Madam Chair.
    And I want to thank Mr. Meadows for his involvement in all 
of this. It is increasingly clear that the number of natural 
disasters that we have had has put extraordinary stress on 
FEMA. There are numerous cases in California where money has 
been spent, as you just said, and the paperwork is sitting on 
FEMA desks somewhere and the cities, counties, local 
governments are awaiting their reimbursement.
    It is an ongoing problem. Most of these areas that have had 
these disasters, whether it is Paradise or Sonoma, Lake County, 
Calaveras County, Amador County, are small counties, they don't 
have the resources to finance the out-of-pocket costs that they 
have incurred.
    Bottom line is, you are sitting on paperwork. What does it 
take to get the paperwork cleared? Question one.
    Mr. Kaniewski. I don't think it is fair to say that we are 
sitting on the paperwork. I think that----
    Mr. Garamendi. OK. It is on your desk. You are not sitting 
on it. It is on your desk.
    Mr. Kaniewski. Sure. So if there is a specific example you 
would like to give me, I am happy to follow up on that specific 
request.
    Mr. Garamendi. Yes, I will give you specific examples. The 
fellow behind you from Sonoma County, the fellow that I saw 
earlier today from Lake County, a supervisor in Calaveras 
County that I talked to on the phone 30 seconds ago or 3 
minutes ago, all of them said, paperwork has been on your desk 
for more than a year and a half. Why is it still there?
    Mr. Kaniewski. Again, I can't respond to that specific 
case, but please let me know so that I can----
    Mr. Garamendi. I gave you four different counties in 
California. Will you respond?
    Mr. Kaniewski. I would appreciate you sharing that with me, 
and I would be happy----
    Mr. Garamendi. I just did.
    Mr. Kaniewski. I don't have that----
    Mr. Garamendi. I will give it to you again in writing. 
Thank you.
    Mr. Kaniewski. Congressman, thank you.
    Mr. Garamendi. Next question.
    Mr. Kaniewski. Thank you.
    Mr. Garamendi. Not finished. Next question has to do with 
the creation of what can best be called a disaster industrial 
complex. Essentially you are recreating or creating the 
military industrial complex. Major national corporations, some 
of them new, who handle the paperwork who have the contracts go 
into the local counties and bring in contractors and workers 
from 2,000 to 3,000 miles away to do work that is desperately 
needed and jobs that are desperately needed by the locals.
    Why are you building a disaster industrial complex? Why are 
you not using local contractors? Why is your paperwork so 
dense, so obscure that the local communities are fearful of 
even going for a FEMA contract for fear that you will claw back 
the money because they forgot to dot an I or cross a T?
    Mr. Kaniewski. So the funding that we provide is to the 
State. The State then finds the subrecipients, meaning your 
local governments and contractors----
    Mr. Garamendi. That is just not the case. That is not what 
is happening in these counties. What is happening in these 
counties is you are bringing in national companies, often based 
2,000 to 3,000 miles away, to conduct the actual work on the 
ground because they are familiar or they have the inside track.
    Why are you doing that?
    Mr. Kaniewski. Again, we provide the funding to the State, 
and the State decides how they will execute those programs. 
There are some exceptions, and, again, if there is a specific 
example, I might be able to respond better.
    But in general, FEMA provides Public Assistance money to 
rebuild State and local infrastructure, and it is up to the 
State to decide how best to execute that program.
    Mr. Garamendi. I will have specific examples on your desk, 
and you will respond in 18 months?
    Mr. Kaniewski. Sir, I will respond quickly. Thank you. 
Thank you for the opportunity.
    Mr. Garamendi. Yes, you will respond quickly.
    Next question really for the Members here. A lot of 
discussion about how you get out of town when there is a 
hurricane or a fire or whatever. We are putting forth a bill 
that we actually had last week. It is called the ESCAPE Act. We 
are going to avoid FEMA. We are going to put this in the 
Department of Transportation. And my colleague sitting just to 
the left of me will be able to deal with that so that there 
will be a grant program so that, perhaps, local counties, 
communities, and others could actually access money in a more 
timely way than depending upon FEMA.
    I yield back.
    Ms. Titus. The Chair will now recognize Mrs. Miller.
    Mrs. Miller. Thank you, Chairman Titus and Ranking Member 
Meadows. And thank you all for being here today.
    I appreciate your time and effort in working to improve 
innovation in disaster relief and recovery response 
initiatives.
    In 2016, three schools within Nicholas County, West 
Virginia, were destroyed due to flood damage. I cannot stress 
how important it is to improve mitigation efforts between 
Federal, State, and local entities. It is now 2019, and we are 
still waiting on review assessment needed to replace these 
schools.
    I would like to hope that we can work to improve 
transparency and communication across the Government so that we 
are better prepared for handling disaster recovery in the 
future.
    Dr. Kaniewski, we have people in school districts, cities, 
and counties that need guidance, help, and support. What 
strategies are being implemented to ensure that States are 
prepared to handle the funding that they receive through FEMA?
    Mr. Kaniewski. So we have a number of new programs, 
including the FEMA integration teams that are in many of your 
States, including, Congresswoman, in your State. So those FEMA 
integration teams work side-by-side with the States to build up 
their own capacity so that they can manage these disasters in 
the future. And it is something we at FEMA, you may have heard 
us describe as federally supported, State-managed, and locally 
executed. That is a goal.
    At some point in the future, we would love to have all of 
the States have the capability in their State so they can 
manage, whether it be manage these contracts effectively or to 
rebuild infrastructure effectively or to build capacity. And 
those FEMA integration teams are a great way, a great start, 
certainly, to build up that capacity at the State level.
    You also mentioned the schools. And I know that we are 
working very closely at the regional level with all of the 
appropriate parties. And we are doing weekly meetings and 
updates to go through that environmental review process. And, 
again, it is not a FEMA process that we are trying to work 
through. It is an environmental review process. But we stand 
shoulder to shoulder with you in the region to make sure that 
we can get you through that process.
    Mrs. Miller. OK. I was hoping you would provide me with an 
update on the progress in rebuilding these schools in Nicholas 
County.
    Mr. Kaniewski. And like I said, it is a weekly update that 
we do at the regional level. I have spoken to our Regional 
Administrator, who is quarterbacking that. I am very confident 
that that process is moving along; it is moving forward. And 
all of us hope there will be a resolution soon to that process, 
that environmental review process.
    Mrs. Miller. OK. Have you noticed any significant 
differences in how rural populations handle disaster relief 
funding versus urban and suburban populations?
    Mr. Kaniewski. Ma'am, coming from a rural area in 
Minnesota, I know they handle them differently. And there are 
different types of hazards in a rural area and an urban area.
    We have several programs that focus on that. One is our 
preparedness grants in general. So our Homeland Security 
preparedness grants that are provided to the State. It is my 
hope that those grants are distributed by the Governor to all 
areas, not just high-population urban areas.
    But just to make sure, we do have specific training, for 
example, through the Rural Domestic Preparedness Consortium 
available specifically for those rural communities. In 
addition, we have technical assistance to help with planning 
and some exercise support, again, specifically for rural 
communities. I would be happy to get you that additional 
information.
    Mrs. Miller. It would be important because most of my areas 
are rural.
    Thank you very much. I yield back my time.
    Ms. Titus. Thank you.
    I would now like to recognize Mrs. Fletcher. And I point 
out that she is the vice chair of this committee and thank her 
for her assistance and leadership.
    Mrs. Fletcher. Thank you, Chairwoman Titus, and thank you, 
Ranking Member Meadows, for holding this hearing today, and to 
the witness for taking time to testify.
    I represent Texas' Seventh Congressional District. And 
anyone who has lived there in Houston as long as I have knows 
that there will always be another storm. Hurricanes on the gulf 
are a fact of life. But flooding as a result doesn't have to 
be.
    In 2017, Hurricane Harvey caused more than $125 billion in 
economic loss to the region, and recovery from Harvey is still 
ongoing in our district, even as we enter the next storm 
season.
    I know that FEMA personnel are stretched thin managing 
response across the country from 2017 and 2018 hurricane and 
wildfire seasons. We ask the Agency to do a lot, often with 
limited resources.
    With that said, I think most of us here on this committee 
still see room for improvement in how we respond to natural 
disasters.
    Often, the recovery money and efforts are slow to flow 
after a disaster with local municipalities like mine running 
into seemingly endless redtape.
    I know that, for many of my constituents, their greatest 
concern today is that they still don't feel safe in their homes 
after Hurricane Harvey, and they don't see any progress being 
made toward preparing for the next storm. That is why I 
introduced my first bill, the Hazard Eligibility and Local 
Projects, or HELP Act, which will improve the process for 
hazard grant eligibility. We must find ways to administer 
hazard mitigation grants at a quicker pace.
    This isn't a partisan issue. I want to sincerely thank 
Ranking Member Meadows and his staff for working with my office 
on the issue and being an original cosponsor on the HELP Act.
    We know that when disasters strike our communities, they 
aren't Republican or Democratic. They are just people who need 
help. And I look forward to working with you, Dr. Kaniewski, on 
these issues and hope your expertise can advise where Congress 
can be helpful in implementing changes that will facilitate and 
speed up the process.
    One of the issues we have run into in my district is 
project phasing.
    We have one mitigation project that is currently going 
through the eligibility process at FEMA, and this project will 
turn a local golf course into detention for flooding. At first, 
the city of Houston had planned to turn only part of the 
course, three holes, into a detention basin. This went through 
the FEMA hazard eligibility process and was approved.
    Before the city started construction or received funds on 
the approved portion, it decided it wanted to expand the 
project scope and do the entire course.
    While that proposal is going through the FEMA process now, 
our chief resilience officer has just learned that the city can 
no longer start on the previously approved three-hole project 
because it is now part of a larger project, and starting 
construction would prohibit others from qualifying.
    Nothing has changed about the first initial proposal of 
using these three holes of the golf course for detention. 
People in my district are incredibly frustrated because we know 
we need additional detention to manage our floodwaters. So 
nothing has changed about the first portion, but now it is 
caught up in redtape.
    So what are your thoughts on a phased approach to certain 
projects like this one so that we can get shovels in the ground 
more quickly? Is it possible under the current statute?
    Mr. Kaniewski. Thank you, ma'am. And, again, I am not 
familiar with this project. But let me say that, in general, of 
course, we agree that those are worthwhile projects. We want to 
make sure that we don't experience the severe flooding, whether 
it be in Houston or elsewhere, that we have experienced before.
    For those communities that are considering a new project, a 
new mitigation project, that they are going to draw down on the 
post-disaster mitigation money--I know this is confusing--so 
the HMGP money.
    There is a program available that is called Advanced 
Assistance. You can draw down a portion of that post-disaster 
money before you start the project to help pay for defrayed 
costs such as doing the environmental assessments and some of 
the other really laborious and potentially expensive steps that 
you need to do before the project would be approved.
    So, the short answer is, yes, there are limited programs 
available to provide that financial assistance before the 
project is undertaken. But, of course, the right answer is to 
use pre-disaster mitigation money. And whether it be our 
existing PDM program or the new BRIC program, we are all 
anxiously awaiting that program so that we can do this in a 
very methodical way.
    Mrs. Fletcher. Well, and I appreciate your--I have very 
limited time, so I just want to make it clear.
    I think the problem here is that we have a project that is 
approved. And now, because it could become part of a larger 
project, it is now held up.
    So how can we phase our projects so that we can get shovels 
in the ground faster?
    Mr. Kaniewski. Again, without responding to that particular 
project, I don't have the details on it in front of me. I can 
simply say that there is money available to do some of that 
work so that you can get that shovel in the ground like we all 
want as soon as possible.
    So I am happy to get you more information on that program 
because we all want to see these mitigation programs underway 
as soon as possible.
    Mrs. Fletcher. Thank you.
    And I yield back my time.
    Ms. Titus. Thank you.
    I now recognize Miss Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Madam Chair.
    And thank you for being here today.
    I want to say for the record that the staff of FEMA in 
Puerto Rico has been helping us all the way.
    But we still, 21 months after the hurricane, still 
suffering from a lot of the bureaucracy that is--the redtape in 
many agencies.
    And my first question will be, in FEMA's own website that 
tracks disaster recovery for Federal funding, Puerto Rico's 
disaster funding totals $42.2 billion. And of those being 
assigned by--prepared by Congress. But just $20.3 billion has 
been obligated for specific projects. Of those, only $12.6 
billion has made it to the island to my constituents. So we 
have got a great disparity of what has been approved and what 
is actually on the island.
    I do understand that FEMA has just informed Puerto Rico 
that they will be implementing a new plan for processing 
permanent work requirements--or requests.
    My first question will be, was the COR3, the Central Office 
for Recovery, Reconstruction and Resiliency, on the island 
included in any of the conversations about this new plan? Yes 
or no.
    Mr. Kaniewski. Can you tell me the name of the plan you are 
mentioning?
    Miss Gonzalez-Colon. Yeah. The new plan for processing 
permanent work requests.
    Mr. Kaniewski. OK. So, on permanent work requests, we have 
lifted the 270 controls, which I know is something that you had 
as a priority, and we did, too, to make sure that Puerto Rico 
could manage its own recovery. We have taken off those 
controls, and now we are expecting fixed cost estimates, 
meaning the estimates on how much it is going to cost, of 
course, from the Commonwealth's perspective by October.
    Miss Gonzalez-Colon. If you can send us the information if 
the COR3, which is the local government agency that was created 
in the requirements of the Federal funding, to manage all of 
the reconstruction of the island, was informed or at least in 
the conversations to make this new plan.
    This new plan indicates actually that FEMA will deploy 500 
people to Puerto Rico by June 3rd. How do you plan to do that?
    Mr. Kaniewski. So I think what you might be referencing is 
kind of a validate-as-you-go approach. In other words, we are 
going to sit side-by-side with you and make sure that we are 
validating all of these requests as they are coming in so that 
we don't wait until the end, so we don't wait until a closeout 
of the disaster. This is something that we are also doing in 
Florida and in Texas, so both Irma and Harvey. Governments are 
working together with us on that process.
    So it may be new to Puerto Rico, but it is not new to FEMA. 
And so we are committed to working with you and, like I said, 
sit side-by-side and make sure with COR3 to make sure they 
understand the process. And at the end of the day, this is 
going to be good for everybody because it enables us to get you 
the funding in a more expeditious way while also providing the 
oversight that we need to provide on these catastrophic 
disasters.
    Miss Gonzalez-Colon. In the case of Puerto Rico, of course, 
we are in hurricane season, and, sadly, we are going to receive 
it all because we are in the belt for hurricanes.
    We do sign an agreement of section 428, and you said that 
that fixed cost estimate will be developed just by FEMA after 
statements of award that are agreed on. If this kind of 
agreement signed is by the Governor of Puerto Rico, will you 
mean that FEMA is going to be releasing Puerto Rico from the 
requirement of 428?
    Mr. Kaniewski. No. I think we are all on board that 428 was 
the way we are going to go, and that is why the Governor signed 
that document. And that was an agreement made in the aftermath 
of the disaster.
    What we are saying is the fixed cost estimates for these 
sectors, that is due in October, and we will be working very 
closely with you to make sure that you can meet that deadline. 
I know I was just in Puerto Rico recently, and there was some 
concern about that.
    Miss Gonzalez-Colon. There is concern because--the reason 
for that is that we have more than 70,000 sites identified in 
need of an inspection of those. To this day, more than just 
10,000 of them have actually been executed.
    There is a holdup. My concern, the Governor's concern, 
everybody's concern on the island is that you have got a 
deadline in October of this year to actually use all of the 
Federal money we approved in this Congress. I mean, for Puerto 
Rico, it is the biggest amount of funds ever been approved, but 
we haven't received all of them because of this holdup in the 
deadline in October.
    I mean, if we are still inspecting more than 60,000 sites, 
how are we going to meet that benchmark without losing the 
Federal funds that were approved? And given that municipalities 
in Puerto Rico are often better staffed with the local 
governments, with licensing staff who are willing and able to 
conduct these inspections and certifications, why are we not 
using those professionals to the backlog side of requirement 
inspections? Because we are going to lose the money.
    I know my time has expired, but I would love to submit for 
the record several other questions, Madam Chair.
    Mr. Kaniewski. Can I respond?
    Ms. Titus. Just briefly.
    Mr. Kaniewski. I don't anticipate that you would lose the 
money. I don't think you are at risk of losing the money. The 
estimates are not due until October, and we are working with 
COR3 to make sure that we can meet that deadline.
    Ms. Titus. All right. We will take the questions and submit 
them.
    And be reassured that this committee will oversee that 
recovery in Puerto Rico and will plan to have a hearing just on 
that topic at some point in the future. We will look to you for 
some assistance with that.
    Thank you. And I now call on Ms. Plaskett.
    Ms. Plaskett. Thank you very much to the chairwoman and to 
the ranking member and thank you for allowing me, although I am 
not a member of this subcommittee, to ask questions of the 
witness that we have here today.
    Good afternoon, sir. Doctor, thank you very much for being 
here.
    And I wanted to talk with you about some of the mechanisms 
that are in place. As you know, I represent the Virgin Islands, 
and we are in the midst of not just recovery, but the beginning 
stages of a rebuilding. FEMA's Public Assistance program is a 
reimbursable program that requires the Virgin Islands to submit 
paid contractor invoices prior to being able to request 
reimbursement of those Federal funds.
    As the pace of recovery has quickened, many of those 
invoices amount to millions of dollars, and they are adding up. 
The Territory's severe disaster-related cashflow problems make 
it extremely difficult to advance the cash to pay those 
contractors, and this has led to long delays, work delays, and 
contractor dissatisfaction.
    We have not even gotten to the project worksheets for 
rebuilding of our schools, of our hospitals. This week, one of 
the schools that were damaged had a wall collapse while the 
children were in school. This is a very tenuous situation that 
we are living in, and there is no media attention to what is 
happening in the Virgin Islands.
    I am going to ask you. Given the small size of the Virgin 
Islands' general budget, with billions of dollars of FEMA 
Public Assistance projects in the works, what can FEMA do to 
advance funds to the Territory to provide the support necessary 
to start all of these critical infrastructure projects?
    Mr. Kaniewski. Well, thank you, ma'am. And you are right. 
We have approved a significant amount of funding for the U.S. 
Virgin Islands. I mean, I think it is about $2 billion at this 
point.
    However, USVI has some unique circumstances facing it, as 
you said, cashflow. And so we provided USVI with $309 million 
in community disaster loans to provide some of that assistance 
now in advance of receiving the Public Assistance down the 
road.
    Ms. Plaskett. And because the Treasury as well as the OMB 
Director have created additional conditions on those loans that 
were outside of what this Congress requested, I have a letter 
from both the prior chair of this committee, Chairman Shuster 
at the time, and the ranking member, who directed Treasury not 
to put those restrictions on. We have not even been able to get 
the full amount of those loans because of those restrictions, 
but as you said, they are loans.
    Mr. Kaniewski. Uh-huh.
    Ms. Plaskett. So how do we get to these contractors? I know 
that there is the Insular Areas Act, which says that for the 
small Territories, not our big sister Territory of Puerto Rico, 
but for the smaller ones, who have smaller amounts of cash, 
that you and FEMA, the Director of FEMA, have the ability, in 
your discretion, to waive the cost share for small Territories 
because they have these smaller budgets. Even if we didn't have 
cashflow, our budget is $1 billion, and we are talking about $9 
billion, $10 billion to rebuild the Virgin Islands. There is no 
way we would have the cashflow to be able to do that on our 
own.
    How do you expect us to do this outside of the loans that 
you have given us?
    Mr. Kaniewski. Sure. So USVI has a 90/10 cost share. So 
most disasters in this country only receive 75 percent from the 
Federal Government. USVI will be receiving 90 percent--is 
receiving and will continue to receive 90 percent.
    There are other funding programs throughout the Federal 
Government, of course. USVI is the recipient, I believe, of 
significant money from Housing and Urban Development through 
the Community Disaster Grant Program. That funding can be used 
to supplement our funding. And you appropriately said that our 
funding is cost reimbursable. That is just how our program is 
set up. I can't change the fact that it is cost reimbursable.
    But at this time, again, it is 90/10 cost share.
    Ms. Plaskett. But you can change that because you do have 
the discretion under the Insular Areas Act to take away that 
cost share. That is the law. This Congress has given you that 
authority. Are you saying that is not your authority, that 
there are other places that have directed you not to do that, 
or are there reasons why you don't have that authority? Because 
I remember speaking with Director Brock Long, who said that, 
you know, it is something he would like to do, but he is unable 
to do that.
    Mr. Kaniewski. So our view is that 90/10 is the appropriate 
cost share for Virgin Islands and that there are other Federal 
funding programs to support the additional cost share costs 
that you are talking about.
    Ms. Plaskett. OK. The other question I have for you is 
about the public shelters. And public shelters have not been 
rebuilt as of yet. And we have been utilizing the program that 
you have in place that is called the Sheltering and Temporary 
Essential Power, or STEP, program. How do we in the Territory 
have those remaining homes, the 400 homes, and FEMA approval to 
get these done before the peak hurricane season using existing 
contracts?
    Mr. Kaniewski. So I don't know the current status of those 
homes, but I can say that, yes, the STEP program is one of 
those tools we have in our toolbox. And it depends on the 
circumstances facing each of those structures, whether the STEP 
program or other FEMA programs or other Federal programs or, 
frankly, other non-Federal programs are the appropriate program 
for that.
    Ms. Plaskett. My time has run out.
    Thank you very much for the questions.
    Ms. Titus. Thank you. I now recognize Mr. Graves. Where did 
Mr. Graves go?
    Mr. Graves of Louisiana. Thank you, Madam Chair.
    Deputy Administrator, thank you for being here. I 
appreciate your testimony, and I know you are somewhat of a 
sacrificial lamb today.
    We have two kind of communities in the United States: those 
that have been through the disasters and those that will. You 
have many people up here who believe that spending money in 
disaster prevention and hazard mitigation and adaptation is 
pork spending and an unwise investment, and I think that study 
after study indicate otherwise, that if you make principled 
investments in resiliency, that you end up saving money. 
Considering we spent $1.7 trillion in the last $220 billion-
plus disasters in this country, we can't afford to continue not 
making the right investments.
    And I think the DRRA, the Disaster Recovery Reform Act, 
made giant leaps towards some of this proactive versus 
reactive, together with a few laws that we passed in the last 
Congress.
    I first want to jump on board with Congresswoman Plaskett 
just because she brought up an issue that is important, this 
whole cashflow issue and this approval issue. We have 
contractors in Louisiana that have not been paid for work in 
USVI because of this whole approval process and cashflow 
issues.
    Ms. Plaskett. Help me get them paid, Garret.
    Mr. Graves of Louisiana. Hey, I am in. I am in. Absolutely. 
We can even knock a hole in the wall between our offices and 
work on this together.
    But here is the deal. If you continue to do this to 
contractors, this collective approval process, you are going to 
end up with a smaller and smaller group of contractors that are 
able to do this, that are able to float the cashflow. And you 
are going to end up paying more and more money. You think $1.7 
trillion is a lot of money? Just wait. If you only have a 
handful of contractors that are actually capable of funding 
these types of projects, it is a flawed path.
    I understand you can point to Territorial governments, 
State governments, local governments. But the deal is it 
affects FEMA and its mission. Disasters are inherently 
unpredictable, and I understand it is a tough job that FEMA has 
got to come in and help be more agile in responding to the 
types of disasters that we have because all this is going to do 
is drive up costs.
    A key issue for us at home is duplication of benefits. And 
we amended section 312 of Stafford through section 1210 of 
DRRA. And we said that if you have someone who accepted a loan 
or was even approved by a loan from the Small Business 
Administration, they are not prohibited from receiving a grant. 
This became law in October. The State of Louisiana has one-
quarter of a billion dollars sitting in the bank waiting on 
guidance. And I know you are getting ready to start pointing 
fingers at OMB and HUD and everybody else. This is Stafford 
Act. And I would like to know where you are in this overall 
process in finishing this guidance.
    Mr. Kaniewski. Can you give me the section number again? I 
am sorry.
    Mr. Graves of Louisiana. 1210(a) which amends section 312 
of Stafford. Duplication of benefits.
    Mr. Kaniewski. I appreciate that you have this memorized, 
Congressman.
    Mr. Graves of Louisiana. It affects 7,000 families. We are 
holding up one-quarter of a billion dollars. People have gone 
through foreclosures, bankruptcies, having to choose between 
leukemia medication or paying a loan back. This is just stupid, 
and it is unacceptable. And yeah, I have it memorized because 
we are going to continue aggressively representing the disaster 
victims because we have had the Governor of Texas, Louisiana, 
Puerto Rico, and North Carolina that have all asked for the 45-
day discretion granted under the bill, and no one has gotten a 
response back.
    Mr. Kaniewski. And so we agree with you. I think the 
comment earlier about transparency with these programs, 
coordination of these programs, eliminating----
    Mr. Graves of Louisiana. I just want to know where you are 
on guidance. Where are you?
    Mr. Kaniewski. Yeah. So we are currently in the process of 
developing the report that is due to you on October 5th of this 
year. I would say that if you want more detail right now, we 
have had----
    Mr. Graves of Louisiana. There is no report--the report is 
a report looking at the efficacy of this once it is actually 
implemented.
    We can't--the State is prohibited from releasing one-
quarter of a billion dollars that has been sitting in the bank 
for 2 years because we don't have guidance yet. We don't have 
implementation.
    These people are going to get paid eventually, and all we 
are doing is delaying the inevitable and having an adverse 
effect on these families. And it is--I mean, you are talking 
just in Louisiana, 7,000 families. Across Texas, North 
Carolina, Puerto Rico and others, I am sure it is tens of 
thousands, if not more.
    Mr. Kaniewski. I got you. So it looks like we issued a fact 
sheet in February, and HUD is on the hook to issue the 
guidance.
    Mr. Graves of Louisiana. Right. And I know--we are going to 
sit here pointing fingers at HUD. And I want to remind you: It 
is codified in Stafford Act. You were at the table. I 
understand there was a meeting 2 days ago to discuss this with 
senior officials.
    I just want to urge you. This is part of the recovery 
process, and it is part of the job that you do in disaster 
response and recovery. I urge you to light a fire under 
someone. This is wrong what y'all are doing to disaster 
victims. Our own Government is revictimizing our own citizens, 
and it is wrong.
    Madam Chair, I just want to ask a QFR: if you could please 
provide in writing an update on interpretation of section 1209 
of DRRA, I would appreciate it.
    Thank you.
    Ms. Titus. Thank you.
    I now recognize Mr. Huffman.
    Mr. Huffman. Thank you, Madam Chair. And I especially want 
to thank you for your opening remarks about the latest twists 
and turns in our infrastructure struggle with the White House.
    Deputy Administrator Kaniewski, I want to bring your 
attention to issues on the ground in Sonoma County, in my 
district, where the community is still working to recover from 
devastating wildfires in 2017. I also encourage you to stick 
around, if you can, for the second panel, because you will hear 
from my own Sonoma County Supervisor, James Gore, who is 
sitting right behind you. And I think some of the information 
that he will be sharing is very important for you to hear.
    As FEMA works to implement the provisions of the DRRA, I 
urge you to actually listen to these communities that are 
trying to rebuild after disasters. The assistance that your 
Agency provides is absolutely critical. And don't get me wrong; 
it is entirely appreciated. But we need to do more than just 
post implementation guidelines online. They need to be fully 
incorporated into the day-to-day work of FEMA staff. And our 
experience tells us that poor communication regarding 
disbursement timelines and what exactly qualifies for Public 
Assistance, for example, can not only confuse localities but 
can increase financial risk after a disaster.
    I don't believe any community out there is trying to game 
the system after a major disaster. When we are faced with not 
only the cost of rebuilding but a tax base that has been 
devastated, cities and counties desperately need accurate, 
timely information from FEMA that they can count on.
    Even today, in my district, almost 2 years later, I am 
still hearing concerns from communities in Sonoma County that 
FEMA is ill-equipped to review and approve the need for tree 
removal and vegetation management after the last wildfire in 
order to avert the next disaster.
    The city of Santa Rosa, as a specific example, has proposed 
a number of tree removal projects that FEMA is still reviewing, 
and I want to urge you to do what you can to make sure that 
these projects are quickly approved so we can avoid future 
wildfires.
    Time is of the essence. We used to have a fire season in 
California. Now, we pretty much have a year-long fire threat.
    Here is why FEMA's approval of these projects in a timely 
fashion is so critical. As you know, fires in densely populated 
areas leave behind dead and dying trees across thousands of 
parcels, which need quick attention so that the fire does not 
permanently damage the ecology of the area. But without tree 
removal, the stumps can regrow as thicker vegetation or brushes 
that actually exacerbate fire damage in the next fire season. 
That is the problem that we are dealing with, and that is where 
we need your help.
    We will also hear later from Supervisor Gore that FEMA 
still has not yet implemented DRRA provisions that expand 
wildfire mitigation measures that are eligible for assistance 
through hazard mitigation grant funding. These activities 
include the removal of burned trees, reduction of hazardous 
fuels, and establishment of defensible space measures.
    So, Deputy Administrator, one of the provisions DRRA, was 
an amendment to that law, included the removal of burned trees 
as a specifically eligible activity under the 404 Hazard 
Mitigation Program.
    And I want to just ask you, when will FEMA finally have its 
guidance issued on the implementation of this provision?
    Mr. Kaniewski. Thank you, Congressman. And yes, wildfire--I 
think honestly focusing on wildfires is something that we can't 
take our eyes off of, particularly in the wildland/urban 
interface, is something that I think the American public is 
just starting to understand. Of course, California has 
understood this for a long time. So thank you for your 
comments.
    Specifically on 1205, where you are talking about expanding 
eligible wildfire activities under the mitigation programs, we 
are working with key scientific staff and researchers, 
including the National Institute of Standards and Technology, 
NIST, to determine the best approach to implement this finding.
    Mr. Huffman. Do you know when that guidance will be out?
    Mr. Kaniewski. There is no deadline. However, FEMA will 
implement a new policy after we get through the technical 
review, which is on target for publication next summer.
    Mr. Huffman. Well, I just want to say, I hope for the sake 
of the communities I represent and certainly many others that 
must be similarly situated, that FEMA can move more quickly in 
implementing these provisions. We are now looking at extra fire 
seasons where we are at risk simply because we can't get 
clarity on how these programs are to move forward. So thank you 
for doing what you can.
    And, with that, I yield the balance of my time.
    Ms. Titus. Thank you. We are about to have votes called. 
And so, as a result of that, I would like to ask for a 
unanimous consent that we forgo a second round of questions.
    Lucky for you.
    Well, thank you. And thank you, Doctor, very much for your 
testimony. It has been very enlightening. I have been very 
liberal with the time because everybody on the panel has a 
disaster in their district that they really want to get some 
answers to. So we look forward to your getting back to us with 
some of the questions and some of those deadlines. We 
appreciate that very much.
    I would now like to call up panel 2. And, again, I will ask 
for unanimous consent that, because of the time, the witnesses 
limit their statements to 3 minutes instead of 5 minutes.
    All right.
    Mr. Meadows. While they are getting going--Doctor--Doctor, 
it is the voice of God.
    While they are getting set up, what I think might--based on 
Mr. Graves' comments, what I think might be prudent is for you 
and Secretary Carson to work with us very quickly in terms of 
some of the mitigation rulemaking, some of the issues that Mr. 
Graves brought up. It doesn't just affect Louisiana. It affects 
Texas, across the board.
    And if you will contact Secretary Carson, he is well aware 
of our concerns. I think it is good that we would have a 
briefing. And to the extent the chairman wants to be involved 
in that, we would welcome that as well.
    Ms. Titus. While you are still here, Doctor, just because 
you are not at the table didn't mean we wanted you to leave. We 
would ask that you please stay at least through the opening 
statements in case there is something that you might want to 
add or we might want to refer to you.
    Thank you very much.
    All right. It is my pleasure now to introduce our next 
panel of witnesses. We have Sima Merick, who is the executive 
director of the Ohio Emergency Management Agency, who is here 
on behalf of the National Emergency Management Association; 
Nick Crossley, who is the director of the Emergency Management 
and Homeland Security Agency for Hamilton County, Ohio, who is 
here on behalf of the International Association of Emergency 
Managers; James Gore, who is the supervisor from the Fourth 
District of the County of Sonoma, California, who is here on 
behalf of NACo; Al Davis, deputy director from Texas A&M 
Engineering Extension Service, here on behalf of the National 
Domestic Preparedness Consortium; Pamela Williams, executive 
director of the BuildStrong Coalition; and Randy Noel, who is 
president of Reve, Inc., who is here on behalf of the National 
Association of Home Builders.
    I thank you all for being here today, for waiting for us, 
for abridging your testimony to 3 minutes. We look forward to 
it.
    I believe Mr. Graves wants to make a few comments about Mr. 
Noel and welcome him.
    Mr. Graves of Louisiana. Thank you, Madam Chair.
    Randy Noel has been building homes in south Louisiana for 
over 30 years, built I think well over 1,000 custom homes in 
the State but has really been a leader in building standards 
and flood recovery work for the Louisiana home builders. And as 
past chairman of the National Association of Home Builders, he 
worked with Louisiana home builders to help design a recovery 
program for flood victims that helped to get them back in homes 
much faster than they otherwise would have.
    And let me just say it again, a real leader in flood 
insurance and building standards and recovery and in resilient 
standards for disasters. You have been through many of them 
yourself. Lives right outside of the New Orleans area. I want 
to thank you very much for being here today and for your 
expertise on this issue.
    Ms. Titus. Thank you, Mr. Graves.
    Without objection, our witnesses' full statements will be 
included in the record. And with the previous panel, since your 
written testimony will be part of the record, we are going to 
ask you again, please, to limit your testimony to just 3 
minutes.
    We will now proceed with the witnesses in the order they 
are sitting. We will begin with Ms. Merick.

 TESTIMONY OF SIMA MERICK, EXECUTIVE DIRECTOR, OHIO EMERGENCY 
    MANAGEMENT AGENCY, ON BEHALF OF THE NATIONAL EMERGENCY 
    MANAGEMENT ASSOCIATION; NICK CROSSLEY, C.E.M., C.P.M., 
 DIRECTOR, EMERGENCY MANAGEMENT AND HOMELAND SECURITY AGENCY, 
  HAMILTON COUNTY, OHIO, ON BEHALF OF THE U.S. COUNCIL OF THE 
  INTERNATIONAL ASSOCIATION OF EMERGENCY MANAGERS; HON. JAMES 
 GORE, SUPERVISOR, SONOMA COUNTY, CALIFORNIA, ON BEHALF OF THE 
   NATIONAL ASSOCIATION OF COUNTIES; ALPHONSE DAVIS, DEPUTY 
DIRECTOR, TEXAS A&M ENGINEERING EXTENSION SERVICE, ON BEHALF OF 
   THE NATIONAL DOMESTIC PREPAREDNESS CONSORTIUM; PAMELA S. 
WILLIAMS, EXECUTIVE DIRECTOR, BUILDSTRONG COALITION; AND RANDY 
NOEL, M.I.R.M., C.G.B., C.M.P., PRESIDENT, REVE INC., ON BEHALF 
          OF THE NATIONAL ASSOCIATION OF HOME BUILDERS

    Ms. Merick. Thank you, Chairwoman Titus, for that 
introduction, calling this valuable hearing today with Ranking 
Member Meadows and allowing me to testify before the 
subcommittee on FEMA, readiness, and implementation of the 
DRRA.
    As vice president of NEMA, I am proud to represent the 
State emergency management directors of all 50 States, 
Territories, and the District of Columbia.
    In general, readiness of FEMA relies on the readiness of 
State and local emergency management organizations. FEMA is not 
a first responder, and States only request FEMA's assistance 
after exhausting their own capabilities.
    To give you some context, in fiscal year 2018, 66 disasters 
required a declaration requiring FEMA assistance. Beyond those 
declarations, State and local emergency managers handled 23,331 
additional events without Federal assistance, because the 
capabilities we have built.
    There are three ways the States have built capabilities. 
One, States helping themselves: 26 States maintain their own 
State-funded assistance program to help citizens and businesses 
in the wake of disaster. Many events did not meet FEMA 
thresholds, which is evident by the 23,000 events managed by 
States and the locals.
    States also help one another through the EMAC, Emergency 
Management Assistance Compact. In 2016, Ohio specifically 
utilized more than 1,000 personnel through EMAC to help with 
the Republican National Convention in Cleveland. Since that 
time, nearly 26,000 personnel have deployed through EMAC to 
events ranging from hurricanes. We also utilize programs, such 
as Emergency Management Performance Grant.
    We are fortunate in Ohio to be spared the horrors suffered 
by others in the 2017-2018 disasters. However, we have had a 
couple of disasters in 2018 and 2019 that were declared in 
southern Appalachian regions of Ohio. During the disaster, 
Public Assistance staff was flown into Ohio, received just-in-
time training, and then were deployed to the declared counties.
    This lack of FEMA-trained previous disaster experience led 
a great deal of inconsistency with the decisions made by FEMA 
personnel, thereby increasing the aggravation of applicants.
    Unfortunately, history may be repeating itself with the 
2019 disaster, as FEMA assistance staff in Ohio will not be on 
the ground until mid-June.
    NEMA is also working closely with FEMA on another readiness 
effort: its implementation of the DRRA. The crown jewel of this 
program is the 6-percent set aside. From a workshop FEMA did 
during the NEMA forum this past March, it became clear that 
implementation is progressing slowly at best. This new 
mitigation program should be one of the highest priorities for 
the Agency.
    The other key provision for us was the increase in 
management costs. We appreciated FEMA moving quickly to 
establish a guidance, but several questions remain. With 
management costs now statutorily split between the States and 
locals, how will this change roles and responsibilities? How 
will monitoring and oversight be accomplished? And how can we 
ensure the flexibility of these funds to build necessary 
capacity at the State and local levels?
    Thank you again for holding this hearing. Emergency 
management policy is never easy, mainly because every day 
across the Nation, State and local emergency managers are still 
recovering from the last event and continuing to conduct 
planning, building the capacity, and setting the stage for the 
next storm.
    [The prepared statement of Ms. Merick follows:]

                                 <F-dash>
 Prepared Statement of Sima Merick, Executive Director, Ohio Emergency 
   Management Agency, on behalf of the National Emergency Management 
                              Association
    Thank you, Chairman Titus, Ranking Member Meadows, and 
distinguished members of the Committee for allowing me to testify 
before you today.
    I am proud to testify today as Vice President of the National 
Emergency Management Association (NEMA). NEMA represents the state 
emergency management directors of all 50 states, territories, and the 
District of Columbia. On behalf of my colleagues in state emergency 
management, we thank you for holding this discussion on implementation 
of the Disaster Recovery Reform Act (DRRA) and FEMA readiness.
    No discussion of the DRRA would be complete without us again 
expressing our appreciation for the hard work of this committee in 
securing passage of that transformative reform package. NEMA was an 
ardent supporter as DRRA worked through the legislative process and 
appreciated the receptiveness of you and your staff to engage in 
constructive dialogue. I will discuss the DRRA in more detail shortly 
but will first address the other topic of this hearing--FEMA readiness.
                  State Readiness Means FEMA Readiness
    FEMA readiness must be viewed through the lens of state and local 
readiness. In the absence of the state and local building blocks of the 
emergency management foundation, the response and recovery to a major 
event will falter.
    In assessing state readiness, the events of the 2017 and 2018 
disaster seasons remain in the forefront of all our minds. We were 
fortunate in Ohio to be spared the brunt of Mother Nature, but still 
managed two Major Disasters Declarations for severe storms. Many of my 
colleagues, however, would tell a much different story.
    Tennessee, California, and Wyoming would talk about the devastating 
affects of wildfires. Florida would undoubtedly highlight concerns with 
debris removal and pre-event contracting. Texas realized the 
difficulties in managing the housing mission but continues to 
persevere. North Carolina now understands first-hand the lack of 
coordination between federal disaster programs and continues educating 
the NEMA membership on danger zones in managing the Community 
Development Block Grant-Disaster Recovery of the Department of Housing 
and Urban Development. Regardless of the various challenges, they would 
share some common sentiments.
    In addition to the physical disasters which swept the nation, we 
saw several examples of missteps in utilizing alert and warning 
systems. The management of these systems, however, varies from state to 
state, so Congress should carefully consider any broad, sweeping 
changes as any issues may be isolated to specific instances. Typically, 
the one-size-fits-all mantra does not apply to emergency management 
policy.
    Citizens across the country as well as political leadership must 
understand the roles and responsibilities in responding to and 
recovering from disasters. The Federal Emergency Management Agency 
(FEMA) is not a first responder, and the Governor maintains ultimate 
authority over managing the disaster, but without robust local 
emergency management, the execution of programs and projects will 
falter.
    Finally, one of the most sensitive issues post-disaster is managing 
housing programs. In 2017 we saw states such as Texas take bold steps 
in managing their own housing programs. Through this process, we 
learned of some opportunities for better performance overall in the 
hierarchy of national housing programs and sheltering. Even if the 
programs are found to be satisfactory, we must consider how best to 
communicate and manage the relocation of thousands of citizens, and 
carefully explain the intent of assistance programs which aim for 
ultimate repatriation. In recent years, FEMA made intimations of 
deferring management of the housing mission to states through a block 
grant, citing regulatory and compliance difficulties. If fundamental 
problems exist within the housing programs, we should err on the side 
of make appropriate adjustments, not arbitrarily shifting 
responsibility to the states which every Governor may not want.
                           Building Capacity
    Three fundamental pieces stand-out when looking at state capacity 
to respond to and recover from disasters--How States Help Themselves; 
How States Help One Another; and The State-Federal Partnership.
How States Help Themselves
    As stated previously, FEMA is not a first responder. According to a 
report produced by NEMA and the International Association of Emergency 
Managers, in FY18, state and local emergency management organizations 
managed 23,331 events without federal assistance. Furthermore, we must 
set expectations in what federal programs can, cannot, should, and 
should not be able to accomplish.
    According to NEMA's 2018 Biennial Report, 26 states maintain their 
own state-funded assistance program to help citizens and businesses 
when a disaster or emergency does not meet the criteria for a federal 
declaration. Of those, 22 have public assistance programs; eight have 
individual assistance programs; five offer unmet needs programs; eight 
have other assistance programs; and one state has an economic/business 
recovery disaster assistance program. Other assistance programs also 
exist to meet shortfalls such as short-term housing assistance, hazard 
mitigation programs, housing and personal property losses, and 
shortfalls in local budgets due to damage incurred by a disaster.
How States Help One Another
    No state has all the resources they would need to fill every 
shortfall for every possible disaster. The Emergency Management 
Assistance Compact (EMAC) is the system states turn to in times of 
need. EMAC is implemented by the state emergency management agencies 
allowing for an efficient, effective, and coordinated response between 
states. Since Congress ratified Public Law 104-321 in 1996, EMAC grew 
to include all 50 states, the District of Columbia, the U.S. Virgin 
Islands, Puerto Rico, and Guam.
    In 2016, Ohio utilized EMAC to bring in over 1,070 law enforcement 
officers from seventeen states including California, Florida, Georgia, 
Indiana, Kansas, Massachusetts, Michigan, Missouri, North Carolina, New 
Jersey, and Wisconsin in providing security for the Republican National 
Convention. Officers arrived trained, experienced and equipped enabling 
the City of Cleveland to fully implement their security plan.
    The diversity of EMAC in the availability of disciplines and 
ability to handle any range of hazards is unparalleled. I know that 
should Ohio need search and rescue, animal response, public health, 
emergency medical services, medical, fire, mass care, cybersecurity, 
utility workers, telecommunications, National Guard, or resources from 
other disciplines; we can request and will receive them through EMAC. 
The ability to utilize resources from across the nation who arrive 
trained and experienced is invaluable. It also leverages federal grant 
dollars invested in building capabilities and provides experiences that 
can be taken back home to improve plans and procedures.
    Since 2016, nearly 26,000 personnel deployed through EMAC for 
hurricanes, wildfires, severe weather, gas explosions, a measles 
outbreak, an active shooter event, a volcano, and an earthquake. Most 
recently, resources from Minnesota, Kansas, and Washington recently 
deployed in response to major flooding in Nebraska. Meanwhile, Arizona, 
Colorado, Kentucky, New York, Oregon, Tennessee, and Nevada deployed 
personnel to Alaska in support of the earthquake.
    In large-scale disasters, states also deploy teams to FEMA's 
National Response Coordination Center and the Regional Response 
Coordination Centers to coordinate the state response through EMAC with 
the federal response. In 2017, the first team to stand-up the EMAC 
liaison desk was from the District of Columbia. These teams worked with 
FEMA to garner critical support for transportation to both the U.S. 
Virgin Islands and Puerto Rico as well as housing for first responders.
    States are continually working to improve the implementation of 
EMAC, making changes to EMAC procedures and finding innovative ways to 
utilize the Compact. Following Hurricane Harvey, Texas innovated the 
process by offering a 75 percent reimbursement advance to assisting 
states to shorten the length of time before states recouped expenses. 
In 2017, states in Region VI--Arkansas, Louisiana, New Mexico, 
Oklahoma, and Texas utilized the Interstate Emergency Response Support 
Plan (IERSP) that accelerates the EMAC response by pre-identifying 
resource shortfalls and resource providers who immediately deploy when 
triggers are met. Similarly, states in Region IV utilized the FEMA 
Unified Planning Coalition relationships to quickly and efficiently 
share resources though EMAC.
    Robust national response through EMAC has made the Compact 
invaluable and the impact of it on the lives of our citizens is 
immeasurable. To quote the EMAC Response to the 2017 Hurricane Season 
After Action Report, ``At its core, EMAC is a commitment between all 50 
states, the District of Columbia, Puerto Rico, the U.S. Virgin Islands, 
and Guam to provide aid to each other during their most desperate times 
of emergency. The 2017 hurricane season demonstrated an exceptional 
level of commitment to the compact, as states across the Nation came 
together in an overwhelming show of unity and sacrifice. It is clear 
the support provided by EMAC saved lives and minimized damage to 
property.''
The State-Federal Partnership
    One of the key ways in which emergency managers build capacity is 
through programs such as the Emergency Management Performance Grant 
(EMPG). With a one-to-one matching requirement at the local and state 
levels, this program represents one of the best values in federal 
investment. EMPG continues as a critical driver of progress and success 
made across the country in preparing for, responding to, and recovering 
from all hazards. The program's success is shared by all levels of 
government and relies heavily on the continued, and decades-long, 
commitment of Congress.
    In 2018, the federal investment in EMPG was $350 million--a little 
more than $1 per citizen--and with the match requirement and additional 
state and local investment, the return on investment exceeded $700 
million and was felt in communities from Maine to California. Every 
investment the federal government makes is matched dollar-for-dollar 
and, in most cases, states, locals, and tribes match even more, 
illustrating that any cuts to EMPG funding will have far-reaching and 
long-term impacts on readiness. In almost every category of positive 
community impacts the EMPG creates, emergency managers at the state and 
local level report improvements since last year's programmatic data.
    For these reasons in FY19, NEMA joined with colleagues of the 
International Association of Emergency Managers (IAEM), representing 
local emergency management, in requesting a modest five percent 
inflationary increase for EMPG to $368 million. Given the matching 
requirement of EMPG, many of which states and locals far exceed, this 
$18 million increase will have a combined impact totaling at least $36 
million nationwide. Few other federal programs can demonstrate that 
rate of return. While Congress did not act on this request in the FY18 
Omnibus, we continue to emphasize the importance of this program and 
the need for additional funding in FY19.
                          DRRA Implementation
    Emergency management is a profession of evolution as we continually 
evolve from each subsequent event. When considering how best to prepare 
for the next disaster season, any changes to policy, statute, or 
processes must be done with an eye toward comprehensive solutions. For 
the most part, the DRRA accomplished this needs assessment. No sooner 
did the victory of DRRA passage settle in then it was time to look 
toward implementation.
    We urge FEMA to use the occasion of DRRA implementation to think 
strategically and beyond the confines of their traditional roles and 
responsibilities. Examples of such opportunities include:
National Public Infrastructure Pre-Disaster Mitigation Assistance
    This program will forever shift the paradigm of mitigation funding 
in this country. Allowing six percent of disaster costs to fund pre-
disaster mitigation, however, is a massive influx of funding for a 
program historically underfunded. To date, the lack of information and 
vision provided by FEMA on this program remains disappointing. While 
focusing on name changes not included in statute, the agency seems 
unable to expand their vision beyond the current pre-disaster 
mitigation grant program. This creates frustrations among the federal 
interagency as well as stakeholders such as NEMA.
    The DRRA was not exclusively written for FEMA, and the agency 
should be actively engaging the interagency and encouraging those of us 
at the state level to do the same. The hundreds of millions of dollars 
which will flow through this program in coming years cannot be an 
emergency management-only effort. So, we continue encouraging our 
members to work with any state agency which could help ensure the 
efficacy of new mitigation projects rapidly adjust to changing needs.
    NEMA will soon be prepared to present a set of forward-leaning 
recommendations to FEMA, the Office of Management and Budget, and the 
National Security Council in the coming weeks. But make no mistake, we 
will not make these recommendations through the lens of the existing 
pre-disaster mitigation program and instead look to expand the 
traditional definition of ``mitigation;'' leverage efforts of existing 
federal programs; ensure transparency for the American Taxpayer; and 
ensure the priorities of smaller or rural states remain prominent.
Management Costs
    The increase in management costs for Public Assistance (PA) and the 
Hazard Mitigation Grant Program (HMGP) was a long-time coming for our 
members, and we remain appreciative. Especially as we continue working 
with FEMA on their State-Led PA concept, the jump from 3.34 percent to 
seven and 10 percent respectively will greatly increase the ability for 
us to build capacity. We understand the issues at play in the speed at 
which FEMA had to initiate the current guidance, but fundamental 
questions remain in how this change integrates with existing program 
and procedures. If states are going to be encouraged to build capacity 
and manage FEMA's Public Assistance Program, thus reducing the cost of 
the federal footprint, a change in management costs or incentive for 
states to invest, is critical for its success.
    As management costs are now split between state and local 
governments for the first time, clarity must be gained on how or if 
responsibilities will shift between federal, state, and local emergency 
management, oversight of reporting requirements, and procedural changes 
in response processes.
    The amounts managed after disasters can equal billions of dollars 
in Federal grants through FEMA. Currently, management costs are limited 
to each specific disaster and regulations do not allow grantees to 
economize by managing workloads across all open disasters. As FEMA 
continues evolving this new management cost policy, they should allow 
grantees to utilize management costs across all open disasters which 
will ensure building recovery and mitigation capacity; incentivize 
disaster close-out; and drive down the costs of disasters.
    In June of last year, NEMA and IAEM came together and submitted a 
proposal to FEMA on implementing this change, a copy of which is being 
included with this statement for the record. While this could be done 
administratively, Congressional persuasion often goes a long way toward 
affecting change, so we would appreciate any such support the Committee 
would be willing to provide.
    Overall, we appreciate the time and effort Members of the Committee 
and their staff dedicate to completing work on the DRRA and look 
forward to an equally as productive partnership as we monitor the 
implementation.
                               Conclusion
    On behalf of the state emergency managers, thank you again for 
holding this hearing and drawing attention to the needs of the 
emergency management community. Often in the wake of a major disaster 
or series of disasters; judgment is cast on federal programs and 
perceived successes or failures sometimes even before the flood waters 
recede. As you look at the topics of this hearing, remember 
specifically that state and local readiness is FEMA readiness, and more 
staffing at the federal level is not necessarily the silver bullet to 
managing disaster response. Daily across the nation, state and local 
emergency managers are still recovering from the last event and 
conducting the planning, building the capacity, and setting the stage 
for the next storm to approach, all while working diligently to 
implement and manage complicated federal programs.
                               __________
                               attachment
   Rollover of Disaster Management Costs: Increasing Capability and 
            Responsibility in Managing Disaster Declarations
    Executive Summary. When managing disaster declarations, states and 
locals coordinate billions of dollars in Federal grants through the 
Federal Emergency Management Agency (FEMA). To help offset 
administrative requirements of these grants, FEMA regulations allow 
recipients to utilize a percentage for management costs. These 
management costs, however, are limited to each specific disaster and 
regulations do not allow grantees to economize by managing workloads 
across all open disasters. FEMA should allow grantees to utilize 
management costs across all open disasters which will ensure the 
building recovery and mitigation capacity; incentivize disaster close-
out; and drive down the costs of disasters.
    Background. One of the fundamental requirements of creating a 
strong and nationwide emergency management system is to build recovery 
and mitigation capacity which can range from developing plans, 
coordinating effective mutual aid, and the assets to manage the 
consequences of myriad potential hazards. FEMA continues to encourage 
states and local to manage ``less than catastrophic'' disaster 
declarations thereby reducing the Federal burden disaster costs 
nationally. The resources FEMA utilizes to achieve these goals are 
found primarily in 44 C.F.R. Part 207--Management Costs. This 
regulation provides the Grantee 3.34 percent of the projected Federal 
program costs of public assistance and 4.89 percent of projected 
Federal program costs of Section 404 Hazard Mitigation.
    States have long argued that the management costs percentages are 
low, compared to the percentages allowed under other Federal grants and 
the amount FEMA utilizes to administer the same disaster declaration. 
NEMA supports efforts such as the Disaster Recovery Reform Act (DRRA) 
being considered by Congress and the current FEMA administration in 
increasing these percentages to as high as 12 percent. Beyond the 
funding percentage, however, the lack of flexibility within the grant 
consumes time and resources of emergency management organizations which 
could be better-utilized to manage response and recovery activities.
    With each disaster declaration comes an allowance for management 
costs to administer Public Assistance and Hazard Mitigation grants. 
Despite administering numerous open disasters, each declaration has a 
locked-in amount for management costs. Throughout the management of the 
grant, all associated personnel costs must be tied to a specific 
declaration, program, and project. While simple in theory, this 
administrative over-kill limits flexibility and detracts from a program 
designed to provide disaster assistance, build recovery and mitigation 
capacity, and empower states to reduce dependency on FEMA. For example, 
a project inspector working an eight-hour day may visit multiple sites 
across a region of a state. Since those sites may be associated with 
more than one disaster, all associated travel, incidental costs, and 
personnel time must be parceled-out to possibly dozens of open grants.
    This dynamic is particularly problematic in declarations with 
limited damages. While management costs may be minimal, the process and 
manpower required is equal to that of larger declarations. Management 
costs for declarations with less damage are quickly exhausted and state 
funds must be utilized to complete the administration of the Federal 
grant. Likewise, during close-out of declarations with large damages, 
remaining funds create the unintended consequence of encouraging 
declarations remain open for extended periods of time to ensure the 
expenditure of all eligible costs. This runs contrary to the 
preferences of all involved at the Federal, state, and local levels to 
close-out disasters expeditiously.
    The Solution. FEMA should immediately begin the process of amending 
44 C.F.R. Part 207 to:

    <bullet>  Provide each state an unfunded grant for both the Public 
Assistance Program and Hazard Mitigation Grant Program. As disasters 
are declared, management costs will continue to be obligated under 
current regulations, but deposited into the generic program accounts.
    <bullet>  Allow remaining funds after the close-out of a disaster 
to be available to build recovery and mitigation capacity at the state 
and local levels, close-out remaining disasters which may be more 
complicated, and build resilience for the next disaster.

    Taking these actions will allow states with more robust recovery 
and mitigation capacity to assist states with infrequent declarations 
and therefore less capacity (i.e. EMAC); manage the smaller 
declarations; and allow FEMA to focus on catastrophic events. The 
nation would realize an overall reduction of administrative costs and 
increased capability and responsibility at the state and local levels.

    Ms. Titus. Thank you.
    We now go to Mr. Crossley.
    Mr. Crossley. Thank you, Chairwoman Titus, Ranking Member 
Meadows, and distinguished members of the House Subcommittee on 
Economic Development, Public Buildings, and Emergency 
Management for this opportunity to testify on the Disaster 
Recovery Reform Act of 2018 and the state of disaster readiness 
in local governments across the country.
    My name is Nick Crossley, and I am the director of the 
Hamilton County Emergency Management and Homeland Security 
Agency. I appear before you today as the immediate past 
president of the International Association of Emergency 
Managers, an industry group representing the profession 
dedicated to protecting America's local communities from all 
hazards and threats, both natural and manmade.
    Our country's resilience, the ability to survive and 
recover quickly from storms and disasters without the 
significant loss of life or property, involves preparedness for 
and mitigation against the risks and hazards.
    The new and expanded authorities in the Disaster Recovery 
Reform Act, once those authorities have been fully implemented, 
will be critical to supporting State and local efforts to 
promote resilience and disaster readiness.
    Emergency managers at every level are grateful to Congress 
for the transformational tools and authorities contained in the 
DRRA, which the President signed into law on October 5th of 
2018.
    This law clearly demonstrates that Congress, you, are 
committed to resilience and changing the conversation to reduce 
disaster costs and losses across the country.
    The provisions within this law support those in State, 
local and Tribal governments, as well as FEMA, to build more 
resilient communities, lessen the impacts of disasters, and 
ultimately help individuals and communities recover quickly.
    This law focuses on pre- and post-disaster mitigation to 
reduce the cost of disasters. Key provision in this law enable 
greater investment in pre-disaster mitigation, support efforts 
to reduce risks from future disasters after fires, increase 
State and local capacity to manage disaster recovery, and 
provide greater support and flexibility to survivors with 
disabilities.
    But much like the recovery from the 2017 storms, there is 
much work left to be done on the implementation of DRRA. FEMA 
will need continued oversight and monitoring to ensure they 
meet the requirements, commitments, and the intent of Congress.
    As FEMA moves forward toward continuing to implement these 
provisions, it will be critical that they continue to engage 
and work with the entire community engaged in building 
resilience throughout the country, including other Federal 
partners, State, local, and Tribal governments, and the private 
sector.
    In closing, I sincerely appreciate your giving me the 
opportunity to discuss the emergency management community's 
reaction to the enactment and initial implementation of DRRA, 
as well as the country's readiness posture for the current 
disaster environment.
    Local emergency managers have and will continue to benefit 
from Congress' investments in mitigation and resilience.
    The capabilities created and the capacity built will ensure 
that not only our communities are ready to respond to the next 
disaster but also withstand and recover quickly from the next 
disaster.
    While Congress has done much to incentivize resilience, 
much work remains to be done in order to make our communities 
safer and more disaster ready in 2019 and beyond.
    Thank you, Chairwoman Titus, Ranking Member Meadows, and 
all members of the subcommittee. I look forward to answering 
any questions you may have.
    [The prepared statement of Mr. Crossley follows:]

                                 <F-dash>
    Prepared Statement of Nick Crossley, C.E.M., C.P.M., Director, 
  Emergency Management and Homeland Security Agency, Hamilton County, 
Ohio, on behalf of the U.S. Council of the International Association of 
                           Emergency Managers
    Thank you, Chairwoman Titus, Ranking Member Meadows, and 
distinguished members of the U.S. House of Representatives' Committee 
on Transportation and Infrastructure's Subcommittee on Economic 
Development, Public Buildings, and Emergency Management for this 
opportunity to testify on the Disaster Recovery Reform Act of 2018 
(DRRA; P.L. 115-124) and the state of disaster readiness in local 
governments across the country.
    My name is Nick Crossley, and I am the Director of the Hamilton 
County, Ohio, Emergency Management and Homeland Security Agency. I have 
been a Certified Emergency Manager for 19 years, and I appear before 
you today as the Immediate Past President of the International 
Association of Emergency Managers (IAEM).
         About IAEM and the Local Role in Emergency Management
    IAEM, comprised of more than 6,000 emergency management 
professionals worldwide, is a non-profit educational organization 
dedicated to promoting the ``Principles of Emergency Management'' and 
representing THE profession dedicated to protecting America's local 
communities from all hazards and threats, natural and man-made.
    Local governments serve as our nation's first line of defense when 
disasters strike. Immediately following a disaster, local responders, 
including emergency managers, are first on the scene and play a key 
role in coordinating local response and recovery efforts, working to 
mitigate further damage from disasters. In the aftermath of disasters, 
we coordinate and help fund clean-up, recovery, and rebuilding so our 
residents can return to their lives as quickly as possible. All 
disasters begin and end locally.
    We deeply appreciate the continuing support this Subcommittee has 
provided to the emergency management community. Thank you for the time 
devoted to the topics of preparedness, readiness, and ensuring our 
national resilience.
            Disaster Preparedness, Readiness and Resilience
    The most consequential work of local emergency managers actually 
happens BEFORE disaster strikes. Emergency managers strive every day to 
create well-oiled coordination and communication systems that save 
lives and property during and immediately following disasters. 
Emergency managers wake up every day thinking about and planning for 
the next disaster because hurricanes, public health emergencies, 
earthquakes, active shooters, floods, tornadoes, and technological 
hazards are going to happen, and usually with little-to-no notice. 
During times when we aren't responding to an emergency, emergency 
managers are hard at work behind the scenes, every day and in all 
levels of government and in all sectors of the nation, to help our 
communities become better prepared.
    The 2019 Atlantic hurricane season starts in 10 days. In addition, 
our communities are constantly bombarded by numerous disasters, from 
floods and wildfires, to tornados and earthquakes. At every level, 
individuals, communities, and businesses must be able to plan for 
disasters, as well as build and sustain the capability to respond. We 
must understand that our local efforts will be more impactful, our 
communities more resilient, with the support and partnership of our 
state, federal and private sector partners.
    FEMA's Emergency Management Performance Grant (EMPG) has been the 
backbone of the nation's all-hazards emergency management system and is 
the only source of direct federal funding to state and local 
governments for emergency management capacity building. EMPG is used 
for personnel, planning, training, public education, and exercises at 
both the state and local levels. Thanks in large part to capacity built 
through EMPG, local governments have been able to support the 
development, evaluation, implementation, and administration of local 
Emergency Operations Plans, meeting the unique disaster threats of our 
particular communities. EMPG also helps build capacity to support other 
jurisdictions through the provision of mutual aide, assisting each 
other when disasters exceed individual capacities. Additionally, EMPG 
facilitates critical state and local coordination and interstate 
collaboration and lessens the impact of disasters and helps our 
communities recover faster when impacted.
    Training and exercises, supported at all levels of government, is 
also critical to preparing our professionals and communities. FEMA's 
Emergency Management Institute (EMI) in Emmitsburg, Maryland, has 
greatly increased the training that is available both online and in 
person to emergency managers, responders and professionals. These 
courses have led to a stronger, more robust emergency management 
community.
              Disaster Recovery Reform Act of 2018 (DRRA)
    Our Country's resilience, the ability to survive and recover 
quickly from storms and disasters without the significant loss of life 
or property, involves preparedness for and mitigation against the 
greatest risks and hazards. The new and expanded authorities in DRRA 
have been critical to supporting state and local efforts to promote 
resilience and disaster readiness.
    Today, local emergency managers are the immediate and integral 
partners in responding to and recovering from disasters and mitigating 
against future risk. Emergency managers at every level are grateful to 
Congress for the transformational tools and authorities contained in 
DRRA, which the President signed into law on Oct. 5, 2018. This law 
illustrates Congress' commitment to resilience and changing the 
conversation to reduce disaster costs and losses across the country. 
The provisions within this law support those in state, local and tribal 
governments, as well as FEMA, to build more resilient communities, 
lessen the impacts of disasters, and ultimately help individuals and 
communities recover quickly.
    This law focuses on pre- and post-disaster mitigation to reduce the 
cost of disasters. Key provisions in this law enable greater investment 
in pre-disaster mitigation; support efforts to reduce risks from future 
disasters after fires; increase state and local capacity to manage 
disaster recovery; and provide greater support and flexibility to 
survivors with disabilities. Specifically, some of the most significant 
provisions incentivizing resilience and building capacity include:

    <bullet>  Build State and Local Capacity and Ease the 
Administrative Burden. DRRA authorizes reimbursements to state and 
local governments for the management and administrative costs incurred 
to manage federal disaster funds. This allows states and locals to 
build capacity to manage disaster recovery and mitigation projects. 
Additional provisions clarify and simplify FEMA's programs in an 
attempt to make them more transparent and less burdensome for 
communities trying to respond to and recovery from disasters.
    <bullet>  Facilitate and Incentivize Resilience. One of the most 
significant provisions of DRRA is the creation of the National Public 
Infrastructure Pre-Disaster Mitigation Grant Program, which provides a 
significant, reliable, and consistent source of funding for states to 
invest in pre-disaster mitigation projects helping states take actions 
to prevent the threat of disasters. DRRA dedicates an additional six 
percent of annual disaster costs for risk reducing, cost effective 
projects. This likely will be one of the key investments to help draw 
down disaster costs and losses over time. Research has shown that 
mitigation saves $6 for every $1 of investment. There are also 
provisions that help facilitate the use of FEMA funds post-disaster to 
invest in mitigation and ``build back better,'' in order to avoid 
future disaster damage.
    <bullet>  Mitigation for Wildfire Prevention. DRRA makes permanent 
the authorization which allows states that receive Fire Management 
Assistance Grants to receive post-fire hazard mitigation assistance to 
help communities recover and prevent deadly floods and mudslides after 
wildland fires. DRRA also clarifies the eligibility for certain 
wildfire mitigation measures under FEMA grant programs.
    <bullet>  Adoption and Enforcement of Building Codes. DRRA 
incentivizes states to adopt the latest model building codes. Public 
Assistance funds are available post disaster to replace and restore 
damaged facilities to the latest codes and standards. DRRA also allows 
states and local governments to use mitigation grants to facilitate the 
adoption and enforcement of building codes. According to a December 
2018 report from the National Institute of Building Science, the 
benefit-cost ratios for adopting model building codes saves $11 for 
every $1 spent.

    But much like the recovery from the 2017 storms, there is much work 
left to be done on the implementation of DRRA. FEMA will need 
considerable oversight and monitoring to ensure they meet their 
requirements, commitments, and the intent of Congress. As FEMA moves 
forward toward continuing to implement these provisions, it will be 
critical that they continue to engage and work with the entire 
community engaged in building resilience throughout the country, 
including other federal partners, state, local, and tribal governments, 
and the private sector.
                               Conclusion
    In closing, I sincerely appreciate the opportunity to discuss the 
community's reaction to the enactment and initial implementation of 
DRRA, as well as the country's readiness posture for the current 
disaster environment. Local emergency managers have and will continue 
to benefit from Congress' investments in mitigation and resilience. The 
capabilities created and the capacity built will ensure that not only 
are our communities ready to respond to the next disaster but withstand 
and recovery quickly from the next disaster. While Congress has done 
much to incentivize resilience, much work remains to be done in order 
to make our communities safer and more resilient in 2019 and beyond.
    Thank you, Chairwoman Titus, Ranking Member Meadows, and all 
members of this Subcommittee. I look forward to answering any questions 
you may have.

    Ms. Titus. Thank you.
    Now Mr. Gore.
    Mr. Gore. Wake up, wake up others, and stay woke.
    I will say that again. Wake up, wake up others, and stay 
woke.
    The new normal is upon us, ladies and gentlemen. I want to 
take the heat from those fires that burnt down my community and 
the floods that have gone over it and use the urgency that we 
all feel on the ground and honor the fact that you all show 
that same urgency here today with respect to FEMA and 
implementation of the DRRA.
    I don't just stand here as a supervisor from Sonoma County, 
California, who has had five to seven, depending on how you 
calculate them, disasters in the last 3 to 4 years. I stand 
here as a representative of the National Association of 
Counties Resilient Counties Advisory Board, where more than 
one-third of the 3,000 counties in the United States have had a 
Federal disaster designation in the last 2 years.
    The new normal is upon us. It is time for this stuff to be 
implemented rapidly, efficiently, getting it on the ground as 
you said, Mr. Meadows.
    You know, I look around me and around the State, and I 
think about all of the things that we already manage at the 
county level. It is very rare when we have to get to a Federal 
designation. We own most of the infrastructure in our areas, 
roads, bridges, other vital infrastructure. But once it comes 
to these big events that outweigh the capacity of a local, 
regional, or municipal aid system at a State level, that is 
where we need this partnership. That is where we need it.
    I won't go into the details of our disaster. We have seen 
the videos. We have heard the speeches. You all have seen it in 
your own communities. But what I do want to say here before you 
is that the Disaster Recovery Reform Act was passed to improve 
the resilience of this Nation. You all know that.
    NACo, the National Association of Counties, and all of us 
counties out there, strongly supported that. But we need these 
reforms now. And I applaud you once again for asking them and 
asking for accountability.
    We need to make sure that it is implemented readily. We 
need to make sure that transparency and communication from the 
regional offices and our local entities is actually acted upon, 
and it is done. We need to make sure that specific policies 
come out with guidance sooner rather than later on submerged 
roads, ensuring evacuation routes, wildfire season 
applicability.
    As you all say, I look at our colleagues, I look at FEMA, I 
think about all of the work that needs to be done. I think 
about all of the redtape that exists in implementing these 
programs. But at the same time, I look at the urgency on the 
ground, just as you all do, and I know that we need to do more.
    And it is not just pointing at FEMA. It is us working 
together. We want to work with FEMA's Pre-Hazard Mitigation 
Program. But we need even draft guidance to come out so we can 
provide comments, follow up, and deliver as appropriate.
    Great work from FEMA on the ground. Need it more than 
anything. But right now, all disasters start local, end local? 
No. There is Federal partnership in the middle, and we thank 
you for that support and look forward to answering questions.
    [The prepared statement of Mr. Gore follows:]

                                 <F-dash>
   Prepared Statement of Hon. James Gore, Supervisor, Sonoma County, 
     California, on behalf of the National Association of Counties
    Chairwoman Titus, Ranking Member Meadows and distinguished members 
of the Subcommittee, thank you for the opportunity to testify on 
``Disaster Preparedness: DRRA Implementation and FEMA Readiness.''
    My name is James Gore and I am an elected county supervisor in 
Sonoma County, California. Today, I am representing the National 
Association of Counties (NACo), where I serve as the Chair of the 
Resilient Counties Initiative. I also previously chaired NACo's 
Community, Economic and Workforce Development Steering Committee, and I 
serve as a member of our Rural Action Caucus. I appreciate the 
opportunity to be here today to underscore the necessity for the 
Federal Emergency Management Agency (FEMA) to expedite the 
implementation of key reforms laid out within the Disaster Recovery 
Reform Act (DRRA).
    NACo works to represent all county governments in the United 
States, including Alaska's boroughs and Louisiana's parishes. Founded 
in 1935, NACo assists America's 3,069 counties in pursuing excellence 
in public service to produce healthy, vibrant, safe and resilient 
communities.
    My work as chair of NACo's Resilient Counties Initiative helps to 
strengthen county resiliency by building leadership capacity to 
identify and manage risk and allow counties to become more flexible and 
responsive. Through sustainable practices and infrastructure, counties 
will be better prepared to address these issues in a manner that can 
minimize the impacts of disasters on local residents and businesses, 
while helping counties save money.
    Counties are on the front lines of defense before and after 
disasters strike. While state statutes and organizational structures 
vary, local emergency management responsibilities are most commonly 
vested in county governments. Following a disaster, local elected 
officials are often first on the scene, along with our emergency 
managers, who play a key role in coordinating local emergency 
management efforts and working to mitigate damage from disasters. Other 
key county staff involved in pre- and post-disaster efforts include 
local police, sheriffs, firefighters, 911 call center staff, public 
health officials and public records and code inspectors. In the 
aftermath of disasters, we coordinate clean-up, recovery and rebuilding 
efforts so our residents can return to their lives as quickly as 
possible.
    Furthermore, because counties are major owners of public 
infrastructure, we are also uniquely positioned to mitigate the impacts 
of disasters before they occur, so that their impact on our communities 
and residents' lives is decreased. Collectively, we own 45 percent of 
America's roads, nearly 40 percent of bridges, 960 hospitals, more than 
2,500 jails, more than 650 nursing homes and a third of the nation's 
airports. We also own and maintain a wide variety of public safety 
infrastructure, including roadside ditches, flood control channels, 
stormwater culverts and pipes, Municipal Separate Storm Sewer Systems 
(MS4) and other infrastructure used to funnel water away from low-lying 
roads, properties and businesses. We also provide extensive outreach 
and education to residents on water quality and stormwater impacts 
prior to and following disasters, and we work to reduce water 
pollution, adopt setbacks for land use plans and are responsible for 
water recharge areas, green infrastructure and water conservation 
programs.
    Over the past 20 years, natural and man-made disasters have 
increased in frequency, severity and cost. On average, 24 percent of 
counties have experienced at least one disaster in each of the last 
three years. The past three hurricane and wildfire seasons have 
included six hurricanes that cost a combined $330 billion in damages 
and eight wildfires causing over $40 billion in damages. Over the last 
decade, most counties have received a major disaster declaration, with 
many receiving more than one over that time frame (see Map 1).
    In fact, just last year, 570 counties (19 percent of counties) 
received at least one major disaster declaration. The previous year, 
815 (27 percent of counties) counties received a major disaster 
declaration (see Map 2). Both 2017 and 2018 disasters are eligible for 
the recovery and mitigation reforms implemented under the DRRA, and the 
breadth of counties requiring these resources is evidence that the 
reforms need timely and efficient implementation.
    Counties are not merely stakeholders in this conversation, but a 
part of the federal-state-local partnership of governments that 
together share the responsibility of protecting our nation and its 
residents from disasters. Like the federal government, counties are 
entrusted by taxpayers to provide a variety of important services to 
their residents, and we stand ready to work with the federal government 
to effectively and quickly implement new disaster programs and 
resources to help our shared communities.
    Our experience is similar to many other counties facing disaster 
across the country. Sonoma County is in the Bay Area of California, 50 
miles from San Francisco. It's bordered on the west by the Pacific 
Ocean and on the east by a coastal mountain range, the Mayacamas, and 
has a population of roughly 500,000 people. We are the largest producer 
of wine-grapes in California's Wine Country and we are ranked 32nd 
overall in the country on agricultural production. The Mediterranean 
Climate that characterizes Sonoma County also makes it prone to floods 
in the winter and periods of drought that can sometimes last years. 
This combination, along with its mountainous terrain make it highly 
prone to wildfires in the late summers and early fall. Sonoma County is 
also located on top of several seismic faults, making it vulnerable to 
severe earthquake damage. When the 1906 earthquake struck San 
Francisco, Sonoma County experienced significantly more damage per 
capita than San Francisco.
    For example, on October 8, 2017, three wildfires--the Tubbs, Pocket 
and Nuns Fires--broke out across Sonoma County and could not be 
contained for more than three weeks due to high winds. Over the course 
of their burn, the wildfires caused the destruction of over 110,000 
acres, the loss of an estimated 6,500 structures and 23 fatalities. 
Mandatory evacuations were ordered for large portions of the county. At 
the height of the fires, the county and its non-profit partners 
operated 37 shelters and serviced over 4,000 individuals. Many of the 
evacuees were in and out of county shelters multiple times as mandatory 
evacuations were lifted and then re-engaged.
      Importance of Implementing the Disaster Recovery Reform Act
    Disaster response, recovery and mitigation starts local and ends 
local. Counties are currently tackling one of the largest cumulative 
recovery efforts our nation has ever experienced. DRRA was passed to 
improve the resiliency of our nation, which NACo strongly supported, 
and counties need these reforms to be implemented now to help our 
communities, residents and economies recover. By delaying 
implementation of the critical reforms, we are missing a vital 
opportunity to put these reforms into practice and aid those working on 
recovery efforts across the country. We also understand that FEMA has 
been asked to implement dozens of new programs and reforms without 
increased staff, and would support additional resources to take on this 
effort given the critical nature of these changes.
    As was noted above, over a quarter of all counties have faced a 
major disaster in the past two years. This figure only represents 
disasters rising to the level of federal disaster declarations, and 
does not include hundreds of other smaller disaster events that can be 
equally as destabilizing for communities. While state statutes and 
organizational structures vary, local emergency management 
responsibilities--including 911 call centers--are most commonly vested 
in county governments, and counties serve as the main driver for 
recovery and mitigation following a disaster. Following an incident, 
local emergency managers and elected officials are often first on the 
scene and play a key role in mitigating damage and coordination 
throughout the response, recovery and mitigation efforts for minor 
incidents and major disasters.
    Perhaps the most important reason rapid implementation is necessary 
is to ensure FEMA headquarters and field staff are aligned on programs 
and priorities to help communities recover. For example, in 2017, 
Sonoma County participated in a Private Property Debris Removal (PPDR) 
program, which was co-managed by FEMA and the U.S. Army Corps of 
Engineers. Over 3,800 survivors participated in this program with the 
intention to efficiently remove debris from properties to reduce 
threats to public health or the environment, as well as providing 
survivors with a safe, clean lot ready for reconstruction. 
Approximately two million pounds of debris were removed by thousands of 
heavy-truck loads moving across the county's network of roads.
    The need for clear communication on federal emergency management 
programs was made clear when Sonoma County received mixed messages on 
approval through the Public Assistance program during this clean-up 
effort. The damage to county roads as a result of the PPDR program was 
discussed with FEMA Region IX on December 1, 2017, at which point 
Sonoma County was assured that if a damage claim was filed under public 
assistance with adequate documentation, the county would qualify for 
road-repair funding. A claim for $21 million was then submitted in 
August 2018, but in November 2018, the county received a letter stating 
that a claim for $3 million in road damage had been denied. The county 
then followed up with regional FEMA staff in January 2019 to understand 
the denial and the status of the remaining $18 million sum claimed. 
Regional staff indicated they did not know the reason no determination 
had been made on the $18 million, but they committed to sharing the 
official determination and reasoning with the county. As of today, 
Sonoma County has not received an official response on the status of 
the claim, but we were informed during a May 13, 2019 meeting that this 
type of claim has not been approved in the past.
    In addition to the damage to the roads, Sonoma County put countless 
hours into documenting and preparing the claims made for this program. 
Because FEMA headquarters and regional staff were not on the same page, 
the county may not receive the full claim and could lose the hours of 
effort put into creating and filing the claim. Given the new decisions 
required under DRRA, a timely implementation that is consistently and 
transparently communicated to regional FEMA offices would help local 
agencies appropriately plan and prioritize resources.
    As Congress and FEMA determine next steps for implementing DRRA, 
the following examples help illustrate the urgency with which we need 
these reforms to be implemented in order boost counties' ability to 
prepare for and respond to disasters:

    1.  Building Resilient Infrastructure and Communities Program
    2.  Wildfire Prevention and Expanded Mitigation Activities
    3.  Guidance on Inundated and Submerged Roads
1. Building Resilient Infrastructure and Communities Program
    The DRRA created the National Public Infrastructure Pre-Disaster 
Mitigation Program (PDMP). This program will provide much needed 
technical and financial assistance to county governments to support 
local government efforts to establish and implement consensus-based 
codes, specifications and standards for community rebuilding. It will 
also help incorporate hazard-resistant designs and establish minimum 
acceptable criteria for hazard mitigation project design, construction 
and maintenance.
    As we rebuild from two intense years of disasters, now is the time 
to operationalize assistance on the ground, where repairs and 
rebuilding are both needed and already underway in our counties. It is 
imperative that FEMA expedite project approval and funding obligation 
to capitalize on the opportunity to rebuild and strengthen our 
communities--while the opportunity to do so is present. For example, 
implementing guidance to support hurricane-ravaged communities as they 
rebuild by using hurricane-resistant design and planning will help 
mitigate potential losses due to future storms.
    Implementation of this program would be extremely beneficial to 
Sonoma County as it rebuilds. The county has committed to rebuilding 
its community following the 2017 Sonoma Complex Fires to be more 
resilient and better than it was before. This program would help 
facilitate that, but we cannot make progress until FEMA officially 
implements the provisions set forth in DRRA.
2. Wildfire Prevention and Expanded Mitigation Activities
    DRRA included an expansion of wildfire mitigation measures that are 
now eligible for FEMA assistance. Whether or not a major disaster is 
declared, provisions in DRRA make recipients of Fire Management 
Assistance Grants (FMAG) eligible for Hazard Mitigation Grant Program 
(HMGP) assistance. We appreciate FEMA's expediency in issuing policy 
guidance on this provision. However, FEMA has yet to implement the 
corresponding DRRA provision that expands wildfire mitigation measures 
that are eligible for assistance through HMGP. Many counties are 
eligible for HMGP funding, as referenced in Map 3 (attached).
    According to Section 1205 of the bill, recipients may use HMGP 
assistance for activities that help reduce the risk of future damage, 
hardship, loss or suffering in any area affected by a wildfire or 
windstorm. Additional mitigation activities that are eligible for 
assistance include:

    <bullet>  Mitigation measures involving vegetation,
    <bullet>  Culvert and other drainage system modifications,
    <bullet>  Hardening of electrical transmission or distribution 
utility pole structures,
    <bullet>  Removal of standing burned trees,
    <bullet>  Reduction of hazardous fuels,
    <bullet>  Establishment of defensible space measures, and
    <bullet>  Replacement of water systems that have been burned and 
caused contamination.

    The California Office of Emergency Services (CalOES) has 
recommended over 20 HMGP grants be approved by FEMA. Expediting this 
approval would be extremely helpful in making Sonoma County more 
resilient. Given that the next wildfire season is quickly approaching, 
and a major earthquake could strike at any time, FEMA should make these 
tools available by quickly implementing DRRA provisions.
3. Guidance on Inundated and Submerged Roads
    Under the DRRA, FEMA, in coordination with the Federal Highway 
Administration (FHA), must develop and issue guidance regarding 
inundated and submerged roads damaged or destroyed by a major disaster. 
The guidance from FEMA and FHA will cover the repair, restoration and 
replacement of inundated and submerged roads, as well as the associated 
costs of post-disaster mitigation measures that are eligible for Public 
Assistance Mitigation funding. This is a particularly large concern for 
counties, as we own and maintain 46 percent of all public road miles 
across the country, more than any other level of government. Counties 
also own 38 percent of the nation's bridges. Given our major stake in 
public infrastructure, we urge FEMA to quickly and clearly issue 
guidance on inundated and submerged roads, which is critical to helping 
counties restore roadways and evacuation routes.
    Counties impacted by flooding are currently formulating project 
worksheets that will govern the repair and rebuilding of submerged 
county roads. This is a moment of great opportunity: FEMA could issue 
this new, required guidance as we undertake current large-scale 
recovery efforts. Implementing DRRA changes now has the potential to 
significantly improve the repair and reconstruction of critical county 
road systems, helping ensure critical routes are resilient against 
future flooding, thereby improving public safety of counties 
nationwide.
    In February of this year, Sonoma County declared an emergency for 
flooding along the Russian River, which resulted in a mandatory 
evacuation of thousands. The river crested at over 45 feet, the highest 
recorded level since 1995. Damage to Sonoma County roads has been 
estimated at over $23 million, including landslides and slip-outs. 
Without clear guidance from FEMA on how DRRA implementation, the county 
is unable to move forward in the most effective, efficient and 
collaborative manner possible.
                               Conclusion
    Counties are on the front lines of the pre- and post-disaster 
efforts, and without proper federal assistance, recovery and mitigation 
efforts may lack the full support necessary to be successful. The 
reforms offered within the DRRA signal a willingness to create change 
within our disaster response network. However, without rapid 
implementation of those reforms, counties across the country will 
continue to struggle and bear the financial and emotional burdens of 
disasters. To that end, we also support additional resources for FEMA 
to be able to implement these programs in a timely and effective 
manner.
    All disasters start and end at the local level, and counties need 
federal help to provide proper response and recovery to our residents 
through implementation of these key reforms.
    Thank you again for the opportunity to testify today. I appreciate 
the Subcommittee's time and look forward to answering your questions.
                              Attachments:
    <bullet>  Map 1: Total Number of Disaster Declarations per County 
from 2008-2017
    <bullet>  Map 2: Total Number of Major Disaster Declarations per 
County in 2017
    <bullet>  Map 3: FEMA Hazard Mitigation Grant Program Eligibility
 Map 1: Total Number of Disaster Declarations per County from 2008-2017
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Map 2: Total Number of Major Disaster Declarations per County in 2017
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Map 3: FEMA Hazard Mitigation Grant Program Eligibility
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Titus. Thank you very much, Mr. Gore.
    Mr. Davis.
    Mr. Davis. Good evening, Chairwoman Titus, Ranking Member 
Meadows, and members of the subcommittee.
    I am Al Davis, the current chairperson of the National 
Domestic Preparedness Consortium, a major FEMA training 
partner.
    Since 1998, the 7 members of the consortium have trained 
more than 3 million first responders, reaching all 50 States, 
the District, Tribal Nations, and each Territory.
    Information on our members, their core competencies, is 
available in my written testimony and in the ``NDPC Annual 
Report,'' which should be in front of you. We have also shared 
information on our NDPC training, provided to first responders 
in each of your districts.
    Our experience, expertise, unique training facilities, and 
expansive and mature infrastructure support the national 
training mandate to identify, develop, test, and deliver all-
hazards training to all emergency disciplines.
    With nearly 1,200 subject matter professionals from across 
the Nation, professional instruction design and curriculum 
develop teams and direct access to academia, the NDPC training 
meets and exceeds quality and excellence standards.
    And we know we need to be relevant. Some examples of 
relevancy include developing recovery training. It includes 
also doing a training gap analysis program called the RTIP--
Readiness: Training Identification and Preparedness Planning. 
And we also work to have continuous contact and engage with our 
State and local stakeholders and FEMA partners.
    We have an SAA Advisory Council. And that is very 
important. It is made up of 12 State representatives, one 
Territory representative, and one Tribal representative. We 
meet regularly.
    One of our greatest strengths is our strong relationship 
with our partners at FEMA, whom we work very, very closely 
with, and our network of relationships include many of the 
professional associations in the field of emergency management, 
including some of those represented by my esteemed fellow 
panelists today.
    In closing, when you think about the range of incidents our 
Nation has faced, whether they are natural or manmade, from 
hurricanes, tornadoes, flooding, wildfires, active shooters, 
the Boston Marathon bombing, Ebola, or terrorist attacks, the 
NDPC training has played a role in the response.
    Thank you again for inviting me to testify on behalf of the 
National Domestic Preparedness Consortium, and I am happy to 
answer any questions that you may have.
    [The prepared statement of Mr. Davis follows:]

                                 <F-dash>
   Prepared Statement of Alphonse Davis, Deputy Director, Texas A&M 
   Engineering Extension Service, on behalf of the National Domestic 
                        Preparedness Consortium
    Good morning, Chairwoman Titus, Ranking Member Meadows, and Members 
of the Subcommittee. My name is Al Davis and I am Deputy Director of 
the Texas A&M Engineering Extension Service (TEEX). TEEX is a state 
agency and part of the Texas A&M University System.\1\ Since 1998, TEEX 
has been a member of the National Domestic Preparedness Consortium 
(NDPC) and I am honored to serve as the NDPC's current chairman.
---------------------------------------------------------------------------
    \1\ The Texas A&M University System is one of the largest systems 
of higher education in the nation, with a budget of $4.7 billion. 
Through a statewide network of 11 universities and seven state 
agencies, the Texas A&M System educates more than 153,000 students and 
makes more than 22 million additional educational contacts through 
service and outreach programs each year. System-wide, research and 
development expenditures exceeded $996 million in FY 2017 and helped 
drive the state's economy.
---------------------------------------------------------------------------
                          History of the NDPC:
    Established in 1998 in the aftermath of the bombing attack on the 
Oklahoma City Murrah Federal Building, the NDPC's mission is to enhance 
the preparedness of Federal, state, local, territorial, and tribal 
emergency response providers to reduce the nation's vulnerability to 
all hazards, including natural disasters, acts of terrorism, weapons of 
mass destruction, and other high-consequence events by developing, 
delivering, and assessing plans, training, technical assistance, and 
exercises.
    The NDPC is Congressionally authorized and annually appropriated 
funding through the Homeland Security National Training Program to 
develop and deliver training for the Nation's emergency responders 
within the context of all hazards; including chemical, biological, 
radiological, and explosive Weapons of Mass Destruction (WMD) hazards.
    The NDPC is a unique partnership of seven members, including 
several nationally recognized universities and professional 
organizations. Our members include:

    <bullet>  The National Nuclear Security Administration (NNSA) 
Nevada National Security Site (NNSS), Counterterrorism Operations 
Support (CTOS)--Center for Radiological/Nuclear Training in Las Vegas, 
Nevada; competencies in the prevention, deterrence and response to 
radiological/nuclear attacks.
    <bullet>  The Energetic Materials Research and Testing Center 
(EMRTC) at New Mexico Tech (NMT) in Socorro, New Mexico; competencies 
in explosive and incendiary attacks.
    <bullet>  The National Emergency Response and Recovery Training 
Center (NERRTC) at the Texas A&M Engineering Extension Service (TEEX), 
a part of the Texas A & M University System (TAMUS) in College Station, 
Texas; competencies in incident management, health and medical 
services, public works, infrastructure protection, hazardous materials, 
threat and risk assessment, cybersecurity, executive programs, crisis 
communications, search and rescue, sport/special event risk and 
incident management, planning and training gap analysis.
    <bullet>  The National Center for Biomedical Research and Training 
(NCBRT) Academy of Counter-Terrorist Education at Louisiana State 
University (LSU) in Baton Rouge, Louisiana; competencies in the 
prevention, deterrence and response to terrorist acts, law enforcement, 
biological and food defense/agricultural related terrorism response.
    <bullet>  The Security and Emergency Response Training Center 
(SERTC) at the Transportation Technology Center, Inc. (TTCI) in Pueblo, 
Colorado; competencies in transportation research and testing and 
providing emerging technology solutions for the railway industry.
    <bullet>  The National Disaster Preparedness Training Center 
(NDPTC) at the University of Hawai'i (UH) in Honolulu, Hawai'i: 
competencies in natural hazard risks to coastal region, island and 
urban communities; natural disaster preparedness, response and recovery 
planning; and leveraging technology for disaster management 
applications.
    <bullet>  The Center for Domestic Preparedness (CDP), Department of 
Homeland Security, Federal Emergency Management Agency (DHS/FEMA) in 
Anniston, Alabama; competencies in prevention, deterrence and response 
to chemical, biological, and nuclear attacks involving hazardous 
materials.
                   NDPC: A National Training Resource
    Since its inception in 1998, the members of the NDPC have worked 
tirelessly to prepare the nation for the possibility of catastrophic 
disasters, training more than three million first responders and 
receivers, emergency managers, governmental officials and staff 
members, and their critical infrastructure partners in every state and 
in each territory.
    The NDPC is an entity with deep experience, demonstrable expertise, 
unique competencies, and a long-standing relationship with DHS/FEMA; 
one which is trusted by state, local, tribal, and territorial 
jurisdictions. It supports the national training program mandate to 
identify, develop, test, and deliver homeland security training to all 
emergency disciplines.
    NDPC resources include:

    <bullet>  Established and mature training infrastructure (e.g., 
people, training sites, products, processes and systems)
        <bullet>  Unique training facilities
        <bullet>  Significant human capital at all levels:
            <bullet>  1,138 Subject Matter Professional instructors 
            from across the nation
            <bullet>  Certified Training and Development Professionals
            <bullet>  Professional Instructional Design and Subject 
            Matter Curriculum Development Teams
            <bullet>  Direct access to academia--including advanced 
            research in core competency areas
    <bullet>  Courses that meet and/or exceed FEMA certified curriculum 
and instructor qualification criteria requirements and support 
community lifeline sustainment
    <bullet>  Consistency, effectiveness, and efficiency enabled 
through centralized management with decentralized training and course 
deliveries.
    <bullet>  Partnerships between NDPC members, academic 
organizations, and with multiple other Federal Agencies and 
professional responder associations.
    <bullet>  Continuous improvement via course participant feedback, 
course evaluations, needs assessments and regularly scheduled course 
reviews and updates.
       Keeping up with Evolving Threats by Building Capabilities
    Today, responders from various disciplines must work together to 
respond to a myriad of emergencies including natural disasters, active 
shooters and complex coordinated attacks, among others. By responding 
together, the number of casualties can be reduced. This requires 
seamless coordination, which can only be accomplished by planning and 
training for such emergencies together. NDPC courses give responders 
and the whole community the opportunity to train together, so they can 
work together during an emergency to save more lives.
    The NDPC has the ability and willingness to continually evolve and 
be immediately responsive to the unique first responder/receiver 
training needs of each state through cooperation and coordination with 
each State Administrative Agency (SAA). The NDPC provides each state 
with targeted and needed first responder/receiver training to address 
current gaps and strengthen its identified core capability needs, thus 
enhancing our nation's preparedness.
Just In Time Training to Protect our Responders
    Immediately after the U.S. Ebola fatality in Dallas, TX, CDP 
received the mission to develop a course on the safe and effective use 
of personal protective equipment (PPE) by emergency responders 
operating in an infectious disease environment. The development team 
immediately consulted with subject matter experts from the Centers for 
Disease Control and Prevention and within three days designed and 
developed an eight hour course. This process normally takes at least 
160 hours.
    The course was very successful and the demand for training quickly 
outpaced the CDP's ability to deliver enough courses. To address the 
high demand for the training, the team subsequently partnered with 
other members of the NDPC to deliver training across the country. All 
seven NDPC member organizations mobilized to offer the course across 
the country to reach as many personnel as possible in the following 
year. Several members are still delivering the course today when it's 
requested.
Active Shooter Training
    In one example of the value of training designed for emerging 
threats, the NDPC has several courses that specifically address the 
need to improve the integration of law enforcement, fire, and emergency 
medical services in the response to active shooter events. Courses on 
active threat integrated response, law enforcement active shooter 
emergency response, and active shooter incident management are several 
examples of training delivered in Las Vegas prior to the tragic events 
of October 1, 2017 on the Las Vegas strip.
Developing Recovery Training
    Following the 2017 hurricanes and the devastating impact of the 
storms on territories and states including Puerto Rico, Florida, 
Georgia, South Carolina, North Carolina, Alabama and Texas, the need 
for training on recovery was identified. As response to the storms 
ended and recovery began, it became clear that many of the impacted 
communities were not prepared with the knowledge and skills they needed 
to quickly aid recovery from such catastrophic events. NDPC members 
acted quickly by developing courses on damage assessment, debris 
management, planning and resilience. The training provides the 
knowledge and skills necessary to enhance and adopt existing plans to 
better address recovery for the whole community, encouraging 
coordinated planning and public/private partnerships to support 
critical infrastructure resilience. The courses also assist communities 
in identifying and recognizing disaster recovery program resources, 
informing them of public assistance options and the methods to access 
those programs. State and local communities identified training needs 
at all levels, for individual community members, planners and 
administrative staff, as well as senior elected officials.
Continuous Contact and Engagement with FEMA Partners and the Emergency 
                          Management Community
    We have strong relationships with our FEMA partners and work 
closely with them to address long-term trends that influence national 
preparedness; collaborating to design and deliver training that closes 
critical training gaps. Our partnerships and relationships with federal 
agencies extend beyond our primary FEMA partners, to departments and 
agencies with resources and responsibilities related to our training, 
ensuring accuracy, alignment and relevance to national priorities.
    The NDPC actively works with a SAA Advisory Council made up of 12 
state representatives, one territorial representative and one tribal 
representative. The Council and the NDPC meet regularly, actively 
working together to ensure training needs and gaps are identified, 
assisting us in creating and delivering training that is truly needed. 
This continuous engagement also provides valuable insight and feedback 
on the impact of training, supporting our continued efforts to evaluate 
and improve training.
Training Gap Analysis
    As a result of the close relationships with the states and the 
state training points of contact responsible for identifying training 
needs, the NDPC developed a training gap analysis course: ``Readiness: 
Training Identification and Preparedness Planning (RTIPP)'', a whole 
community approach to creating an effective training plan that 
identifies and catalogs training goals, prioritizes training efforts, 
develops improvement plans, and implements a course of action. 
Communities report that the training was ``long overdue for local 
jurisdictions to make honest and meaningful assessments of our training 
and readiness gaps.'' (R. Land, Columbus, GA)
    We also have strong relationships with many of the professional 
associations in the field of emergency management, including some of 
those represented by my esteemed fellow panelists here today:

        National Emergency Management Association (NEMA)
        International Association of Emergency Managers (IAEM)
        National Association of Counties (NACo)

    As well as many other associations critical to our mission and 
audience including, but not limited to:

        National Sheriffs Association (NSA)
        International Association of Chiefs of Police
        International Association of Fire Fighters

    And many more . . .
                            Looking forward:
    In closing, I would like to thank you again for inviting me to 
testify on behalf of the National Domestic Preparedness Consortium. I 
want to underscore the importance of each individual in every 
discipline, the national responder and local, county, tribal, 
territorial and state organizations and our collective corps of NDPC 
subject matter professionals; without them, we don't have a mission or 
reason to exist. Similarly, I want to acknowledge the efforts of our 
partners in creating a culture of preparedness; namely, the Rural 
Domestic Preparedness Consortium, the National Cybersecurity 
Preparedness Consortium and certainly the various organizational 
components of DHS/FEMA. It is an honor to serve with them all.

    Ms. Titus. Thank you, Mr. Davis.
    Ms. Williams.
    Ms. Williams. Thank you for holding this important hearing 
today, particularly on the eve of the Atlantic hurricane 
season.
    I am Pamela Williams, the executive director of the 
BuildStrong Coalition, and it is the honor of my career to be 
before you today to discuss one of the most transformational 
pieces of emergency management and resilience legislation since 
the creation of FEMA.
    I join my partners here, the emergency management and 
resilience community, in our gratefulness for the continued 
bipartisan leadership and commitment demonstrated by this 
entire committee to reduce the impacts, costs, and losses of 
disasters across the country.
    Today it is my privilege to serve as the executive director 
of the BuildStrong Coalition and to testify here before you 
today on their behalf.
    The BuildStrong Coalition, formed in 2011 to respond to an 
increasing number of severe disasters, is made up of an 
incredibly diverse group of members, representing firefighters, 
emergency responders, emergency managers, insurers, engineers, 
architects, contractors, and manufacturers, as well as consumer 
organizations, code specialists, and many others that are 
committed to building a more disaster-resilient Nation.
    The BuildStrong Coalition has been a partner with this 
committee and your work to investigate the causes of and devise 
solutions to the rising cost of disasters in the United States 
since you initiated this conversation in 2013, and we 
appreciated the opportunity to inform several key provisions of 
the Disaster Recovery Reform Act. I will now refer to this as 
DRRA.
    The many provisions of DRRA work intricately together to 
provide incentives to address some of the country's policies 
and laws that continue to leave lives, homes, and communities 
quite vulnerable.
    The compelling arguments for these policy changes are 
grounded in overwhelming science and evidence. Better land use, 
modern science applied to home construction and increased 
mitigation measures can dramatically reduce the devastation 
brought on by these disasters.
    Most recently, the National Institute of Building Sciences 
released a report and reported adopting model building codes 
can save $11 for every $1 invested.
    DRRA clarifies that the development, implementation, and 
enforcement of modern building codes are eligible uses under 
FEMA's mitigation programs. It also incentivizes States to 
adopt model building codes by providing recovery funds to 
replace and restore damaged facilities to the latest codes and 
standards.
    As we have discussed today, the true game-changer for 
disaster recovery policy in this country is the creation of the 
National Public Infrastructure Pre-Disaster Mitigation Fund, 
which is an additional set-aside of 6 percent disaster spending 
for the purposes of greater investment in mitigation before a 
disaster.
    DRRA gives FEMA the opportunity and the challenge to create 
a new permanent mechanism to provide substantial funding for 
cost-effective, risk-reducing pre-disaster mitigation projects.
    With FEMA's leadership, the nationwide pre-disaster grant 
program will impact both public infrastructure and individual 
preparedness by increasing resilience through State-sponsored 
safe home grants.
    [The prepared statement of Ms. Williams follows:]

                                 <F-dash>
     Prepared Statement of Pamela S. Williams, Executive Director, 
                         BuildStrong Coalition
    Chairwoman Titus, Ranking Member Meadows, and distinguished members 
of the Committee, I would like to thank you for holding this important 
hearing today regarding the ongoing efforts surrounding the 
implementation of the Disaster Recovery Reform Act of 2018 (P.L. 115-
254), as well as the nation's readiness for disasters, particularly on 
the eve of the 2019 Atlantic Hurricane Season. I am Pamela Williams, 
the Executive Director of the BuildStrong Coalition, and it is the 
honor of my career to be before you today to discuss one of the most 
transformational pieces of disaster legislation since the creation of 
the Federal Emergency Management Agency (FEMA), and most certainly 
since the Post-Katrina Emergency Management Reform Act. I join the 
emergency management and resilience communities in our gratefulness for 
the continued bipartisan leadership and commitment demonstrated by the 
Chairwoman, Ranking Member, and this Committee in reducing disaster 
impacts, costs, and losses across the country.
                      Background and Introduction
    My journey here began over 20 years ago, aiding the City of Des 
Moines, Iowa in recovery from the devastating 1993 Midwest floods. 
During my career, I have served at the federal, state and local levels, 
dealing with disaster policy. I have helped local governments adopt and 
enforce codes and standards as they attempted to rebuild from 
catastrophe, guided states toward prioritizing disaster preparedness 
and mitigation efforts, and worked in the trenches with FEMA addressing 
the consequences of this country's most catastrophic disasters. Most 
recently, I was honored to serve this Committee for five years, most 
importantly as the members of this Committee developed the legislative 
response to the unprecedented 2017 disaster season. I have a deep 
appreciation for the emergency management profession, the challenges in 
driving responsible disaster policy, and the tremendous, tireless 
efforts put forth every day by FEMA, all levels of government, and our 
private sector partners in trying to get to a better answer on 
disasters.
    Today, it is my privilege to serve as the Executive Director of the 
BuildStrong Coalition and to testify before you today on its behalf. 
The BuildStong Coalition, formed in 2011 to respond to an increasing 
number of severe disasters, is made up of a diverse group of members 
representing firefighters, emergency responders, emergency managers, 
insurers, engineers, architects, contractors, and manufacturers, as 
well as consumer organizations, code specialists, and many others 
committed to building a more disaster resilient nation. We are proud to 
be at the forefront of this conversation and serve as a rational, 
trusted expert in the areas of disaster resiliency, mitigation, and 
preparedness. We look forward to continuing our efforts to raise 
awareness and increase capacity to help minimize risk and reduce losses 
to communities, businesses, and families.
    The BuildStrong Coalition has been a partner with the Committee in 
its work to investigate causes of, and devise the solutions to, the 
rising cost of disasters in the U.S. since you initiated this 
conversation in 2013. We have been honored to present witnesses and 
participants in hearings, roundtables, and briefings to identify 
opportunities for policy changes that promote mitigation and the smart 
investment of federal resources to address our country's increasing 
number of severe and costly weather events, including informing several 
provisions of the Disaster Recovery Reform Act of 2018.
             Transforming Disaster Recovery and Mitigation
    In recognition of unsustainable impacts of disasters, the enormous 
challenges presented by the recovery needs of the 2017 disaster season, 
and the increasing proof of the overwhelming benefits of mitigation--
particularly pre-disaster mitigation--this Committee introduced and 
passed the bipartisan Disaster Recovery Reform Act of 2018 (DRRA) and 
other disaster recovery provisions in the Bipartisan Budget Act of 
2018. These changes to disaster law and policy will support and 
incentivize states and localities to adopt enhanced mitigation measures 
to protect lives and taxpayer dollars, remove some of the moral hazards 
that increase risk, and transform disaster resilience in this country. 
FEMA now has more tools to help impacted communities recover smarter 
and stronger and end the cycle of build, damage, rebuild.
Bipartisan Budget Act of 2018
    On February 9, 2019, the President signed into law the Bipartisan 
Budget Act of 2018, which included the first key portion of DRRA 
adopted to incentivize states to implement risk-reducing measures to 
draw down disaster costs and losses. The provision provides up to an 
additional 10 percent in federal disaster funds as a reward to states 
that take measures that will reduce their exposures to vulnerabilities 
identified in their mitigation plan.
    Not only should this allow FEMA to incentivize and reward states 
for being proactive, but this is also an opportunity for FEMA to help 
establish a minimum baseline standard for states to be working toward 
in their level of readiness, preparedness, and mitigation activities.
The Disaster Recovery Reform Act of 2018
    On October 5, 2018, President Trump signed DRRA into law as part of 
the Federal Aviation Administration Reauthorization Act of 2018. These 
reforms amend the Robert T. Stafford Disaster Relief and Emergency 
Assistance Act and:

    <bullet>  acknowledge the shared responsibility of disaster 
response and recovery,
    <bullet>  aim to reduce the complexity of FEMA recovery programs, 
and
    <bullet>  build the nation's capacity for the next catastrophic 
event by reducing disaster risk and enhancing capabilities at the 
federal, state, and local levels.

    The many provisions of DRRA work together to provide incentives and 
address some of this country's policies and laws that continue to leave 
lives, homes, and communities vulnerable. The compelling arguments for 
these policy changes are grounded in overwhelming science and evidence. 
Better land use, modern science applied to home construction, and 
increased mitigation measures can dramatically reduce the devastation 
brought by these disasters. Most recently, the National Institute of 
Building Sciences (NIBS) released its ``Natural Hazard Mitigation 
Saves: 2018 Interim Report,'' concluding that:

    <bullet>  Adopting Model Building Codes Saves $11 per $1 Invested
    <bullet>  Federal Mitigation Grants Save $6 per $1 Invested
    <bullet>  Exceeding Codes Save $4 per $1 Invested
    <bullet>  Mitigating Infrastructure Saves $4 per $1 Invested

    DRRA provides incentives and rewards through providing the 
appropriate level of funding to communities who invest in resiliency 
and stronger building codes, and who make smart pre-disaster mitigation 
efforts.
    Among the key provisions in DRRA:

    <bullet>  enable greater and more consistent investment in pre-
disaster mitigation;
    <bullet>  support efforts to reduce risks from future disasters 
after fires;
    <bullet>  facilitate earthquake-related hazard planning;
    <bullet>  increase state capacity to manage disaster recovery;
    <bullet>  provide expanded funding for individuals and households 
and greater flexibility to survivors with disabilities;
    <bullet>  grant FEMA the ability to hire and retain a more 
experienced disaster workforce;
    <bullet>  direct FEMA to reconsider the factors it uses to evaluate 
a jurisdiction's request for a major federal disaster declaration; and
    <bullet>  require FEMA to update Congress on the development of a 
national preparedness assessment and efforts to avoid duplication 
across preparedness grants.
New Tools for Mitigation and Code Enforcement
    DRRA clarifies that the development, implementation, and 
enforcement of modern building codes are eligible uses under FEMA's 
existing hazard mitigation programs. It also incentivizes states to 
adopt model building codes by providing recovery funds to replace and 
restore damaged facilities to the latest codes and standards. In the 
wake of a disaster, FEMA assistance may also be available to cover base 
and overtime wages for extra hires involved in the enforcement of 
building codes to ensure that recovery rebuilding efforts comply with 
locally adopted build codes.
    Additionally, like other disaster declarations, DRRA allows states 
that receive Fire Management Assistance Grants to receive post-fire 
hazard mitigation assistance to help communities recover and prevent 
deadly floods and mudslides after wildland fires. Finally, DRRA 
clarifies that activities related to wildfire, windstorm, and 
earthquake mitigation are eligible for FEMA's mitigation assistance 
programs.
National Public Infrastructure Pre-Disaster Mitigation Fund
    The true game changer for disaster recovery policy in this country 
is the creation of the National Public Infrastructure Pre-Disaster 
Mitigation fund, which is an additional set-aside of 6 percent annual 
disaster spending for the purpose of funding greater investment in 
mitigation before a disaster. DRRA establishes FEMA the opportunity and 
the challenge to create a new, permanent mechanism to provide 
substantial funding for cost-effective, risk-reducing pre-disaster 
mitigation projects. DRRA provides a significant increase in reliable 
funding for grants for state, local, tribal, and territorial 
governments and communities that will enable them to better plan and 
execute cost-effective risk mitigation projects. With FEMA's 
leadership, this nationwide pre-disaster mitigation grant program will 
impact both public infrastructure and individual preparedness by 
increasing residential resilience through state-sponsored safe home 
grants. The competition for these resources will create an incubator 
for best practices, lessons learned, and great ideas for projects and 
programs that can be tailored at the state and local level to reduce 
the risks unique to those communities.
                             Implementation
    As with all significant reforms, we have our work cut out for us. 
DRRA contains over fifty provisions requiring a program or policy 
update, revision, or issuance from FEMA or another federal partner. 
Many of these provisions are retroactive so that they can impact the 
recoveries in the wake of the devastating 2017 hurricanes and 
wildfires. Looking ahead, members of Congress should have a great deal 
of urgency ensuring the objectives and principles set forth in DRRA are 
adhered to. FEMA has the daunting task to effectively and efficiently 
implement the law to its fullest extent so that we achieve the 
meaningful impact that was envisioned by this Committee. Let me make 
clear, I applaud FEMA for their efforts, transparency, and 
considerations of the many stakeholders in these measures and their 
willingness to embrace the challenging task in ensuring the law's 
implementation. FEMA has done a tremendous job fostering resiliency at 
every level and has implemented many provisions in DRRA which could be 
quickly implemented. The BuildStrong Coalition has been engaged by FEMA 
as a technical partner, bringing the right stakeholders to the table to 
provide input.
Principles for Implementation
    New funding alone cannot solve a problem of this magnitude. This 
new investment must be deployed wisely and in a manner that realizes 
its full benefit. The following represent key principles for guiding 
the BuildStrong Coalition's engagement on behalf of its members, 
particularly related to the provisions in DRRA:

    1.  Enhance the adoption and enforcement of statewide building 
codes. Where practicable, the adoption and enforcement of building 
codes should be a basic, fundamental program element and requirement, 
also recognizing the key importance of enforcement and measuring the 
effectiveness of codes in states.
    2.  Competitive program based on risk. The most competitive 
projects are those that increase a community's resilience to disasters, 
saving lives and property.
    3.  Competitive program dual focus. Funding should be directed 
toward:
          a.  State-led Residential Resilience/Safe Homes Programs
          b.  Cost Effective, Risk-reducing Infrastructure Projects
    4.  Reduce disaster risk nationwide. Assistance should not be 
confined to only a few states or certain hazards. Disasters impact us 
all and hazards exist in every state. A nationwide conversation should 
include how to measure risk and how actions should be weighted to 
address that risk. A system that uses measures such as the Insurance 
Service Office (ISO) Build Code Effectiveness Grading Schedule, also 
known as BCEGS, in addition to other credit calculation tools, would be 
a good benchmark.
    5.  Small allocation to states for capacity and capability 
building. States must build a capacity to develop real, working 
mitigation plans that identify top vulnerabilities and the concrete 
steps that must be taken to reduce these vulnerabilities. The actions 
identified in the state mitigation plans and codes must then be 
implemented.
    6.  Promote resilient materials and life safety methods.
    7.  Promote individual and community preparedness.
    8.  Support national response framework lifelines and FEMA's 
strategic objectives.
    9.  Encompass new construction and retrofitting. Taking lessons 
learned from recent disasters, improve the resiliency of multi-family 
buildings. Encourage disaster resistant techniques for new construction 
and retrofitting aged mid-rise/high-rise multi-family structures.
    10.  Leverage existing work by states, local governments, and the 
private sector. Take advantage of existing programs, identify best 
practices, and incorporate lessons learned.
    11.  Leverage existing programs and other streams of funding. Build 
upon existing disaster recovery programs that encourage mitigation, 
such as Public Assistance Mitigation and the Hazard Mitigation Grant 
Program available post-disaster. Also, programs and guidance must be 
consistent with other programs and streams of funding in terms of 
eligible applicants, projects, and program requirements, like the 
Community Development Block Grant-Disaster Recovery program and the 
National Flood Insurance Program.
    12.  Facilitate partnerships. Where possible, public-private 
partnerships and public-public partnerships should not only be 
facilitated, but encouraged.
    13.  Not to augment state staff. These funds are not intended to be 
used to hire additional staff.
    14.  Simple, scalable programs and guidance that can easily be 
replicated in and followed by states. Where possible, establish pilot 
programs, ensure maximum flexibility and speed of enactment, and avoid 
lengthy rulemaking and implementation procedures that will delay 
deployment.
                               Next Steps
    The BuildStrong Coalition is working hard with its member and 
partner organizations to identify the efforts likely to result in the 
greatest risk-reducing, cost-effective mitigation projects. Similar to 
FEMA's focus on the stabilization of lifelines across infrastructure 
sectors, we are also focusing on increasing the resilience of these 
lifelines through mitigation. Lifelines provide indispensable services 
that enable the continuous operation of critical business and 
government functions, and without prompt restoration would risk health, 
safety, and economic security. Focusing on these lifelines, such as 
power, water, and sheltering, allow decision-makers to better identify 
key risks and facilities and more readily target projects that can help 
protect or restore critical functions during a disaster.
    We are also keenly focused on what resilience means to the 
individual and household. Just last week, our partners at the Insurance 
Institute for Business and Home Safety (IBHS) testified on resiliency 
before the Committee on Ways and Means. As IBHS President and CEO Roy 
Wright testified,

        As important as these federal measures are, they will not 
        advance adaptation unless states understand how these funds can 
        be applied to make homes, businesses, and communities less 
        vulnerable to the severe weather scenarios that play out at the 
        IBHS Research Center. It is critical to connect the dots 
        between these new federal grant opportunities and bricks and 
        mortar state programs that can strengthen the built environment 
        for the future. We have partnered with the BuildStrong 
        Coalition to provide technical assistance in making these 
        connections. The DRRA, once fully implemented, will deliver the 
        largest investment by the Federal government to buy down the 
        risk of natural disasters prior to the devastation occurring.

    We look forward to sharing with Congress and FEMA those projects 
which an individual homeowner can undertake to make the greatest impact 
on mitigating certain risks, such as wind, water, hail, and fire.
    Another critical next step, particularly for the implementation of 
the additional pre-disaster mitigation funding, is to build capacity at 
the state level to identify risks and cost-effective projects, then 
facilitating the development of effective and efficient grant 
applications and awards. For its part, the BuildStrong Coalition has 
partnered with FEMA and the U.S. Chamber of Commerce to host a series 
of resilience summits across the country to help stakeholders develop 
the capacity to apply for and implement these grants. The first summit 
will be July 23, 2019, in Washington, D.C. Future meetings will be held 
in Sacramento, CA, and Houston, TX. Further, through these partnerships 
we are working to align and leverage other federal resilience programs, 
such as Community Development Block Grant-Disaster Recovery (CDBG-DR) 
funds and resources from the Department of Energy and EPA.
    Disasters won't take a vacation while we are doing this hard work. 
This country will undoubtedly be faced with additional catastrophes 
before DRRA is fully implemented. Even now, Congress considers 
disaster-related legislation. I implore you, as the leaders in disaster 
policy, to remain steadfast and ensure that any disaster-related 
legislation or infrastructure package remain consistent with the 
transformational changes of DRRA, including leveraging the investment 
of federal resources in a smart, strong way to increase resiliency.
                               Conclusion
    It will take us years to recover from the destruction caused during 
2017 and other recent disasters. The country is currently undertaking 
one of the largest nationwide disaster recovery efforts in the history. 
Congress gave FEMA the tools and authorities to ensure that the current 
recovery efforts result in stronger, more resilient communities. As the 
2019 Atlantic Hurricane Season gets underway, we are once again 
reminded that time is of the essence to ensure that we do everything we 
can to facilitate the timely implementation of DRRA, facilitate the 
streamlining of FEMA's programs, and continue to incentivize mitigation 
throughout this country. My prayer is that we will be able to see in 
the very near future how our actions today have had a real impact on 
helping individuals, businesses, and communities survive disasters.
    This committee is to be commended for pushing the reforms to 
federal disaster spending that put pre-disaster mitigation at the 
forefront and positioned FEMA on the cutting edge of the effort to 
rebuild our infrastructure in a way that is fortified against natural 
disasters. But we cannot take our foot off the gas and must continue 
our tireless efforts to push for an efficient, effective implementation 
of the law.
    Chairwoman Titus and Ranking Member Meadows, thank you for 
convening this hearing and raising these important issues. I look 
forward to answering any questions you may have.

    Ms. Titus. Thank you.
    Mr. Noel.
    Mr. Noel. I am not on--although it says 5 minutes for me.
    Thank you, Chairwoman Titus, Ranking Member Meadows, and 
members of the committee, and particularly my congressman, 
Garret Graves, for his kind words.
    I am here to represent the National Association of Home 
Builders. I am a custom home builder from LaPlace, Louisiana, 
and we actually counted the numbers. We are up to 2,000 houses 
we built now.
    And one of the greatest pleasures I have had and one of the 
most wonderful opportunities was, after Katrina, which was this 
Nation's worst disaster, we managed to pass a statewide uniform 
enforced building code in the State of Louisiana. We got 369 
jurisdictions under a code with an inspector who was trained 
within 2 years. It was a masterful feat.
    So I know a little bit about adopting building codes and 
how to handle disasters. We had Katrina. We had Isaac, and then 
we had Baton Rouge. And we have done a great deal of recovery 
with that.
    Most of the State and local governments that adopt 
regulations to protect homes and occupants from severe weather 
events and hazards--but you have always got to remember this, 
that $1 that saves $11, it affects the initial purchase of the 
home. I can spend money and build homes such that will never 
pay a claim, but it will be a very small percentage of people 
that can afford to buy that home. So we have got to delicately 
balance how we make our homes more resilient and keeping them 
affordable to the people of America.
    The Bipartisan Budget Act contains several directives to 
make buildings more resilient. The law provides additional 
resources for implementation of building codes post-disaster. 
It allows certain funds to be used for code adoption and 
enforcement and requires repair and rebuilding of federally 
assisted facilities to follow certain building codes to make 
buildings more resilient.
    Many of these efforts are predicated on acquiring the use 
of the latest published edition of certain codes or standards. 
We believe this is too prescriptive, too costly, and does very 
little to improve resilience and would discourage adoption.
    Currently 49 States have adopted a residential code. Those 
States use as much as sometimes 3 years to review codes before 
they change codes. The codes are generally updated every 3 
years. What happens if you do it repetitively every 3 years, 
you are having to retrain your inspectors, you are having to 
buy all new books and get all new equipment. It is better to 
take a longer time between code adoptions. To tell you the 
truth, I have been building houses since adoption of the codes 
and preadoption of the codes. We had a significant change 
before when we went from before the codes to the codes, about 8 
percent increase in cost. That was in 2005, 2006. We have 
adopted three more codes since then and we really have been 
building the house the exact same way. There haven't been 
significant structural changes in the way we build the houses, 
even though there are three additional codes that we are 
adopting.
    So we take the discovery of DRRA, which was signed into law 
on October 5, 2018, including the sister provision that defined 
latest published buildings codes as the two most recently 
published editions of the codes on pre-disaster mitigation. We 
believe that this provides States with flexibility to file its 
own code adoption, implementation, and enforcement process, and 
will help encourage them to adopt the code.
    [The prepared statement of Mr. Noel follows:]

                                 <F-dash>
Prepared Statement of Randy Noel, M.I.R.M., C.G.B., C.M.P., President, 
   Reve Inc., on behalf of the National Association of Home Builders
                              Introduction
    Chairwoman Titus, Ranking Member Meadows, I am pleased to appear 
before you today on behalf of the National Association of Home Builders 
(NAHB) to share our views regarding disaster preparedness. My name is 
Randy Noel, and I am NAHB's Immediate Past Chairman of the Board. I am 
also the president of Reve Inc., a custom home building firm based in 
LaPlace, Louisiana. My company has built more than 1,000 homes in the 
greater New Orleans area. As a longtime resident of Louisiana, I have 
had a firsthand look at what catastrophic disasters can do to 
communities.
    NAHB represents more than 140,000 members who are involved in land 
development and building single-family and multifamily housing, 
remodeling, and other aspects of residential and light commercial 
construction. NAHB's members construct approximately 80 percent of all 
new housing built in the United States each year. NAHB's mission is to 
enhance the climate for housing and the building industry, including 
providing and expanding opportunities for all people to have access to 
safe, decent, and affordable homes.
    Due to the wide range of activities they conduct on a regular basis 
to house the nation's residents, our members are often required to 
comply with various FEMA mandates and/or opt to participate in 
voluntary programs and initiatives to meet their business goals. As 
such, NAHB has a long history of supporting and participating in many 
of FEMA's disaster- and resiliency-related activities and the National 
Flood Insurance Program (NFIP). We have repeatedly demonstrated our 
commitment to working with FEMA and others to promote sound federal 
disaster and floodplain management policies and cost-effective, market-
driven solutions that maintain housing affordability while balancing 
the needs of growing communities with the need for reasonable 
protection of life and property. Today, I would like to discuss with 
you the role building codes play in disaster preparedness and the need 
for policies and programs to enable and facilitate the production of 
resilient homes.
    It is clear that the unusual number of significant natural 
disasters occurring over the past few years, coupled with ongoing 
concerns over the effects of climate change, have increased awareness 
of and raised concerns about the resilience of buildings. Although most 
states and localities are governed by building regulations that are 
designed to protect homes and their occupants from severe weather 
events and hazards, some argue that more should be done. But those 
additional efforts come at costs that not only curtail homeownership 
and significantly hinder housing affordability, but also can severely 
impact state and local economies. This is because these policies 
greatly influence how existing structures and cities are reengineered, 
rebuilt and/or remodeled and impact how and where new homes and 
communities are built.
                               Background
    The Disaster Recovery Reform Act (DRRA) of 2018 was signed into law 
by President Trump on Oct. 5, 2018 as part of the broader legislation 
that reauthorized the Federal Aviation Administration. The DRRA, which 
amends the Robert T. Stafford Disaster Relief and Emergency Assistance 
Act, reforms several FEMA programs to help states and communities 
better prepare for, respond to, recover from, and mitigate against 
disasters of all types. To do so, much of the focus is on two areas: 
ensuring that buildings, infrastructure and communities are able to 
absorb the effects of a natural disaster and recover within reasonable 
expectations and manageable costs; and mitigating potential damage 
before it occurs.
    The unprecedented number and scope of disasters over the past 
several years and their associated losses have been tragic and 
sobering. They have impacted lives, businesses and communities across 
the spectrum, including many NAHB members and our affiliated state and 
local home builder associations. In fact, when disaster strikes, the 
Nation's home builders are at the forefront of many of the recovery and 
rebuilding efforts. As such, NAHB is fully supportive of the continuing 
efforts to improve the nation's readiness and capacity to respond to 
catastrophic disasters but cautions that care must be taken to ensure 
these efforts are comprehensive, flexible, focused on highest risk 
areas and structures, and that solutions are cost effective for all 
stakeholders. NAHB stands ready to work with you, your colleagues, FEMA 
and others to continue to improve the resiliency of the nation and, in 
particular, the nation's housing stock.
                             Building Codes
    The DRRA includes a number of directives targeted at making 
buildings more resilient, such as providing additional resources for 
the implementation of building codes post disaster, allowing certain 
funds to be used for code adoption and enforcement, and requiring 
repair and rebuilding of federally-assisted facilities to follow 
certain building codes. Many of these efforts are predicated on 
requiring the use of ``latest published editions'' of certain codes or 
standards.
    NAHB has long been a supporter of the development and 
implementation of reasonable, practical, and cost-effective building 
codes and standards. We have established a highly knowledgeable and 
active member committee to oversee and participate in code development, 
as well as a seasoned staff team that is dedicated to advocating for 
builders and consumers. Our participation is evident with ICC, ASHRAE, 
the National Fire Protection Association, the American Society of Civil 
Engineers, the American Wood Council, and the American Society for 
Testing Materials and others, through which we aim to find workable 
solutions that are both affordable and provide jurisdictional 
flexibility.
    It is with this backdrop that we raise concerns about requiring the 
adoption of the ``latest published editions.'' Doing so can be 
extremely problematic. First, modern codes already are resilient, so 
increasing the stringency is not necessary. Second, any policy must 
recognize and accommodate the different risks, building technologies 
and landforms that occur across the country by specifically allowing 
the model codes to be amended. Third, each state and local government 
follows its own code adoption, implementation, and enforcement 
processes and has limited dedicated resources, which may not be 
conducive to adopting the latest published codes within the expected 
timeframes. Finally, although the term ``latest published editions'' is 
defined in DRRA as the two most recently published editions, which 
would mean, for example the 2015 or 2018 I-Codes, this definition 
sunsets after five years. Once that happens, FEMA retains the 
discretion to define ``latest published editions'' as it sees fit. NAHB 
believes a literal interpretation is unworkable and unnecessary.
Modern Codes are Resilient
    Building codes are designed to establish minimum requirements for 
public health and safety for commercial and residential structures. 
Although they have existed in various forms for decades, building codes 
in the United States achieved a milestone in 2000 when the three 
regional code organizations were consolidated into the International 
Code Council (ICC) and their codes were combined to create the first 
set of ``I-Codes'', which were published in 2000. Although there are 
other building codes available, the I-Codes are the most widely used 
model building codes, with some form of the International Building Code 
(IBC) adopted in all 50 states and versions of the International 
Residential Code (IRC) adopted in 49 states. The I-Codes are modified 
through a formal public consensus process every three years. This has 
resulted in the publication of a new edition in 2003, 2006, 2009, 2012, 
2015, and 2018. Work has commenced on the 2021 version of the code and 
final votes will take place in the fall of 2019.
    When the I-Codes were created, a number of major improvements were 
immediately made to the traditional building code requirements within 
the residential building code to address issues observed after 
Hurricane Andrew in 1992 and the California earthquakes of 1989 and 
1994. Although additional improvements have been made since the I-
Codes' debut in 2000, the number of changes incorporated into the newer 
editions of the IRC that dramatically impact structural reliability and 
occupant life safety within residential structures have greatly 
diminished. In other words, the modern building codes (e.g., post-2000) 
have proven to be resilient and the need for triannual updates is not 
necessary for improved resilience.
    Despite this, many believe that homes built following the ``latest 
published edition'' of the building code equate to more resilient 
homes, but that is not necessarily the case when compared to those 
built to previous editions of the IRC. Homes built to modern building 
codes--defined as any edition of the IRC--have been shown to be 
resilient. Evidence from FEMA and others demonstrate the IRC, 
throughout its history, has been very effective in preventing the 
destruction of homes due to various storms and earthquakes and 
significantly reducing damage to wall and roof coverings.\1\ Further, 
because many of today's new homes are built with additional sustainable 
and high-performance building features, they are even more durable and 
resilient.
---------------------------------------------------------------------------
    \1\ For example, FEMA's Summary Report on Building Performance--
2004 Hurricane Season (FEMA 490, March 2005) indicates that ``no 
structural failures were observed to structures designed and 
constructed to the wind design requirements of . . . the 2000 IBC/
IRC''. FEMA's Summary Report on Building Performance from Hurricane 
Katrina (FEMA 548, April 2006) states ``most structural failures 
observed . . . appeared to be the result of inadequate design and 
construction methods commonly used before IBC 2000 and IRC 2000 were 
adopted and enforced.'' FEMA's MAT Report following Hurricane Irma in 
Florida (FEMA P-2023, December 2018) states ``buildings designed and 
constructed to comply with the FBC met expectations by performing well 
structurally.''
---------------------------------------------------------------------------
    The successful performance of the IRC is also an indication of the 
``maturing'' of building codes as they have gone through the iterative 
process of refinement since 2000. While tweaking the code to reflect 
technological advances will continue, it is clear that major changes 
aren't as necessary as they used to be. Similarly, because the codes 
are nearing a point of diminishing returns in terms of the cost/benefit 
ratio, additional updates may not be cost effective. Homes can be built 
to withstand any disaster, but homes cannot yet consistently be built 
to withstand any disaster and be affordable. New homes built to modern 
codes are safe. New homes built to modern codes are resilient. There is 
no need to require adherence to the latest published edition of the 
code--especially if that is interpreted to mean the most recent 
version.
Codes Must be Amendable
    State and local governments play a key role in the codes adoption 
process and determining the value of and need for certain code 
requirements. For decades, state and local governments have been 
responsible for evaluating each new edition of the model consensus-
based building codes and determining which provisions are applicable 
within their borders. This is done after a thorough consideration of 
risks, costs, technology, and resources, among other factors. Some 
states make few changes to the model codes, others hand-pick the 
provisions and/or amend certain requirements, and others use the model 
code as a baseline to create their own state-specific code.
    DRRA acknowledges the need to recognize ``standards, and amendments 
made by State, local, tribal, or territorial governments during the 
adoption process,'' and, in fact, the ability of state and local 
governments to tailor building codes and amend them, as needed, to fit 
the needs of their communities and protect their citizens is one reason 
the model building codes work. Under this rubric, Nevada is free to 
identify the risks it faces and adopt the codes that are best suited to 
its locale, geography and economic conditions, while North Carolina is 
able to do the same. In fact, the model codes are intended to be 
tailored and amendments are made to nearly every code that is adopted 
at the state or local level, whether it applies to only the 
administrative requirements or major rewrite of the entire document. 
For example, North Carolina adopted its 2018 building codes based on 
the 2015 I-Codes on January 1 of this year with 38 pages of 
amendments.\2\ Similarly, Nevada adopts the building codes at the local 
level, but collaborates statewide on the amending process and had 14 
pages of amendments on the residential code alone.\3\ Implementation of 
the new statute must not alter this vital underpinning and must allow 
and embrace amendments.
---------------------------------------------------------------------------
    \2\ See Summary of NC State Building Codes Amendments at Code 
http://www.ncdoi.com/OSFM/Engineering_and_Codes/Documents/
2018_NCBuildingCode_amendments/2018_NCBuildingCode_amendments.pdf.
    \3\ See Southern Nevada Amendments to the 2018 International 
Residential Code at http://www.clarkcountynv.gov/building/plan-review/
Building%20Codes/2018_IRC_Amendments.pdf.
---------------------------------------------------------------------------
Code Adoption Processes Vary
    Evaluating and adopting a new building code is a time consuming and 
costly undertaking--one which oftentimes requires state legislative, as 
well as administrative action. The multi-step process typically entails 
public hearings, comment periods and appeals--an administrative 
procedure that can take over a year to complete, not counting the 
transitional period between when the new code is approved and when it 
takes effect. This additional time is necessary so that builders and 
code officials can be trained on the new requirements, how they are to 
be implemented, and how compliance will be measured and enforced in the 
field.
    Recognizing the level of effort required to update the codes, 
coupled with resource constraints and the controversial changes made to 
the 2009 and 2012 IRC codes (unrelated to structural integrity or 
resilience, including the mandatory requirements for fire sprinklers 
and stringent energy code requirements that increased cost, mandated 
the use of particular building products and systems, and created 
unintended consequences such as mold and moisture issues), many state 
and local governments have elected to follow a six-year or longer cycle 
for updating their building codes. In this way, they are able to 
maintain building safety without compromising their ability to oversee, 
administer and enforce the requirements or keep up with emerging 
technology.
    Given these realities, mandating the adoption of the ``latest 
published editions'' creates an unintended disadvantage for many states 
and localities that, under other measures, would be considered to be 
fairly up to date in maintaining their codes (e.g., following a 
standard and predictable process and timeline). FEMA must value and 
recognize state and local governments that make good faith efforts to 
adopt and enforce modern codes and defer to state and local expertise 
in determining which building codes are appropriate.
    In sum, those who call for the adoption of more stringent and 
costly building requirements fail to understand that this would do very 
little to provide further protection from natural disasters. Any by, 
inappropriately focusing on new construction, this would create 
hardships for state and local governments, and would make new housing 
prohibitively expensive for hard-working families at a time when the 
nation is already suffering through a housing affordability crisis. A 
better approach is the swift implementation of DRRA's various 
mitigation, funding and assistance programs with a specific focus on 
making the existing housing stock more resilient.
                        Pre-Disaster Mitigation
    The DRRA includes a number of actions related to improving the 
ability of existing structures to withstand catastrophes, including the 
creation of the National Public Infrastructure Pre-Disaster Mitigation 
Program, which allows the President to set-aside up to 6 percent of the 
amount appropriated to FEMA's disaster relief fund for pre-disaster 
mitigation. States and tribal governments that have received a major 
disaster declaration in the past seven years will be eligible to 
competitively apply for these grants, which estimates suggest could 
range from $800 million to $1 billion annually. NAHB asserts that 
increasing the resiliency of the existing housing stock would be a 
prudent use of this funding stream.
    One hundred and thirty million homes out of the nation's housing 
stock of 137 million were built before 2010, and therefore, most were 
not subject to the modern building codes that are now in effect. 
Equally problematic, the latest Census statistics show the number of 
homes built before 1970 that are taken out of commission is only about 
six out of every 1,000 being retired per year. These low rates of 
replacement mean that the built environment in the U.S. will change 
slowly and continue to be dominated by structures that are at least 
several decades old. Indeed, optimistic estimates suggest that if 1.2 
million homes were built every year, after 20 years only 16 percent of 
the conventional housing stock would consist of new homes built between 
now and then. In comparison, 68 percent would still consist of homes 
built before 1990.\4\ Clearly, these statistics demonstrate the impact 
that more recent improvements in development and construction practices 
and building codes can have on the built environment is limited because 
they largely focus on new construction, and points to the need to 
proactively address the existing housing stock.
---------------------------------------------------------------------------
    \4\ Emrath, Paul, Ph.D., More New Homes Needed to Replace Older 
Stock, National Association of Home Builders, August 2, 2018.
---------------------------------------------------------------------------
    Many of the post-disaster investigations support this conclusion. 
For example, in FEMA's Mitigation Assessment Team Report regarding 
Hurricane Sandy, the summary reads, ``Many of the low-rise and 
residential buildings in coastal areas [that had observable damage] 
were of older construction that pre-dates the NFIP.'' \5\ Similarly, 
the Insurance Institute for Business and Home Safety stated in its 
preliminary findings report for Hurricanes Harvey and Irma that, 
``[t]otal destruction from wind occurred to mobile homes, as well as 
older site built conventional homes,'' and ``[n]ewer homes generally 
performed better than older buildings.'' \6\
---------------------------------------------------------------------------
    \5\ Federal Emergency Management Agency, Mitigation Assessment Team 
Report Hurricane Sandy in New Jersey and New York, November 27, 2013.
    \6\ Brown-Giammanco, Ph.D., Hurricanes Harvey and Irma--IBHS 
Preliminary Findings Report, Insurance Institute for Business & Home 
Safety, May 19, 2019.
---------------------------------------------------------------------------
    As policymakers seek to mitigate the effects of future natural 
disasters, they need to create opportunities and incentives to 
facilitate upgrades and improvements to the older homes, structures and 
infrastructure that are less resilient to natural disasters because 
they were built when there were no national model codes in existence or 
constructed following codes that are now outdated.
                         Housing Affordability
    The DRRA directs FEMA to enact a series of reforms to strengthen 
building code adoption and enforcement, authorize new resources for 
pre-disaster mitigation and identify new eligible mitigation 
activities, among others. Those related to the enactment of more 
stringent codes and the provision of additional funding streams are the 
ones most likely to impact the residential construction industry and, 
more specifically, housing affordability.
    Many people cannot afford to purchase a home, much less one that 
exceeds current building requirements. In Louisiana, after the new code 
was adopted, builders saw an increase in construction costs of about 8 
percent. Obviously, those costs are passed along to the consumer and 
can have a significant impact on the pool of eligible buyers. Indeed, 
NAHB estimates that in 2019, a $1,000 increase in the median new home 
price would price 127,560 U.S. households out of the market.\7\ But 
compliance with many code changes and building retrofits can be 
significantly more costly than $1,000. For example, cost increases 
range from $4,800-$14,000 due to the changes from the 2006 to the 2009 
code.\8\
---------------------------------------------------------------------------
    \7\ Zhao, Na, Ph.D., NAHB Priced-Out Estimates for 2019, National 
Association of Home Builders, January 2, 2019.
    \8\ Home Innovations Research Labs, Estimated Costs of the 2015 IRC 
Code Changes, (Report No. 5946-002_11192014, January, 2015
---------------------------------------------------------------------------
    At the end of the day, stricter construction standards and 
mitigation come with a price tag. Regardless of the level of benefit, 
some entity has to provide the upfront funding required to conduct the 
construction or mitigation activities or they will not occur. This is 
where the challenge lies for most consumers and homeowners. Just 
because more stringent codes or pre-disaster mitigation may provide a 
benefit doesn't mean it can or will be implemented. While the increased 
funding from DRRA can help, because most of these sources have been 
consistently oversubscribed and target the highest risk structures, it 
is unlikely they will be able to fully serve the array of mitigation 
needs associated with existing housing. New sources, avenues, and 
incentives must be found.
    One alternative that has been used in several states is providing 
insurance discounts for conducting specific activities. In Texas, the 
state's hurricane insurance pool, the Texas Windstorm Insurance 
Association, offers premium discounts of 19% to 33% for building code 
compliance. In Rhode Island, insurers are required to waive the 
hurricane deductible for insured homeowners who voluntarily implement 
mitigation measures that are specified in the insurance regulation.\9\ 
These programs have proven to be popular, as they provide value through 
loss reduction, yet enable and facilitate broader participation through 
reduced costs. The recognition and expansion of programs like these is 
one way to engage participation while avoiding hefty fees.
---------------------------------------------------------------------------
    \9\ Frith, Alan, Developing a Comprehensive Wind Mitigation 
Incentive Program Is Complicated, but Modeling Simplifies the Task, 
AIR, September 25, 2017.
---------------------------------------------------------------------------
    Another alternative is to recognize the value of the above-code 
measures and/or mitigation investments within the lending process--a 
practice that could apply to both new and existing construction. Under 
current practice, in most instances, mortgage companies, appraisers and 
real estate professionals do not consider the costs or benefits 
associated with the various resiliency upgrades that DRRA promotes. 
This creates a disincentive to take proactive steps to reduce a home's 
exposure, as those expenditures are not necessarily considered to add 
value. If the improvements are not included in the appraisal or 
appraised value of the structure, not only is the buyer uninformed 
about the home's qualities, his or her willingness to pay more can be 
significantly diminished.
    In an effort to spur private investment in resiliency, the value 
and benefit of above code practices and mitigation measures should be 
incorporated into standard real estate lending practices and real 
estate listings. By recognizing and valuating the upgrades, appraisers 
can consistently give weight to these improvements in their valuations, 
lenders may reconsider qualifying loan ratios, realtors can promote 
their benefits, and homeowners would get assurances that the 
investments they have made will retain value and be recognized in 
resale. Homes will also get the upgrades needed to better weather storm 
events, thereby reducing future damage, insurance outlays, and 
homeowner displacement--the very purpose of many of DRRA's directives.
    Other opportunities to facilitate, incentivize, and offset the 
costs of voluntary above-code construction and/or pre-disaster 
mitigation include tax incentives, grants, the creation of a 
weatherization assistance-like program for resiliency, and other 
financing programs. Clearly, FEMA cannot solve this issue on its own, 
but it can work within the DRRA framework to lay the groundwork for 
future collaborations.
                             Moving Forward
    Sound building codes are already in place in most communities and 
they are doing their job. As FEMA considers and takes action to 
implement the various directives of DRRA, NAHB remains concerned with 
how any expansion of federal authority over state and local 
governments' ability to adopt location-appropriate building codes and 
take other steps will impact where and how homes are built and severely 
constrain the production of affordable housing. NAHB is also troubled 
by the inappropriate focus the adoption of the most recent versions of 
codes places on new construction at the expense of the existing housing 
stock and strongly believes that expanding the mitigation opportunities 
and targeting them to existing structures could help to better manage 
and more evenly distribute the risks.
    We strongly urge FEMA and this Subcommittee through its oversight 
role to focus any efforts related to housing on cost-effective, market 
driven solutions that encourage greater resiliency in the nation's 
housing stock while preserving housing affordability for both new and 
existing homes. Further, given our members' knowledge and experience 
building homes and communities--activities that place them on the front 
lines in terms of designing, planning, and building to reduce risks and 
minimize future losses--we stand ready to assist and help deliver 
positive results and help FEMA reach its goals.
                               Conclusion
    I would like to thank the Subcommittee for the opportunity to 
testify today and share NAHB's views. The nation's home builders have 
long supported the adoption and implementation of building codes as a 
way to ensure the homes we build are solid and safe. In doing so, what 
has become clear is that with each new home we build, we are 
transforming our communities into resilient cities of the future.

    Ms. Titus. I am afraid we are down to 55 seconds to get 
over there and vote. So the committee will stand in recess. And 
we will reconvene 10 minutes after the end of the last vote to 
ask questions. And we appreciate it and apologize and we will 
be back and then you all can continue this discussion.
    Thank you very much.
    [Recess.]
    [5:29 p.m.]
    Ms. Titus. The committee will now reconvene for questions 
of the second panel. I want to apologize for keeping you 
waiting, but thank you very much for staying, because this is a 
very important topic. You can tell every member of the 
committee has something particular to their district and cared 
very much about the topic so it has been very important to us.
    As I listen to all of your comments, abbreviated though 
they were, it seems to me some themes came out. One, you want 
transparency, one you want to be at the table, and one you want 
it sooner rather than later, especially in terms of the 
guidance so as least you know what to prepare for.
    So with those things in mind, I would like to ask you 
because you have all been involved in this from your different 
perspectives for a long time. If you could share your 
experiences in your particular organization under previous 
legislation, like the Sandy Recovery Improvement Act or the 
Post-Katrina Emergency Management Reform Act and now DRRA.
    What have we learned from those that we can now do better? 
What is working better now already? Could you just kind of 
compare your experiences and let that kind of inform our 
decisionmaking as we try to implement DRRA in the near future? 
And we will go back and start at this end and maybe just move 
down or jump in. Whatever.
    Ms. Merick?
    Ms. Merick. Thank you very much. You know our experiences, 
DRRA versus SRIA, I think that SRIA overall the implementation 
of SRIA appeared to be more agencywide focused. The DRRA 
implementation currently seems fragmented throughout the 
agency. With that being said, some of the DRRA provisions are 
much larger in scale and scope than those of SRIA, so some 
differences are to be expected.
    I think the mitigation program and the piece of that has to 
have top priority. And we have to take a look at that and we 
have to do it through interagency. And that is the difference 
for us on this one versus SRIA.
    Ms. Titus. OK. Thank you.
    Mr. Crossley. I would agree with Director Merick, so we are 
both from Ohio, so I have been there about 4 years now. And I 
would say that the post-Katrina addressed a lot of the 
perceived failings in both local and FEMA. And then the post-
Sandy act was processed internal.
    And then with DRRA, I think the criticality of one is just 
massive focus on mitigation funding. I mean that is just key. 
Resilient infrastructure, enhancing building codes, just sort 
of pushing it down and encouraging us and enabling us to say 
this provides the benefit to be more resilient. And I think 
that one of the keys is going to be also from a FEMA 
perspective is engaging representatives of the various 
interested parties or the impacted parties, let us just call it 
impacted, because at the local level, the State is normally the 
grantee and we are the subgrantee. The State has X amount of 
flexibility and we really need similar flexibility at the local 
level to look at our programs, look at how we are structured, 
and use the funds that can really drive resiliency in our 
community.
    So I think you have a real opportunity here as I stated to 
continue your oversight of FEMA, but also to encourage them to 
say we need you to reach out to the stakeholders and make sure 
that as you develop these timelines, as you develop the 
guidance, that at a minimum you consider their viewpoint. At a 
maximum you really start taking it to heart and putting it in 
the guidance that you--and considering the impact, especially 
being from a county that the county rolls down to other 
communities within that county.
    Ms. Titus. Thank you.
    Mr. Gore.
    Mr. Gore. It is interesting because I look at this from a 
couple different aspects, one is what have we gone through? And 
then what is our hope for DRRA, what is our real hope? Because 
it hasn't been implemented yet. And so, you know, what we have 
encountered is extreme professionalism and great work with FEMA 
on the ground. We have not had problems with our field offices, 
with them being as clear as possible as what they could foresee 
what would happen at headquarters. Right? You need to send this 
in. We are going to work with you on the ground. We are going 
to make sure there is not clawback on the back end. We are 
going to verify all your costs. We are going to put the people 
on the ground to do this.
    So the biggest thing for us with Sonoma was once it goes to 
headquarters right now understanding that they are overloaded 
and we want to work with them to do it. Unfortunately, it can 
become a black hole, just like the question for you with 
guidelines and you all when you were talking about oh, are you 
going to come out with guidelines 1 year from now or 1\1/2\ 
years from now.
    So the hope is definitely that the pre-disaster mitigation 
funds the enhanced area becomes a new paradigm. Even that up to 
$200 million to $300 million a year, that is not a substantial 
investment compared to you all appropriating an additional $100 
billion to $150 billion a year. So you can see where you have 
to do--agencies like the Forest Service when I worked at the 
U.S. Department of Agriculture have the same issue. So it is 
more about what we want to achieve out of it. And I just 
continue to say that the--how do we be a part of that? Because 
right now, just like you asking, it seems like FEMA saying, 
well, we are going to come out and do a report. Well, what 
about all this?
    Thank you.
    Ms. Titus. Thank you. Yes, sir.
    Mr. Davis. My perspective, Madam Chairwoman, is from 
basically someone who went through Katrina and recovery in 
Katrina. Then I was on several forums after Sandy, and then now 
we deal with this.
    And as the chairman of the National Domestic Preparedness 
Consortium, what we have observed, especially after Harvey, is 
that the training needs to be a component of it, the awareness 
part, because at the end of the day, it is the local level, it 
is the elected officials, the appointed officials understanding 
all these things, timelines, the mechanics of what forms and 
other type of things. So I would say a man--well, I shouldn't 
use the word ``mandate.'' Guidance on that training and 
education and awareness on whatever act needs to be a part of 
it.
    Ms. Titus. OK. Thank you.
    Ms. Williams, briefly.
    Ms. Williams. So one of the most important things that we 
saw during the Sandy Recovery Improvement Act was a phased 
implementation through a lot of pilots, field testing, and 
there are absolutely the opportunities to do that in DRRA. I 
know the State emergency managers' BuildStrong Coalition have 
communicated a lot of our driving principles and things that 
FEMA should be looking at in considering this. But they 
shouldn't let the perfect be the enemy of the good. And there 
are many, many opportunities to start phasing this in and start 
making the meaningful changes right now.
    Ms. Titus. Thank you. Uh-huh, Mr. Noel.
    Mr. Noel. Thank you. Having lived through Katrina, as my 
friend, and adopting the building code and watching the 
interaction between the legislators that had to adopt that 
building code between the place where the disaster was and the 
rest of the State where it was not, they have to have some 
flexibility in adopting that code. If you try to mandate the 
latest published code and you have no changes and no amendments 
on it, you are not going to get them adopted. That is the 
problem with that.
    Further, we had to stand up code offices. We needed money 
to stand up those code offices. We were blessed. We got $11 
million out of Governor Blanco. We got about $12 million out of 
FEMA, and we got another $10 million out of HUD.
    It took $34 million to stand up those code offices. They 
are going to need money to stand up those code offices because 
they have got to train inspectors. They have got to find those 
inspectors. They have got to pay those inspectors to make this 
thing work. But it does work.
    The legislature that voted against the adoption of the 
building codes went after Rita, Gustav and Ike and saw the 
houses that were built to the building codes and saw how much 
less damage was there versus Katrina. They were believers after 
that happened. So I am a 100-percent believer in that, but you 
do need to have some flexibility when you are adopting codes.
    Ms. Titus. Thank you. Well, thank you very much.
    Now, Mr. Palmer.
    Mr. Palmer. Thank you, Madam Chairman.
    On that theme, Mr. Noel, every State has its own building 
code. So are you advocating for a Federal code for post-
disaster rebuilds, or are you--I want to understand what you 
are asking for. On where you are involving Federal money in a 
post-disaster rebuild, are you asking for a Federal code to 
apply where Federal money is involved, or are you--tell me----
    Mr. Noel. The post-disaster adoption of a building code, 
you need to give some flexibility to the jurisdiction to be 
able to adopt a code that could go back as far as two cycles. 
Many have already adopted them, and they can then adjust them. 
But the need to have some ability----
    Mr. Palmer. Who are you talking about those adopting those 
codes? Are you talking about the States or the localities?
    Mr. Noel. The State.
    Mr. Palmer. OK. So what--I am trying to work this out 
because you have got some federalism issues involved here. You 
are involving Federal money, grant money. And what I am trying 
to get to is are you--see, my perspective is, is that the 
States that are in disaster-prone areas need to reevaluate 
their building codes period and whether it is a new build, a 
rebuild, a renovation.
    We ought to be building resiliency into those structures, 
whether it is a road, a bridge, building without having to tie 
it to a Federal grant for disaster recovery. Is that--I mean, 
is that what you are suggesting?
    Mr. Noel. The building codes that we have adopted since 
2000 have been pretty resilient.
    Mr. Palmer. We? Who is ``we''? Is that Louisiana? Is that 
the home builders?
    Mr. Noel. That is when we did the studies across Florida 
with the storms that went there. Texas A&M was doing a study 
for us. When you looked at Mexico Beach, the houses that were 
still standing----
    Mr. Palmer. Right.
    Mr. Noel [continuing]. Were codes built in the last few 
years, codes that were adopted.
    Mr. Palmer. Well, I am from Alabama. What I want to know 
is, is this--when you say these building codes, have they been 
adopted nationwide by a----
    Mr. Noel. It is 49 States that have adopted the code.
    Mr. Palmer. OK. That is what I wanted to get at, because I 
think that is where we need to be is part of our overall 
approach to this is, in terms of mitigation, is building 
resiliency into the structures. And it is not just--and the 
physical structures like a house or an office building or a 
school. It needs to apply across the board to infrastructure 
like roads and bridges and other structures as well so that we 
are not having to rebuild the same thing time and time and time 
again.
    Mr. Noel. That is why I wonder why utility power lines 
aren't in the ground. They are on poles.
    Mr. Palmer. That is a good point. And, you know, one of the 
things that, after the hurricane that hit Puerto Rico, we had a 
meeting with some of their folks and talking about the fact 
that there were utility poles that were on the ground prior to 
the hurricane. And under the Stafford Act, they could go in and 
put up the poles that were knocked down by the hurricane, but 
they couldn't put up the ones that were already down, which 
really doesn't make sense, and you are putting back the same 
thing so the next major storm like that takes them down again.
    I was talking with you, Mr. Gore, earlier about some of 
these other issues related to that, and you were nodding about 
how we do this mitigation to reduce the cost of these storms. 
And I think if you spend the money on the front end, you save a 
whole lot more on the back end. You want to comment on that?
    Mr. Gore. Well, I think that is appropriate. And as we saw 
in your briefing, whether it is the $1 going to $11 in value or 
it is the mitigation dollars really being not on the code side 
but the mitigation dollars, $1 investment in mitigation and $6 
in disaster, absolutely.
    You know, what we are dealing with, and as we have talked 
about this is a considerable amount of help on the ground to 
put together like our post-disaster hazard mitigation programs 
with FEMA. But then ultimately going through the State and then 
going through the Federal area, the same exact grants that we 
were encouraged to apply for to use to help our rebuild are 
delayed so long that our rebuild is 50 to 70 percent done by 
the time that $5 million with a $1 million cost share hits the 
ground.
    And, you know, some of those could even be off-the-box, 
cookie-cutter approvals. Everything is site specific, but if 
you are talking about home hardening, raising homes, other 
kinds of things like that, to have a year and a half of review 
on those things and bureaucratic responses, ``we will get to it 
when we can,'' it is difficult on the ground.
    Mr. Palmer. One of the things I think we could do, if I may 
continue for a little bit, Madam Chairman, is working with 
administration is, on a situation like this, have a one-stop-
shop where you get the agencies that have got to give you the 
permits and the approvals all working together so that you are 
not having this long, drawn-out process.
    And the other thing, I ran a think tank for 25 years. Prior 
to that, I worked for two international engineering companies, 
and our oversight of the money I think becomes important on the 
longer term projects. I think on the front end, you have got to 
appropriate the money--I said this earlier in that first 
panel--to meet the immediate need, you know, the search and 
rescue, the medical needs, the water and food and things like 
that, shelter.
    But as you start to rebuild and the cleanup, I think we 
ought to approach it like an engineering company where we would 
pay 20 percent upfront to get the contractors on the ground, 
stage and everything, and then you pay the invoice after that. 
It gives you a better oversight mechanism, allows, again, 
better use of the money. And I think you would get a lot more 
bang for the buck if we approached it that way where we are 
actually managing the projects and exercising the appropriate 
oversight level at the agency level and from Congress.
    With that, Madam Chairman, I appreciate your indulgence. I 
yield back.
    Ms. Titus. Absolutely. Thank you for the suggestion.
    Now Mr. Huffman.
    Mr. Huffman. Thank you, Madam Chair.
    And thanks to the witnesses especially for your patience as 
we were interrupted by that last vote series.
    Supervisor Gore, good to see you again this week. And as I 
was explaining to Deputy Administrator Kaniewski, we cannot go 
back in time, obviously, and fix problems that were caused by 
the communication breakdowns on the ground following our North 
Bay wildfires in 2017. But we should be drawing as many lessons 
as possible from them as we look ahead, and so I want to ask 
what you believe FEMA should take away to make sure they are 
better prepared to work with other counties and potentially our 
county next time around.
    Mr. Gore. Well, if I was sitting here in the place of Mr. 
Kaniewski before and a lot of this was saying how fast can you 
implement, how can you get this guidance out, how can you get 
this funding out, I would be looking back at this panel and 
saying I need the resources to be able to do it, right.
    So, first and foremost, the people we work with at FEMA 
have been great. They are overloaded. But once again, the idea 
that--whether it is the HMGP program on the ground, you 
applying for it and it taking a year and a half for it to come 
back, number two, is even before our fires the year before, 
floods that came in--you know, in your district, you fought for 
this tooth and nail successfully, and we got those qualified 
for FEMA funding.
    But this last year we had a flood, and the roads became 
worse after we had been approved for funding that never got 
appropriated. Those kinds of things are definitely, as we talk 
about, there is a logjam somewhere. And that is frustrating for 
field staff on the ground too.
    So I don't mean to hate on it, but, you know, I used to 
work at the U.S. Department of Agriculture, and sometimes we 
would get more mandates with less staff. Our budget out of the 
President's office would be for less staff to cut, but then our 
mandate for farm bill programs to get out in the community 
would be more. You can't do that.
    So I just think--I looked at his presentation, and I think 
he is trying to justify, rightfully so, the hard work there. 
But how do we give him the capacity and the partnership to try 
pilots out in the field, to work with us, to work with the 
National Association of Counties to touch 3,000 counties? And 
in a sense, right now, they are locked up. So anything you guys 
can do to help them reach out to us----
    Mr. Huffman. Fair point. Fair point. And we are in 
appropriations season, so it is a good time to think of that 
side of this as well.
    I want to ask you about something that my colleague John 
Garamendi was referring to as the disaster industrial complex 
and some of the frustrations that can be experienced as a 
result of that. Talk about quality control for contractors on 
the ground and what we saw in Sonoma County with FEMA 
preselecting contracts. Obviously, that can be a good thing 
when you have to rush in and respond to a disaster, but if 
there is not quality control, if there are miscommunications, 
we have a few lessons to learn there as well, don't we?
    Mr. Gore. The disaster industrial complex, which is 
referring to all of the consultant teams and the different--
whether it is debris removal or people representing you before 
FEMA, this whole idea of the capacity coming into your county 
and your local agency to assist you and you contracting them to 
do it, the reason that that exists is because the system is so 
complex that you can't do it on your own. You can't afford to 
have that kind of capacity at a local level all the time 
because you would be spending too much money waiting for a 
once-every-5-year disaster.
    The complexity drives that, and then all of a sudden you 
get into this world where contracting just kind of falls upon 
you. One of the things that I have talked about is not just how 
I encourage other counties, and I hate to say the word 
``mandate,'' but as a part of our local hazard mitigation plans 
we should be selecting pre-event contractors for our work.
    Imagine on the ground, Sonoma or one of the other thousand 
counties, you get hit by a disaster, and you have all of these 
people jumping in, and you don't know if they are charlatans or 
good or whatever. And then you have got to do an RFP in the 
middle of it. And so you can do no-dollar pre-disaster 
contracts and things like that, and I think that is something 
that needs to be looked at because, otherwise, everybody is 
just kind of trying to figure it out on the fly.
    Mr. Huffman. Very good.
    I yield the balance of my time. Thanks again to the 
witnesses.
    Ms. Titus. Thank you.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Madam Chair.
    Mr. Noel, I wanted to cover maybe some of the same ground 
that was maybe done already, but when the DRRA was put in 
place, it directed FEMA to have particular guidelines on 
increasing the Federal cost share up to 85 percent. Now, did I 
hear you tell Mr. Palmer that you think 49 States have already 
adopted the code in order to meet that Federal standard? Is 
that right? Or what did you say to him?
    Mr. Noel. There are 49 States that have adopted building 
codes.
    Mr. LaMalfa. Yeah. The newer ones, 2018.
    Mr. Noel. Well, no. They are--I don't know what the count 
was. Most of those States right now on 2015.
    Mr. LaMalfa. On 2015, yeah.
    Mr. Noel. Yes. They don't adopt codes that fast. I mean, 
they take about 3 years to 4 years to have some time to review 
the code, make sure there is no errors in the code.
    Mr. LaMalfa. But the provisions of the bill require that, 
in order to kick up to an 85-percent reimbursement, you have to 
have the 2018 codes adopted by your State and in place, right?
    Mr. Noel. Latest published consensus code, right.
    Mr. LaMalfa. And being implemented, right?
    Mr. Noel. Right.
    Mr. LaMalfa. OK. So----
    Mr. Noel. And in compliance.
    Mr. LaMalfa. So, in order to have success in this, what 
should--what do we need to be communicating to FEMA to help to 
find these building codes in that guidance? What do we need to 
do to push them along or have success--some more eligibility 
for that 85-percent level is available to these communities and 
to those wishing to build or rebuild?
    Mr. Noel. We are hoping that the definition of ``latest 
published codes'' is the codes out of the last two cycles and 
that the State and local jurisdictions can amend the codes so 
that they can comply.
    Mr. LaMalfa. You are hopeful. So----
    Mr. Noel. That is what we hope.
    Mr. LaMalfa. So it is really going to be up to the States 
to get with it?
    Mr. Noel. Right.
    Mr. LaMalfa. Or is this----
    Mr. Noel. At the end of the day, the State and the local is 
going to have to adopt the code.
    Mr. LaMalfa. Yeah. Is there something on the FEMA side we 
can do to provide some way to expedite that, some additional 
flexibility----
    Mr. Noel. Well, we have got the language--
    Mr. LaMalfa [continuing]. To get that success, you know, 
for--you know, obviously northern California has been ravaged 
by wildfire in my area, Supervisor Gore's area, you know, and 
so we have to battle to get augmentations above the 75 percent. 
So what is it we could be doing on this end in defining how 
FEMA--what do you see FEMA doing to help define that?
    Mr. Noel. We think FEMA looking at the jurisdictions and 
making the request, looking at the code they already have 
adopted, seeing that it is working to mitigate the disaster and 
making sure that it is adopted and it is no older than two 
cycles, which is 6 years, 3-year cycles when you are dealing 
with the particular international codes. There are other codes 
beside the international codes. And then, if they do State 
amendments or local amendments, FEMA is going to make sure that 
they don't take something that mitigates that particular 
disaster out of the code.
    Mr. LaMalfa. OK. Yeah. They don't want to take inaction. 
That makes them ineligible?
    Mr. Noel. Right.
    Mr. LaMalfa. Right. So----
    Mr. Noel. We need FEMA to be able to have the flexibility 
to do that.
    Mr. LaMalfa. And how do we get that flexibility from what 
you see of the 2018----
    Mr. Noel. Well, largely, if we support the adoption of the 
language that was in the--what is that?
    Mr. LaMalfa. The 2018----
    Mr. Noel. [Inaudible] amendment because it is two code 
cycles back and then local and States can amend the code, 
because there are some things in the code that have nothing to 
do with the disaster and mitigating from the disaster that 
doesn't need to be adopted.
    Mr. LaMalfa. So, when you say two cycles back, how far does 
that go: 2012 or so?
    Mr. Noel. It would be--if it is 2018 is today, it would be 
2012, yeah.
    Mr. LaMalfa. Wow, OK. So we have requirements to catch up 
to 2018, but there is still a lot of people operating on 2012 
and maybe falling out of eligibility?
    Mr. Noel. Most of the adoptions that we have reported are 
2015. It is just a handful of them that are less than--older 
than that. And there is not a real significant jump from what 
was in 2012, 2015, of 2018 from a structural standpoint.
    Mr. LaMalfa. No. I expect it is probably narrow bits that 
were updated and not the entirety of the whole code, right?
    Mr. Noel. Right.
    Mr. LaMalfa. So what do we need to carry forward from 
today, urging States to adopt or to have more flexibility by 
FEMA to recognize the effort that a State is being made and 
make them--and deem that as eligible for 85 percent?
    Mr. Noel. That would be having FEMA recognize that there is 
some flexibility in those adoptions as opposed to the latest 
published code in toto.
    Mr. LaMalfa. Do you believe from your experience that FEMA 
has the latitude to build and recognize it that way?
    Mr. Noel. Yeah.
    Mr. LaMalfa. You do?
    Mr. Noel. Right? Yeah.
    Mr. LaMalfa. All right. We will have to ask the FEMA folks 
then. All right. Well, thank you, Madam Chair. I will yield 
back.
    Ms. Titus. Thank you.
    Do any other panelists want to comment on the building 
codes issue?
    Mr. Crossley. So I would say you are challenged. So I am at 
the local government level. And when you are--so the biggest 
argument I hear--I have been doing this for 20 years--is 
continuing to pay for the same things. So we maintain 
repetitive loss property list at the local and State level 
because we are paying out on the same houses under the flood 
insurance program. It is sort of the same concept.
    So, if you have a disaster that is large enough in impact, 
which is uninsured losses, that the Federal Government helps to 
rebuild that community, then it seems to me that if you want to 
say--sort of when they went on the coast of Mississippi, and 
they said, ``If you are going to rebuild, you have to put your 
house on stilts,'' that it just makes sense.
    If you think about it from a--it is Federal dollars, which 
is everybody's dollars going into this pot to help rebuild this 
community; let's put some standards on that. And that while 
there are statewide building codes, depending on the form of 
government in different States, a community may or may not have 
a building code because of the way that counties can rule 
themselves, if you will, home rule.
    So I think--and I would encourage that if you are going to 
take Federal dollars to rebuild, which is everybody, basically 
the whole country helping you rebuild, that we don't want to 
come back in 5 years and rebuild the same thing.
    So because, for example, resilient infrastructure, bridges, 
roads, all that kind of stuff, that not only helps if there is 
a disaster, it also helps it last longer. I mean, it seems to 
me that you have an opportunity here under DRRA to say, ``We 
understand you want the money,'' so it is the same thing with 
the--everybody has to have a hazard mitigation plan. If you 
don't have it and you have a federally declared disaster, you 
have a year to write one or you have to give back all the 
Public Assistance you got for your disaster. I mean, and that 
is already in statute. So I think you have an opportunity here, 
Congresswoman, to say, ``We are going to help you, but there 
are some standards around it, and we don't want to come back in 
5 years and do all this again.'' So I would--I think it has its 
place.
    Ms. Titus. Ms. Merick.
    Ms. Merick. The only thing that I would add to that is that 
there does have to remain the flexibility because, as we look 
at the Nation and we look across our States, each of our 
counties and our municipalities all have different levels of 
capability. So I think both of those being put into the process 
would help in our implementation moving forward.
    Ms. Titus. And there is some flexibility in the statute now 
though that looks at those local standards. Isn't that correct? 
I see nodding heads.
    Well, thank you. I know, Ms. Merick, you have got to go. 
Looks like it is just you all and me, so we will--I want to ask 
you one quick thing, though. This is something that I am 
concerned about, and that is the issue of pet and pet 
evacuations.
    I know part of FEMA provides funding for local governments 
to contract for this, maybe with local animal shelters and 
things. We know the money goes out, but we don't really have 
much of a handle on how it is used. I have got legislation, 
excuse me, to require some reporting. I know nobody wants an 
extra reporting requirement, but I don't think it would be too 
onerous.
    And wouldn't that help you know who your best contractors 
are or if you are getting your money's worth for--and they are 
taking care of pets and animals? Because we know that people 
won't leave if their pets can't leave, and then that leads to 
more problems. Anybody from local government want to address 
that?
    Ms. Merick. So I will start off. Thank you. The legislative 
committee at NEMA is taking a look at that right now.
    Ms. Titus. Oh, good.
    Ms. Merick. That is a very real--you are absolutely 
correct. That is a real issue for us. And with our recent 
flooding in Ohio, we have people who will not leave, and in 
particular, elderly will not leave because their companion and 
the person they depend on--or, I am sorry, their companion is a 
four-legger, and they are not going to leave them behind. So 
that is something that NEMA and our legislative committee is 
looking at currently.
    Ms. Titus. Will you keep us posted on that as you develop 
that policy?
    Ms. Merick. Yes, ma'am.
    Ms. Titus. Thank you.
    Anybody else? Mr. Gore.
    Mr. Gore. You know, it is interesting because right now the 
institutional capacity really isn't there from the level of 
organizing for us what we went through with FEMA. That was 
something that the nonprofit and our county and others just 
rallied on. We created fairgrounds. We have a location for 
horses, for other kind of pets. Then, if you drove around our 
community, what you would see is lost pet and found pet booths 
that were put up by different members and organizations in our 
community. And it has really been heartwarming to see that.
    One of the things that has happened over time is that, if 
you look at this, the pre-disaster mitigation grants or the 
hazard mitigation grants, all this preparedness funding always 
goes directly to a county or a local government, a Tribal 
agency, whatever.
    One of the things that has been discussed is, is there an 
openness to more partnership with some nonprofits and groups to 
be able to be a part of that as well, because what you really 
have is a lot of the applications that come in, they come out 
very county-centric and very emergency management-centric, not 
community-powered centric.
    And there has to be a discussion with hazard mitigation and 
pre-mitigation grants about how much outreach is happening. Are 
all you doing is refortifying your bunker of emergency 
management, or are you getting out into those other areas? 
Because that funding only comes through State, nonprofit, or 
other kind of sources.
    Ms. Titus. OK. Anybody? Yes, sir.
    Mr. Davis. Yes, ma'am. At the Texas A&M University system, 
we appreciate the veterinary emergency team authorization in 
DRRA. A&M has a vet school and a vet emergency team, and we 
look forward to FEMA implementation in that provision.
    Ms. Titus. Again, well, thank you. I hope you will work 
with me as we move that forward.
    Now, Miss Gonzalez-Colon, I kept them here just for you, so 
we are going to let you ask your questions.
    Miss Gonzalez-Colon. Thank you, Madam Chair. I really 
appreciate that, and I will bring some rum from Puerto Rico so 
we can make that waiting less difficult. Thank you.
    I want to thank all the members of the panel. Being from a 
jurisdiction that suffered from hurricanes and still working on 
that recovery process, I may have a lot of questions, but I 
will just begin with one of those, and it is to the whole 
panel, and it is in terms of the conversation regarding 
building infrastructure code for resiliency.
    However, there is some instance that the code just isn't as 
structurally sufficient. And I guess in Puerto Rico we got a 
lot of cement power lines installed around the island that were 
built to withstand winds in excess of 150 miles per hour, and 
they were gone. They were completely gone after the hurricane, 
which speaks of the industry standards. We are not talking 
about something different from Puerto Rico.
    However, both hurricanes had sustained winds that exceeded 
180 miles per hour and 175 miles per hour that literally 
crippled those power lines. How can local governments adapt 
building codes that include resiliency to better prepare for 
the next disaster? Because in our case and in many others, it 
is going to happen again.
    Same thing happened when I was Speaker of the House in 
Puerto Rico, we did a lot of changes in the local codes. That 
is a reason a lot of houses in Puerto Rico are built in cement, 
which is different to what happened in Florida. But still many 
of the people that do not have the resources are building in 
wood.
    So that is a reason we have still got more than 30,000 
people living under blue roof or blue tarps, as we call it, on 
the island. The money has been assigned. The money is in FEMA, 
but things are not moving faster to help those people have a 
better roof when we are in the next--during the next 10 days, 
we are going to be having the next hurricane season.
    So how can we adapt to those codes locally to actually face 
disasters like that? And we are talking about hurricanes. I am 
not even talking about--I am not even going to mention them 
because we don't have--we don't want them. So feel free.
    Mr. Crossley. So, first of all, our association just held 
our annual board meeting in Puerto Rico. I really enjoyed being 
there and met with your State director and had some 
conversations.
    I think, from the agency that is responsible for writing 
these hazard mitigation plans, so that each county has one and 
then the State has one, I think the thing to remember about 
building codes is they are base level of requirements. And so 
when--I think there needs to be a conversation between that 
hazard mitigation planning requirement that you have in Puerto 
Rico, just like we all have, and a discussion of which part of 
the building code needs to be enhanced to match the sort of 
catastrophic hazards. So you are talking about wind. You are 
talking about storm surge, the two main ones, wind and storm 
surge and flooding.
    And so what in this code can be enhanced to start making us 
more resilient to that and get those two--get the emergency 
management people, the people writing the hazard mitigation 
plan with your building officials and so that--and then make 
some recommendations to your legislature to say, you know--and 
I am not familiar with how the Commonwealth is ruled, if the 
State can--if they can pass a law and the locals have to follow 
it, but then--because then you can make some commonsense 
arguments to say: These hurricanes aren't going away. These 
high-wind events, these storm surges, all this other kind of 
stuff.
    And so, if you combine the two, once you put it in that 
mitigation plan that is how you can, in candid terms, make 
yourself eligible for FEMA funding to start providing some of 
the support from that. So, when you look at your electrical 
grid, which is publicly owned, getting them in the mitigation 
plan, looking at the code, and saying: You know what? We need a 
study done, what can withstand it, whether it is bearing or 
upright poles or whatever. And then, once it is in there, you 
can then talk to the region about possibly mitigation funding 
to help fund that because it is in your mitigation plan. So the 
two need to be linked.
    Miss Gonzalez-Colon. I have just got 30 seconds, and I want 
to say--I mean, of course, I am going to submit a lot of 
questions for the record, but I would love to know the 
experience of you guys in terms of, do you prefer to have FEMA 
managing CDBG funds DR or--because in our case, it is a mess. I 
mean, having CDBG being approved by HUD, the rules and the 
guidelines not being published in the Federal Register, and 
then having FEMA for the reimbursement.
    So it is like having two different fights at the same time 
waiting one for the other. And, you know, the money has been 
approved. Congress did its part. The President signed it. But 
the money is not arriving. And when that happens, people get 
upset and lose confidence in their institutions.
    So I want to thank you, all of you, for your testimonies 
and your recommendations as well. And in any way we can help, 
you know, defining even essential services, we will be more 
than glad.
    Thank you, Madam Chair, for your indulgence here.
    Ms. Titus. Thank you.
    Seeing no more questions--oh, you want to respond, sir? 
Certainly.
    Mr. Gore. I just want to say, you know, Representative, it 
is--a CDBG-DR program, we could have a whole 'nother one of 
these about that, the Federal Register notices. We could have a 
whole 'nother one of these about the Small Business 
Administration loans on the ground that some of my block 
captains and fire survivors called a fictitious loan program.
    You know, we could talk--and I just--but as you say is with 
the FEMA and reaching a standard, there is one thing that is 
crazy is, is that there is this term that comes up that says 
the disaster doesn't discriminate, but the recovery and the 
rebuild does, because it has to be actionable, but it has to be 
a good standard.
    And as you say, the CDBG-DR area for you all and getting 
that onto the ground is hugely complex. It is as complex if not 
more than what we are dealing right here with FEMA. So I 
understand, if there is any support we can provide, please let 
us know from the community.
    Ms. Titus. Thank you. All right. Well, thank you very much 
for your patience and for your wisdom and your experience and 
your good advice, and we will stay in touch with you. And I 
think it has been a very worthwhile hearing.
    We are adjourned.
    Oh, wait. I am sorry. I have got something else. I now ask 
unanimous consent that the record of today's hearing remain 
open until such time as our witnesses have provided answers to 
any questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
any additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    Without objection, so ordered.
    No other Member has anything to add? Good. The subcommittee 
now stands adjourned. So thank you again.
    [Whereupon, at 6:08 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


   Op-ed, ``Natural Disasters Could Be Far Less Damaging With Better 
 Building Codes,'' by William Bryant, R. David Paulison, and James Lee 
  Witt, The Hill, May 2, 2019, Submitted for the Record by Hon. Titus
natural disasters could be far less damaging with better building codes
    From the mudslides in Montecito, Calif., to the flash floods in 
Ellicott City, Md., Hurricane Florence in the Carolinas and the 
wildfires that swept through Northern California, 2018 saw natural 
disasters of every type affect communities across the country. In 
total, the president declared 59 major disasters last year [https://
www.fema.gov/disasters/year/2018]. And these disasters came at a high 
cost, with more than 200 people killed and countless more injured--and 
more than $91 billion [https://www.ncdc.noaa.gov/billions/events/US/
1980-2018] in property damage.
    In fiscal year 2018, FEMA, through its Disaster Relief Fund, 
invested more than $20 billion to support recovery efforts, providing 
aid to repair damage and construct new homes, small businesses, 
schools, hospitals, police stations and community centers. The truth, 
however, is that many of these newly rebuilt and repaired structures 
will face new hazards and natural disasters--whether it's in the next 
five years or 50 years from now--and they will need to be prepared. 
Fortunately, there is a highly cost-effective strategy for ensuring 
that these structures can handle it: building codes.
    A recent study [https://www.nibs.org/page/mitigationsaves] by the 
congressionally-established National Institute of Building Science 
(NIBS) found that using the latest model building codes provides a 
benefit of $11 for every $1 invested through earthquake, flood and wind 
mitigation benefits, with a $4 to $1 wildfire mitigation benefit. These 
ratios represent avoided casualties, property damage, business 
interruptions and insurance premiums. They quantify the importance of 
modern codes that we see every year when natural disasters strike.
    Just this past year, modern codes ensured that the state of Alaska 
sustained minimal damage and a quick recovery following the Port 
MacKenzie earthquake. In Florida, following Hurricane Michael, 
buildings built to modern code requirements fared far better than 
buildings built to older standards.
    Despite the demonstrated benefits of up to date codes, their 
adoption is not consistent across the country. Many states set code 
baselines statewide, while in 20 states local governments determine 
what, if any, building codes apply in their jurisdictions. In some 
states where local governments control code adoption, upwards of 25 
percent of residents are subject to codes that are nine or more years 
old. Several states with statewide code adoption are using codes that 
are just as dated. This variation leads to real-world ramifications. 
The International Building Code, which is adopted in every state, 
requires storm shelters for schools in tornado-prone regions. Yet, of 
the 21 states that regularly face tornado risk, only a third require 
tornado shelters to be built in schools.
    With the need for modern code requirements so clear, and the 
President and leaders from both parties calling for increased 
investment in our nation's infrastructure, it makes sense for any 
infrastructure modernization legislation to require new and renovated 
buildings be built to the latest building codes. Schools, public 
housing, hospitals, shelters and other public amenities are all pillars 
of our communities and especially important in meeting the needs of 
vulnerable populations. Ensuring they are constructed to modern codes 
protects the people who use and occupy these structures as well as the 
federal government's own investment.
    These standards also track with FEMA's requirements for post-
disaster public assistance, HUD requirements for post-disaster 
community development and the federal government's requirements for its 
own buildings. To do otherwise, locks in avoidable risk over 
investments with 75-year lifetimes or more.
    An infrastructure bill with minimum code requirements is the 
simplest and most cost-effective way to avoid long-term risk and 
increase natural disaster mitigation in communities across the country.

William R. Bryant, MCP, CBO, is the board president of the 
International Code Council and a Code Official for Anne Arundel County, 
Md.

R. David Paulison served as director of the Federal Emergency 
Management Agency (FEMA) under President George W. Bush from September 
2005-January 2009 and is senior advisor to the BuildStrong Coalition.

James Lee Witt served as director of the Federal Emergency Management 
Agency (FEMA) under President Bill Clinton from April 1993-January 
2001.



                                Appendix

                              ----------                              


Questions from Hon. Dina Titus to Hon. Daniel Kaniewski, Ph.D., Deputy 
   Administrator for Resilience, Federal Emergency Management Agency

    Question 1.a. A majority of the Congress is very alarmed at the 
increasing severity and costs of extreme weather. GAO recently reported 
that since 2005, federal funding alone for disaster assistance is 
approaching half a trillion dollars (about $430 billion), most recently 
for catastrophic hurricanes, flooding, wildfires, and other losses in 
2017 and 2018. Costs and damage are projected to increase as extreme 
weather events become more frequent and intense due to climate change--
as observed and projected by the U.S. Global Change Research Program 
and the National Academies of Sciences, Engineering, and Medicine.
    What do you see as FEMA's role in addressing this national 
challenge?
    Answer.
    <bullet>  FEMA's mission is to help people before, during, and 
after disasters. To continue to accomplish our mission in the years to 
come, FEMA is working collaboratively with stakeholders across the 
whole community to ensure the United States is preparing and planning 
for both current and future risks. These future risks include a wide 
array of changes, including shifting demographics, aging 
infrastructure, and the possibility for increases in number and 
severity of extreme weather events.
    <bullet>  Addressing future risks, such as those posed by extreme 
weather events regardless of their cause, is key to FEMA's mission. 
Wherever possible, FEMA brings data to bear and works in support of 
state, local and tribal needs and priorities. By addressing future 
risks, state, local, tribal and territorial governments are better 
prepared for extreme weather events and can bounce back faster at the 
individual and community level.
    <bullet>  It is important to note that extreme weather events are 
just one of many future risks FEMA plans for, but one that could 
significantly alter the types and magnitudes of hazards impacting 
communities and the emergency management professionals serving them. 
Accordingly, consistent with FEMA's focus on enabling disaster risk 
reduction nationally, FEMA is supporting state, local, and tribal 
governments with efforts to prepare for these impacts through 
adaptation, which means planning for the changes that are occurring and 
expected to occur.
    <bullet>  The Stafford Act sets the statutory framework from which 
FEMA manages its role in mitigation of future risk. The Stafford Act 
stipulates that post-disaster mitigation activities must 
``substantially reduce the risk of future damage.'' This law mandates 
that FEMA address future risk and helps ensure federal taxpayer dollars 
are used responsibly given the possibility of changing conditions.
    <bullet>  Additionally, the Stafford Act requires actions by 
communities to address future risk by requiring state, local and tribal 
governments to develop mitigation plans for hazards, risks and 
vulnerabilities in their respective jurisdictions. Accordingly, state, 
local and tribal mitigation plans are required to include the 
``probability of future hazard events'' occurring in a given 
jurisdiction. Also, the plans must contain a mitigation strategy that 
speaks to reducing or avoiding the long-term vulnerabilities the 
hazards pose. Without this future look, a community cannot adequately 
prepare to mitigate against future loss of life and property.
    <bullet>  FEMA's three Hazard Mitigation Assistance (HMA) grant 
programs: 1) Pre-Disaster Mitigation (PDM); 2) Flood Mitigation 
Assistance (FMA); and 3) Hazard Mitigation Grant Program (HMGP) share a 
common mission of preventing loss of life and property damage from 
natural hazards and reducing the risks from future disasters. Two of 
the programs--PDM and FMA--are proactive programs aimed at building a 
community's resilience before disasters by reducing overall risk to the 
population and structures from future hazard events, while also 
reducing reliance on Federal funding in future disasters for response 
and recovery costs. The new pre-disaster mitigation program, BRIC 
(Building Resilient Infrastructures and Communities), which will soon 
replace PDM, and is funded with a 6 percent set aside from major 
disaster funding, will provide a robust and vigorous means of 
mitigating the increased risk from natural hazards.
    <bullet>  Since 2013, FEMA's HMA grant programs allow for 
consideration of future risk in flood mitigation projects that include 
NOAA and United States Army Corps of Engineers predicted sea level rise 
estimates regardless of the source of the sea level rise. The projected 
sea level rise may be added to the current flood elevations for the 
project area in addition to any required freeboard, which is a margin 
of safety built into flood mitigation projects. Likewise, FEMA's HMA 
grants will fund mitigation projects that take into consideration 
increased urbanization and development that can contribute to rising 
flood elevations over time.

        PDM, HMGP Postfire (which allows for wildfire mitigation 
        assistance absent a major disaster declaration), and HMGP, as 
        authorized by Disaster Recovery Reform Act (DRRA) provisions, 
        Sections 1204 and 1205, continue to focus on reducing risk from 
        wildfire particularly in the Wildland Urban Interface (WUI), as 
        higher temperatures and drier conditions render populations in 
        the WUI vulnerable not only to increased risk from wildfire, 
        but to post-fire effects like erosion and flooding. Further, as 
        part of BRIC, eligibility considerations will include the 
        adoption and enforcement of consensus-based codes, 
        specifications and standards (i.e., building codes) which can 
        significantly contribute to withstanding increased risk from 
        various natural hazards including flooding and wildfire. 
        Further, with its focus on making infrastructure more 
        resilient, BRIC will truly build communities that are more 
        resilient to the future impacts of climate change.
    <bullet>  Following Hurricane Sandy, FEMA worked with its federal 
partners through the Hurricane Sandy Rebuilding Task Force to ensure 
that all federally-funded rebuilding projects undertaken as part of the 
recovery from Sandy meet a single government-wide flood risk reduction 
standard that takes into account the increased risk the region is 
facing from changing conditions.
    <bullet>  FEMA released the State Mitigation Plan Review Guide 
(``Guide''). The Guide is FEMA's official policy on the natural hazard 
mitigation planning requirements from Title 44 Code of Federal 
Regulations Part 201, and federal regulations for state hazard 
mitigation plans, inclusive of the District of Columbia and five U.S. 
territories. The guide supports state, tribal, and local government 
mitigation planning to identify risks and vulnerabilities associated 
with natural hazards and establish a long-term strategy for protecting 
people and property in future hazard events. State mitigation plans are 
one of the eligibility prerequisites to receive certain FEMA 
assistance, such as Public Assistance and Hazard Mitigation Assistance 
grants (PDM, FMA, HMGP). States are required to update their mitigation 
plans every five years.

      <bullet>  This guide asks states to consider the probability of 
future hazard events, including changing future conditions, development 
patterns, and population demographics. The Guide clarifies that the 
probability of future hazard events must include considerations of 
changing future conditions, including the effects of long-term changes 
in weather patterns and climate on the identified hazards. States must 
continue to provide an overview of all natural hazards that can affect 
their jurisdiction, using maps and data where appropriate.

    To better reduce risk and enhance resilience, the Guide encourages 
states to take a holistic approach and include not only emergency 
management, but also the sectors of economic development, land use and 
development, housing, health and social services, infrastructure, and 
natural and cultural resources in their planning process and mitigation 
program, where practicable.

    Question 1.b. What steps is FEMA taking to help strengthen the 
preparedness of state and local partners for more frequent and severe 
disasters?
    Question 1.c. Do you think the current structure of federal 
disaster recovery coming from numerous federal departments (DHS, HUD, 
SBA, DOD) is effective? Are any changes needed?
    Answers (1.b.-1.c.). FEMA is firmly committed to improving 
preparedness and capabilities of state, local, tribal, and territorial 
(SLTT) partners to implement disaster recovery. Lessons learned since 
the publication of the National Disaster Recovery Framework (NDRF) have 
driven home the challenges that SLTTs face in preparing for and 
implementing the complexity of short- and long-term recovery. 
Recognizing the importance of improving preparedness in this area, 
FEMA's strategic plan emphasizes this effort through Objective 3.2 
Mature the NDRF, Strategy #1: Increase SLTT embrace and implementation 
of NDRF principles and concepts through recovery management, planning 
and preparedness.
    FEMA is implementing the plan through numerous efforts. These 
efforts include development of new guidance for financial management of 
disasters, disaster housing planning guidance, and improved 
preparedness training resources. This work is coordinated by a new 
Outcome Driven Recovery State, Local, Tribal, and Territorial Capacity 
Building Workgroup. The workgroup leverages the capabilities across the 
Agency to provide an integrated outcome driven focus among the 
Preparedness and Recovery Directorates, the Federal Insurance and 
Mitigation Administration, Office of Chief Financial Officer, and other 
FEMA entities.
    The current structure for coordinating federal disaster recovery 
funding takes place both in the field after a disaster and through the 
Recovery Support Function Leadership Group (RSFLG). The RSFLG is a 
Federal interagency body designed to identify and facilitate resolution 
of operational and policy issues related to disaster recovery and 
greatly contributes to enhancing efficacy. In addition, the RSFLG 
deconflicts and aligns policy in response to issues identified by 
partners in the field to expedite resolutions for immediate 
implementation. Continuing strong federal interagency participation and 
support of this body is critical to coordinating recovery funding from 
multiple departments.
    The RSFLG structure has been effective in their mission, and no 
changes are recommended to the structure. However, FEMA is striving to 
further enhance this coordination by focusing the interagency approach 
on Outcome Driven Recovery. Outcome Driven Recovery is a problem-
solving approach that promotes unity of effort among stakeholders to 
identify recovery needs, vision, and goals, and to resource holistic 
recovery solutions. The results of an outcome-based approach include a 
more deliberate and strategic use of federal funds to maximize impacts; 
prevent duplication of benefits; and, build mitigation and resilience 
into the recovery projects and programs. The Outcome Driven Recovery 
approach will align federal agencies through guidance and doctrine, 
establish unity of effort through a consistent approach to field 
operations, clarify roles and responsibilities, and promote 
accountability. This shift from individual agencies implementing their 
programs independently to a coordinated and prioritized approach will 
increase the effectiveness of the interagency efforts.
    The RSFLG met frequently since the immediate aftermath of 
Hurricanes Harvey, Irma, and Maria. This coordination was the first 
large-scale operationalization of the NDRF doctrine, demonstrating its 
scalability for a catastrophic event in lieu of historical practice. In 
previous major disaster situations such as Hurricane Sandy, a cabinet 
level official established an ad hoc taskforce to address interagency 
challenges. Since then, the NDRF pointed the way towards the 
establishment of the RSFLG to serve this role. The disasters of 2012 to 
2016 helped strengthen coordination efforts and prepared the 
interagency for its role during and since the 2017 disasters.
    As interagency policy issues have arisen, the RSFLG has scoped the 
nature of the policy questions, developed options, and made 
recommendations for senior administration officials. A wide range of 
executive branch entities have maintained robust participation in these 
meetings. This body has provided a forum for achieving successful 
interagency coordination on operational and policy challenges.
    The majority of the RSFLG's focus since November 2017 has been 
recovery from Hurricanes Harvey, Irma, and Maria. Moving forward, it 
will build on lessons learned and encompass the efforts relative to 
other disasters, and work to enhance the recovery readiness posture and 
capability across the federal government.
    In addition to the various recovery programs and initiatives 
outlined above, FEMA administers a suite of preparedness grant programs 
that are intended to improve the nation's readiness in preparing for, 
responding to, and recovering from terrorist attacks, major disasters 
and other emergencies. Since 2002, Congress has allocated over $50 
billion to these grant programs to support the preparedness investments 
of state, local, tribal, and territorial governments, as well as 
nonprofits and critical infrastructure owner/operators, including 
nearly $2.5 billion in FY 2019. Although most of the grant programs are 
focused on terrorism preparedness, FEMA encourages multi-purpose 
investments to help support all-hazards preparedness investments.
    FEMA recognizes that the preparedness grant programs must evolve to 
meet the nation's shifting threat environment. However, the existing 
preparedness grant programs are constrained by their authorizing 
statutes, which limits the ability of state and local partners to 
address the threat of more frequent and severe disasters. To provide 
FEMA and its preparedness partners greater flexibility to address a 
dynamic and ever-changing threat environment, the President's FY 2020 
budget proposes the National Priorities Security Grant Program.
    The new National Priorities Security Grant Program would help 
address the dynamic risk environment by introducing an agile program 
informed by lessons-learned from catastrophic disasters, terrorist 
acts, and other incidents. It would allow state and local preparedness 
partners to apply for funding to address all-hazards capability gaps--
not just those directly relating to terrorism. The key difference 
between the proposed program and current programs is that FEMA would 
create a set of national priorities to drive innovative solutions and 
investments that address emerging threats, while stakeholders continue 
to use limited traditional funding sources to maintain existing 
preparedness capabilities. To ensure the program reflects the current 
risk landscape, FEMA will have the ability to shift the program's 
priorities as needed.

    Question 2.a. When this committee finalized work on the Disaster 
Recovery Reform Act (DRRA), the six percent set-aside for pre-disaster 
mitigation was considered by many to be the crowning achievement of the 
legislation. Since that time, members of this committee, staff, and 
stakeholders groups have challenged FEMA to think broadly, across the 
interagency, and beyond what we currently know as pre-disaster 
mitigation. This is a unique opportunity for FEMA to act boldly and 
develop a program that will stand the test of time. Yet some 
stakeholder groups have reported comments from FEMA about this new 
endeavor being an enhanced version of the current pre-disaster 
mitigation program.
    Could FEMA's implementation process be expedited if the existing 
PDM program was not replaced, but just modified? Would such a 
modification reduce the time required to do all new rulemaking, 
branding, and rollout?
    Answer. Section 1234 of the DRRA \1\ allows FEMA to set aside six 
percent of estimated disaster expenses for each major disaster. This 
set-aside will fund a new pre-disaster mitigation program which will 
take the place of the PDM grant program and be called Building 
Resilient Infrastructure and Communities (BRIC). FEMA appreciates the 
significant opportunity presented by Section 1234 to design a program 
that will have a substantial impact on the resiliency of our nation's 
communities. We also recognize the urgency to empower communities to 
undertake these projects before disaster strikes.
---------------------------------------------------------------------------
    \1\ Section 1234(a)(5) of the Disaster Recovery Reform Act of 2018, 
Division D of the Federal Aviation Administration Reauthorization Act 
of 2018, Public Law 115-254, (October 5, 2018).
---------------------------------------------------------------------------
    Based on historical disaster expenditures, FEMA anticipates BRIC 
will receive $300-$500 million per year on average. The most important 
thing to note as FEMA transitions from PDM to BRIC is that, regardless 
of how long it takes to complete the new policy or guidance, there will 
be no gap in mitigation assistance for our State, Local, Tribal, and 
Territorial partners.
    Before the passage of the DRRA, FEMA anticipated likely changes 
ahead for the PDM program. FEMA worked within its existing authorities 
to execute the vision and designate a large amount of funding for 
resilient infrastructure projects in the 2018 grant cycle and will do 
so again in the 2019 grant cycle. In addition, FEMA started setting 
aside the six percent of estimated disaster expenses in 2018 and has 
$250 million available for the 2019 PDM program. FEMA will continue to 
move mitigation forward by making these Section 1234 funds available 
for SLTT governments.
    FEMA is evaluating what changes it needs to further make to PDM to 
transition to BRIC and deliver a mitigation program that will (1) more 
meaningfully and measurably reduce risk; (2) reduce disaster costs to 
the Disaster Relief Fund, and (3) increase resilience across the full 
spectrum of hazards for our SLTTs. FEMA is taking measures to ensure we 
can fulfill all the requirements for new program development, 
thoughtfully design and implement BRIC, and continue to engage fully 
with our many stakeholders from all levels of federal, state, local, 
tribal and territorial governments, private sector industries and 
community agencies and non-profits.
    As with any new initiative, implementation can take some time. 
Since the passage of the DRRA in October 2018, FEMA engaged in 
extensive stakeholder interaction and received feedback to inform the 
BRIC program design. On May 20, 2019, FEMA requested public input on 
key areas about the development and implementation of BRIC on a forum 
called Ideascale. FEMA hosted four listening sessions in June via a 
webinar platform. Communities from all levels of government and key 
stakeholders, including private businesses, citizens, vulnerable and 
at-risk populations, critical infrastructure sectors, and non-profit, 
academic, and philanthropic organizations are encouraged to provide 
comment. To date, FEMA has received over 4,560 comments and will 
continue to engage with stakeholders through the summer. This includes 
a focus on engagements with federally-recognized tribes online, in-
person and at conferences.
    The development of the BRIC program and how as a nation we can 
deliver those outcomes is vital and FEMA is working as quickly as 
possible to create the best possible program, we do not want to 
shortcut this process.

    Question 2.b. Recognizing that there is an open period for public 
comment, please provide some specific examples of the innovative ideas 
that FEMA is considering as it stands up this program, as well as how 
FEMA is working across the interagency to leverage existing programs to 
bolster mitigation nationwide?
    Answer. Since the passage of the DRRA, FEMA has been emphasizing 
extensive stakeholder engagement to inform program design. On May 20, 
FEMA requested public input on key areas about the development and 
implementation of BRIC on a forum called Ideascale. FEMA hosted four 
``listening sessions'' in June via a webinar platform. Communities from 
all levels of government and key stakeholders, including private 
businesses, citizens, vulnerable and at-risk populations, critical 
infrastructure sectors, and non-profit, academic, and philanthropic 
organizations were encouraged to provide comment. To date, FEMA has 
received over 4,560 comments and will continue to engage with 
stakeholders through the summer. This includes a focus on engagements 
with federally-recognized tribes online, in-person and at conferences.
    FEMA is taking these measures to ensure we can fulfill all the 
requirements for new program development, thoughtfully design and 
implement BRIC, and continue to engage fully with our many stakeholders 
from all levels of federal, state, tribal and territory governments, 
private sector industries and community agencies and non-profits.

    Question 2.c. What progress has FEMA made in implementing this new 
pre disaster grant program and when does the Agency expect the first 
grant awards to be made?
    Answer. FEMA just released the selections for the 2018 PDM grant 
cycle which involves the highest amount of funding ever appropriated 
for PDM ($249.2M). The selections can be viewed at: https://
www.fema.gov/pre-disaster-mitigation-program-fy-2018-subapplication-
status. As authorized by Section 1234 of the DRRA, FEMA began setting 
aside 6% of estimated disaster expenses at the end of 2018 and has $250 
million available for the 2019 PDM program.
    FEMA anticipated the changes that would be made to the PDM program 
if the DRRA passed and, working within its existing authorities to 
execute that vision, designated a large amount of funding for resilient 
infrastructure projects in this year's grant cycle and will do so again 
in the 2019 grant cycle. FEMA will continue to move mitigation forward 
by making these funds available for competition to state, tribes, and 
territories in the next few months. At the same time, FEMA is 
evaluating potential changes in order to transition from PDM to BRIC in 
2020 to deliver a program that will more meaningfully and measurably 
reduce risk; reduce disaster costs to the Disaster Relief Fund; and, 
increase resilience across the full spectrum of hazards for our SLTT 
partners.
    Since the passage of the DRRA, FEMA has been emphasizing extensive 
stakeholder engagement to inform program design. On May 20, FEMA 
requested public input on key areas about the development and 
implementation of BRIC on a forum called Ideascale. FEMA hosted four 
listening sessions in June via a webinar platform. Communities from all 
levels of government and key stakeholders, including private 
businesses, citizens, vulnerable and at-risk populations, critical 
infrastructure sectors, and non-profit, academic, and philanthropic 
organizations were, and are encouraged to provide comment.
    FEMA is taking these measures to ensure we can fulfill all the 
requirements for new program development, thoughtfully design and 
implement BRIC, and continue to engage fully with our many stakeholders 
from all levels of federal, state, tribal and territory governments, 
private sector industries and community agencies and non-profits. FEMA 
continues to make progress on the development of program structure, 
funding award criteria, and project prioritization guidance.

    Question 2.d. In your view, how should such funding be targeted 
nationwide?
    Answer. FEMA is thoroughly engaging with our many stakeholders to 
design how BRIC funds can best be targeted to address critical needs 
and priorities. FEMA has heard from stakeholders that it is important 
to build community capabilities and capacity, and to ensure small and 
impoverished communities are not left out. BRIC will also be targeting 
resilient infrastructure projects, emphasizing whole community impacts 
and risk reduction.

    Question 2.e. Why is FEMA funding the existing PDM program for FY 
2019 using dollars from the new set-aside, when the Agency has received 
instruction from Congress to transfer funds from the Disaster Relief 
Fund for PDM in FY 2019?
    Question 2.f. Should the funding be awarded competitively? Should 
states and tribal governments be guaranteed a certain amount of 
funding? Should certain types of disasters be prioritized?
    Question 2.g. The six percent is a ``may'', not a ``shall''. Can 
you envision a circumstance under which the 6% might not be made 
available for pre-disaster mitigation, and if so, how would the new 
BRIC program continue to function?
    Question 2.h. In years with few disaster declarations, the six 
percent set-aside could potentially be a relatively small amount of 
money. How would the new BRIC program function in these circumstances? 
How could BRIC be best designed to cope with uncertain amounts of 
annual funding?
    Answers (2.e.-2.h.). The FY 2019 DHS Appropriations Act provided 
FEMA a ``bridge year'' of PDM in 2019 using the first $250 million of 
the amount set aside for implementing Section 1234, BRIC. FEMA 
anticipates following a similar schedule to the 2018 grant cycle in 
2019. This means there will be no interruption in delivery of pre-
disaster mitigation assistance to our external stakeholders.
    The Stafford Act requires the principal amount of assistance to be 
awarded competitively for mitigation activities under BRIC. FEMA 
continues to work and engage our stakeholders to thoughtfully design 
and implement BRIC, including consideration of decisions such as 
whether states, tribal, and territorial governments should be 
guaranteed a certain amount of funding, and whether to prioritize 
certain types of disasters.
    FEMA anticipates setting aside the full six percent estimate from 
each major disaster declaration within 180 days after declaration. 
Based on historic balance levels of the DRF it would be a rare 
circumstance in which there is no set aside. FEMA is currently 
evaluating ways to normalize the annual BRIC program in order to 
provide consistent annual funding despite fluctuations in annual 
disaster activity.

    Question 2.i. Some concerns have been expressed that the new BRIC 
program might focus on infrastructure projects that might better be 
carried out by the U.S. Army Corps of Engineers, rather than innovative 
pre-disaster mitigation projects. How is FEMA planning to address such 
concerns?
    Question 2.j. Concerns have also been expressed that BRIC might 
give less importance to traditional pre-disaster mitigation planning. 
How will you ensure that state and community mitigation planning 
continues to be supported?
    Answers (2.i.-2.j.). FEMA will not provide assistance for 
activities for which it determines the more specific authority lies 
with another Federal agency or program. Other programs and authorities 
should be examined before applying for BRIC funding. BRIC funds are not 
intended to be used as a substitute for other available program 
authorities. Available program authorities include other FEMA programs 
(e.g., IA, PA) and programs under other Federal agencies, such as U.S. 
Army Corps of Engineers
    FEMA will develop BRIC based on extensive engagement and feedback. 
This effort will include such topics as: how we improve the program; 
how we will provide grant recipient technical assistance; how 
mitigation planning is incorporated; determining program evaluation 
needs; encouraging projects that increase resilience and decrease risk; 
and, increasing community capability and capacity.
    FEMA has led a comprehensive stakeholder engagement effort by 
encouraging involvement in professional conferences, in-person 
listening sessions, and virtual forums to gather feedback from members 
of the public and key partners at all levels of government, industry, 
and the nonprofit sector on important program design considerations.
    Our internal and external stakeholders provided extensive feedback 
on maintaining traditional mitigation projects which includes 
mitigation planning. The purpose of mitigation planning is for state, 
local, territories and tribal governments to identify the natural 
hazards that impact them, to identify actions and activities to reduce 
any losses from those hazards, and to establish a coordinated process 
to implement the plan, taking advantage of a wide range of resources. 
All mitigation projects must align with an approved state/territorial 
and local, or tribal mitigation plan. BRIC will seek to provide an 
opportunity to expand the concept of mitigation planning by 
incorporating other planning mechanisms within HM plans.

    Question 2.k. Currently, buyout programs are slow and only 
available for a relatively limited number of properties. Do you think 
that the six percent set-aside could make it possible to move 
communities out of hazardous locations?
    Answer. Many policy related decisions are under consideration as 
FEMA develops the policy to implement BRIC. FEMA anticipates the six 
percent set-aside under BRIC will provide a more robust and stable 
funding stream which may be used to implement a number of pre-disaster, 
community-wide mitigation projects. Through the hazard mitigation 
planning process, floodplain modeling and flood loss history, 
communities often pre-identify areas that would be well suited for 
large scale acquisition (buyout) projects. Oftentimes, however, the 
existing pre-disaster grant funding is insufficient to address these 
issues on a larger scale. The six percent set-aside under BRIC may 
serve to enhance the ability of state, territory, tribe and local 
governments to undertake large scale community acquisition and 
relocation projects. However, community-wide acquisition projects may 
easily exceed available funding for such activities depending on 
property values and number of structures being acquired.

    Question 3.a. As the Federal Emergency Management Agency works on 
the implementation of the Disaster Recovery Reform Act, it is important 
to think about the work across all federal agencies to help communities 
after a disaster.
    Is FEMA getting what it needs from other agencies to implement 
DRRA?
    Question 3.b. If not, are there ways Congress can help?
    Answers (3.a.-3.b.). Several DRRA provisions require FEMA to work 
with its Federal partners to implement authorities that improve FEMA's 
assistance to people before, during and after disasters.
    For DRRA provisions where FEMA is primarily responsible for 
implementation, and also for provisions where other Federal departments 
and agencies are responsible for implementation, FEMA is coordinating 
closely with relevant Federal departments and agencies outside of DHS, 
including: the U.S. Departments of Energy, Health and Human Services, 
and Transportation; the U.S. Army Corps of Engineers, the U.S. 
Geological Survey, the U.S. Environmental Protection Agency; the 
Occupational Safety and Health Administration, and the U.S. Small 
Business Administration.
    FEMA currently has no unmet needs with respect to coordination with 
other Federal departments and agencies on implementation of the DRRA.

    Question 4.a. In your testimony, you mentioned the Agency's 
commitment to a ``full and timely implementation of DRRA. While we 
certainly commend the Agency for some of its progress to this point, 
such as the retroactive additional assistance to disaster survivors, 
there are other provisions that have apparently fallen by the wayside.
    Specifically, there were several provisions included in the bill 
that can and will have an impact on several open disasters including 
wildfires and Florence, Harvey, Irma, Maria, and Michael, such as 
Section 1245, regarding potential assistance for damaged underground 
water infrastructure; and Sec. 1230b the legislative proposal on co-ops 
and condos.
    Can you please provide us with any charts or slidedecks that FEMA 
is using for internal project management of DRRA implementation?
    Answer. FEMA is making steady progress on implementation of the 
DRRA's many provisions, consistent with its intent to ensure that each 
provision is implemented in a deliberate manner that is informed by 
lessons learned from previous disasters, stakeholder input, and other 
relevant policy considerations.
    Through recent and ongoing engagements with staff from the House 
Committee on Transportation and Infrastructure, FEMA is providing bi-
weekly written updates on the implementation status of each provision 
in the DRRA, as well as ongoing quarterly in-person briefings with 
senior agency leadership that includes PowerPoint presentations and 
other materials detailing the ongoing implementation efforts of the 
Agency.

    Question 4.b. Please provide an update on the status of the 
legislative proposal on how to provide eligibility for disaster 
assistance with respect to common areas of condominiums and housing 
cooperatives, which FEMA was required to submit to the Committee not 
later than 90 days after the date of enactment of DRRA pursuant to 
Section 1230(b).
    Answer. FEMA developed the draft legislative proposal and submitted 
it for review and concurrence by agency leadership. If approved by DHS 
and the Office of Management and Budget (OMB), FEMA will be able to 
submit the final legislative proposal to Congress.

    Question 5.a. The 2017 and 2018 disasters calls into question 
whether FEMA has adequate personnel resources and capacity to respond 
to multiple catastrophic disasters simultaneously.
    What steps are being taken to bolster FEMA's response capabilities 
to ensure the federal government is ready to respond to multiple, 
simultaneous catastrophic-scale disasters, such as a Cascadia 
earthquake and tsunami, or a New Madrid earthquake?
    Answer. The 2017 and 2018 disasters certainly challenged FEMA and 
its Federal partners' capacity to support multiple concurrent disasters 
with limited resources. While the challenges faced in 2017-2018 
strained our capacity, a catastrophic scenario like Cascadia or New 
Madrid would require FEMA to manage shortfalls, as all levels of 
government would lack sufficient resources to meet all requirements 
posed by those scenarios.
    FEMA must ensure its response teams and assets, as well as those of 
its Federal partners, and from the whole community, remain ready and 
can be rapidly mobilized during multiple concurrent incidents or a 
catastrophic incident. To build capacity to respond to more frequent 
and severe incidents, FEMA continues to build and modernize its 
response capabilities, in part due to continued support from Congress 
to fund critical recapitalization and new capabilities. For example, 
FEMA received funding to replace the aging equipment caches for its 28 
Urban Search and Rescue Task Forces, increasing its fleet of Mobile 
Emergency Operations Vehicles, and recapitalizing aging land mobile 
radios.
    To ensure the federal Response enterprise is positioned to quickly 
respond to the unique needs of the nation's most catastrophic risks, 
the FEMA Regions perform a Threat hazard Identification Risk Analysis 
(THIRA) process with their states which in turn inform the 
prioritization of planning and exercise events. For instance, this year 
featured a major interagency large-scale exercise for the NMSZ risk 
called ``Shaken Fury'' which served as a culmination of a joint 4-
Region planning effort with their respective states in the central 
United States. In the West, our Region VIII is in the process of 
updating the Wasatch Earthquake Fault plan; while in the Pacific 
Northwest, our Region X and IX offices are engaged in the update to our 
Cascadia Subduction Zone earthquake readiness efforts which include 
tsunami threats. Meanwhile all our regions update and exercise against 
their respective hazards.
    To ensure its staffing is appropriately aligned to meet the unique 
requirements across all 23 cadres, FEMA completed a Coordinated 
Workforce Review to review the staffing force structure to ensure FEMA 
can deploy the right people with the right skills, to the right place, 
and at the right time to help survivors after a disaster. In addition 
to needs generated over the last few hurricane seasons, FEMA reviewed 
the disaster workforce structure needed for potential future disaster 
activity the agency may face. To achieve FEMA's target force structure, 
FEMA is starting a multi-year recruitment and hiring process. While 
this process is ongoing, the agency will continue placing increased 
emphasis on training for existing employees to increase readiness and 
enhance the disaster survivor experience. Even at full workforce 
strength, FEMA will need to rely on contingency staffing solutions like 
contracts, mission assignments, and other federal employees through the 
Surge Capacity Force.
    FEMA has also increased its inventory of critical commodities 
(food, water, tarps, generators) in the Continental United States 
(CONUS) and outside of the Continental United States (OCONUS) to levels 
that exceed those in 2017 and 2018. FEMA has also expanded the number 
of Incident Support Base/Federal Staging Area Teams ready to quickly 
deploy and establish staging areas to receive life-saving/life-
sustaining commodities and supplies for disaster survivors. The Agency 
has increased its response logistics contract capacity to $3 billion, 
to include key commodity and transportation (Maritime and National 
Cross-Docking) contracts. It has developed, with the Defense Logistics 
Agency, 5-year contracts to provide emergency fuel (diesel, mogas, jet) 
and propane for all 50 states, the Caribbean, Guam, and the Northern 
Mariana Islands. FEMA has awarded a new contract for 352 new generators 
to add to its existing inventory to assist CONUS and OCONUS disaster 
operations. In addition, FEMA has established a replacement west coast 
Distribution Center in Tracy, CA with 224,000 sq. ft. increasing the 
capability for storing critical commodities and supplies in the 
region--a four-fold increase over the previous facility.
    FEMA also developed the concept of community lifelines as a means 
to better communicate across government and non-governmental partners 
using a common, plain language vernacular focused on stabilizing the 
most critical services in a community to alleviate the immediate 
threats to life and property. Lifelines were designed, and have proven 
to be an effective means, to help inform challenging resource 
allocation decisions the Nation will face in a catastrophic scenario. 
Lifelines are being formalized in national-level policy through the 
National Response Framework 4th Edition.
    Preparedness for catastrophic scenarios requires more than just 
building more capability within FEMA. It involves balancing risk by 
recognizing that FEMA will never be staffed to support the full set of 
requirements levied by the worst day in the country's history. It is 
imperative State and local governments continue to invest their own 
resources to ensure they are prepared. Equally important, the nation 
must invest in response capabilities at the state and local level, 
modernize infrastructure to increase resilience and reduce likelihood 
of failure, and strengthening interstate mutual aid compacts like the 
Emergency Management Assistance Compact (EMAC), which serves as a 
complementary mechanism to Direct Federal Assistance to mobilize the 
nation's response capabilities to support communities impacted by 
disasters.

    Question 6.a. We remain concerned about the slower than normal pace 
of recovery in Puerto Rico and the U.S. Virgin Islands. GAO and others 
have reported that very few permanent work recovery projects are 
underway and very little monies have actually been spent on recovery, 
as is reflected in the significant balance remaining in the Disaster 
Relief Fund.
    Do you believe the pace of recovery in Puerto Rico is acceptable?
    Question 6.b. What are the primary causes of the slowness and what 
steps are needed to speed it up?
    Question 6.c. Is there anything this Committee or Congress can do 
to help speed up recovery?
    Answers (6.a.-6.c.). Hurricanes Irma and Maria caused unprecedented 
impacts in Puerto Rico that required significantly extended emergency 
response operations to protect life and property. Whereas in most 
disasters response is transitioned to recovery in the first 30 to 60 
days, full recovery could not begin in earnest until nearly a year 
after the storms made landfall due to the severe damage to communities 
and infrastructure (i.e., communications, energy systems) that were 
critical to address the immediate needs of the Commonwealth and 
disaster survivors. For example, according to the Transformation and 
Innovation in the Wake of Devastation: an Economic and Disaster 
Recovery Plan for Puerto Rico, over 25 percent of transmission line 
towers and poles were damaged following the storms which rendered 100 
percent of the power grid inoperable and all 1.5 million customers were 
left without power. The concentrated rain from Hurricanes Irma and 
Maria led to more than 41,000 landslides across a significant portion 
of Puerto Rico--and at least one landslide per square kilometer in most 
of the mountainous areas. Further, 95 percent of cellular sites were 
out of service and just 400 miles of road were passable out of 16,700 
miles. These damages to infrastructure were also exacerbated due to 
pre-existing vulnerabilities in the system; for example, prior to 
Hurricanes Irma and Maria, Puerto Rico was experiencing power outages 
that were significantly more frequent than industry averages.
    Given the extended period of emergency work required and due to the 
size and scope of the disaster in Puerto Rico, FEMA immediately doubled 
the timeframe for submitting fixed cost estimates to October 2019--24 
months after the disaster declaration. Generally, Public Assistance 
applicants have 12 months after a disaster declaration to submit fixed 
cost estimates for permanent work. As of June 24, 2019, FEMA obligated 
more than $5 billion for more than 1,150 emergency work projects, more 
than $483.7 million for 139 permanent work projects, and more than $5.8 
billion for all work in Puerto Rico in response to the 2017 hurricanes. 
Factors that contribute to the speed at which recovery permanent work 
can be performed are influenced by Puerto Rico. These factors include 
the Commonwealth's bankruptcy and lack of liquidity; inadequate 
financial and internal controls; insufficient grant procedures; a need 
to significantly strengthen the Commonwealth's capability and capacity 
for recovery planning and staffing, including Commonwealth agencies' 
ability to hire; and changing leadership in the Commonwealth 
responsible for managing recovery.
    However, FEMA and the Central Office for Recovery, Reconstruction, 
and Resilience for Puerto Rico, (COR3) continue to work closely 
together to address the significant Public Assistance permanent work 
requirements in Puerto Rico. A significant example of these efforts is 
the implementation of the Public Assistance National Delivery Model in 
Puerto Rico at the request of the Commonwealth of Puerto Rico and COR3. 
The National Delivery Model streamlines the delivery of Public 
Assistance in Puerto Rico and increases the timeliness, accuracy, and 
consistency of grant development by segmenting work and consolidating 
the development of scopes of work and cost estimates at Consolidated 
Resource Centers. The National Delivery Model formalizes coordination 
and collaboration at every step of the grant development process by (1) 
establishing complete transparency into grant development through 
Grants Manager and Grants Portal; and, (2) establishing a single point 
of contact for applicants and recipients whose primary responsibility 
is to communicate, coordinate, and collaborate with applicants on grant 
development. As a result, recipients and subrecipients can monitor and 
actively engage in every project action as it moves through the steps: 
damage identification, documentation, scoping, cost estimation, and 
compliance review. Additionally, COR3 will have representation at the 
Consolidated Resource Center in Puerto Rico, known as the CRC Atlantic. 
These combined efforts and close coordination between FEMA and COR3 
ensure continued progress in recovery operations in the Commonwealth.

    Question 6.d. How many cost estimates in Puerto Rico and the U.S. 
Virgin Islands have been submitted under Section 428 Alternative 
Procedures for Public Assistance? How many of those have been approved? 
How many of the cost estimates are still in review waiting for approval 
3 months/6 months/12 months after they have been submitted?
    Answer.
USVI:
    <bullet>  Currently 39 Projects has been submitted under Section 
428 Alternative Procedures for Public Assistance to the CRC Costing 
Unit ``Pending CRC Development''.
    <bullet>  2 Projects has been approved (Cost Estimates under 
Section 428 are considered approved after Obligation)
    <bullet>  39 Projects (requested Fixed Cost Offers) are still in 
review, being costed no more than 30 days.

Puerto Rico:
    As of COB 10/8/2019 (Data Source, GM)
    <bullet>  6225 Public Assistance large permanent work projects have 
been submitted under Section 428 Alternative Procedures.
    <bullet>  50 Public Assistance large permanent projects were tagged 
as having a ``Fixed Cost Offer Accepted'' under Policy Issue. There are 
23 Obligated Public Assistance large permanent projects under Section 
428 Alternative Procedures.
    <bullet>  12 Public Assistance large permanent work projects under 
Section 428 Alternative Procedures are in FEMA, Recipient or 
Subrecipient review.

    Question 6.e. How is FEMA coordinating with other federal agencies 
on large infrastructure projects underway in Puerto Rico and the U.S. 
Virgin Islands for projects being funding from sources other than the 
Disaster Relief Fund?
    Answer. The National Disaster Recovery Framework (NDRF) enables 
FEMA to coordinate at headquarters and in the field with other federal 
agencies through the Recovery Support Function Leadership Group (RSFLG) 
and the six Recovery Support Functions (RSF), including the 
Infrastructure Systems RSF, which is coordinated by the U.S. Army Corps 
of Engineers (USACE). FEMA, the U.S. Department of Agriculture (USDA), 
the U.S. Department of Housing and Urban Development (HUD), the U.S. 
Department of Transportation (DOT), and the U.S. Environmental 
Protection Agency (EPA) are among several primary and supporting 
agencies for this RSF and work closely together to ensure appropriate 
coordination of infrastructure projects and funding.
    FEMA in collaboration with EPA and other federal agencies, has been 
leading efforts in recovery on how best to restore, redevelop, and 
revitalize the health, social, economic, natural, cultural, and 
environmental fabric of PR and USVI communities in order to make the 
islands more resilient. As part of this FEMA-led collaboration, EPA has 
been working with the six recovery support functions (RSFs) established 
by the NDRF by: providing technical assistance in exploring sustainable 
sound solutions. This includes work in Infrastructure (i.e. drinking 
water systems, sanitary sewage systems, storm water systems), Natural & 
Cultural Resources (i.e. solid waste infrastructure/solid waste 
management), Economic (land revitalization strategies, renewable energy 
microgrids, workforce training and development), and Housing and Health 
and Social Services (i.e. Healthy Building, lead/mold/asbestos 
training) RSFs. EPA is also working with the FEMA-led Community 
Planning and Capacity Building RSF by promoting capacity building to 
the Government of Puerto Rico, the Territory of the USVI, 
municipalities, and private non-profits through workshops, training and 
partnerships to explore accessing funding opportunities during 
recovery.
    FEMA and HUD are also working together through regular RSFLG 
meetings to coordinate policy issues around FEMA-funded infrastructure 
projects where the local cost share will be funded by the HUD Community 
Development Block Grant-Disaster Recovery (CDBG-DR) program. For 
example, in the Energy Sector, FEMA and HUD, together with DOE and 
USDA, sit on the RSFLG Energy Subgroups for Puerto Rico and USVI in 
order to coordinate funding and requirements for permanent restoration 
of the Island's electrical grids. HUD has not yet issued the Federal 
Register Notice establishing administrative requirements for the $2 
billion in CDBG-DR funding set aside by Congress for electrical power 
system enhancements and improvements, and they are working closely with 
FEMA, DOE, and the USDA Rural Utilities Service (RUS) to ensure that 
the rules, when issued, correspond as closely as possible with FEMA 
Public Assistance requirements, DOE recommendations, and USDA RUS 
electrical industry standards.
    As part of the RSFLG, the Program Management Office (PMO) tracks 
disaster funding and outcomes across the federal interagency partners 
for the largest disasters since 2017 and 2018, including Hurricanes 
Harvey, Irma, Maria, Florence, and Michael and the California 
wildfires. The purpose of the PMO is to provide accountability and 
transparency, enhance coordination and collaboration, and facilitate 
outcome driven recovery across the federal government. The PMO's 
public-facing website shows which federal agencies received disaster 
funding from Congress and where those agencies spend that funding on 
recovery activities. Along with tracking disaster funding by agency or 
state/territory, visitors to the site can see ``funding in action'' 
with stories of how the federal government is using those funds.
    Each federal agency providing recovery grant funding is required to 
complete a review ensuring proposed projects will be compliant with 
federal environmental and historic preservation (EHP) laws and 
executive orders. In cases where FEMA's disaster recovery programs and 
other programs such as HUD's CDBG-DR program are funding the same 
facility, the Unified Federal Environmental and Historic Preservation 
Review (UFR) process exists to reduce redundancies and streamline these 
reviews. This effort is led at the field level by a FEMA UFR Advisor 
who works across the interagency to not only reduce redundancies but to 
also identify opportunities to streamline the EHP review process for 
federal agencies and their grant applicants.
    The FEMA UFR Advisor is currently working with HUD and a number of 
other federal recovery funding agencies and the regulatory agencies 
responsible for implementing the various EHP laws to create a process 
that will effectively manage the EHP legal compliance process for 
projects funded by multiple agencies. This effort is being accomplished 
through the creation and use of interagency streamlining tools and 
agreements that can be leveraged whenever programs identify projects 
that will be jointly funded by multiple federal agencies. This helps 
ensure these grants not only meet EHP legal compliance consistently 
across the federal family, but it also helps ensure that work completed 
by one agency is shared to reduce the associated administrative burden 
from the other funding agency and the project applicant.

    Question 7.a. As was discussed briefly in the hearing, FEMA was 
responsible for a data leak that improperly exposed the financial and 
other personally identifiable information of up to two and a half 
million survivors to a contractor. You indicated that we would be 
hearing shortly from FEMA and DHS on this matter, but it has been more 
than two weeks since your testimony without any additional information 
from either DHS or FEMA.
    What steps has FEMA taken since that data leak to ensure a similar 
incident never happens again?
    Question 7.b. Has any credit monitoring or identity protection 
services been offered to those whose information was exposed, and if 
so, for how long will you provide it?
    Answers (7.a.-7.b.). On Tuesday, June 11, 2019, a briefing was 
provided to your committee staff, following up on the commitment made 
during the hearing. It is important to note that FEMA has not 
identified any information that indicates survivor data was compromised 
while under contractor control. However, out of an abundance of 
caution, FEMA will notify affected survivors of this incident 
individually via U.S. Mail.
    In the notification to affected survivors, FEMA will outline 
proactive steps affected survivors may wish to take as a best practice 
to ensure their Personally Identifiable Information (PII) is 
safeguarded, which will enable them to maintain their focus on 
recovery. FEMA will also provide credit monitoring services to those 
who request it. Instructions to obtain information, receive responses 
to questions, request free credit reporting, or register for free 
credit monitoring will be identified in a FEMA notification letter that 
will be sent to affected disaster survivors.
    Although the privacy information under discussion was overshared, 
it was not leaked. The data recipient is a FEMA contractor authorized 
to receive FEMA data to perform work under the contract.
    From a governance standpoint, FEMA recognizes that the information 
sharing process needs improvement to prevent similar privacy incidents 
and overshares from happening again. As such, FEMA initiated an Agency-
wide information sharing process and assessment initiative focused on: 
(1) conducting an Agency-wide assessment of FEMA's current PII/SPII 
sharing agreements, identifying and documenting errors or gaps, and 
implementing corrective actions; and, (2) developing a standardized, 
risk-based process for executing agreements for sharing PII/SPII. The 
expected results of this effort will yield robust policies, procedures, 
and tools that will foster a consistent, compliant information sharing 
program at FEMA. As part of these improved procedures, information 
sharing requests will be analyzed to ensure that FEMA is only sharing 
relevant and necessary information with our partners; and, ensuring 
that both FEMA and recipients of FEMA data are aware of their 
responsibilities to protect FEMA information.
    When the situation was discovered, FEMA engaged the DHS Breach 
Response Team to determine appropriate remediation strategies for the 
overshare based on risks and cost benefit analysis. On May 15, 2019, 
remedial steps to help affected survivors was approved. FEMA will offer 
credit monitoring services for 18 months to all impacted survivors, 
along with establishing a call center and website for survivors to 
obtain information and receive responses to questions. The agency has 
entered into contract with a vendor to provide those services, and is 
currently executing the requirements of that task order. Call center 
activities and notification letter mailings to the affected individuals 
are scheduled to begin in August 2019.

    Question 8.a. As a result of Section 1206 of DRRA, FEMA will be 
able to--for the first time--provide incentives to jurisdictions for 
modern code adoption and enforcement pre-disaster, which will provide 
significant mitigation benefits. FEMA currently supports code 
activities post-disaster through the Hazard Mitigation Grant Program 
(HMGP), which has not had a lot of success in promoting those 
activities--just 0.3 percent of the 27,000-plus HMGP grants have 
supported code adoption and enforcement. The existing framework of 
FEMA's pre-disaster mitigation program mirrors HMGP.
    Can you commit to working with this Committee and key stakeholders 
on solutions that will ensure better code incentivization through 
FEMA's new pre-disaster mitigation effort?
    Answer. FEMA's new pre-disaster mitigation program is commonly 
known as the BRIC program authorized under DRRA Section 1234. The 
question incorrectly associates the pre-disaster code incentivization 
provisions with Section 1206 of DRRA, when in fact, the correct Section 
for this program is 1234. Therefore, FEMA's response is presuming that 
you are referring to Section 1234 of the DRRA. It is true, also, that 
building code activities are incentivized under Section 1206, but that 
section only refers to post-disaster activities governed by Sections 
402 and 406 of the Stafford Act.
    FEMA recognizes and appreciates the extraordinary opportunity and 
responsibility presented by Section 1234 of the DRRA, which allows FEMA 
to set aside six percent of estimated disaster expenses for each major 
disaster in order to fund BRIC which will take the place of the PDM. 
FEMA fully embraces this significant opportunity to move mitigation 
forward across the Nation. We appreciate Congress' support of pre-
disaster mitigation and remain steadfast in our efforts to deliver a 
quality pre-disaster mitigation program as it transitions to BRIC.
    Section 1234 requires FEMA to consider the extent to which SLTTs 
have facilitated the adoption and enforcement of building codes when it 
provides assistance under BRIC and added the enforcement and 
implementation of building codes as an eligible activity. FEMA has 
undertaken extensive engagement and outreach, including with key 
stakeholders, as it develops the program, and this has included 
discussions surrounding how to implement these specific provisions. 
Considering two-thirds of communities in the United States do not have 
the most recent hazard-resistant building codes they need; the BRIC 
program can have a significant impact on increasing the number of 
communities with disaster-resistant codes. FEMA is committed to working 
with all stakeholders and Congress on solutions that can be implemented 
effectively.
    Also, as noted in the question, FEMA does currently support code 
activities post-disaster through the Hazard Mitigation Grant Program 
(HMGP). But now, under the DRRA, FEMA is expanding its support of code 
activities through Section 1206 Eligibility for Code Implementation and 
Enforcement and Section 1235(b) which address public assistance as it 
relates to section 406 of the Stafford Act. Section 1206 authorizes 
FEMA to provide assistance to state and local governments for building 
code and floodplain management ordinance administration and 
enforcement. Section 1235(b) authorizes FEMA to provide Public 
Assistance funding to replace and restore disaster damaged facilities 
to the latest published editions of relevant consensus-based codes and 
standards to ensure that facilities are restored in a manner that 
allows them to be more resilient.
    Together, these new DRRA provision affecting building code 
activities pre and post disaster are going to yield significant 
mitigation benefits and enable stronger recovery from future disasters. 
As stated in FEMA's Strategic Plan, Goal 1, Disaster resilience starts 
with building codes, because they enhance public safety and property 
protection.

    Question 9.a. Section 1209 of DRRA requires FEMA, in coordination 
with the Federal Highway Administration, to develop guidance for state, 
local and territorial governments to identify evacuation routes. One 
part of the guidance is supposed to look way ways to improve the 
resiliency of evacuation routes.
    How are FEMA and the Federal Highway Administration coming on 
developing this guidance?
    Question 9.b. When do you anticipate it to be completed for states 
and communities to use?
    Answers (9.a.-9.b.). As called for under Sections 1209(a)(1) and 
1209(b)(1) of the DRRA, FEMA's National Integration Center is 
developing evacuation planning guidance entitled Planning 
Considerations: Evacuation and Shelter-In-Place--Guidance for State, 
Local, Tribal, and Territorial Partners. The Federal Highway 
Administration (FHWA) has contributed to the document's development, 
along with their partners in the Association of State Highway 
Transportation Officials. The guide also underwent a 30-day national 
engagement period to allow stakeholders across the country to provide 
input and recommendations. The guide is currently undergoing a final 
review and approval process; FEMA's anticipated release is July 2019.
    The Planning Considerations guide addresses key concepts for 
evacuation and shelter-in-place operations including the use of zone-
based planning and implementation. The guide encourages jurisdictions 
to establish evacuation zones to ensure the most vulnerable zones are 
evacuated, while limiting the need for evacuating large areas that are 
not under the threat of the hazard. The guide also addresses critical 
considerations or challenges that jurisdictions may encounter when 
planning or implementing evacuation and shelter-in-place operations. 
The concepts and principles contained in the document draw from 
evacuation and shelter-in-place best practices and lessons learned from 
the National Emergency Management Association, the National Governor's 
Association, and numerous state, urban area, and local jurisdictions.
    The Planning Considerations guide includes vignettes based on 
discussions with, and lessons learned from, jurisdictions. These 
vignettes address the zone evacuation implementation in tidal Virginia; 
the use of assembly points and ``hub and spoke'' evacuations in New 
Orleans, Louisiana; and, observations from engagements with both Los 
Angeles County, California and Larimer County, Colorado, which have 
dealt with an increasing number of wildfires in previous years. The 
principles, emerging concepts, and best practices outlined in this 
guide have already informed recent Evacuation and Shelter-in-Place 
Planning Collaborative Technical Assistance efforts conducted with the 
Baltimore Urban Area Security Initiative jurisdictions, the State of 
Georgia, and Snohomish County, Washington.
    Per Sections 1209(a)(2) and 1209(b)(2) of the DRRA, FHWA is 
conducting a separate review, in coordination with FEMA, of state 
capabilities regarding contraflow operations and developing recommended 
strategies. FHWA has also reviewed its existing regulations, policies, 
and guidance, and determined that they adequately address the remaining 
considerations identified in Sections 1209(a)(2) and 1209(b)(2) of the 
DRRA.

    Question 10.a. On the issue of FEMA's own workforce readiness, the 
Committee included Section 1222 in DRRA, which allows the FEMA 
Administrator to appoint temporary personnel who have served three 
consecutive years to permanent positions in the same manner as 
competitive service employees. These are employees that FEMA has spent 
significant resources on training, who were then being recruited by the 
private sector, costing the Agency even more to replace them.
    What is the status of implementation of Section 1222? How many 
formerly temporary personnel who served three consecutive years with 
FEMA have competed for permanent positions and how many have been 
appointed to permanent positions?
    Answer. FEMA implemented DRRA 1222 effective 2:00 pm EDT on 
Tuesday, July 30, 2019. As of August 28, 2019, a total of 87 Job 
Opportunity Announcements for Merit Promotion positions have been 
posted to USA jobs that include the DRRA 1222 eligibility. Of the 
position posted as of August 28th, 1,420 applicants indicated that they 
would like to receive consideration for the Merit Promotion Opportunity 
using the DRRA 1222 authority. The eligibility extends to current and 
former FEMA employees who have served continuously since August 1, 
2014. No final selections or appointments have been made for any of 
those 87 positions as of this submission.

    Question 10.b. Do you feel that there's a need for additional 
incentives to fill the current significant vacancies in FEMA's Incident 
Management workforce?
    Answer. Incentives alone would not solve the issue. A primary 
problem now is the very low unemployment rate combined with no job 
protections (such as provided for the military reserves) when 
individuals are deployed.

    Question 10.c. Have you or the Agency given any thought to what 
else may be needed?
    Answer. Hiring targets and challenges are regularly discussed. FEMA 
works as a team to try and identify how to tackle the challenges.

    Question 11.a. FEMA's 2018-2022 Strategic Plan prioritizes efforts 
to incentivize investments that reduce risk, including pre-disaster 
mitigation, and increase the number of properties covered by flood 
insurance. However, top leadership support within the executive branch 
has regressed, as related executive orders have been rescinded. For 
example, Executive Order 13690 was revoked in 2017, which established a 
government-wide federal flood risk management standard to improve the 
resilience of communities and federal assets against the impacts of 
flooding.
    If increasing our nation's resilience is a FEMA priority, why were 
these efforts revoked?
    Answer. FEMA supports efforts to improve the Nation's preparedness 
and resilience against hazards, including flooding hazards. While EO 
13807 rescinded EO 13690, it left in place EO 11988, ``Floodplain 
Management.'' EO 11988 establishes floodplain management standards and 
procedures across the Executive Branch. As a consultation agency under 
the EO 11988, FEMA provides technical assistance and advice to other 
federal agencies in the development and implementation of these 
standards and procedures. FEMA also continues to seek more effective 
ways to assess and reduce the risk of current and future flooding and 
increase community resilience. In addition, states and localities 
continue to adopt design standards as appropriate for their 
circumstances to account for flood hazards.

    Question 11.b. In your view what is the federal role in encouraging 
resilience?
    Answer. FEMA's role is to build relationships with our emergency 
management partners, ideally before disasters occur, so that the Agency 
can understand their unique conditions and needs. FEMA is responsible 
for identifying best practices and working within the emergency 
management community to encourage proactive risk assessment, 
preparedness activities, and mitigation investments. Post-disaster, 
FEMA's responsibilities primarily involve coordinating and assigning 
Federal assets to support SLTT partners and providing grant assistance 
to help SLTTs, individuals, and private non-profit organizations cope 
with disaster losses and recovery. However, FEMA does not and cannot 
serve as the sole or primary responder.
    To that end, pre-disaster coordination and communication among 
partners is critical to improving response and recovery outcomes. 
Equally important are mitigation and actions that we can take to 
enhance the resilience of our communities before disasters occur. In 
order to be resilient, communities must make efforts to protect lives 
and property before disasters occur. In every phase of emergency 
management, success requires the cooperative contributions of the whole 
community.

    Question 11.c. What strategies have you identified to increase the 
purchase of flood insurance policies?
    Answer. Our strategies to increase the purchase of flood insurance 
policies include:
    <bullet>  Instituting Risk Rating 2.0, which will provide fairer 
rating and ensure pricing better reflects flood risk;
    <bullet>  Redesigning the NFIP Policy Forms to be more user 
friendly for both the policyholder and insurance agent;
    <bullet>  Building and enhancing partnerships to influence 
insurance uptake. For example, we are working with Realtors, Lenders, 
and other influencers in the communities;
    <bullet>  Enhancing marketing, using new behavioral science 
techniques and geographically targeted marketing campaigns; and,
    <bullet>  Developing relationships with, and coordinating with the 
Private Flood market to better understand insurance uptake other than 
the NFIP.

    In addition, we are constantly seeking to improve the customer 
experience and implementing innovations that can improve risk awareness 
and flood insurance uptake. Of note, in fiscal year 2018, we saw a five 
percent growth in flood insurance (NFIP and estimated private flood 
markets combined). This is a great step forward, but still requires 
considerable effort to address the overall insurance gap.

    Question 12.a. In the 2019 National Defense Authorization Act, 
which was passed by Republican majorities in both the House and the 
Senate--and which the President enacted--language was included 
mandating that military construction projects be built to at least two 
feet above the base flood elevation. For critical infrastructure, the 
NDAA called for construction at three feet above the base flood 
elevation.
    Would FEMA encourage and support similar language for any non-
military infrastructure bill that this Congress might consider?
    Question 12.b. HUD guidance on flood resilience standards requires 
that all residential structures in the Special Flood Hazard Area (SFHA) 
that receive federal assistance for new construction, repair of 
substantial damage, or substantial improvement as defined in 24 C.F.R. 
55.2(b)(10), must be elevated with the lowest floor, including the 
basement, at least two to three feet above BFE (see Department of 
Housing and Urban Development, ``Allocations, Common Application, 
Waivers, and Alternative Requirements for 2017 Disaster Community 
Development Block Grant Disaster Recover Grantees,'' 83(28) Federal 
Register 5861, February 9, 2018). Would FEMA consider adopting similar 
standards?
    Answers (12.a.-12.b.). Congress should consider ways to make 
Federal infrastructure more resilient, including using structural or 
nonstructural methods to reduce or prevent damage; or designing the 
structure to adapt to, withstand and rapidly recover from a flood 
event. In selecting the appropriate resilience approach, Federal 
departments and agencies should consider several factors such as flood 
depth, velocity, rate of rise of floodwater, duration of floodwater, 
erosion, subsidence, the function or use and type of structure or 
facility, and other factors. However, as no feasibility study has been 
conducted and we have not estimated the cost of adopting a similar 
provision for non-military infrastructure, FEMA defers to GSA and other 
Federal agencies.
    In addition to implementing statutory requirements related to 
building codes under the Stafford Act, FEMA worked with HUD on flood 
and building codes standards included in the Federal Register notice 
containing the grant requirements for Community Development Block Grant 
(CDBG)-Mitigation grants. Generally, for CDBG disaster recovery grants 
to address unmet recovery needs, HUD requires that all residential 
structures in the Special Flood Hazard Area (SFHA) that receive federal 
assistance for new construction, repair of substantial damage, or 
substantial improvement as defined in 24 C.F.R. Sec.  55.2(b)(10), must 
be elevated with the lowest floor, including the basement, at least two 
to three feet above BFE (see Department of Housing and Urban 
Development, Allocations, Common Application, Waivers, and Alternative 
Requirements for 2017 Disaster Community Development Block Grant 
Disaster Recover Grantees, 83 Federal Register 5861, February 9, 2018). 
So that HUD could consider potential modifications for requirements 
that apply to CDBG mitigation funds, in addition to flood elevation 
standards, FEMA has shared with HUD, and provided guidance on the FEMA 
Hazard Mitigation Assistance (HMA) grant programs, as well as the 
requirements for various structures to be built to the American Society 
of Civil Engineers (ASCE) standards, to ensure fulsome disaster 
resistant building protection, not just compliance with an elevation 
standard. The objective is to make buildings resilient to withstand 
risk of damage from multiple hazards.

    Question 13.a. FEMA's 2018-2022 Strategic Plan states that 
``[d]isaster resilience starts with building codes, because they 
enhance public safety and property protection.'' The Plan also calls 
for straightforward processes and policies for staff and improvements 
in FEMA's stewardship of Federal taxpayer dollars. FEMA's Public 
Assistance Program to rebuild public facilities post disaster generally 
requires applicants incorporate the latest hazard resistant measures in 
up to date building codes. Coordinating codes and standards policy 
across FEMA's programs--like Individual Assistance, Public Assistance, 
and Hazard Mitigation--could protect Federal taxpayer investments in 
disaster recovery and hazard mitigation programs.
    Is that something FEMA would/should consider? For example, would/
should the Agency consider applying its PA codes and standards minimum 
where the Agency is funding permanent housing construction through its 
Individual Assistance program?
    Question 13.b. Would FEMA consider requiring work performed using 
funding made available pursuant to a Stafford Act declaration, 
including Public Assistance, Individual Assistance, and Hazard 
Mitigation Assistance, to be built at a minimum to the most current 
codes set by the International Code Council, referred to as the ``I-
Codes''?
    Answers (13.a.-13.b.). FEMA regulations require that any permanent 
or semi-Permanent Housing Construction (PHC) that FEMA provides must be 
consistent with current minimal local building codes and standards 
where they exist, or minimum acceptable construction industry standards 
in the area where no codes and ordinances apply. FEMA has incorporated 
the 2018 International Building Code (IBC) standards for new homes 
being constructed as part of FEMA's PHC program in the Commonwealth of 
Northern Marianas Islands following Super Typhoon Yutu and will 
consider updating Individual Assistance policy in the future to align 
PHC with minimum codes and standards requirements for Public Assistance 
and Hazard Mitigation.
    FEMA is not considering requiring disaster survivors who receive 
financial assistance for Home Repair or Replacement under the 
Individuals and Households Program to build to additional codes and 
standards beyond what the local government requires.
    FEMA's Public Assistance Program is currently developing an interim 
policy to implement Section 1235(b) of the DRRA which authorizes FEMA 
to fund the restoration of eligible facilities based on the latest 
published editions of relevant consensus-based codes, specifications, 
and standards that incorporate the latest hazard-resistant designs and 
establish minimum acceptable criteria for the design, construction, and 
maintenance of such facilities. FEMA's Minimum Standards Policy already 
requires application of the hazard resistant provisions of the IBC for 
buildings when the code is triggered. As such, FEMA is receptive to 
referencing the I-Codes in its interim policy and is currently 
evaluating them against the criteria described in the DRRA.

    Question 14.a. When you're not serving as the Acting Deputy 
Administrator, you serve as the Deputy Administrator for Resilience.
    Given your experience in that position, can you speak to what 
communities are seeking most when it comes to FEMA's assistance in both 
pre- and post-disaster?
    Answer. FEMA continues to work with external stakeholders to seek 
feedback on Section 1234 of the DRRA which amended FEMA's pre-disaster 
mitigation (PDM) program. FEMA will replace PDM with a new program 
called Building Resilient Infrastructure and Communities (BRIC). Since 
the passage of the DRRA and as it establishes BRIC, FEMA has emphasized 
extensive stakeholder engagement to inform program design.
    At the Hazard Mitigation Assistance (HMA) annual workshop for 
State/Tribal Hazard Mitigation Officers in April 2019, FEMA hosted 
several group discussions for idea sharing and input. For two months, 
beginning on May 20, 2019, FEMA requested public input on key areas 
about the development and implementation of BRIC on a forum called 
Ideascale. FEMA hosted four ``listening sessions'' in June via a 
webinar platform. We continue to urge communities from all levels of 
government and key stakeholders--including private businesses, 
individuals, vulnerable and at-risk populations, critical 
infrastructure sectors, and non-profit, academic, and philanthropic 
organizations--to provide comment. To date, FEMA has received over 
4,560 comments and will continue to engage with stakeholders through 
the summer. This includes a focus on engagements with federally-
recognized tribes online, in-person and at conferences.
    While FEMA is still adjudicating those comments and other feedback 
collected through the listening sessions, so far key themes identified 
by stakeholders include resource constraints, concerns about the focus 
on infrastructure and large-scale projects, technical assistance and 
capability building needs, challenges encountered given the complexity 
of existing processes and requirements and the importance of building 
partnerships as key items that will provide resilience in both pre- and 
post-disaster.

    Question 14.b. What are they looking to FEMA for the most of in 
terms of design and implementation to be more resilient and better 
withstand a disaster?
    Answer. FEMA's partnership with SLTTs is priority when speaking in 
the realm of resilience and preparedness. Resilience is achieved 
through a variety of initiatives from across the public and private 
sectors and philanthropic entities that promote hazard mitigation. By 
making mitigation investments, communities help protect lives and 
property, and reduce risk and the costs of disasters. By working 
together, everyone can help keep the Nation safe from harm and help it 
be resilient when struck by hazards, such as natural disasters, acts of 
terrorism, and pandemics.
    FEMA is concentrating on building resilience. Disaster resilience 
is the backbone of emergency management and the foundation for FEMA's 
mission: helping people before, during, and after a disaster. A good 
way for us to prepare the Nation for catastrophic events and reduce the 
personal and financial costs of disasters is through mitigation. 
Mitigation begins at the local level. We must incorporate mitigation 
into all aspects of local infrastructure--to include utilities, parks, 
economic, zoning, building codes, and planning development to minimize 
disruption when a disaster does occur.
    FEMA continues efforts on its 2016 Building Codes Directive 
[https://www.iccsafe.org/wp-content/uploads/FP-204-078-2.pdf], which 
greatly increases the use and visibility of disaster-resistant building 
codes across the Agency. Communities that adopt and enforce today's 
disaster-resistant building codes will benefit from these policies, 
which affect Public Assistance, Hazard Mitigation Assistance, and many 
of FIMA's programs.
    Building codes are a key component of a resilient Nation. The 
Natural Hazard Mitigation Saves Interim Report [https://www.nibs.org/
page/mitigationsaves] authored by the National Institute of Building 
Sciences, demonstrates the financial benefits of mitigation. This 
research shows that new construction that exceeds the select provisions 
of the 2018 International Building Code and the 2018 International 
Residential Code results in a national benefit of $11 for every $1 
invested. In addition, 23 years of federal mitigation grants provided 
by FEMA, the U.S. Economic Development Administration, and the U.S. 
Department of Housing and Urban Development (HUD) have resulted in a 
national benefit of $4 for every $1 invested. Federally-funded 
mitigation grant programs from 1993 through 2016 have resulted in $158 
billion in savings.
    The National Mitigation Investment Strategy proposes a single 
national strategy for the whole community to more effectively and 
efficiently advance the practice of mitigation investment in the United 
States--all to increase the Nation's resilience to natural hazards and, 
ultimately, to build a culture of preparedness.
    The National Mitigation Investment Strategy frames the initial 
steps needed to more effectively and efficiently advance the practice 
of mitigation investment nationwide. Effective mitigation investments 
can save lives and money.
    The goals of the National Mitigation Investment Strategy are:

    1):  Demonstrate How Mitigation Investments Reduce Risk;
    2):  Coordinate Mitigation Investments to Reduce Risk: and
    3):  Make Mitigation Investment Standard Practice.

    FEMA is establishing new strategic public/private partnerships to 
help catalyze local mitigation investment, especially considering the 
known return on these investments.
    The NMIS seeks to increase the effectiveness of existing Federal 
mitigation programs and incentivize greater SLTT, and private sector 
action and contributions to long-term risk reduction.

    Question 15.a. Section (a) of the new Stafford Act Section 430, 
authorized by Section 1224 of the Disaster Recovery Reform Act (DRRA), 
requires the FEMA Administrator to publish on the FEMA website award 
information for grants awarded under Section 406 of the Stafford Act in 
excess of $1,000,000. For each such grant, FEMA shall provide the 
following information: FEMA region, declaration number, whether the 
grantee is a private nonprofit organization, damage category code, 
amount of the federal share obligated, and the date of the award.
    Section (d) of the new Stafford Act Section 430, authorized by 
Section 1224 of DRRA, requires the FEMA Administrator to publish within 
the first ten days of each month on the FEMA website information about 
each contract executed by FEMA in excess of $1,000,000. For each such 
contract, FEMA shall provide the following information: contractor 
name, date of contract award, amount and scope of the contract, whether 
the contract was competitively bid, whether and why there was a no 
competitive bid, the authority used to bypass competitive bidding if 
applicable, declaration number, and the damage category code. The new 
Section 430 of the Stafford Act also requires the FEMA Administrator to 
provide a report to the appropriate Congressional committees on the 
number of contracts awarded without competition, reasons why there was 
no competitive bidding process, total amount of the no-competition 
contracts, and the applicable damage category codes for such contracts.
    When will FEMA begin posting the award information and providing a 
report to congressional committees on Section 406 grants and for 
contracts as required under Section 1224 of DRRA? Will FEMA 
retroactively provide this information for all grants and contracts 
over $1,000,000 for the Hurricanes Irma and Maria disasters?
    Answer. FEMA already posts information on Public Assistance grant 
awards under Section 406 in excess of $1 million on our website. This 
includes the information required under new section (a) of the new 
Stafford Act Section 430. The posted data includes Public Assistance 
grant awards under Section 406 in excess of $1M dating back to 2013, 
including grant awards for Hurricanes Irma and Maria.
    Information on Public Assistance grant awards from 2013-2016 can be 
found at: https://www.fema.gov/media-library/assets/documents/30731
    Information on Public Assistance grant awards from 2017-2019 can be 
found at: https://www.fema.gov/media-library/assets/documents/128200
    Pursuant to section (d) of the new Stafford Action Section 430, 
FEMA intends to begin posting data on FEMA contracts in excess of 
$1,000,000 by October 10, 2019. FEMA will post information on FEMA 
contracts in excess of $1M dating back to at least August 1, 2017, 
consistent with the effective date of the amendment, including 
contracts in excess of $1M for Hurricanes Irma and Maria. FEMA will 
also begin required reporting to Congressional committees pursuant to 
section (d) by October 10, 2019.

    Question 16.a. The Subcommittee has heard from many local 
governments currently engaged in disaster recovery that are frustrated 
with the difficulty of incorporating intergovernmental cooperative 
purchasing into their recovery projects. In non-disaster procurements, 
they have experienced significant savings and benefits from these 
intergovernmental purchasing agreements. It would seem that similar 
savings could be found with disaster mitigation, preparation, and 
recovery efforts.
    Similar cooperative construction contracts have been broadly used 
for hurricane and other disaster relief efforts in New York, New 
Jersey, Florida, Texas, and other areas. Importantly, the federal rules 
for non-federal entity use of federal funding actually encourage state 
and local governments to use intergovernmental purchasing to increase 
efficiencies and reduce costs (2 CFR Sec.  200.318(e)).
    In what ways has FEMA enforced these federal rules to encourage the 
use of intergovernmental purchasing.
    Question 16.b. Do you believe there are ways that FEMA can further 
encourage the use of intergovernmental purchasing across its various 
programs rather than discouraging it?
    Answers (16.a.-16.b.). FEMA is supportive of intergovernmental 
cooperative purchasing for recovery projects. We encourage the use of 
intergovernmental agreements in a variety of ways in line with our 
strategic plan. The second goal outlined in the Strategic Plan is to 
Ready the Nation for Catastrophic disasters. FEMA believes encouraging 
the use of intergovernmental purchasing is part of reaching that goal.
    To help educate state, local, tribal, and territorial governments 
(SLTTs), FEMA's Procurement Disaster Assistance Team (PDAT) provides 
training on how to use intergovernmental agreements while remaining in 
compliance with the federal rules for procurements under grants. PDAT 
hosts trainings, including a specialized training on cooperative 
purchasing to highlight intergovernmental agreements. Along with such 
trainings, PDAT provides technical assistance and guidance on 
procurement actions, including cooperative purchasing, to help SLTTs 
comply with the federal requirements and facilitate their recovery.
    Recently, PDAT worked with the states of Texas and Virginia to help 
them structure their state-based contracts so they can be better used 
by all manner of SLTTs. Finally, FEMA's Public Assistance Division 
released a cooperative purchasing fact sheet to help guide non-state 
entities looking to take advantage of intergovernmental purchasing.
    FEMA intends to further encourage the use of intergovernmental 
purchasing across its various programs.
FEMA will Expand the Number of Cooperative Purchasing Training Sessions 
        to SLTTs:
    FEMA is expanding PDAT's training outreach on cooperative 
purchasing. PDAT recently developed a training called ``Beyond the 
Basics'' which focuses in part on intergovernmental agreements, 
including cooperative purchasing and joint procurements. The training 
will help Public Assistance applicants be better equipped to use these 
tools to respond to and recover from emergencies and major disasters.
FEMA will Review Cooperative Purchasing Contracts for Compliance with 
        the Federal Procurement Regulations:
    Upon request, FEMA reviews SLTT cooperative purchasing actions for 
compliance with the federal regulations for procurements under grants. 
Often, an applicant's frustration regarding cooperative purchasing 
stems from a lack of understanding about which rules apply to it as a 
non-state entity and how to apply those rules when multiple entities 
are involved in a procurement. When requested, FEMA can advise PA 
applicants prior to procuring goods or services through cooperative 
purchasing to help them avoid making costly mistakes.
FEMA will Develop a Fact Sheet on GSA Multiple Award Schedule 
        Contracting:
    FEMA is developing guidance to assist SLTTs use the U.S. General 
Services Administration (GSA) Disaster Purchasing Program Multiple 
Award Schedule (MAS) contracts, yet remain compliant with the 
requirements of procurements under federal grants per 2 C.F.R. 
Sec. Sec.  200.317-326. The GSA Disaster Purchasing Program allows 
SLTTs to use the GSA MAS contracts to purchase products and services to 
facilitate recovery from a Presidentially-declared disaster under 
FEMA's Public Assistance program. FEMA will distribute the Fact Sheet 
to inform SLTTs of potential pitfalls but allow them to successfully 
enter into cooperative purchasing agreements that comply with federal 
procurement regulations.

   Questions from Hon. Mark Meadows to Hon. Daniel Kaniewski, Ph.D., 
   Deputy Administrator for Resilience, Federal Emergency Management 
                                 Agency

    Question 1. In the Disaster Recovery Reform Act and the Bipartisan 
Budget Act of 2018, Congress directed FEMA to issue comprehensive 
guidance to implement the federal cost share incentive of an additional 
10% if states meet certain criteria, such as the adoption of the latest 
published edition building codes. How will FEMA define latest published 
building codes in the comprehensive guidance? What are some incentives 
that the federal government can provide to help prepare states to adopt 
modern building codes?
    Answer. The Federal Emergency Management Agency (FEMA) is looking 
at the best way to holistically approach the review of its building 
code related authorities and programs and what would help drive 
increasing resilience across the country. This effort includes relevant 
sections in the Disaster Recovery Reform Act (DRRA) and the cost-share 
adjustment provision in the Bipartisan Budget Act of 2018. This review 
is currently ongoing.

    Question 2. Congressional oversight is an important part of 
implementing new legislation, especially legislation as important as 
DRRA. Can you explain how FEMA intends to improve its coordination with 
this committee to ensure we receive needed information in a timely 
manner?
    Answer. In consultation with committee staff, FEMA is increasing 
its updates on DRRA implementation. This effort will include monthly 
update calls on selected provisions and more frequent email updates, in 
addition to continuing the existing in-person quarterly update 
meetings.

    Question 3. To Dr. Kaniewski: DRRA required FEMA to undertake 
interim guidance on some key definitions of ``resiliency'' and 
``resilient'' within 60 days and final rules within 18 months of 
enactment of the DRRA. Has this process begun? When can we expect to 
see interim guidance? Will the guidance and the final rule be 
consistent with Section 406(e)(1)(A) of the Robert T. Stafford Disaster 
Relief and Emergency Assistance Act (as amended by DRRA) that 
establishes new criteria for federal funding for post-disaster repairs 
that require projects to adhere to ``the latest published editions of 
relevant consensus-based codes, specifications, and standards that 
incorporate the latest hazard-resistant designs and establish minimum 
acceptable criteria for the design, construction, and maintenance of 
residential structures and facilities that may be eligible for 
assistance under this Act for the purposes of protecting the health, 
safety, and general welfare of a facility's users against disasters'' . 
. . ``in a manner that allows the facility to meet the definition of 
resilient developed pursuant to this subsection.''?
    Question 4. In developing these definitions for the interim 
guidance and the final rule, will FEMA take a building-material neutral 
approach?
    Answers (3.-4.). FEMA is evaluating a number of existing 
definitions of resilience, including that of the National Institute of 
Standards and Technology (NIST), as potential options for the purpose 
of Section 1235(b) of the DRRA. NIST defines resilience as ``the 
ability to prepare for anticipated hazards, adapt to changing 
conditions, and withstand and recover rapidly from disruptions.''
    FEMA intends to release interim guidance on Section 1235(b) by 
September 2019. The guidance will be consistent with the legislative 
mandate in the provision.
    FEMA is currently evaluating the suitability of a range of 
consensus-based codes and standards to implement Section 1235(b).

    Question 5. There is no question that helping victims is our first 
priority, but it is extremely concerning just how drastically the 
federal government's share of post-disaster losses has risen in the 
last decade. After Hurricane Diane in 1955, the federal government 
covered about 6% of total losses. Fast forward to Superstorm Sandy in 
2012, taxpayers were on the hook for 77% of losses. In FEMA's eyes, why 
are taxpayers covering so much more of the disaster, and how will the 
DRRA, once fully implemented, help curb this concerning trend?
    Answer. FEMA is focused on reducing the cost of disasters, but it 
remains a challenge when current laws, regulations, and policies 
disincentivize state and local communities from taking on more 
responsibility in regards to preparing for and responding to natural 
disasters.
    The first goal of FEMA's strategic plan is to create a culture of 
preparedness across America in order to achieve disaster resilience. 
Specifically, the first objective of this goal is to incentivize 
investments that reduce disaster risk and disaster costs at all levels, 
including pre-disaster mitigation. A 2017 National Institute of 
Building Sciences study shows that $1 that the Federal government 
invests in mitigation can save an average of $4 in future spending.
    FEMA believes that DRRA Section 1234 (National Public 
Infrastructure Pre-disaster Hazard Mitigation) provides substantial 
support to FEMA's efforts to incentivize pre-disaster mitigation by 
creating a stable and much larger funding source. With a more reliable 
stream of funding, we believe communities will be able to better plan 
and execute mitigation programs to help reduce disaster risk. The 
Administration is committed to ensuring we track spending under this 
new grant program to determine reductions to long-term Federal disaster 
spending.
    Other DRRA sections also support FEMA's efforts to reduce disaster 
risk and in turn recovery costs. For example, DRRA Section 1206 (Code 
Implementation and Enforcement) and DRRA Section 1235(b) (Consensus-
Bases Codes and Standards) support efforts to increase resilience 
through enhanced building codes and standards. This could help decrease 
recovery costs by minimizing damage to infrastructure from future 
events.
    FEMA continues to review the various provisions of DRRA to 
determine the total costs and potential savings to taxpayers.

    Question 6. Transparency is critical to ensuring there is 
accountability. Section 1224 of DRRA requires FEMA to publish online 
disaster data and collect contract information for oversight purposes. 
I understand some of this information is now available online, but the 
collection of contract information has not been implemented. When can 
we expect this section to fully be implemented?
    Answer. Pursuant to subsection (d) of the Stafford Act Section 430, 
FEMA intends to begin posting data on FEMA contracts in excess of 
$1,000,000 by October 10, 2019.
    Subsection (e) requires that, in addition to FEMA contracts, FEMA 
also collect contract information from recipients and sub-recipients. 
FEMA does not currently collect this information from recipients and 
sub-recipients. Adding new collection fields to the current legacy 
system is not feasible, as doing so may cause the system to fail. FEMA 
is in the process of modernizing the system and expects it to be 
operational in 2020.
    FEMA must also undergo a Paperwork Reduction Act (PRA) review 
through the Office of Management and Budget, given the nature of the 
data that will be collected from recipients and sub-recipients. FEMA is 
unable to provide an estimate on how long the PRA process will take to 
complete.
    Given the dependencies on system modernization to collect and store 
the data, and PRA approval to do so, the earliest that FEMA could be in 
a position to implement subsection (e) is the end of calendar year 
2020.

Questions from Hon. Stacey E. Plaskett to Hon. Daniel Kaniewski, Ph.D., 
   Deputy Administrator for Resilience, Federal Emergency Management 
                                 Agency

    Question 1.a. Section 1211 of the Disaster Recovery Reform Act of 
2018 authorizes the Federal Emergency Management Agency (FEMA) to 
approve pilot programs, in advance of developing formal guidance, for 
State or territory-run Permanent Housing Construction under Section 408 
of the Stafford Act.
    The 2019 hurricane season has now commenced. More than 400 families 
in the Virgin Islands badly need this assistance, whose homes still 
could be repaired before the peak of hurricane season. These hundreds 
of homes are ready to go; including cost estimates accepted by FEMA, 
building permits, and design plans. All materials were already 
purchased through the Sheltering and Temporary Essential Power (STEP) 
emergency housing program and are in warehouses in the territory.
    Public shelters have not been rebuilt yet while the Virgin Islands 
continues to work through FEMA's Public Assistance processes. The only 
difference from last year is that, through the STEP program, 1,700 
families can now shelter-in-place. The Virgin Islands just wants the 
same for the remaining 400+ homes, and FEMA approval could get these 
done before peak hurricane season using existing contracts.
    Will FEMA reconsider its denial of the Virgin Islands' request for 
a pilot program authorized under Section 1211?
    Answer. FEMA has already reconsidered the U.S. Virgin Island (USVI) 
request and provided a final determination denying the request on May 
13, 2019. FEMA explained in the denial that authorizing a grant program 
under Section 1211 of the Disaster Recovery Reform Act of 2018 would 
not change the eligibility requirements for housing assistance. 
Applicants who did not qualify under Permanent Housing Construction 
(PHC) Repair under the FEMA-managed program would still not qualify 
under a Territory-administered PHC program under Section 1211. FEMA 
explained to the Territory that applicants with home damage that exceed 
the scope of assistance authorized under PHC-Repair should be included 
in a Community Development Block Grant Disaster Recovery (CDBG-DR) 
funded housing construction program.
    Guidance for State, Territory, and Tribal governments to apply for 
and implement a grant to administer a housing mission on FEMA's behalf 
has not been finalized. Until this guidance is finalized, FEMA will not 
issue a grant to a State, Territory, or Tribal government to implement 
a housing mission on FEMA's behalf. This determination is due to the 
DRRA requiring FEMA to institute adequate policies, procedures, and 
internal controls to prevent waste, fraud, abuse, and mismanagement for 
the program before approving a grant application. However, Community 
Development Block Grant--Disaster Recovery (CDBG-DR) funds are 
available for the Territory to assist applicants with more extensive 
home damage.

    Question 1.b. Is FEMA willing to re-open the STEP Period of 
Performance under the same reasoning as last year--that there are 
inadequate sheltering options--and let them finish these 400+ homes? 
All of the 400+ homes are STEP-eligible; however, the territory could 
not get them done because time extensions came in 60-day increments, 
and these are roof repairs that will take twice that long (closer to 
120 days).
    Answer. The Period of Performance (POP) for all Sheltering and 
Temporary Essential Power (STEP) events have ended and transitioned 
into the final reconciliation and project closeout phase. As an 
emergency protective measure, STEP is intended to address immediate 
threats to life, public health, and safety, and is subject to 
regulatory requirements for emergency work at 44 CFR Sec.  
206.204(c)(1), which establishes a six-month deadline for emergency 
work. STEP under FEMA-4340-DR-VI was extended numerous times, well 
beyond the six-month deadline typical for emergency work. Additionally, 
FEMA informed the Recipient in its last time extension authorization 
that no further time extensions would be granted. For these reasons, 
FEMA will not consider additional time extensions to the POP for STEP 
in the USVI.

    Question 2.a. FEMA has only just recently released its initial 
request for public comment for the new pre-disaster hazard mitigation 
grant fund authorized under the Disaster Recovery Reform Act of 2018, 
which was signed into law some eight months ago. The regular grant 
cycle for pre-disaster hazard mitigation grants is in the Fall; so, 
communities may not see these grants until fiscal 2021.
    When do you expect FEMA to actually be able to offer these pre-
disaster mitigation grants, which will be important to improving the 
resiliency of infrastructure in disaster-affected areas?
    Answer. As FEMA transitions from its current Pre-Disaster 
Mitigation (PDM) program to the new program Building Resilient 
Infrastructure and Communities (BRIC), there will be no gap in 
mitigation assistance for our state and local governments, territories, 
and tribes (SLTT). FEMA just released the selections for the 2018 PDM 
grant cycle which involves the highest amount of funding ever 
appropriated for PDM ($249.2 million). The selections can be viewed at: 
https://www.fema.gov/pre-disaster-mitigation-program-fy-2018-
subapplication-status. Congress appropriated $250 million from the 
Disaster Relief Fund for the 2019 PDM program. FEMA will continue to 
move mitigation forward by making these funds available for competition 
to state and local governments, territories, and tribes in the next few 
months. Additionally, as authorized by Section 1234 of the DRRA, FEMA 
began setting aside 6% of estimated disaster expenses at the end of 
2018. FEMA is evaluating potential changes in order to transition from 
PDM to BRIC in 2020 to deliver a program that will (1) more 
meaningfully and measurably reduce risk; (2) reduce disaster costs to 
the Disaster Relief Fund; and, (3) increase resilience across the full 
spectrum of hazards for our state and local government, territory, and 
tribal partners.

    Question 2.b. Considering a place like the Virgin Islands--which 
may not have a large population, but is certainly a high-impact area--
how does FEMA plan to evaluate applications for these pre-disaster 
mitigation grants to see that the Virgin Islands can equitably compete 
for those types of grants?
    Answer. The non-disaster grant programs are announced on a yearly 
basis through the FEMA Federal Insurance and Mitigation Administration 
(FIMA). The Notice of Funding Opportunity is distributed to 
stakeholders, and posted online at grants.gov, to ensure that the 
territory and stakeholders are aware of the funding opportunity.
    In addition to the above, the FEMA Region II Mitigation Division 
works directly with the State Hazard Mitigation Officer and the Virgin 
Islands Territorial Emergency Management Agency (VITEMA), to provide 
technical assistance and guidance regarding the application process, 
development and submittal.

    Question 3. After Hurricanes Irma and Maria in the Virgin Islands, 
some people who had insurance did not have enough to cover all costs. 
Some of them took out a Small Business Administration (SBA) loan to 
begin recovery and work on their homes right away. Some of those who 
took out SBA loans to help cover the gap are now still saddled with 
those loans, and many of these individuals had completely destroyed 
homes.
    Under Section 1210 of the Disaster Recovery Reform Act of 2018, 
governors have the ability to request a waiver of Stafford Act 
prohibitions regarding duplication of federal benefits, if it is in the 
public interest and will not result in waste, fraud, and abuse. In 
carrying out this authority, the Act clarifies that a loan cannot be 
determined to be a duplication of assistance.
    With this new provision in federal law, those who took out an SBA 
loan right after a major disaster--some out of desperation, others out 
of the need to begin rebuilding right away--will they be able to use 
any community development block grant funds that they receive to repay 
that SBA loan?
    Answer. FEMA, in coordination with the U.S. Department of Housing 
and Urban Development (HUD) and the U.S. Small Business Administration 
(SBA), issued a Fact Sheet on February 2, 2019 explaining the scope of 
this authority.
    FEMA defers to questions involving HUD's Community Development 
Block Grant Disaster Recovery Program and SBA's Disaster Loan 
Assistance to those agencies. That said, we understand that HUD on June 
17, 2019 published notices to their Grantees regarding changes to their 
application of duplication of benefits as a result of Section 1210. 
Those notices can be found at https://www.hudexchange.info/news/hud-
publishes-duplication-of-benefits-notices-for-cdbg-dr-grantees/

Questions from Hon. Jenniffer Gonzalez-Colon to Hon. Daniel Kaniewski, 
     Ph.D., Deputy Administrator for Resilience, Federal Emergency 
                           Management Agency

    Question 1.a. I understand that FEMA has just informed Puerto Rico 
that they will be implementing a new plan for processing permanent work 
requests.
    Was COR3 included in any conversations about this new plan?
    Question 1.b. The plan indicates FEMA will deploy 500 people to 
Puerto Rico by June 3rd, how do you plan to do that?
    Question 1.c. Is it smart to deploy so many people days after 
Hurricane Season is scheduled to start?
    Answers (1.a.-1.c.). FEMA and Puerto Rico's Central Office for 
Recovery, Reconstruction, and Resilience (COR3) have been in constant 
communication to identify strategies to improve and enhance Puerto 
Rico's recovery process. After months of collaboration, our joint 
efforts were memorialized in a letter dated May 13, 2019, that included 
an overview of the National Public Assistance Delivery Model to 
directly address COR3's request to streamline the delivery of Public 
Assistance in Puerto Rico. This model is not new. With over 50,000 
successfully completed projects nationwide, we are implementing a 
proven program delivery approach to benefit the island. The National 
Public Assistance (PA) Delivery Model has been in use in every other 
disaster operation nationwide since October of 2017 and includes 
simplified roles and responsibilities, consolidated grant processing 
and standardized software support. Currently, there are roughly 100 
disasters that are being processed using this program delivery model. 
Implementing the National Delivery Model in Puerto Rico, which FEMA has 
done at COR3's request, reduces the number of points at which grants 
can linger in a review queue from 43 to 23, and increases the ability 
of FEMA staff in the field to focus on collaboration with COR3 and 
applicants, completing site inspections, and collecting documentation. 
The National Delivery Model does not change the use of Section 428 
Alternative Procedures for permanent work in Puerto Rico.
    With the implementation of the National Delivery Model, Public 
Assistance work will continue to be done by FEMA staff already on the 
ground. Our local staff, representing over 82 percent of our workforce 
on the island, has developed its capabilities with on-hand training and 
field experience for over a year, successfully realigning roles and 
responsibilities within the organization. The implementation of the 
National Delivery Model does not include reference to a requirement to 
deploy a particular number of staff. However, the Consolidated Resource 
Center (CRC) Atlantic was established in June 2019 and will hire 147 
staff to complete the development and review of projects, including 
emphasis on supporting requirements for Puerto Rico. With the CRC, the 
Agency brought in mentors from headquarters and regional offices to 
assist FEMA, COR3, and applicant staff already on the ground in 
transitioning to the National Delivery Model, to develop and process 
grants. One major benefit of the CRC is that its resources do not get 
pulled into disaster response roles and can continue moving PA grant 
work forward regardless of changes in response posture. The timing of 
the implementation of the National Delivery Model was designed so that 
the groundwork was laid before hurricane season began, and the 
transitional period will occur before the peak of hurricane season; 
historically from August through October.

    Question 2.a. The plan indicates that Fixed Cost Estimates will be 
developed solely by FEMA after statements of work are agreed to.
    Doesn't this violate the Section 428 agreement signed with the 
Government of Puerto Rico? If so--does that mean FEMA is releasing 
Puerto Rico from the requirement to use 428?
    Question 2.b. Certainly, you are aware the law doesn't allow you to 
condition public assistance on the acceptance of Section 428 and, since 
it would seem this decision nullifies the Section 428 agreement, that 
would mean Puerto Rico can use traditional programs for recovery now, 
correct?
    Answers (2.a.-2.b.). The Public Assistance National Delivery Model 
does not change the use of the Section 428 Alternative Procedures for 
all large project funding for permanent work in Puerto Rico. Fixed Cost 
Estimates are developed collaboratively with COR3 and the sub-
recipients in accordance with the Section 428 Guide for Permanent Work 
in Puerto Rico.
    The National Delivery Model has been implemented in Puerto Rico at 
the request of the Government of Puerto Rico and COR3 Executive 
Director Mr. Omar Marrero. The National Delivery Model streamlines the 
delivery of Public Assistance in Puerto Rico and increases the 
timeliness, accuracy and consistency of grant development by segmenting 
work and consolidating the development of scopes of work and cost 
estimates at Consolidated Resource Centers.
    As part of the 428 agreement, COR3 and FEMA jointly formed, and 
their representatives participate in, the Center of Excellence and 
Independent Expert Panel. Through quality assistance and quality 
control, the Center of Excellence helps ensure consistent application 
of cost estimating methodologies and cost estimating factors that take 
into account Puerto Rico-specific means, methods, materials, and costs. 
The Independent Expert Panel will validate any cost estimates that meet 
any of the following criteria: (1) the cost estimate equals or exceeds 
$5 million; (2) FEMA, COR3, and the sub-recipient cannot reach 
agreement on a cost estimate; and, (3) a ``50 Percent Rule'' 
calculation is required and the replacement estimate exceeds $5 
million.
    The National Delivery Model formalizes coordination and 
collaboration at every step of the grant development process by: (1) 
establishing complete transparency into grant development through 
Grants Manager and Grants Portal; and, (2) establishing a single point 
of contact for applicants and recipients whose primary responsibility 
is to communicate, coordinate and collaborate with applicants on grant 
development. As a result, recipients and sub-recipients can monitor and 
actively engage in every project action as it moves through the steps: 
damage identification, documentation, scoping, cost estimation and 
compliance review. Additionally, COR3 will have representation at the 
Consolidated Resource Center in Puerto Rico, known as the CRC Atlantic.

    Question 2.c. In Puerto Rico alone, there are more than 70,000 
sites identified in need of an inspection, to date more than 10,500 
have actually been executed. What is the hold up given the October 
deadline?
    Question 2.d. Given that municipios in Puerto Rico are often better 
staffed than local governments with licensed staff who are willing and 
able to help conduct inspections for certification, why hasn't FEMA 
moved forward with using local licensed professionals in Puerto Rico, 
beyond their workforce to address the backlog of sites requiring 
inspections?
    Answers (2.c.-2.d.). FEMA and the Commonwealth of Puerto Rico are 
currently evaluating the number of locations that require site 
inspections. Applicants eligible for Public Assistance have identified 
many thousands of individual damaged facilitates--the 70,000 sites 
noted account for each individual building, section of damaged road, 
culvert, etc. On average, a site inspection will verify damage for 
approximately three facilities. While FEMA and the Commonwealth of 
Puerto Rico have completed and fully documented about 30 percent of the 
required field inspections, additional inspections have been completed 
by joint FEMA/Commonwealth teams or individual FEMA or Recipient teams 
where full documentation in our systems of record is still pending. As 
of June 14, 2019, roughly 17,000 damage line items have a work order in 
process, with either a completed site visit pending upload into Grants 
Manager, or with a scheduled site visit.
    FEMA is committed to the expedited recovery of Puerto Rico and as 
such, we have implemented several innovations to further facilitate the 
completion of field inspections. One such innovation is the 
installation of a Consolidated Resource Center (CRC). The CRC will be 
solely dedicated to the completion of scopes of work (SOW) and cost 
estimates generated from the inspections done by field personnel. This 
frees up our field personnel to exclusively perform field inspections 
and document disaster damage and dimensions, and not developing SOW. In 
addition, earlier this year, we officially developed a statistical 
method to reduce the number of inspections and develop cost estimates 
for sites with similar facility characteristics. FEMA's Cost Analysis 
and Validation Team is working with each Sector to develop asset 
classes that qualify for the use of this methodology and are beginning 
to develop projects accordingly. The methodology is only being applied 
to the inventoried disaster damage identified by the Sub-recipient. 
FEMA's Cost Analysis and Validation Team will now be part of the CRC.
    FEMA considers local engineering expertise and coordinates with the 
Commonwealth to accept site inspection reports previously completed by 
the Commonwealth. FEMA and the Recipient work with local entities to 
document and verify eligible damage, fully considering local 
engineering expertise provided to expedite and inform project 
formulation. Because recovery is a partnership between FEMA, COR3 and 
the applicants, FEMA must ensure that all aspects of grant development 
are coordinated at the appropriate levels with those entities. Working 
to complete site inspections and subsequent workload requires that both 
FEMA and the Commonwealth are resourced appropriately.
    FEMA's long-term recovery operations in Puerto Rico relies heavily 
on locally hired staff. At present, locally hired staff represent over 
82 percent of our overall staffing levels. This reflects a strong 
commitment to recruit and hire those most familiar with Puerto Rico. In 
addition, the CRC Atlantic will employ nearly 150 permanent local staff 
to help move recovery forward on the island.

    Question 3. It seems ill-advised, at best, to once again rewrite 
the recovery process while simultaneously denying the island a blanket 
extension on time to develop fixed cost estimates for projects. How do 
you envision this impacting the island's recovery?
    Question 4. On that topic--given FEMA has taken at least 6 months 
just to develop Section 428 procedures, why wouldn't you grant at least 
a 6-month extension to the Fixed Cost Estimates deadline? More time if 
you once again change the rules.
    Answers (3.-4.). COR3 was informed of the transition to the 
National Public Assistance Delivery Model in direct response to 
requests from the Government of Puerto Rico and COR3 to streamline the 
delivery of Public Assistance in Puerto Rico. The National Delivery 
Model does not change the use of Section 428 Alternative Procedures for 
permanent work in Puerto Rico. The National PA Delivery Model has been 
in use in every other disaster operation Nation-wide since October of 
2017 and includes simplified roles and responsibilities, consolidated 
grant processing, and standardized software support.
    Due to the size and scope of the disaster in Puerto Rico, FEMA 
immediately doubled the time period for submitting fixed cost estimates 
to Oct. 11, 2019--24 months after the disaster declaration. Generally, 
Public Assistance applicants have 12 months after a disaster 
declaration to submit fixed cost estimates for permanent work.
    In accordance with the agreement between the Commonwealth and FEMA 
established in the Public Assistance Alternative Procedures Guide for 
Permanent Work in DR-4339 (the 428 Guide), the deadline to agree on all 
fixed-cost estimates is October 11, 2019. The Fixed Cost Estimate 
Deadline is an important milestone in moving recovery forward and 
extending it without thoughtful consideration of progress toward 
completing site inspections and developing damage descriptions, scopes 
of work, and cost estimates will result in recovery construction 
delays. While the October 11 deadline keeps the recovery process moving 
forward, FEMA and the Commonwealth anticipated the need for project-
specific time extensions and defined that process in the 428 Guide for 
Puerto Rico. Upon request from the Commonwealth, FEMA will evaluate 
extensions to the Fixed Cost Estimate Deadline on a project-by-project 
basis and FEMA will consider project-specific time extensions upon the 
development of a sector- or municipality-specific program delivery plan 
and agreement to that plan by FEMA and Commonwealth officials.

    Question 5. What recourse does the island have if your fixed cost 
estimates are not adequate and don't appropriately meet the 
requirement? Appeals will only add to the time before work is done, or 
is that the ultimate goal?
    Answer. Due to the size and scope of the disaster in Puerto Rico, 
FEMA immediately doubled the time period for submitting fixed cost 
estimates to October 11, 2019--24 months after the disaster 
declaration. This is the first time FEMA has extended this deadline for 
any disaster operation. Generally, Public Assistance applicants have 12 
months after a disaster declaration to submit fixed cost estimates for 
permanent work. While the October 11 deadline keeps the recovery 
process moving forward, FEMA anticipated the need for project-specific 
time extensions and defined the process in the 428 Guide for Puerto 
Rico.
    For information on necessary documentation for time extensions, 
please refer to Table 11 on page 142 of the Public Assistance Program 
and Policy Guide: www.fema.gov/media-library-data/1525468328389-
4a038bbef9081cd7dfe7538e7751aa9c/PAPPG_3.1_508_FINAL_5-4-2018.pdf .
    Fixed Cost estimates are developed collaboratively with COR3 and 
the sub-recipients, per the 428 Guide for Permanent Work in Puerto 
Rico. Significant collaborative efforts have been made to establish and 
agree to cost estimating approaches. With complete transparency, and 
dedicated resources in mind, establishing and maintaining communication 
channels helps identify and address disagreements early on in the 
process. In addition, all cost estimates over $5million, and any other 
projects at COR3's request, will be reviewed by a third-party 
independent expert panel.
    If there are disagreements that cannot be resolved through 
discussion and documentation, FEMA has a process that issues 
``determination memos'' for portions of projects under dispute. This 
process allows the non-disputed portions of projects to move forward, 
while the disputed portions of those projects are separated out and in 
no way hinders or stalls project work. It is the prerogative of COR3 
and the applicant to appeal any negative eligibility determinations; 
the appeal process does not affect the timeline for elements of a 
project that are not disputed.

    Question 6. How has the State, Local, Tribal, and Territorial 
(SLTT) partnership improved resiliency implementation or planning for 
natural disasters? Who are the members of the partnership, specifically 
which territories are involved?
    Answer. A critical part of FEMA's mission is supporting State, 
Local, Tribal, and Territorial (SLTT) preparedness to effectively 
respond to and recover from disasters. Prior to 2017, FEMA Region II 
was routinely engaged with both Puerto Rico and the U.S. Virgin Islands 
(VIPR) via the Caribbean Area Division (CAD) and regional counterparts 
on matters related to planning, training, exercises, organization and 
equipment. Between 2009-2017 FEMA Region II exercised six catastrophic 
scenarios spanning thirteen exercises, responded to seven incidents, 
and performed two continuity assessment reports. Puerto Rico made great 
strides in strengthening public safety communications through the 
Homeland Security Grant Program (HSGP) since 2005. Under each HSGP 
program between 2005-2016, Puerto Rico addressed several communications 
gaps identified in its Homeland Security Strategy and annual Threat and 
Hazard Identification Risk Assessments (THIRA). Grant funding also 
strengthened Puerto Rico's CBRNE, intelligence and information sharing, 
and planning capabilities. Between FY13-17, the Emergency Management 
Institute delivered training to 1,165 students from Puerto Rico on 
topics such as the Incident Command System, grants management, 
firefighting, and hurricanes. Such training has continued post-2017 
with 358 students receiving training in FY18. In August 2017 FEMA 
hosted two (2) Ready Business Workshops in Puerto Rico, providing 
guidance to 195 private sector partners on preparing for earthquakes 
and power outages.
    Since 2017, FEMA has redoubled to help SLTT partners in Puerto Rico 
to improve their resilience to both manmade and natural disasters. FEMA 
has coordinated hundreds of community preparedness events throughout 
Puerto Rico in partnership with private sector entities, including 
shopping centers and hardware stores, along with nongovernmental 
organizations, and the public sector. Events have focused on issues 
including but not limited to family preparedness, the psychological 
aspects of disaster recovery and the `Until Help Arrives' training 
program. This program teaches individuals to know the steps they can 
take when responding to a life-threatening situation. FEMA is also 
supporting the Community Emergency Response Team (CERT) program in 
Puerto Rico. Through this program, local community volunteers are 
educated about disaster preparedness to enhance and build upon their 
capabilities to prepare for, respond to, and recover from disasters.
    FEMA has also worked with stakeholders across Puerto Rico to 
increase the resilience of organizations to recover and perform their 
essential functions and duties in the aftermath of emergencies. Since 
2017 FEMA has conducted numerous continuity events, impacting thousands 
of participants. For example, the Agency has advised private sector 
industries such as pharmaceutical, airline, hotel and shipping 
companies to help increase their capacity to deliver services in the 
aftermath of a disaster. Utilizing workshops, trainings and tabletop 
exercises, FEMA has provided technical assistance to territorial and 
local emergency management offices to support the development and 
completion of their respective continuity of operation plans.
    In the realm of training, in 2018 FEMA's Center for Domestic 
Preparedness (CDP) trained nearly 100 of the territory's emergency and 
healthcare workers to respond to mass casualty incidents. CDP personnel 
spent months planning and preparing for the training, working with 
partners in Puerto Rico to register students, arrange venues and 
translate all course documents into Spanish. FEMA is also working with 
the Puerto Rico Emergency Management Bureau (PREMB) to stand up a 
Puerto Rico Incident Management Team (PR-IMT). PREMB selected staff 
that will participate in training, exercise and mentorship programs to 
qualify them as the PR-IMT. This program will help build a solid 
emergency management team for the Government of Puerto Rico through 
theoretical and hands-on training following FEMA's Incident Command 
System.

    Question 7. During FEMA's quarterly update meetings with related 
appropriations and authorizing committee staff necessary to maintain 
open lines of communication between drafters of the legislation and 
those implementing it, would you please consider opening these calls to 
staffers of members on the committee? Would you consider opening up 
these calls to Members on the committee?
    Answer. FEMA is committed to keeping Congress updated on our 
implementation of the DRRA. We will work with committees of 
jurisdiction on their preference for inviting Members and additional 
staff to the quarterly update meetings. Additionally, we are happy to 
follow up with individual Member offices on any specific areas of 
interest they have with regards to DRRA implementation. FEMA is also 
providing updates at www.fema.gov/drra. This webpage includes synopses 
of the DRRA provisions, and related implementation updates for each 
provision as they become available.

     Questions from Hon. Garret Graves of Louisiana to Hon. Daniel 
    Kaniewski, Ph.D., Deputy Administrator for Resilience, Federal 
                      Emergency Management Agency

Duplication of Benefits

    Question 1.a. A major priority of this committee was fixing 
Duplication of Benefits conflicts within the Stafford Act.
    Can you comment on the status of implementation of Part A of 
Section 1210 of DRRA--stating that loans and grants are not 
duplicative?
    Part B of that same section is more directly related to FEMA: This 
measure is crucial to ensuring that federal dollars (which have already 
been appropriated) are able to be utilized toward authorized water 
resources development projects to ensure efficient delivery of hazard 
mitigation projects.
    Question 1.b. Can you comment on the status of implementation of 
Part B of Section 1210?
    Answers (1.a.-1.b.). Pursuant to DRRA Section 1210(a)(2), DRRA 
Section 1210(a)(1) does not apply to repair and replacement assistance 
under FEMA's Public Assistance program, or any assistance under FEMA's 
Individual Assistance program. FEMA, working in coordination with HUD 
and SBA, issued a Fact Sheet on February 2, 2019 explaining the scope 
of this authority. HUD has primary responsibility for implementation of 
the provision. We understand that HUD on June 17, 2019 published 
notices to their Grantees regarding changes to their application of 
duplication of benefits as a result of Section 1210. Those notices can 
be found at https://www.hudexchange.info/news/hud-publishes-
duplication-of-benefits-notices-for-cdbg-dr-grantees/
    FEMA believes Section 1210(b) to be immediately effective, should a 
state desire to prioritize its funding under the Hazard Mitigation 
Grant Program (HMGP) to fund a water resources development project that 
might otherwise be funded by the U.S. Army Corps of Engineers (USACE) 
and is an eligible activity under Section 404 of the Stafford Act. FEMA 
is working with USACE to develop guidance, with a target date of mid-
to-late October 2019 due to product development, continued interagency 
coordination, and internal review processes.

``Stacked'' Reductions

    Question 2. Prior to DRRA, the Stafford Act required that disaster 
assistance provided to an uninsured facility in a Special Flood Hazard 
Area must be reduced by either the value of the facility at the time of 
the disaster or the insurance proceeds that would have been payable 
under the NFIP. DRRA Section 1207(b) limited this penalty, which 
largely affected multi-structure campuses like schools and hospitals, 
by applying this reduction to one building on a multi-structure campus 
rather than to each building individually. However, FEMA has yet to 
issue guidance. Without this guidance, parish schools and other public 
buildings in my district and South Louisiana cannot realize the actual 
reduction in their costs. Can you comment on the status of 
implementation of Section 1207(b)?
    Answer. FEMA implemented Section 1207(b) through a memorandum to 
the Regions.

Long-Term Disaster Recovery

    Question 3.a. Has FEMA investigated whether the limitations on 
temporary vs. permanent home repairs are driving up taxpayer costs? 
When families are trying to recovery from a disaster, would recovery 
dollars be better spent fixing the damage to their home one time where 
possible, as opposed to limiting repair and rebuilding ``to a safe and 
sanitary living or functioning condition'' only to fully repair the 
home later?
    To put it another way, why should FEMA buy someone a mini fridge 
for a couple of months, only to come back in and replace it with a 
full-sized refrigerator six months later?
    Question 3.b. Similarly, could this inflexibility be limiting 
technical innovations in short-term recovery that would save taxpayer 
dollars, like 3-D printed homes that can be added onto later? Would 
installing a 3-D printed home instead of a Manufactured Housing Unit 
violate some definition about temporary vs. long-term housing buried in 
the regulations?
    Answers (3.a.-3.b.). FEMA most commonly provides Manufactured 
Housing Units (MHUs) under Section 408(c)(1)(B) of the Stafford Act, 
which authorizes FEMA to provide Temporary Housing Units (THUs) as a 
form of direct assistance for temporary housing. FEMA's regulations do 
not define ``Temporary Housing Unit,'' but the types of THUs FEMA 
typically provides includes MHUs, Recreational Vehicles, multi-family 
housing units leased and repaired by FEMA, and other residential 
housing obtained through direct lease. 3-D home printing is an emerging 
technology that is not currently commercially viable. However, if it 
were, it would be more appropriate to provide such homes as Permanent 
Housing Construction (PHC) under Section 408(c)(4). FEMA may only 
authorize PHC in insular areas and other locations where no alternative 
housing resources are available and temporary housing assistance is 
unavailable, infeasible, or not cost effective. For FEMA to consider a 
unit purchased and installed by FEMA suitable for use as temporary 
housing, it must be practicable to remove from the site when no longer 
needed.

General

    Question 4. As my constituents know all too well, standards 
implemented by FEMA though its NFIP and Stafford Act programs are often 
disjoined with the standards of the Department of Housing and Urban 
Development through the CDBG-DR program. Do you have additional broad 
thoughts on what Congress can do to streamline these different 
standards to ensure quick and efficient aid after a disaster?
    Answer. FEMA is committed to reducing the complexity of disaster 
recovery. The first objective of Goal 3 of FEMA's Strategic Plan is to 
streamline and integrate FEMA's disaster assistance programs and 
processes. The second objective is to mature the National Disaster 
Recovery Framework, in order to ensure that Federal disaster recovery 
assistance across Federal departments and agencies is integrated, 
community-focused, and adapted to the unique circumstances of each 
community and disaster.
    FEMA believes that the DRRA supports FEMA's efforts to streamline 
and integrate disaster assistance across Federal agencies. For example, 
DRRA Section 1210(a) requires FEMA to coordinate with other relevant 
Federal agencies and report on efforts to improve coordination when 
delivering disaster assistance to individuals. Similarly, DRRA Section 
1223 requires FEMA to coordinate with the SBA, the HUD, the Disaster 
Assistance Working Group of the Council of the Inspectors General on 
Integrity and Efficiency, and other appropriate agencies, to conduct a 
study and develop a plan to streamline and consolidate information 
collection.

Questions from Hon. Dina Titus to Sima Merick, Executive Director, Ohio 
   Emergency Management Agency, on behalf of the National Emergency 
                         Management Association

    Question 1.a. Section 1215 of the Disaster Recovery Reform Act 
amends Stafford Act Section 324--Management Costs--to place a cap on 
any direct administrative cost, and any other administrative associated 
expense, of not more than 12 percent of the total award amount provided 
under Sections 403, 406, 407, and 502 of the Stafford Act. The 12 
percent cap is to be divided between the primary grantee and sub-
grantees with the primary grantee receiving not more than seven 
percent, and sub-grantees receiving not more than five percent of the 
total award amount.
    How has placing a cap on the management costs for Stafford Act 
programs affected the states' ability to manage Stafford Act program 
funding?
    Answer. NEMA welcomed the increase in management costs for Public 
Assistance and Hazard Mitigation in the DRRA. Especially as we continue 
working with FEMA on their State-Led PA concept, the increase from 3.34 
percent will greatly increase the ability for states to build capacity. 
With management costs now being split between state and local 
governments for the first time, we must establish clarity on how or if 
responsibilities will shift between federal, state, and local emergency 
management, oversight of reporting requirements, and procedural changes 
in response processes.
    The management cost process, however, still requires one 
fundamental change. In June of last year, NEMA and the International 
Association of Emergency Managers (IAEM) came together and submitted a 
proposal to FEMA on implementing this change, a copy of which 
accompanied my statement for the record. While this could be done 
administratively, Congressional persuasion often goes a long way toward 
affecting change, so we would appreciate any such support the Committee 
would be willing to provide.

    Question 2.a. Members of both parties have urged a significant 
investment in our nation's infrastructure for some time. FEMA's data 
that more than two-thirds of hazard-prone communities are on older 
building codes, means that, absent minimum standards, the safety and 
resilience requirements for federally supported infrastructure 
investments would vary considerably. Bipartisan former FEMA 
Administrators James Lee Witt and David Paulison recently penned an op-
ed (http://bit.ly/2WKf2iV) urging that infrastructure investment 
require adherence to the latest building codes and standards, which I'd 
like to submit for the record.
    Would NEMA support a requirement that legislation to modernize our 
nation's infrastructure--our schools, hospitals, airports, public 
housing, and other public amenities--be built to the latest consensus-
based building codes?
    Answer. The issue of building codes and their implementation 
becomes complicated at the federal level for fear of trampling states' 
rights to set their own requirements for building standards. NEMA does 
not oppose efforts to adopt the latest consensus-based building codes 
but supports flexibility like that built into the DRRA which walked a 
careful line in specifically citing consensus-based codes. By utilizing 
this ``consensus-based'' language, states maintain the flexibility to 
select from a menu of options based on regional needs, thereby ensuring 
stronger construction. Concurrent to any requirement in adopting 
consensus-based codes, however, must be support for building capacity 
at the state and local level. Without enhanced capacity, state and 
local governments cannot maintain the staffing levels to sort through 
varying building code requirements. Given the diversity of requirements 
across the country, NEMA would need to more thoroughly consider how the 
agency could best conduct the utilization of consensus-based codes.

    Question 3.a. FEMA's 2018-2022 Strategic Plan states that 
``[d]isaster resilience starts with building codes, because they 
enhance public safety and property protection.'' The Plan also calls 
for straightforward processes and policies for staff and improvements 
in FEMA's stewardship of Federal taxpayer dollars. FEMA's Public 
Assistance Program to rebuild public facilities post disaster generally 
requires applicants incorporate the latest hazard resistant measures in 
up to date building codes. Coordinating codes and standards policy 
across FEMA's programs (Individual Assistance, Public Assistance, and 
Hazard Mitigation) could protect Federal taxpayer investments in 
disaster recovery and hazard mitigation programs.
    Is that something FEMA should consider?
    Answer. Not only should FEMA harmonize requirements between their 
programs, but all federal agencies should seek opportunities to 
harmonize requirements between disaster response and recovery programs 
across the inter-agency. Cohesion between federal programs will allow 
the streamlining of program requirements as redundancy creates a drain 
on available resources at the state and local levels and drives up 
disaster costs.

    Question 3.b. For example, should the Agency consider applying its 
Public Assistance codes and standards minimum where the Agency is 
funding permanent housing construction through its Individual 
Assistance program?
    Answer. FEMA should seek every opportunity to streamline 
requirements and synchronize them between programs. Given the nuances 
of specific programs, however, such coordination between programs 
should be done strategically with significant input from stakeholders. 
Also, as stated previously, the streamlining of program requirements 
reduces the strain on state and local resources and can reduce overall 
disaster costs.

    Question 3.c. Should FEMA consider requiring work performed using 
funding made available pursuant to a Stafford Act declaration, 
including Public Assistance, Individual Assistance, and Hazard 
Mitigation Assistance, to be built at a minimum to the most current 
codes set by the International Code Council, referred to as the ``I-
Codes''?
    Answer. Similar to a previous response, the issue of building codes 
and their implementation becomes complicated at the federal level for 
fear of trampling states' rights to set their own requirements for 
building standards. This is where the DRRA walked a careful line in 
specifically citing consensus-based codes. By utilizing this 
``consensus-based'' language, states maintain the flexibility to select 
from a menu of options based on regional needs, thereby ensuring 
stronger construction. Concurrent to any requirement in adopting 
consensus-based codes, however, must be support for building capacity 
at the state and local level. Without enhanced capacity, state and 
local governments cannot maintain the staffing levels to sort through 
varying building code requirements. Given the diversity of requirements 
across the country, NEMA would need to more thoroughly consider how the 
agency could best conduct the utilization of consensus-based codes.

    Question 4.a. What is NEMA's view regarding the implementation 
timeline for Section 1215 of DRRA, dealing with management costs?
    Given how directly this section impacts the work you and your 
associations' members perform, has FEMA already engaged with NEMA and 
IAEM to discuss its implementation timeline?
    Answer. FEMA rolled-out the implementation guidance for Section 
1215 of the DRRA almost immediately after passage, and NEMA greatly 
appreciated the speed with which the agency completed this work. With 
management costs now being split between state and local governments 
for the first time, we will continue working with FEMA on clarity as to 
how or if responsibilities will shift between federal, state, and local 
emergency management, oversight of reporting requirements, and 
procedural changes in response processes.

    Question 4.b. If so, are you satisfied with that timeline?
    Answer. Despite some issues remaining to work through with the 
agency, NEMA remains pleased with the speed at which FEMA rolled-out 
guidance on Section 1215 of the DRRA and looks forward to continued 
dialogue with the agency as they refine the guidance.

    Question 5. Is NEMA concerned with state and local readiness at 
this point in the year? Are there any NEMA concerns regarding FEMA's 
workforce readiness?
    Answer. As we enter hurricane season, the readiness of state and 
federal agencies and workforces remains in the forefront in our minds. 
Any concerns with state and local readiness typically center on the 
ability to build and maintain capacity. Unfortunately, the current 
system relies primarily on programs such as Emergency Management 
Performance Grants (EMPG) and the management costs from existing 
disasters to build such capacity. This obviously under-serves those 
states who may not be actively managing open disaster declarations. 
Support for EMPG and allowing for the roll-over of management costs 
help significantly in building this state and local capacity.
    Regarding FEMA readiness, as outlined in my oral statement, despite 
Ohio being spared the horrors suffered by others in the 2017 and 18 
disaster seasons, the state still felt the challenges of FEMA 
readiness. For example, Ohio received a disaster declaration on April 
8, 2019, for 21 southern Ohio Appalachian counties. It is notable that 
most of these counties were also part of a 2018 FEMA declaration. 
During that disaster, FEMA Public Assistance staff flew into Ohio, 
received just-in-time training, and then deployed to the declared 
counties. The lack of previous disaster experience led to a great deal 
of inconsistency with the decisions made by FEMA personnel, thereby 
increasing the aggravation of applicants. Also, at 14 months into the 
declaration, 89 percent of projects received approval. In the past, 
this approval rate would have already been achieved within the first 
six months.
    Unfortunately, history may be repeating itself with the 2019 
disaster. FEMA Public Assistance staff will not be in Ohio to begin 
grant development until mid to late June. There is significant road 
damage in these declared counties and this delay in engagement with 
applicants will result in worsening road conditions and continued road 
closures. If there is a lack of trained personnel once again from FEMA, 
it will only compound the issues of last year.
    Furthermore, the utilization of Federal Coordinating Officers (FCO) 
remain puzzling. By examining the Daily Operations Brief by FEMA, the 
FCO cadre is clearly spread thin across myriad recoveries across the 
nation. In April of this year, North Carolina received notice their FCO 
would reposition to Puerto Rico. This reassignment was puzzling 
especially as the state battled ongoing challenges with the duplicative 
and bureaucratic requirements of the Community Development Block Grant-
Disaster Recovery grant program. This draws into question the true 
mission of the FCO cadre. If their true intent is assisting in the 
coordination of all federal programs, there is little justification for 
the reassignment of the North Carolina FCO during this critical time 
for the state.

    Question 6.a. In your testimony, you discussed a lack of 
coordination between federal disaster programs. There is an ongoing 
discussion on the Hill now about how FEMA's recovery programs work with 
the Small Business Administration's disaster loans, as well as will 
longer term CDBG-DR and EDA disaster recovery dollars. Unfortunately, 
these discussions happen in the wake of disasters, as impacted 
communities become increasingly frustrated with the pace of federal 
agencies' ability to release the funds.
    Does NEMA have any views on how to better coordinate or integrate 
federal recovery programs?
    Answer. NEMA sees three potential options for better-coordinating 
or integrating federal recovery programs. While rife with potential 
hazards, the most dramatic step is coalescing all disaster programs 
into one single federal agency. A second option could be creating 
programs more specific to selected constituencies, but this path serves 
only to increase the size and complexity of the federal leviathan. The 
simplest option is likely in ensuring the federal inter-agency 
maintains open lines of communications and works across agency barriers 
to coordinate program requirements. One tangible example of where this 
could work easily is if the Department of Housing and Urban Development 
starts accepting FEMA mitigation planning for purposes of the CDBG-DR 
program. CDBG-DR currently requires grantees undergo duplicative and 
cumbersome mitigation planning process, much of which already falls 
under requirements for the FEMA Enhanced Mitigation Plan process.

    Question 6.b. Has there been a failure on the part of FEMA to 
coordinate these resources, or have the federal programs grown less 
coordinated as Congress has grappled with providing assistance for 
disasters that have grown in strength and volume?
    Answer. The failure of coordination lies with the federal inter-
agency more than FEMA specifically. As a single agency within DHS, FEMA 
has limits to the influence it can exert over other federal agencies. 
Existing organizations such the National Security Council or Office of 
Management and Budget must either directly influence this coordination 
or empower FEMA accordingly.

    Question 7.a. Can you compare NEMA's experience regarding 
engagement from FEMA as it implements DRRA with FEMA's engagegment 
during implementation of the Sandy Recovery Improvement Act and the 
Post-Katrina Emergency Management Reform Act?
    Where do you see the greatest opportunities for improvement?
    Answer. Overall, FEMA continues refining outreach strategies with 
each reform such as the DRRA, and NEMA members recognize the 
improvements. FEMA clearly realizes it must have a plan to successfully 
move reforms forward, but NEMA continues encouraging the agency to not 
let the perfect become the enemy of the good. FEMA should continue 
looking for creative ways to even partially implement reforms while 
still gathering stakeholder input. By harnessing existing authorities 
with those provided in the DRRA, FEMA can manage these programs by 
standing them up quickly and managing any necessary changes through 
small corrections over time based on feedback from actual 
implementation.

    Question 7.b. Why do you think things are so different with DRRA?
    Answer. Any differences between SRIA and DRRA implementation most 
likely the result of the size and scope of reforms. For example, SRIA 
made targeted reforms through eleven provisions. The DRRA encompassed 
reforms to multiple programs and included 46 different provisions.

    Question 8.a. There was discussion in your testimony regarding 
formal state-level disaster assistance programs, but those programs 
being limited to less than half of the nation. The previous 
administration began a conversation about a disaster deductible concept 
that would have provided additional federal cost-share for states that 
undertook certain pre-disaster planning and actions like establishing 
state-level public and individual assistance programs.
    Now that DRRA has been enacted, are NEMA's members already 
examining any additional enhancements to federal disaster response and 
recovery programs?
    Answer. NEMA consistently encourages states to create or support 
state-level public and individual assistance programs. Currently 
twenty-six states have created their own state-funded assistance 
programs to help citizens and/or businesses recover from disasters that 
do not meet the criteria for a federal declaration (NEMA Biennial 
Report, 2018). Those programs may comprise public assistance, 
individual assistance, unmet needs, housing assistance, and economic/
business recovery aspects imperative to recovery initiatives that build 
back communities impacted by a disaster. For some states, such programs 
prove impractical either due to fiscal constraints or a lack of 
consistent disaster activity. The NEMA Legislative Committee is 
currently developing outreach to those states with such programs, 
collecting underlying legislative language, and intends to disseminate 
to all states as part of a legislative ``best practices'' effort. The 
intended outcome of this project is increased awareness and a baseline 
from which other states can create such programs.

    Question 9.a. We've heard for years from emergency managers about 
the importance of having a plan and a kit in order to build individual 
resilience. Given the magnitude of the higher-profile wildfires, 
hurricanes, floods, and tornadoes that we've seen, as well as the 
current demands on FEMA's personnel, do you believe that Americans--now 
more than ever--need to be more individually resilient?
    Are emergency managers at all levels of government stretched too 
thin?
    Answer. By the very nature of the profession, emergency managers 
will handle the consequences of an incident regardless of the ongoing 
workload. In FY18, the President approved 66 disasters nationwide for a 
major or emergency declaration. Beyond that, however, 15,486 events 
required state assets without reaching the level of a declaration. 
Programs such as EMPG assist in managing the workload by building 
valuable capacity at the state and local levels, but unfortunately even 
that program does not receive enough funding to reach its full 
potential. States estimate it would require an additional $116 million 
to bring all eligible jurisdictions to the 50-percent reimbursement 
level. This amount, from the 2018 NEMA Biennial Survey, represents a 
$26 million increase in need over the 2016 survey.
    Furthermore, as mentioned in the statement for the record, the 
Emergency Management Assistance Compact (EMAC) is the system to which 
states can turn in times of need. Since 2016, nearly 26,000 personnel 
deployed through EMAC for hurricanes, wildfires, severe weather, gas 
explosions, a measles outbreak, an active shooter event, a volcano, and 
an earthquake. The ability to utilize resources from across the nation 
who arrive trained and experienced is invaluable. It also leverages 
federal grant dollars invested in building capabilities and provides 
experiences that can be taken back home to improve plans and 
procedures.

    Question 9.b. Are existing recoveries taking too long?
    Answer. Whether existing recoveries are taking too long is rather 
subjective, but solutions do exist for shortening the recovery time and 
speeding the close-out of disasters. Here again, the ability to 
rollover management costs from one disaster to another would greatly 
speed the disaster close-out process. During close-out of declarations 
with large damages, remaining funds create the unintended consequence 
of encouraging declarations remain open for extended periods of time to 
ensure the expenditure of all eligible costs. This runs contrary to the 
preferences of all involves at the federal, state, and local levels to 
close-out disasters expeditiously. FEMA should immediately begin, or 
Congress should direct, the process of amending 44 C.F.R Part 207 to a) 
Provide each state an unfunded grant for both the Public Assistance 
Program and Hazard Mitigation Grant Program. As disasters are declared, 
management costs will continue to be obligated under current 
regulations but deposited into the generic program accounts; and b) 
Allow remaining funds after the close-out of a disaster to be available 
to build recovery and mitigation capacity at the state and local 
levels, close-out remaining disasters which may be more complicated, 
and build resilience for the next disaster.

    Question 9.c. Or are there adequate resources at non-federal levels 
to manage responses and recoveries?
    Answer. According to the NEMA Biennial Survey, state emergency 
management agency operating budgets range from $257,000 to $146 million 
with the national average being $6.3 million. Over 69 percent of these 
funds come from funds appropriated by state legislatures.

    Question 10.a. The scope of several recent disasters has made clear 
the challenges with housing for disaster survivors.
    Given the experiences you've had with managing disasters, as well 
as the perspectives of NEMA's members, is there more that Congress can 
be doing when it comes to providing greater clarity or authorities to 
FEMA to ensure that disaster housing missions are less complicated for 
FEMA and state partners to execute?
    Answer. Given the recent reforms included in the DRRA, NEMA would 
prefer to see some of those tested for the time being before moving 
forward with additional changes. The state emergency management 
directors remain committed to working with Congress and the 
administration in ensuring the effective execution of housing programs. 
To that end, in August 2018, NEMA developed a catalog of disaster 
housing assistance, including some programs' challenges for state 
directors to utilize when considering use of programs. A copy of this 
document will be submitted with these questions for the record for 
submission into the Congressional Record. [``Disaster Housing: A 
Resource for Disaster Housing Assistance'' is retained in committee 
files and is available online at https://www.nemaweb.org/index.php/
docman/nema-forums-meetings/2018-nema-forums/2018-nema-mid-year-forum-
2/1086-disaster-housing-aug28-2018]

    Question 10.b. Do you feel that FEMA's housing assistance fails to 
take into consideration the most vulnerable communities impacted by 
disaster, such as homeless and low-income individuals and families?
    Answer. At this time, NEMA is not prepared to say FEMA's housing 
assistance fails to take into consideration the most vulnerability 
communities impacted by a disaster. State emergency management 
directors remain committed to assisting all disaster survivors 
regardless of their economic standing or allowances made through 
federal programs.

    Question 10.c. If so, do you believe that FEMA should have more 
direction or clearer authorities to provide more help than it does now 
to these often overlooked survivors?
    Answer. If empirical data demonstrates FEMA's housing assistance 
fails to take into consideration the most vulnerable communities 
impacted by a disaster, then Congress should provide additional 
direction or clearer authorities to the agency.

   Questions from Hon. Dina Titus to Nick Crossley, C.E.M., C.P.M., 
 Director, Emergency Management and Homeland Security Agency, Hamilton 
   County, Ohio, on behalf of the U.S. Council of the International 
                   Association of Emergency Managers

    Question 1.a. Section 1215 of the Disaster Recovery Reform Act 
amends Stafford Act Section 324--Management Costs--to place a cap on 
any direct administrative cost, and any other administrative associated 
expense, of not more than 12 percent of the total award amount provided 
under Sections 403, 406, 407, and 502 of the Stafford Act. The 12 
percent cap is to be divided between the primary grantee and sub-
grantees with the primary grantee receiving not more than seven 
percent, and sub-grantees receiving not more than five percent of the 
total award amount.
    How has placing a cap on the management costs for Stafford Act 
programs affected the states' ability to manage Stafford Act program 
funding?
    Answer. The increase in allowable administrative costs has been an 
exceptionally helpful concept that lacks a single step to make it truly 
as beneficial as intended. Increasing the state cap (the ``grantee 
share'') to 7% and adding eligibility for a local (``sub-grantee'') 
amount of 5% is an extremely important addition.
    However, the rules still require massive amounts of post-disaster 
accounting and auditing, and allow for far too many possibilities of 
error because neither the grantee nor the sub-grantee may retain excess 
funds. Under the new rules, the allowable administrative cost amount 
cap is calculated based on the total of the Project Worksheets 
submitted to and approved by FEMA. Under the implementation rules 
promulgated by FEMA, neither sub-grantees nor grantees may retain any 
excess amounts after closeout.
    Thus, when a project is closed, the states and locals need to 
carefully account for every unexpended monies allocated for 
administrative costs and return that money to FEMA. This results in 
multiple burdens--the additional administrative accounting costs to 
track the funds after closure by both states and locals, and the 
administrative burden of returning funding to FEMA two or more fiscal 
years after it was allocated.
    Recent pilot projects designed to calculate Direct Administrative 
Costs (DAC) and then allow the recipients to ``keep the change'' and 
retain any excess as long as this excess is spent directly on emergency 
management activities designed to mitigate hazards and/or enhance 
resilience show that concept can work. The DAC Pilot even includes a 
penalty of 1% that can be de-obligated if the applicants to not meet 
closeout requirements.
    Such a ``keep the change'' policy would increase capability at the 
state and local level post disaster, reduce post-disaster 
administrative costs for local, state and federal Emergency Managers, 
and apply towards the FEMA strategic goal of reducing the complexity of 
FEMA. The other adjustments proposed under the DAC pilot are somewhat 
complex and may defeat this purpose, however.

    Question 2.a. Members of both parties have urged a significant 
investment in our nation's infrastructure for some time. FEMA's data 
that more than two-thirds of hazard-prone communities are on older 
building codes, means that, absent minimum standards, the safety and 
resilience requirements for federally supported infrastructure 
investments would vary considerably. Bipartisan former FEMA 
Administrators James Lee Witt and David Paulison recently penned an op-
ed (http://bit.ly/2WKf2iV) urging that infrastructure investment 
require adherence to the latest building codes and standards, which I'd 
like to submit for the record.
    Would IAEM support a requirement that legislation to modernize our 
nation's infrastructure--our schools, hospitals, airports, public 
housing, and other public amenities--be built to the latest consensus-
based building codes?
    Answer. Yes. We must build back more resilient. IAEM would 
recommend the latest building code and perhaps incentivize building to 
the hazard level and up funding for hazard resilient based building.

    Question 3.a. FEMA's 2018-2022 Strategic Plan states that 
``[d]isaster resilience starts with building codes, because they 
enhance public safety and property protection.'' The Plan also calls 
for straightforward processes and policies for staff and improvements 
in FEMA's stewardship of Federal taxpayer dollars. FEMA's Public 
Assistance Program to rebuild public facilities post disaster generally 
requires applicants incorporate the latest hazard resistant measures in 
up to date building codes. Coordinating codes and standards policy 
across FEMA's programs (Individual Assistance, Public Assistance, and 
Hazard Mitigation) could protect Federal taxpayer investments in 
disaster recovery and hazard mitigation programs.
    Is that something FEMA should consider?
    Question 3.b. For example, should the Agency consider applying its 
Public Assistance codes and standards minimum where the Agency is 
funding permanent housing construction through its Individual 
Assistance program?
    Question 3.c. Should FEMA consider requiring work performed using 
funding made available pursuant to a Stafford Act declaration, 
including Public Assistance, Individual Assistance, and Hazard 
Mitigation Assistance, to be built at a minimum to the most current 
codes set by the International Code Council, referred to as the ``I-
Codes''?
    Answer (3.a-3.c.). Yes to all. The receipt of federal money needs 
to have standards. This lessens not only federal money being used 
again, but also should help state and local as well as individuals with 
long term disaster resilience. FEMA should reach out to appropriate 
stakeholders to vet, however building more resilient is smart and the 
only way we can stop paying and paying in the same areas.

    Question 4.a. What is IAEM's view regarding the implementation 
timeline for Section 1215 of DRRA, dealing with management costs?
    Given how directly this section impacts the work you and your 
associations' members perform, has FEMA already engaged with IAEM to 
discuss its implementation timeline?
    Answer. See below.

    Question 4.b. If so, are you satisfied with that timeline?
    Answer. The final version of the rules has, as is too often the 
case, dragged out over a long time. The Public Assistance Management 
Costs Interim Policy Standard Operating Procedures (SOP) were published 
in February of this year. The interim policy document was promulgated 
in November of 2018. The interim policy continues in effect. IAEM has 
spoken with FEMA about the timeline, but to date I am unaware of any 
actual dates certain or even the status of a final policy,
    IAEM involvement in the discussions of this sort is far-too-
routinely a briefing after the decisions have been made. IAEM has asked 
repeatedly to be involved on the front end of these decisions. We know 
that other organizations have asked for similar involvement. These 
requests have not been granted. Most often, ``involvement'' consists of 
a 30 minute briefing via conference call on a Friday afternoon just 
prior to promulgation. Involvement on other issues within FEMA often 
include regular contact and meetings with stakeholders to influence 
procedures--so we know that real participation is possible and 
effective. However, on policy the lack of true engagement is 
noticeable.
    FEMA does send more frequent communications, and does allow time 
for ongoing contact. Involvement, however should include input by 
subject matter experts at the state and local level. FEMA seems more 
focused on defining federal emergency management activities than on 
creating national emergency management capability. IAEM appreciates 
FEMA's attempts to increase communications with us over the past 
several years, but we remain unsatisfied with the level of true 
involvement with FEMA on these critical issues.

    Question 5. Is IAEM concerned with state and local readiness at 
this point in the year? Are there any IAEM concerns regarding FEMA's 
workforce readiness?
    Answer. State and local readiness continues to be reliant on 
adequately staffed and trained personnel, primarily achieved through 
EMPG and training through EMI and NDPTC. IAEM is concerned with the 
increasing number of retirees and would like to thank EMI for 
development of their emergency management academy programs. IAEM hopes 
that appropriations will be continued or expanded to support increased 
distance and local training provided by state and federal agencies. It 
is important to note that the SHSGP has made major investments into 
increasing the capabilities of homeland preparedness since 2002. IAEM 
is concerned about the reduction in funding that continues to be 
proposed in Administration budgets. This investment is unlikely to be 
maintained if sufficient federal support is not provided. As we have 
seen with smaller scale terrorist and active attacker incidents in 
rural or suburban areas, it is more than evident that risks abound in 
all areas of the country. Therefore, while a risk based approach is 
prima facia logical, we cannot overlook the needs outside of the major 
cities.
    Continued readiness at the federal level was majorly tested during 
the 2017 calendar year. Major hurricanes, wildfires and severe weather 
severely drained FEMA's workforce to the point it was stretched to the 
breaking point. In the Southeast, Hurricanes Florence and Michael 
created major problems that FEMA could help rectify through maintaining 
and supporting hazard mitigation. IAEM believes that the Hazard 
Mitigation plans required by the Disaster Mitigation Act of 2000 
require more than a band-aid approach to adequately address gaps 
identified in that planning process. The low to non-existent PDM 
funding in previous years, and difficulties in maintaining skilled FEMA 
staff to advise on better Hazard Mitigation efforts are hampering state 
and local officials in their duties to reduce the impact of disasters 
WHEN they happen--a central tenet of mitigation. For example, the city 
of Wilmington, North Carolina was effectively an island after Hurricane 
Florence due to inland flooding affecting most all roadways into the 
city. However, this was not a surprise to state and local planners. 
During Hurricane Floyd in 1999 and Hurricane Matthew in 2016, 
Interstate 40 and other routes were impassable. The State of North 
Carolina is currently developing long term plans to elevate these major 
roadways, but had funding been available, these roadways could have 
been elevated sooner rather than later.

    Question 6.a. In Ms. Merick's testimony, she discussed a lack of 
coordination between federal disaster programs. There is an ongoing 
discussion on the Hill now about how FEMA's recovery programs work with 
the Small Business Administration's disaster loans, as well as will 
longer term CDBG-DR and EDA disaster recovery dollars. Unfortunately, 
these discussions happen in the wake of disasters, as impacted 
communities become increasingly frustrated with the pace of federal 
agencies' ability to release the funds.
    Does IAEM have any views on how to better coordinate or integrate 
federal recovery programs?
    Question 6.b. Has there been a failure on the part of FEMA to 
coordinate these resources, or have the federal programs grown less 
coordinated as Congress has grappled with providing assistance for 
disasters that have grown in strength and volume?
    Answers (6.a.-6.b.). The issues of integration are significant and 
complicated. First and foremost, there is no single federal agency that 
truly coordinates these programs. FEMA is only able to coordinate the 
post disaster efforts that are processed through their area of 
responsibility. Federal Highway programs, HHS programs, and others 
apply separately. The need to understand all of these programs and to 
ensure that the local persons, businesses and jurisdictions are guided 
toward the appropriate applicable program fall squarely on the local 
Emergency Management Agency (EMA) in coordination with their respective 
state EMA. Given that there is a significant lack of funding for a 
truly national emergency management enterprise, the capabilities of 
local EMA vary widely.
    We know that pre-disaster mitigation is a primary lever for post-
disaster recovery. Yet, mitigation efforts typically focus only on the 
larger-scale structural efforts--levies, dikes, etc. Non-structural 
mitigation includes insurance, building codes, and EMA planning 
capabilities among other concepts.
    IAEM has not adopted a great deal of formal policy on these 
individual issues. Among possible concepts would be better coordination 
of grants at the federal government to reduce competitive duplication 
(for example ASPER and HSGP programs; doctrinal and financial support 
to local units of government (counties, major cities) to ensure that 
every county and large city has a capable professional EMA capacity and 
similar support to states. The EMPG program, for instance, has not been 
adjusted for inflation in its history and yet is of proven benefit.
    The issues involved lay equally on the doorsteps of both FEMA and 
Congress. FEMA has taken strides to identify a new strategy and 
doctrine. However, FEMA neither truly consulted with state and local 
stakeholders on the scale needed, nor have they fully implemented these 
strategies and doctrines.
    Congress has long pushed of fiscal efficiency within FEMA, in 
effect forcing new procedures designed to do more with less. 
Critically, the emphasis on fiscal efficiency has come at the expense 
of public safety effectiveness. The loss of what effectiveness there 
was in the past (and it was limited at times) is coupled with a failure 
to develop new processes to achieve effectiveness. FEMA, then, has more 
and more tended to stress efficiency and fail to achieve effectiveness.
    A telling example can be seen in the management of reimbursements 
to states and locals post disaster under the Public Assistance program. 
Following various disasters in the early 2000's and the new laws which 
followed, FEMA made major changes in finance resource management in 
order to become more fiscally efficient.
    Prior to this, FEMA would establish a Finance operation within the 
Joint Field Offices established following a disaster. This Finance 
branch would review and process Project Worksheets near the area of the 
disaster--working only on that specific set of incidents, gaining local 
understanding and situational awareness. They would then obligate 
funds.
    Admittedly many aspects of the old JFO set-up were inefficient and 
ineffective--bloated to some extent and in need of reform. In the name 
of fiscal efficiency FEMA has now established a few (three, to the best 
of my understanding) Consolidated Resource Centers (CRCs) which handle 
all of the Project Worksheet financial issues and fund obligation for 
all disasters nationwide. These CRCs are unable to handle the sheer 
volume of work. They cannot scale up or down based on the need of an 
individual disaster. They have limited or no understanding of the 
situation on the ground in the area they are administering. PA fund 
obligations are now trending to 12 months delay.
    While arguably fiscally efficient, they are totally ineffective. 
They fly in the face of FEMA's own doctrine in that they lack 
situational awareness. The delays result in local hardship and 
exacerbate the impact of disasters.

    Question 7.a. Can you compare IAEM's experience regarding 
engagement from FEMA as it implements DRRA with FEMA's engagegment 
during implementation of the Sandy Recovery Improvement Act and the 
Post-Katrina Emergency Management Reform Act?
    Where do you see the greatest opportunities for improvement?
    Answer. There is always room for improvement in regards to 
coordination during the drafting stages of new policies. Providing more 
opportunity for substantive and ongoing feedback would improve the 
final product and make for better public policy.

    Question 7.b. Why do you think things are so different with DRRA?
    Answer. DRRA has a lot of fundamental reforms that they are trying 
to implement quickly. This may be the difference. However, I would 
imagine that if FEMA publicized a policy review cycle that showed it 
taking time BECAUSE they were engaging with stakeholders, Congress 
would be ok with this.

    Question 8.a. There was discussion in Ms. Merick's testimony 
regarding formal state-level disaster assistance programs, but those 
programs being limited to less than half of the nation. The previous 
administration began a conversation about a disaster deductible concept 
that would have provided additional federal cost-share for states that 
undertook certain pre-disaster planning and actions like establishing 
state-level public and individual assistance programs.
    Now that DRRA has been enacted, are IAEM's members already 
examining any additional enhancements to federal disaster response and 
recovery programs?
    Answer. IAEM has not yet initiated a process to gather and vet 
additional enhancements to federal disaster response and recovery 
programs. In the short-term, we will be focused on effective 
implementation of DRRA.

    Question 9. We've heard for years from emergency managers about the 
importance of having a plan and a kit in order to build individual 
resilience. Given the magnitude of the higher-profile wildfires, 
hurricanes, floods, and tornadoes that we've seen, as well as the 
current demands on FEMA's personnel, do you believe that Americans--now 
more than ever--need to be more individually resilient?
    Answer. Yes--We continue to see an increase of disasters on all 
levels. Often impacting many municipalities and jurisdictions at the 
same time. As such this requires Americans to be able to help 
themselves as well their neighbors in the short term until local, 
state, and federal assistance can arrive. Resources are continually 
stretched thin, meaning for Americans they must be more resilient when 
disaster strikes.

    Question 9.a. Are emergency managers at all levels of government 
stretched too thin?
    Answer. Yes--many smaller counties and municipalities emergency 
management programs continue to function as a part time or one-person 
agency. Thus, at best they are able to meet only the minimal standards 
for planning and preparedness and unable to provide the extra planning, 
training and exercises needed to make a community truly prepared for a 
disaster. Emergency Managers across all levels to include traditional 
and non-traditional emergency management (such as health, hospitals and 
others) programs are unable to build to the level needed. State and 
federal emergency management programs continue to come short in their 
efforts to provide the assistance and resources needed for local 
programs due to staffing and funding shortfalls.

    Question 9.b. Are existing recoveries taking too long?
    Answer. Recovery time lines are extremely challenging to gauge and 
establish appropriate recovery time for disaster. Each disaster brings 
a unique set of circumstances and issues. However, recovery never moves 
as fast as communities wish it to and often will happen quicker when a 
community and its residents are better prepared, have a stronger local 
program, and access to the tools and means needed to recover.

    Question 9.c. Or are there adequate resources at non-federal levels 
to manage responses and recoveries?
    Answer. No--there are not adequate resources (to include personnel, 
equipment, programs). Resources at the non-federal level vary greatly 
from community to community. Larger communities often have more 
resources available (but not necessary enough) then a smaller remote 
community. Overall across the United States more resources would be of 
a great benefit as well as the growth of local emergency management 
programs to identify those resources, manage them and communicate them 
to its respective citizens.

    Question 10.a. The scope of several recent disasters has made clear 
the challenges with housing for disaster survivors.
    Given the experiences you've had with managing disasters, as well 
as the perspectives of your organizations' members, is there more that 
Congress can be doing when it comes to providing greater clarity or 
authorities to FEMA to ensure that disaster housing missions are less 
complicated for FEMA and state partners to execute?
    Answer. (This question was answered by Mistie Gardner, CEM, City of 
Richardson, Texas. She worked on a housing-related deployment during 
Hurricane Harvey.)
    Based on my experiences and feedback from those who have been 
impacted, the following are improvements that could be made to the 
disaster housing missions:
    1.  Make Emergency Management partners part of the ``right to 
know'' when it comes to the FEMA database for housing information. If 
we know to whom FEMA is providing assistance, we can partner families 
with other services and nonprofits available so that their assistance 
can be multifaceted. This could easily be done if a checkbox was added 
to FEMA registration paperwork giving the registrant the opportunity to 
allow the information to be shared with local emergency management 
agencies.
    2.  Simplify and expedite the process for both short- and long-term 
housing options. This would include application processing, 
inspections, use and prioritization of funding. Current processes are 
too long and cumbersome. The ability of a resident to successfully 
navigate through available programs is difficult at best. Also, 
investigators do not cover areas that need to be covered such as mutli-
family rental units. This is often overlooked but represents an 
underserved population which have a great impact to a community's 
recovery.
    3.  Congress could work with FEMA to better align the multiple 
federal agencies from the GLO, HUD, USDA, FEMA and others who offer 
disaster assistance. Reorganize the Temporary Shelter Program and long-
term housing options to keep residents closer to impacted areas. 
Numerous stories exist of displaced residents who were moved great 
distances from their residence and end up becoming homeless due to 
being so far removed from their support system.
    4.  Work with current limitations on grants that allow for funds to 
be used for rebuilding multi-family homes with a changed requirement 
for the number of units made available to families and reduce the 
current AMI requirement (Area Median Income) from 80% to 30% as studies 
have indicated this would have a significant impact.
    5.  If FEMA places residents in a short-term housing environment, 
that assistance needs to come with a debit card or cash provisions for 
food, transportation and minor medical care that would traditionally be 
provided in the shelters. Without that, it puts the survivors at a 
disadvantage, as well as the community that they choose to rent the 
hotel in. Many times the communities with the hotels were unimpacted by 
the disaster but find themselves caught off guard when they suddenly 
need to provide these support services to TSA participants in their 
communities.
    6.  Assign a case manager immediately that the survivors 
participating in the program can call for regular updates about their 
home communities and when they might return or how to walk through the 
next bureaucratic steps. The survivors that qualify for this type of 
assistance have lower socioeconomic status and usually have fewer 
resources and limited knowledge to access this information. The TSA 
program is extremely attractive to survivors that have exhausted their 
resources and want to provide greater safety and comfort for their 
family than a congregate

    Question 10.b. Do you feel that FEMA's housing assistance fails to 
take into consideration the most vulnerable communities impacted by 
disaster, such as homeless and low-income individuals and families?
    If so, do you believe that FEMA should have more direction or 
clearer authorities to provide more help than it does now to these 
often overlooked survivors?
    Answer. Yes.
    The most problematic issue is with the process itself and the 
prioritization of funding. Most families affected by disaster who will 
seek aid are those with limited means or income as they cannot afford 
insurance. Their properties are either deemed to not qualify for 
assistance or they are made to go through a lengthy process to seek aid 
which is considered quite difficult. The step of having low income 
families go through a loan process, albeit a low interest loan, only 
compounds a difficult situation. They have lost most of their 
belongings and are now meant to get a loan to replace what little they 
had with an income that is already stretched. The damage assessment 
that is often done does not accurately reflect their loss putting them 
at even a greater disadvantage. There is limited recourse for renters 
or people in multi-housing units. Although renters can qualify for SBA 
loans, thus compounding the problem, there are limited options in most 
cases.
    Another large issue is the funding and management and/or 
prioritization of the funds themselves. Other federal agencies could 
allocate and prioritize funding for housing solutions regarding low-
income, homeless and ADA families. Right now, Community Develop Block 
Grants are one of the few sources of funding for long-term housing. 
Without permanent housing assistance being made available, the recovery 
effort slows down dramatically. Multi-housing units are often 
overlooked, as mentioned above, which does not allow for low-income, 
ADA or homeless families who were renting to find a safe, suitable or 
affordable housing option. Without multi-family housing units, the 
entire community suffers. Additionally, inadequate housing to include 
multi-family units means a smaller workforce or having to outsource 
thus slowing down the recovery process even further.

 Questions from Hon. Dina Titus to Hon. James Gore, Supervisor, Sonoma 
 County, California, on behalf of the National Association of Counties

    Question 1.a. Section 1215 of the Disaster Recovery Reform Act 
amends Stafford Act Section 324--Management Costs--to place a cap on 
any direct administrative cost, and any other administrative associated 
expense, of not more than 12 percent of the total award amount provided 
under Sections 403, 406, 407, and 502 of the Stafford Act. The 12 
percent cap is to be divided between the primary grantee and sub-
grantees with the primary grantee receiving not more than seven 
percent, and sub-grantees receiving not more than five percent of the 
total award amount.
    How has placing a cap on the management costs for Stafford Act 
programs affected the states' ability to manage Stafford Act program 
funding?
    Answer.
Sonoma County Response:
    The expansion of the cap for locals from 3 to 5% has been welcome. 
However, the complexity of the FEMA PA process has also risen 
significantly. The complexity is increasingly used as a de facto 
``brake'' to discourage local government participation and reduce PA 
reimbursement.

    Question 2.a. Members of both parties have urged a significant 
investment in our nation's infrastructure for some time. FEMA's data 
that more than two-thirds of hazard-prone communities are on older 
building codes, means that, absent minimum standards, the safety and 
resilience requirements for federally supported infrastructure 
investments would vary considerably. Bipartisan former FEMA 
Administrators James Lee Witt and David Paulison recently penned an op-
ed (http://bit.ly/2WKf2iV) urging that infrastructure investment 
require adherence to the latest building codes and standards, which I'd 
like to submit for the record.
    Would NACo support a requirement that legislation to modernize our 
nation's infrastructure--our schools, hospitals, airports, public 
housing, and other public amenities--be built to the latest consensus-
based building codes?
    Answer.
Sonoma County Response:
    Sonoma County concurs FEMA 2018-2022 Strategic Plan states that 
``[d]isaster resilience starts with building codes, because they 
enhance public safety and property protection.'' The Plan also calls 
for straightforward processes and policies for staff and improvements 
in FEMA's stewardship of Federal taxpayer dollars. FEMA's Public 
Assistance Program, to rebuild public facilities post disaster, 
generally requires applicants incorporate the latest hazard resistant 
measures in up to date building codes. Coordinating codes and standards 
policy across FEMA's programs (Individual Assistance, Public 
Assistance, and Hazard Mitigation) could protect Federal taxpayer 
investments in disaster recovery and hazard mitigation programs.
NACo Response:
    DHS, Congress, and other relevant federal agencies must strengthen 
efforts to provide funding to state and local governments to protect 
and make more resilient our national critical infrastructure and 
subsequently our national economy. The federal government must also 
accelerate steps to fully integrate the full range of federal efforts 
with the local, state, and private sectors and assure that the actual 
protection of critical infrastructure systems remains a primary 
responsibility of local and state governments with the private sector. 
The federal government must support these requirements withadequate 
federal resources and policy.

    Question 3.a. FEMA's 2018-2022 Strategic Plan states that 
``[d]isaster resilience starts with building codes, because they 
enhance public safety and property protection.'' The Plan also calls 
for straightforward processes and policies for staff and improvements 
in FEMA's stewardship of Federal taxpayer dollars. FEMA's Public 
Assistance Program to rebuild public facilities post disaster generally 
requires applicants incorporate the latest hazard resistant measures in 
up to date building codes. Coordinating codes and standards policy 
across FEMA's programs (Individual Assistance, Public Assistance, and 
Hazard Mitigation) could protect Federal taxpayer investments in 
disaster recovery and hazard mitigation programs.
    Is that something FEMA should consider?
    Question 3.b. For example, should the Agency consider applying its 
Public Assistance codes and standards minimum where the Agency is 
funding permanent housing construction through its Individual 
Assistance program?
    Answers (3.a.-3.b.).
Sonoma County Response:
    Sonoma County is supportive of FEMA considering this requirement.

    Question 3.c. Should FEMA consider requiring work performed using 
funding made available pursuant to a Stafford Act declaration, 
including Public Assistance, Individual Assistance, and Hazard 
Mitigation Assistance, to be built at a minimum to the most current 
codes set by the International Code Council, referred to as the ``I-
Codes''?
    Answer.
Sonoma County Response:
    Sonoma County local building codes comply with State codes which 
originate from the I-Codes or ICC requirements.
    It may be difficult to enforce more stringent codes during 
rebuilding--either public infrastructure or private repair/
reconstruction. Some local officials may not be familiar with the new 
code standards and could delay rebuilding.
NACo Response:
    NACo would like to emphasize that not all counties have the same 
powers when it comes to building and land use regulatory authority for 
adoption and enforcement. NACo supports the automatic incorporation of 
resilient building codes and other mitigation measures into the scopes 
of work for Public Assistance, Individual Assistance and mitigation 
projects, even if the county is unable to adopt or enforce such codes 
and regulations countywide. According to a 2019 Survey conducted by 
NACo, 22 percent of county respondents indicate that they do not 
regulate land use and 24 percent indicate that they do not regulate 
buildings codes. Correspondingly, six percent of counties report that 
they are not legally allowed to regulate local land use per state law 
and eight percent report that they are not legally allowed to regulate 
local building codes per state law.

    Question 4.a. Can you compare NACo's experience regarding 
engagement from FEMA as it implements DRRA with FEMA's engagegment 
during implementation of the Sandy Recovery Improvement Act and the 
Post-Katrina Emergency Management Reform Act?
    Where do you see the greatest opportunities for improvement?
    Answer.
NACo Response:
    NACo supports quick implementation of DRRA reforms. While we 
recognize that FEMA is working through one of the largest cumulative 
disaster recovery efforts this nation has experienced, it is also 
working through one of the largest agency reform efforts. All without 
additional staff and operational resources. However, this is a familiar 
situation, as major disaster management reform legislation has been 
passed as a result catastrophic disaster. This requires FEMA to 
essentially ``rebuild the plane, while flying it through a hurricane''. 
NACo urges FEMA to leverage existing programs and pilot program efforts 
to expedite implementation of DRRA reforms. FEMA can manage the 
implementation this way, while also continuing to engage with 
stakeholders identify focused corrections to address programmatic 
problems, instead of reinventing entire programs, such as the Pre-
Disaster Mitigation Program.

    Question 4.b. Why do you think things are so different with DRRA?
    Answer.
NACo Response:
    DRRA was significantly larger in scope and impact than the Sandy 
Recovery Improvement Act.

    Question 5.a. There was discussion in Ms. Merick's testimony 
regarding formal state-level disaster assistance programs, but those 
programs being limited to less than half of the nation. The previous 
administration began a conversation about a disaster deductible concept 
that would have provided additional federal cost-share for states that 
undertook certain pre-disaster planning and actions like establishing 
state-level public and individual assistance programs.
    Now that DRRA has been enacted, are NACo's members already 
examining any additional enhancements to federal disaster response and 
recovery programs?
    Answer.
NACo Response:
    Yes, NACo members are considering the following positions regarding 
additional disaster management reforms:
    <bullet>  Reduce Unnecessary Burdens on Public Assistance to 
Counties Following Presidential Declarations
    <bullet>  Improve coordination with local governments as part of 
FEMA's After-Action Report development process.
    <bullet>  Clarify FEMA Debris Removal Guidelines for Private 
Roadways and Gated Communities
    <bullet>  Conduct an assessment and develop an improvement plan for 
FEMA's Individual Assistance Program
    <bullet>  Expand engagement with counties regarding the 
implementation of emergency management strategic goals
    <bullet>  Improve FEMA transparency and establish deadlines for 
FEMA's decision-making regarding approval of recovery projects and 
awards association with mitigation grants.

    Question 6. We've heard for years from emergency managers about the 
importance of having a plan and a kit in order to build individual 
resilience. Given the magnitude of the higher-profile wildfires, 
hurricanes, floods, and tornadoes that we've seen, as well as the 
current demands on FEMA's personnel, do you believe that Americans--now 
more than ever--need to be more individually resilient?
    Answer.
Sonoma County Response:
    Absolutely--the frequency, scope and impacts of natural (ex. flood) 
and man-made hazards (ex. cyber) continue to increase.

    Question 6.a. Are emergency managers at all levels of government 
stretched too thin?
    Answer.
Sonoma County Response:
    Yes--originally intended to serve as an extension of public safety, 
emergency management is increasingly being asked to address more 
significant public policy and financial issues as well as addressing 
the expanding scope of disaster preparedness and response services. The 
public expectations of government services--especially post-disaster--
has ballooned in recent years. For example, emergency managers are 
wrestling with the public's expectations for emergency alert and 
warning systems and products. These demands exceed local government 
funding capabilities and even the federal Emergency Management 
Performance Grant is not keeping up.
NACo Response:
    Over the past 20 years, natural and man-made disasters have 
increased in frequency, severity and cost. On average, 24 percent of 
counties have experienced at least one disaster in each of the last 
three years. The past three hurricane and wildfire seasons have 
included six hurricanes that cost a combined $330 billion in damages 
and eight wildfires causing over $40 billion in damages. Over the last 
decade, most counties have received a major disaster declaration, with 
many receiving more than one over that time frame. In fact, just last 
year, 570 counties (19 percent of counties) received at least one major 
disaster declaration. The previous year, 815 (27 percent of counties) 
counties received a major disaster declaration.
    However, state and local emergency managers are dealing with much 
more than the federally declared disasters. On top of the major events, 
states and locals managed 23,331 incidents last year without requiring 
Federal assistance. The federal program that serves as the foundation 
for building and maintaining emergency management capabilities at the 
local level is the National Preparedness System, and specifically the 
Emergency Management Performance Grant program, or EPMG, which, over 
the last decade, has become pivotal pillars of support for efficient 
and effective emergency management at the local level. However, for 
nearly a decade, the EMPG program has remained steady at $350,000,000 
per year while inflationary costs have risen, eroding the fund.

    Question 6.b. Are existing recoveries taking too long?
    Answer.
Sonoma County Response:
    Yes, due to increased complexity of rebuilding and finance 
programs. This is resulting in disaster recovery fatigue and 
overlapping disasters in many communities.

    Question 6.c. Or are there adequate resources at non-federal levels 
to manage responses and recoveries?
    Answer.
NACo Response:
    No, not for major events that rise to the status of federal 
declarations.

    Question 7.a. The scope of several recent disasters has made clear 
the challenges with housing for disaster survivors.
    Given the experiences you've had with managing disasters, as well 
as the perspectives of your organizations' members, is there more that 
Congress can be doing when it comes to providing greater clarity or 
authorities to FEMA to ensure that disaster housing missions are less 
complicated for FEMA and state partners to execute?
    Answer.
Sonoma County Response:
    Yes, block grants with local control over solutions would enable 
faster and more response housing services.
    FEMA needs a greater on-going support mission during events. Sonoma 
County was consistently asking for information and guidance and it 
would often take months to get a meaningful response (and this was 
typically ``too late'' at that point). I believe that the main reason 
is that FEMA had many more events to address over the last two years 
that is typical. This is likely to remain going forward.

    Question 7.b. Do you feel that FEMA's housing assistance fails to 
take into consideration the most vulnerable communities impacted by 
disaster, such as homeless and low-income individuals and families?
    Answer.
Sonoma County Response:
    FEMA's housing assistance doesn't seem to take into account housing 
shortages or high construction cost for renters which are typically the 
low-income households (though not always). Rebuilding affordable rental 
housing takes multiple years, not months. One solution could be longer 
term FEMA Direct Housing. 18 months is simply not long enough and it 
with the most vulnerable populations, their only move out solution is 
commonly becoming precariously housed on someone's sofa.

    If so, do you believe that FEMA should have more direction or 
clearer authorities to provide more help than it does now to these 
often overlooked survivors?
    Answer.
NACo Response:
    Yes, but also FEMA HQ needs to improve the level of experience of 
field personnel that are working directly with survivors. FEMA HQ 
should empower FEMA Regions and disaster recovery staff to accurately 
interpret policy and make the programs work for the people that are in 
need. The focus should be finding ways to help people, rather than 
creating obstacles that impede access to assistance.

  Questions from Hon. Dina Titus to Alphonse Davis, Deputy Director, 
  Texas A&M Engineering Extension Service, on behalf of the National 
                    Domestic Preparedness Consortium

    Question 1.a. We heard a fair amount at the hearing from FEMA and 
the representatives from NEMA and IAEM about the many changes that have 
or will be taking place with FEMA's recovery programs as a result of 
DRRA.
    Can you discuss some of the ever-evolving needs that are being 
presented to the Domestic Preparedness Consortium as laws like the DRRA 
and the Sandy Recovery Improvement Act are implemented?
    Answer. As new laws such as the DRRA and the Sandy Recovery 
Improvement Act are enacted, members of the NDPC have been presented 
with needs from multiple sources, including the NDPC SAA Advisory 
Council, our federal partners at DHS and FEMA, state and local 
community members including training participants, as well as 
professional associations such as IAFC, IACP, NEMA, and IAEM. We meet 
regularly with our SAA Advisory Council and with FEMA to discuss 
identified and potential needs and work together to identify the best 
training solution to fill the need. We also reach out to our subject 
matter professionals, instructors, and the first responders we've 
trained in these impacted communities to gather information about 
training needs. Through these ongoing collaborative efforts and our 
deliberate methods of collecting and analyzing feedback, some of the 
national level needs that have been identified and/or presented to the 
NDPC in relation to recovery include gaps identified in knowledge and 
skills on the following topical areas:

    <bullet>  new/changed regulations and impacts associated on 
communities;
    <bullet>  federal resources and eligibility for assistance and the 
processes and systems necessary to access these resources;
    <bullet>  roles and responsibilities of senior and elected 
officials in planning for and leading recovery effort;
    <bullet>  strengthening resilience by building recovery in to 
emergency operations plans and developing partnerships to share 
resources regionally;
    <bullet>  conducting effective damage assessments;
    <bullet>  managing debris that results from catastrophic event 
(debris management);
    <bullet>  housing and economic recovery challenges and associated 
federal, state, local and private resources;
    <bullet>  information risk management and recovery from 
cybersecurity incidents;
    <bullet>  federal counter UAS resources available, request for 
assistance process including limitations, and education on legal UAS 
enforcement options for SLTT first responders; and
    <bullet>  delivery of additional targeted training based on needs 
and requirements.

    In response to the identification of these and other evolving 
needs, members of the NDPC, including the University of Hawaii's 
National Disaster Preparedness Training Center, have developed and 
implemented FEMA certified training courses on damage assessment, 
debris management, disaster recovery and small business resilience, and 
have delivered these courses to affected communities. In addition, 
where new or changed regulations apply to a broad range of topics that 
impact existing courses, members of the NDPC will revise previously 
certified courses to ensure the course content is up to date with 
regulatory changes as applicable.

    Question 1.b. Is there more that Congress should be doing on the 
training side as it considers future Stafford Act-related statutory 
changes?
    Answer. The most significant challenge in implementing new 
statutory regulation is increasing the capabilities of state and local 
governments to effectively plan and implement disaster response and 
recovery programs. The members of the NDPC recommend the 
reauthorization of funding for the Homeland Security National Training 
Program that supports training for state, local, tribal and territorial 
(SLTT) communities on emergency management and disaster preparedness, 
response and recovery. In addition, we recommend that Congress 
recognize that the release of statutory changes results in a national 
surge in training needs specifically to educate those SLTT communities 
on the changes and that Congress consider adequately funding the 
efforts necessary to conduct that training.

    Question 1.c. Do you feel confident that NDPC training will keep 
non-federal emergency managers up-to-date in their ability to navigate 
FEMA's evolving programs?
    Answer. While the NDPC's training role in the National Preparedness 
System is much broader than training emergency managers, we are 
confident that the NDPC, as a part of the FEMA National Training and 
Education System (NTES), including FEMA training partners the Rural 
Domestic Preparedness Consortium (RDPC), National Cybersecurity 
Preparedness Consortium (NCPC), Emergency Management Institute (EMI) 
and Center for Domestic Preparedness (CDP), has the capability, 
expertise and infrastructure to develop and deliver training that will 
keep non-federal emergency managers up-to-date on FEMA's evolving 
programs. The NDPC is congressionally mandated to identify, develop, 
test and deliver training to the whole community in support of 
achieving the National Preparedness Goal, however, we are limited in 
our financial operational capacity to fully meet the current training 
demands for all SLTT communities, which includes training for non-
federal emergency managers on FEMA programs. With additional funding 
that leverages the existing NDPC capabilities the number of training 
deliveries could be increased to more effectively reach all non-
emergency managers in a timely manner while continuing to meet the 
current congressional mandate.

    Question 2.a. We understand that the NDPC was able to leverage a 
disaster recovery grant from the Economic Development Administration 
(EDA)--another agency that falls under this subcommittee's purview--to 
establish a pilot program to better train recovery officials.
    Can you please share any additional insights from that pilot?
    Answer. In April 2019 NDPC member the Texas A&M Engineering 
Extension Service (TEEX) National Emergency Response and Recovery 
Training Center (NERRTC) was awarded a grant from the Economic 
Development Administration (EDA) for $280,000 with TEEX providing a 
match of 25%, making the total project $350,000 for disaster recovery 
training. The sponsored training is directed at EDA Region VI--Texas, 
Louisiana, Arkansas, Oklahoma, and New Mexico in areas that have had 
Federal Disaster Declarations in 2017 or later. Through this grant TEEX 
will conduct training to 41 communities affected by FEMA-declared 
disasters of 2017 in the five-state area of the EDA Austin Regional 
Office. Trained facilitators will deliver two face-to-face courses 
(Disaster Recovery for Senor Officials and Disaster Recovery Public 
Assistance Programs), which, when possible, will be delivered 
concurrently on-site in the disaster-affected community. TEEX also has 
an online Disaster Recovery Awareness course that is available for any 
student to take.
    An overview of the courses follows:

    <bullet>  Disaster Recovery for Senior Officials: This course will 
provide senior leaders with the information to help them lead and make 
key decision that will assist communities and businesses to prepare for 
and recover from disasters.
    <bullet>  Disaster Recovery Public Assistance Programs: This course 
will provide front line jurisdiction staff with information on how to 
apply for funding assistance and successfully administrate recovery 
assistance programs that provide the funds to help communities prepare 
for and recover from disasters.
    <bullet>  On-line Disaster Recovery Awareness: This web-based 
course will provide information for all community members to improve 
their understanding of available recovery resources to improve 
resilience and participate in pre-disaster recovery planning.

    Questions from Hon. Dina Titus to Pamela S. Williams, Executive 
                    Director, BuildStrong Coalition

    Question 1.a. Members of both parties have urged a significant 
investment in our nation's infrastructure for some time. FEMA's data 
that more than two-thirds of hazard-prone communities are on older 
building codes, means that, absent minimum standards, the safety and 
resilience requirements for federally supported infrastructure 
investments would vary considerably. Bipartisan former FEMA 
Administrators James Lee Witt and David Paulison recently penned an op-
ed (http://bit.ly/2WKf2iV) urging that infrastructure investment 
require adherence to the latest building codes and standards, which I'd 
like to submit for the record.
    Would the Build Strong Coalition support a requirement that 
legislation to modernize our nation's infrastructure--our schools, 
hospitals, airports, public housing, and other public amenities--be 
built to the latest consensus-based building codes?
    Answer. Response was not received at the time of publication.

    Question 2.a. FEMA's 2018-2022 Strategic Plan states that 
``[d]isaster resilience starts with building codes, because they 
enhance public safety and property protection.'' The Plan also calls 
for straightforward processes and policies for staff and improvements 
in FEMA's stewardship of Federal taxpayer dollars. FEMA's Public 
Assistance Program to rebuild public facilities post disaster generally 
requires applicants incorporate the latest hazard resistant measures in 
up to date building codes. Coordinating codes and standards policy 
across FEMA's programs (Individual Assistance, Public Assistance, and 
Hazard Mitigation) could protect Federal taxpayer investments in 
disaster recovery and hazard mitigation programs.
    Is that something FEMA should consider?
    Answer. Response was not received at the time of publication.

    Question 2.b. For example, should the Agency consider applying its 
Public Assistance codes and standards minimum where the Agency is 
funding permanent housing construction through its Individual 
Assistance program?
    Answer. Response was not received at the time of publication.

    Question 2.c. Should FEMA consider requiring work performed using 
funding made available pursuant to a Stafford Act declaration, 
including Public Assistance, Individual Assistance, and Hazard 
Mitigation Assistance, to be built at a minimum to the most current 
codes set by the International Code Council, referred to as the ``I-
Codes''?
    Answer. Response was not received at the time of publication.

    Question 3. Does the Build Strong Coalition have any response to 
the testimony provided by Mr. Noel on behalf of the National 
Association of Home Builders?
    Answer. Response was not received at the time of publication.

    Question 4. We've heard for years from emergency managers about the 
importance of having a plan and a kit in order to build individual 
resilience. Given the magnitude of the higher-profile wildfires, 
hurricanes, floods, and tornadoes that we've seen, as well as the 
current demands on FEMA's personnel, do you believe that Americans--now 
more than ever--need to be more individually resilient?
    Answer. Response was not received at the time of publication.

    Question 4.a. Are emergency managers at all levels of government 
stretched too thin?
    Answer. Response was not received at the time of publication.

    Question 4.b. Are existing recoveries taking too long?
    Answer. Response was not received at the time of publication.

    Question 4.c. Or are there adequate resources at non-federal levels 
to manage responses and recoveries?
    Answer. Response was not received at the time of publication.

Questions from Hon. Dina Titus to Randy Noel, M.I.R.M., C.G.B., C.M.P., 
  President, Reve Inc., on behalf of the National Association of Home 
                                Builders

    Question 1.a. Members of both parties have urged a significant 
investment in our nation's infrastructure for some time. FEMA's data 
that more than two-thirds of hazard-prone communities are on older 
building codes, means that, absent minimum standards, the safety and 
resilience requirements for federally supported infrastructure 
investments would vary considerably. Bipartisan former FEMA 
Administrators James Lee Witt and David Paulison recently penned an op-
ed (http://bit.ly/2WKf2iV) urging that infrastructure investment 
require adherence to the latest building codes and standards, which I'd 
like to submit for the record.
    Would the National Association of Home Builders support a 
requirement that legislation to modernize our nation's infrastructure--
our schools, hospitals, airports, public housing, and other public 
amenities--be built to the latest consensus-based building codes?
    Answer. The National Association of Home Builders represents more 
than 140,000 members who are involved in land development and building 
single-family and multifamily housing, remodeling, and other aspects of 
residential and light commercial construction. Our members typically 
are not involved in building schools, hospitals, airports, or other 
public buildings and infrastructure. However, NAHB recognizes the 
important role building codes play in ensuring our buildings are safe, 
resilient, affordable, and marketable. We have long been a supporter of 
the development and implementation of reasonable, practical, and cost-
effective building codes and standards. While we understand that it is 
the federal government's prerogative to establish codes and standards 
for the public infrastructure and federal buildings it constructs, 
Congress must provide flexibility.
    Consensus-based building codes are developed at a national level 
and cannot always accommodate the differing risks, building practices, 
geographic conditions, and other needs of communities across the 
country. Also, in the implementation of specific provisions in the 
model building codes, conflicts between code provisions or issues of 
non-uniform interpretation and enforcement are discovered. Therefore, 
the model building codes have always been intended to be amended at the 
time of state and local adoption. Because of these differences and 
discrepancies, it makes little sense to blindly apply one version of 
the model building codes. To do so would result in overbuilding, 
bureaucratic tangles, and excess costs at taxpayer expense.
    Instead, in determining which building code must be followed for 
these public facilities and federal buildings, FEMA should first look 
to the building code adopted by the state or locality in which the 
structure is to be constructed. State and local governments are in the 
best position to determine the risks and challenges their citizens and 
communities face and follow code adoption, implementation, and 
enforcement processes that reflect their available resources and needs. 
If, after examining current codes and standards, FEMA identifies 
specific additional practices that should be followed, it may require 
such compliance as part of program guidance. An example would be 
requiring all FEMA-funded storm shelters (safe rooms) to be designed 
for a 250 mile per hour tornado wind speed, even in areas at lower risk 
of an EF4 or EF5 tornado.
    Congress and FEMA must also make sure efforts to modernize public 
buildings and infrastructure do not impose disproportionate impacts on 
the private sector, including the housing sector. Initiatives and 
incentives to get states and local governments to update their codes 
for public buildings and infrastructure should not be used a stick to 
force those states and local governments to undertake activities that 
increase the cost of housing, limit design flexibility and 
reducehousing affordability for their residents.

    Question 2.a. FEMA's 2018-2022 Strategic Plan states that 
``[d]isaster resilience starts with building codes, because they 
enhance public safety and property protection.'' The Plan also calls 
for straightforward processes and policies for staff and improvements 
in FEMA's stewardship of Federal taxpayer dollars. FEMA's Public 
Assistance Program to rebuild public facilities post disaster generally 
requires applicants incorporate the latest hazard resistant measures in 
up to date building codes. Coordinating codes and standards policy 
across FEMA's programs (Individual Assistance, Public Assistance, and 
Hazard Mitigation) could protect Federal taxpayer investments in 
disaster recovery and hazard mitigation programs.
    Is that something FEMA should consider?
    Question 2.b. For example, should the Agency consider applying its 
Public Assistance codes and standards minimum where the Agency is 
funding permanent housing construction through its Individual 
Assistance program?
    Question 2.c. Should FEMA consider requiring work performed using 
funding made available pursuant to a Stafford Act declaration, 
including Public Assistance, Individual Assistance, and Hazard 
Mitigation Assistance, to be built at a minimum to the most current 
codes set by the International Code Council, referred to as the ``I-
Codes''?
    Answers (2.a.-2.c.). While coordinating codes and standards policy 
across FEMA's program would appear to provide benefits by creating 
standardized expectations and reducing confusion, because the different 
programs address different types of structures located in different 
areas of the country, doing so would not be as simple or meaningful as 
suggested. Coordinating codes and standards policy across FEMA's 
programs is strongly discouraged.
    NAHB understands the interest in ensuring that federal dollars are 
spent wisely, and we share that goal. However, because modern building 
codes have repeatedly proven to be resilient, it is not clear that 
substantial resiliency protections or benefits are gained by following 
the latest hazard resistant measures. First, ``the latest hazard 
resistant measures'' is not defined. Second, absent a definition, the 
interpretation and application of this term could be limitless and 
compel projects to incorporate design requirements that are not 
appropriate or cost-effective. Building codes cover an array of 
building systems, components, and techniques. Many of these elements 
are for basic structural soundness and occupant safety, while others 
are aimed at specific conditions or hazards, such as high wind areas or 
earthquake zones. Still others are politically- and product-driven, 
such as energy codes that mandate specific insulation methods, HVAC 
systems or other products that are not cost effective for most 
consumers or resource-based such as aggressive standards that restrict 
water use even in areas with abundant water resources. Although many of 
the model codes include these types of provisions, they are often 
amended out at the state or local level because they are unnecessary, 
too burdensome or too costly. That same opportunity must be provided 
throughout the implementation of the Individual Assistance, Public 
Assistance, and Hazard Mitigation programs. If a code provision is 
unnecessary, too burdensome or too costly, it should not somehow become 
workable simply because the federal government is footing the bill.
    Finally, many assume that structures built following a newer 
version of a code are more resilient than those built to older 
versions, but that is not necessarily the case. The number of 
structural code changes incorporated into new editions of the I-Codes 
that dramatically impact structural reliability and occupant life 
safety have greatly diminished in the past several editions. In fact, 
many studies have shown that structures built following any edition of 
the I-Codes have performed well in hurricanes and earthquakes. 
Recognizing these results, Congress should refocus its efforts away 
from new construction and toward improving the older homes, structures, 
and infrastructure that have been shown to be less resilient to natural 
disasters. To do so, it is urged to provide tax credits, grants, and 
other incentives to offset the costs associated with the mitigation 
activities needed to make the existing housing stock, public 
facilities, and infrastructure safer and more resilient.

   Questions from Hon. Mark Meadows to Randy Noel, M.I.R.M., C.G.B., 
C.M.P., President, Reve Inc., on behalf of the National Association of 
                             Home Builders

    Question 1. Mitigation and updated building codes have been shown 
to reduce risk and costs post-disaster. Yet risk varies depending on 
where a person lives. Coastal communities and upland communities have 
different needs, as do urban, suburban, and rural areas. How do we 
ensure building codes reflect those variations to strike a proper 
balance?
    Answer. The best way to ensure that building codes reflect 
variations is to rely on the expertise and experience of the state and 
local jurisdictions. State and local governments play a key role in the 
code adoption process and determining the value of and need for certain 
code requirements. For decades, state and local governments have been 
responsible for evaluating each new edition of the consensus-based 
model building codes and determining which provisions are applicable 
within their borders. This is done after a thorough consideration of 
risks, costs, technology, and resources, among other factors. Some 
states make few changes to the model codes, others handpick the 
provisions and/or amend certain requirements, and others use the model 
code as a baseline to create their own state-specific code. Under this 
rubric, Nevada is free to identify the risks it faces and adopt the 
codes that are best suited to its locale, geography and economic 
conditions, while North Carolina can do the same for itself. In fact, 
the model codes are intended to be tailored and amendments have been 
made to nearly every code that has been adopted at the state or local 
level, whether those amendments apply to only the administrative 
requirements or constitute a major rewrite of the entire document.

                                    
</pre></body></html>
